<html>
<title> - NATO ENLARGEMENT: QUALIFICATIONS AND CONTRIBUTIONS</title>
<body><pre>[Senate Hearing 108-180]
[From the U.S. Government Printing Office]


 
                                                       S. Hrg. 108-180
 
     NATO ENLARGEMENT: QUALIFICATIONS AND CONTRIBUTIONS--PARTS I-IV
=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                  MARCH 27, AND APRIL 1, 3 AND 8, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate





                        U.S. GOVERNMENT PRINTING OFFICE
90-325                         wASHINGTON  : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)









                            C O N T E N T S

                              ----------                              

                    Thursday, March 27, 2003--Part I

                                                                   Page

Allen, Hon. George, U.S. Senator from Virginia, opening statement     3
      Joint Baltic American National Committee, Inc., John 
        Bolsteins, chairman, letter/statement submitted for the 
        record...................................................     6
      Baltic American Freedom League, Inc., Valdis V. Pavlovskis, 
        president, letter/statement submitted for the record.....     6
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................    28
Bradtke, Robert A., Deputy Assistant Secretary of State for 
  European and Eurasian Affairs; accompanied by: Heather A. 
  Conley, Deputy Assistant Secretary of State for European and 
  Eurasian Affairs and Janet L. Bogue, Deputy Assistant Secretary 
  of State for European and Eurasian Affairs, Department of 
  State, Washington, DC..........................................     8
    Prepared statement...........................................    10
Brzezinski, Ian, Deputy Assistant Secretary of Defense for 
  European and NATO Affairs, Department of Defense, Washington, 
  DC.............................................................    15
    Prepared statement...........................................    17
    Responses to additional questions for the record from Senator 
      Biden......................................................    35
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    32
Lithuanian-American Community, Inc., Regina F. Narusis, J.D., 
  chairman, National Board of Directors, statement submitted for 
  the record.....................................................    33

                    Tuesday, April 1, 2003--Part II

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................    45
    Congress of Romanian Americans, Armand A. Scala, president, 
      letter/statement submitted for the record..................   108
    ``NATO's New Front,'' article by Thomas J. Friedman, New York 
      Times, March 30, 2003......................................    96

                   panel 1: ``a view from brussels''

Burns, Hon. R. Nicholas, U.S Permanent Representative to the 
  North Atlantic Treaty Organization, Brussels, Belgium..........    50
    Prepared statement...........................................    56

            panel 2: ``new members and a changing alliance''

Asmus, Dr. Ronald D., senior transatlantic fellow, German 
  Marshall Fund, Washington, DC..................................    87
    Prepared statement...........................................    90
    ``We Need to Repair the Rift,'' commentary by Ronald Asmus, 
      Wall Street Jounal online [WSJ.com], March 31, 2003........    93
Jackson, Bruce Pitcairn, president, Project on Transitional 
  Democracies, Washington, DC....................................    78
    Prepared statement...........................................    81

                   Thursday, April 3, 2003--Part III

Voinovich, Hon. George V., U.S. Senator from Ohio, prepared 
  statement......................................................   111
    Lithuanian-American Community, Inc., letter/statement on NATO 
      Expansion Ratification, Regina F. Narusis, J.D., chairman, 
      National Board of Directors................................   121
    Baltic American Freedom League, Inc., Valdis V. Pavlovskis, 
      president, letter/statement, recommending NATO membership 
      for Estonia, Latvia and Lithuania..........................   123

                          bulgaria and romania

Bugajski, Janusz, director, Eastern Europe Project, Center for 
  Strategic and International Studies, Washington, DC............   124
    Prepared statement...........................................   127

                       latvia, lithuania, estonia

Larrabee, Dr. F. Stephen, senior staff member, RAND, Arlington, 
  VA.............................................................   114
    Prepared statement...........................................   117

                         slovakia and slovenia

Simon, Dr. Jeff, senior research fellow, Institute for National 
  Strategic Studies, National Defense University, Washington, DC.   131
    Prepared statement...........................................   134

                    Tuesday, April 8, 2003--Part IV

                 panel 1: ``new members, new missions''

Grossman, Hon. Marc I., Under Secretary of State for Political 
  Affairs, Department of State, Washington, DC...................   154
    Prepared statement...........................................   158

                    panel 2: ``the future of nato''

Clark, General Wesley K., USA (Ret.), former SACEUR, Chairman and 
  CEO, Wesley Clark & Associates, Little Rock, AR................   184
    Prepared statement...........................................   189
Kristol, William, editor, The Weekly Standard and chairman, 
  Project for the New American Century, Washington, DC...........   193
    Prepared statement...........................................   197













       NATO ENLARGEMENT: QUALIFICATIONS AND CONTRIBUTIONS--PART I

                              ----------                              


                        THURSDAY, MARCH 27, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:02 p.m., in 
room SD-419, Dirksen Senate Office Building, the Hon. George 
Allen presiding.
    Present: Senators Allen, Brownback, and Biden.
    Senator Allen. Welcome and good afternoon to everyone. I 
want to welcome Deputy Assistant Secretaries Heather Conley, 
Robert Bradtke, Janet Bogue, from the State Department, and 
Deputy Assistant Secretary Ian Brzezinski from the Department 
of Defense to be with us. We have a number of ambassadors here 
from the seven NATO-aspirant countries in attendance at the 
hearing. And I would like each of them to rise as I state their 
names so they can be recognized.
    First from Bulgaria, the Deputy Chief of Mission, Emil 
Yalnazov. Welcome.
    From Estonia, Ambassador Sven Jurgenson. Around here, we 
say Jurgenson, as you well know, a famous quarterback.
    From Latvia, the Deputy Chief of Mission, Janis Eichmanis. 
Glad to have you here.
    From Lithuania, Ambassador Vygaudas Usackas.
    And from Romania, Ambassador Sorin Ducaru. Welcome.
    From Slovakia, Deputy Chief of Mission, Peter Kmec. 
Welcome.
    And from Slovenia, Ambassador Dr. Davorin Kracun. Welcome.
    Welcome to you all.
    The purpose of this hearing is to discuss the 
qualifications and the contributions of the seven NATO-aspirant 
countries, Bulgaria, Estonia, Latvia, Lithuania, Slovakia, 
Romania, and Slovenia. It was intended to be the second of 
three hearings dealing with NATO enlargement. The previous 
session scheduled for earlier this week with Secretary Powell 
was postponed until next Tuesday. We understand the many 
pressing matters on his agenda.
    There will be a followup session to this hearing to be held 
next Thursday at 2:30 in the afternoon. And I am going to place 
my entire statement in the record, along with letters from the 
Joint Baltic-American National Committee and the Baltic-
American Freedom League. And I am going to make some remarks. 
And if a counterpart on the Democrat side arrives--there are 
different hearings going on and different meetings at this 
point--they will make comments. Then we will hear from you. And 
then members will have 7 minutes for comments and questions.
    From my perspective as one who looks at history, NATO has 
truly been one of the most successful multilateral military 
alliances in modern history. For over 50 years, it successfully 
maintained peace in Western Europe, it contained Soviet 
expansionism, it helped bind the United States and Europe 
together militarily and politically, and played an 
indispensable role in Europe's ability to put itself back on 
its feet and back together after World War II.
    When I was Governor of Virginia, I was a strong advocate of 
the inclusion of Poland, the Czech Republic, and Hungary into 
NATO, and after leaving office as well. So I was very pleased 
that in 1999 NATO took action to ensure its continued relevance 
and vitality when Poland and Hungary and the Czech Republic 
were welcomed into NATO.
    Last November in Prague, NATO took the next step when all 
seven countries were invited to begin the accession talks with 
the countries that we have talked about here, and that are 
represented. Each of these seven nations are unique nations. 
They have their own heritage, their own culture, their own 
means of governance. But they do have certain common binds. And 
certainly there are criteria that they need to meet. They have 
acted as de facto allies, in fact, to the United States and 
have made significant contributions to the campaign in the 
Balkans, in the war on terror, and in the effort that is 
ongoing right now to disarm Saddam Hussein.
    In addition to the military contributions they have already 
made, these countries have made impressive political progress 
as well. All have successfully implemented democratic reforms 
and have popularly elected governments. Political and military 
reforms in these countries are continuing. And they are guided 
in part by NATO's Membership Action Plan process, which assists 
countries in readying themselves for NATO membership. And NATO 
membership, in my view, will reinforce these reforms.
    Now I would like to highlight a few of the most noteworthy 
qualifications and contributions of some of the seven countries 
that we are discussing today. In particular, I want to mention 
the impressive strides being made by the Baltic nations--
Latvia, Lithuania, and Estonia. All have held fair and free 
elections and positioned themselves for future EU membership as 
well. And this is all since they regained their freedom.
    They have small, but capable, armed forces and have 
contributed troops to the KFOR and SFOR missions in the 
Baltics. In fact, Lithuania has over 100 troops in the Balkans. 
They have sent forces to Afghanistan. They are supporting the 
U.S. military actions, along with the British and Australian 
and the many other countries, in Iraq.
    Popular support for NATO membership is well over 50 percent 
in each of these Baltic countries. Bulgaria and Romania have 
also made great political strides and provide significant 
direct military support to NATO and to the United States. Both 
countries have deployed troops to both SFOR and KFOR and are 
allowing U.S. and coalition forces to use their air space and 
facilities in support of Operation Iraqi Freedom.
    Slovenia has a parliamentary democracy that has held free 
elections since their independence in 1991 and is poised to 
join the EU in 2004. They are also providing important support 
to NATO operations in the Balkans. And 66 percent of Slovenes 
are in favor of joining the Alliance.
    Slovakia continues its efforts at political and economic 
reform. This country contributes troops to KFOR and SFOR and 
has contributed to many other peacekeeping operations as well 
with more than 600 troops serving in international missions 
around the world. Slovakia, along with the Czech Republic, has 
sent a contingent of anti-chemical weapons specialists to 
Kuwait, which is clearly part of the Iraqi theater.
    So in conclusion, I think that all of these seven countries 
have had to overcome serious political, economic, and military 
challenges to be on the way to joining the most important 
political-military alliance in the world. Without a doubt, they 
will all benefit greatly from being in NATO. And NATO, I think, 
will also benefit from having their capabilities and also the 
vitality and the love of freedom and the appreciation for 
freedom that they will bring.
    So I look forward to a transparent and swift consideration 
of these seven countries' readiness to join the NATO Alliance.
    And since there is not a Democrat colleague here to present 
a statement after this, I think we will go to questions. But 
first what I would like to do is allow the Democrat Senator, 
whenever he or she arrives, to put a statement into the record. 
But we are going to start with our testimony.
    [The opening statement of Senator Allen follows:]

               Opening Statement of Senator George Allen

                              introduction
    Welcome to Deputy Assistant Secretaries Heather Conley, Robert 
Bradtke, and Janet Bogue from the State Department and Deputy Assistant 
Secretary Ian Brzezinski from the Department of Defense. We look 
forward to their testimony and reviewing with them the qualifications 
and capabilities of the seven NATO aspirant countries. I would also 
like to thank the Chairman of this Committee, Senator Richard Lugar, 
for giving me the opportunity to take the gavel for this important and 
timely hearing.
    NATO has been the most successful multi-lateral military alliance 
in modem history. For over 50 years, it successfully maintained peace 
in Western Europe, contained Soviet expansionism, helped bind the US 
and Europe together militarily and politically, and played an 
indispensable role in Europe's ability to put itself back together 
after WW II.
    Many have questioned NATO's relevance in the post-Cold war world 
and recent events have heightened questions about the Alliance and its 
future. I believe that NATO can continue to play a vital role in 
ensuring European stability. However, there are certainly changes that 
need to be made to NATO to allow it to more effectively deal with 
threats and non-traditional missions. Some important changes are 
already under way such as the ongoing efforts to develop the NATO 
Response Force that will be a high readiness, deployable force able to 
rapidly respond to contingencies worldwide.
    In a move that I advocated as Governor of Virginia and after my 
term, on March 12, 1999, NATO took another important step to ensure its 
continued vitality and relevance when Poland, Hungary and the Czech 
Republic were welcomed into NATO. These countries have already proven 
themselves to be capable and contributing members of the Alliance. Last 
November in Prague, NATO took the next step when it invited seven 
countries to begin accession talks to join the Alliance: Bulgaria, 
Estonia, Latvia, Lithuania, Romania, Slovakia and Slovenia. Each of 
these seven nations has made significant contributions to:

  <bullet> The campaign in the Balkans.

  <bullet> The War on Terror.

  <bullet> The effort to disarm Saddam Hussein.

    They have acted as de facto allies of the United States. For 
example:

  <bullet> They have provided logistical support and troops in combat 
        or peace support missions in Western Balkans, Afghanistan, and 
        Iraq.

  <bullet> Romania and Bulgaria are currently providing bases to 
        support Coalition military operations against Iraq.

  <bullet> Slovakia and the Baltic countries have provided peacekeeping 
        troops, air surveillance support, as well as biochemical 
        specialists.

    The democratic progress these countries have made since 1991, when 
the communist-bloc collapsed, has been remarkable. The ``Membership 
Action Plan'' process, which assists countries in readying themselves 
for NATO membership, has dramatically contributed to their successful 
reform efforts to date. NATO membership will reinforce the invitees 
continuing reform efforts.
  brief statements of qualifications and contributions of each country
    Bulgaria. Bulgaria is a parliamentary republic ruled by a 
democratically elected government. Bulgaria's process of reform from 
communism to an open, market-oriented democracy has accelerated in 
recent years. Sofia has pledged to make long-needed reforms in many 
areas, including a reform of the judiciary, economic reforms to 
increase foreign investment, a reduction of rampant corruption, and 
measures to stop trafficking in persons and drugs. Bulgaria's armed 
forces are being downsized and restructured into rapid reaction forces, 
main defense forces, territorial defense forces, and reserves. Bulgaria 
has deployed troops to both SFOR and KFOR and has given permission for 
U.S. forces to use its airspace for the conflict with Iraq, as well as 
an airbase at Sarafovo, on the Black Sea. Bulgaria plans to send 150 
troops to countries neighboring Iraq to protect against possible 
nuclear, chemical or biological attack.
    Estonia. Estonia has held free and fair elections since regaining 
independence in 1991. Estonia has met the political and economic 
criteria for joining the EU; it completed membership talks at the end 
of 2002 and is expected to join the EU in 2004. Public opinion polls in 
Estonia have shown substantial support for NATO membership; a February 
2003 survey showed 61% of respondents favoring NATO membership.
    Estonia has about 7,200 troops in its regular armed forces and 
about 8,300 in a volunteer reserve force. Estonia has contributed 
troops to both SFOR and KFOR, sent explosives experts to Afghanistan in 
July 2002 and is considering a possible deployment of a small unit of 
several dozen troops to Iraq as part of a post-conflict peacekeeping 
mission.
    Latvia. Latvia is a parliamentary democracy that has held free and 
fair elections since achieving independence in 1991. The EU has 
determined that Latvia has met the political and economic criteria for 
membership; Riga completed accession talks at the end of 2002 and is 
expected to join the EU in 2004. A January 2003 public opinion poll put 
support for NATO membership at 54.7%.
    Latvia has about 6,500 men in its active-duty armed forces, and 
14,400 in the reserves and plans to equip and train a light infantry 
battalion that would form the core of the country's army and also be 
capable of participation in NATO-led peacekeeping and other missions. 
The country is also developing specialized capabilities in air 
surveillance, military medics, military police, and nuclear, chemical 
and biological decontamination units. Latvia has deployed soldiers to 
SFOR and KFOR. In January 2003, the government approved plans for 
dispatching military medics to serve in Afghanistan. On March 17, 
Latvia expressed support for U.S. military action in Iraq. Latvia may 
send a small contingent to support peacekeepers in post-conflict Iraq.
    Lithuania. Lithuania is a parliamentary democracy, which has held 
free and fair elections since achieving independence in 1991. Lithuania 
has met the political and economic criteria for EU membership. It has 
completed negotiations with the EU and is expected to join the Union in 
2004. A December 2002 public opinion poll put support for NATO 
membership at 59%.
    Lithuania has active-duty armed forces totaling 12,100 men, and is 
developing a Rapid Reaction Brigade of 3,800 troops, to be ready by 
2006. Lithuania plans to be able to provide a battalion-sized unit that 
can deploy with NATO forces overseas for combat missions and is working 
to develop specialized capabilities such as air surveillance, demining, 
and air transport. Lithuania has small contingents in SFOR and KFOR and 
sent 40 special forces soldiers to Afghanistan last year. The 
government recently expressed support for the U.S. military campaign in 
Iraq. It is considering plans to deploy troops for post-conflict 
peacekeeping, including medical and logistics experts. Lithuania's 
specific contributions include:
    Contribution in the Balkans

  <bullet> Contributes, for six month out of every 18, a company of 100 
        personnel with the Danish contingent to SFOR (similar 
        deployment to IFOR). Contributed 914 personnel total since 
        1994.

  <bullet> Maintains an infantry platoon pf 30 personnel with the 
        Polish battalion in KFOR.

  <bullet> Maintains a military transport aircraft with crew and 
        logistics personnel of 7 in support of NATO operations in the 
        Balkans since April 2001.

  <bullet> Contributed 10 medical personnel to NATO humanitarian 
        mission ``Allied Harbor'' in Albania in 1999.

    Contributions to the war in Afghanistan (ISAF and OEF)

  <bullet> Offered use of Lithuanian airspace and airfields and other 
        support for Operation Enduring Freedom.

  <bullet> Deployed a medical team of 4 personnel with the Czech 
        contingent in ISAF Oct.-Dec. 2002. Redeploying medical team 
        with the German contingent in ISAF in April 2003.

  <bullet> Deployed Special Operations Forces unit of 37 personnel to 
        Afghanistan in support of OEF in Nov. 2002.

    Offers of potential assistance for war with Iraq

  <bullet> Government has declared preparedness to contribute 
        politically and with other measures to the efforts of U.S. led 
        coalition to disarm Iraq, e.g., 10 cargo handlers, 6 medics.

    Romania. Romania has held four elections, deemed free and fair by 
outside observers, since the fall of communism; its political scene has 
been fairly stable in the past three years. Although its economy has 
performed relatively well for the past two years, Romania continues to 
lag behind its neighbors; Bucharest has been urged to accelerate 
economic reforms and privatize large industries. According to an 
October 2002 poll, 88% of Romanians support NATO membership, and 86% 
favor joining the EU.
    The Romanian's have been working to reduce the size of their 
military and reorganize its military structure in accordance with 
western standards, and has created a rapid reaction force. Romania has 
been modernizing its military equipment and adding new weapons systems, 
and has also been developing NATO ``niche capabilities,'' including 
airlift, minesweeping, UAVs, counter-NBC warfare, mountain combat 
troops, and special forces. Romania has contributed a 122-member 
contingent to SFOR, 222 personnel to KFOR, 70 police officers to UNMIK, 
and has deployed an infantry battalion, military police and a C-130 
transport to ISAF, the international peacekeeping force in Afghanistan. 
Romania has offered the use of its territory--land, airspace and 
seaports--for the U.S.-led military action against Iraq. In response to 
Washington's request, Romania has dispatched non-combat troops 
(engineers, medics and military police), and about 1,000 U.S. troops 
have been stationed in Constanta, which is acting as an ``air bridge'' 
to the Gulf. Romania has deployed a biochemical unit to Iraq, and if 
needed, the Romanian Government will shelter up to 1,500 war refugees 
from Iraq.
    Slovakia. Slovakia and the Czech Republic peacefully divided in 
1993. The country suffered through a number of difficult years 
politically and with regards to its international standing. However, 
the new government that came to power in 2002 appears to have the 
country on the right track. A March opinion poll showed 48% support for 
NATO membership.
    Since 1998, Slovakia has been reforming and restructuring its 
military, moving toward a smaller, more flexible and fully professional 
force. Bratislava aims to establish by the year 2010 a small, well-
equipped and trained armed force that is integrated into NATO military 
structures and capable of operating in allied military operations. 
Slovakia is training special units in alpine combat, reconnaissance, 
and engineering, and is also training an immediate reaction battalion 
for future use by NATO. Slovakia contributes troops to KFOR and SFOR. 
Outside of the Balkans, Slovakia has contributed to many peacekeeping 
operations, with more than 600 troops serving in international missions 
around the world. Slovakia, along with the Czech Republic, has sent a 
contingent of anti-chemical weapons specialists to Kuwait.
    Slovenia. Slovenia is a parliamentary democracy that has held free 
elections since independence in 1991. Slovenia has met the European 
Union's political and economic criteria for membership; it has 
completed membership talks and is expected to join in 2004. In a March 
23, 2003 referendum, Slovene voters endorsed their country's NATO 
membership, with 66% in favor of joining the Alliance.
    In 2002, Slovenia decided to move rapidly toward professional armed 
forces and plans to abolish conscription by 2004. Slovenia is providing 
military police to SFOR, as well as a medical unit and a helicopter 
unit. Slovenia has readied a motorized infantry company for deployment 
to SFOR in 2003. In March 2003, Slovenia said it would decline a U.S. 
request for its forces to transit Slovenia on the way to a deployment 
to Iraq, unless the U.N. Security Council endorsed military action 
against Baghdad.
                               conclusion
    These seven countries have all had to overcome serious political, 
economic and military challenges to get to where they are today--on the 
way to joining the most important political-military alliance in the 
world. Without a doubt, they will all benefit greatly from NATO 
membership and NATO will benefit from the capabilities the offer and 
the vitality they bring.

                                 ______
                                 

    Joint Baltic American National Committee, Inc.,
                                           400 Hurley Ave.,
                         Rockville, MD, 20850-3121, March 21, 2003.

Representing: Estonian American National Council, Inc., American 
        Latvian Association, Inc., Lithuanian American Council, Inc.

The Honorable George Allen
United States Senate
Washington, DC 20510

    Dear Senator Allen:

    On behalf of one million Americans of Estonian, Latvian and 
Lithuanian heritage, the Joint Baltic American National Committee, Inc. 
(JBANC) asks for your support for NATO enlargement ratification during 
upcoming Senate deliberation. We ask for your endorsement for the seven 
invited aspirant countries, including Estonia, Latvia and Lithuania.
    In the twelve years following the restoration of their 
independence, Estonia, Latvia and Lithuania have carried out impressive 
economic, political and military reforms.
    All three Baltic countries have actively participated in 
peacekeeping missions in the Balkans and in Afghanistan and are also 
committed to serving alongside the United States and its Allies in the 
rebuilding of Iraq. As part of the coalition of the willing these 
countries arc committed to giving not only political but moral, 
material and tactical support to the United States.
    We look forward to working with you in supporting the partnership 
and cooperation between the United States, its NATO Allies and the 
three Baltic countries as they integrate further with Western 
democratic institutions. This will help cement the security and 
stability so long sought after in that region.

            Sincerely,
                                  John Bolsteins, Chairman.

                                 ______
                                 

              Baltic American Freedom League, Inc.,
                                            P.O. Box 65056,
                             Los Angeles, CA 90065, March 26, 2003.

The Honorable George Allen, Chairman,
Subcommittee on Europe,
Senate Foreign Relations Committee,
U.S. Senate,
Washington, DC 20510

    Dear Senator Allen:

    On behalf of the members of the Baltic American Freedom League, I 
am submitting the League's statement recommending NATO membership for 
Estonia, Latvia and Lithuania.
    We respectfully request that the statement be made part of the 
record of the Foreign Relations Committee's hearings on amending the 
Protocols to the North Atlantic Treaty of 1949.
    You have been a great and true friend to the Baltic American 
community and the Baltic countries, and we sincerely appreciate it. The 
Baltic American community believes that the Baltic countries are 
qualified for membership in NATO, and we hope that you will continue to 
support them in this endeavor.

            Sincerely,
                           Valdis V. Pavlovskis, President.

  Written Statement of Valdis Pavlovskis, President, Baltic American 
                          Freedom League, Inc.

    On behalf of the members of the Baltic American Freedom League, the 
Board of Directors respectfully request that the Senate Foreign 
Relations Committee support the membership of Estonia, Latvia and 
Lithuania in NATO and recommend their membership in NATO to the full 
Senate.
    Since the Baltic countries regained their independence, Congress 
has supported the integration of the Baltic nations in western defense 
structures. In support, in 1994 Congress enacted the NATO Participation 
Act, in 1996 it passed the European Security Act, and in 2002, by an 
overwhelming vote, the Freedom Consolidations Act. In addition, last 
year the House of Representatives passed HCR 116 and HCR 468 
recommending Baltic membership in NATO.
    Congress has supported Baltic aspirations to join NATO by annually 
providing funding through FMF and IMET for the development of Baltic 
armed forces. For a decade, American military advisory teams have 
served in the Baltic countries training the Baltic military, and 
hundreds of Baltic soldiers of all ranks have graduated from U.S. 
military schools. Baltic military forces have participated in joint 
military exercises with NATO forces. Recent NATO inspection teams as 
well as visits by U.S. Congressional delegations have concluded that 
the Baltic countries are qualified for NATO membership.
    In the short period since they regained their independence, the 
Baltic countries have developed strong and responsible democratic 
governments, viable free market economies and transparent and 
democratic armed forces. OSCE, the U.S. Department of State, and 
various international bodies have found that the Baltic countries 
respect and fully comply with international standards of civil and 
human rights.
    The early fears that Russian opposition to Baltic membership in 
NATO would give rise to Russian nationalism and have a deleterious 
effect on U.S.-Russian relations have not materialized.
    Today, the Baltic countries participate in the Partnership for 
Peace program and Operation Enduring Freedom. Baltic troops are serving 
in the Balkans and Afghanistan.
    The Baltic countries were one of the first to support U.S. action 
in Iraq, and they were the initiators of the Vilnius Ten declaration in 
support of the U.S., in spite of retaliation threatened by their larger 
neighbors France and Germany. All three Baltic countries are preparing 
to assist in reconstruction of a post Saddam lraq
    The Baltic countries have demonstrated their willingness and 
capability to assume the responsibilities of NATO membership. They 
share our values and have proved to be loyal friends of the United 
States. As Americans of Baltic heritage, the Baltic American Freedom 
League is proud and confident to support Baltic membership into NATO. 
We hope that you will too.
    We look forward to working with you to gain support for amending 
the Protocols to the North Atlantic Treaty of 1949 to include Estonia, 
Latvia and Lithuania.

    Senator Allen. So let us begin with our witnesses. Panel 
one.
    You are here. OK. Well, let us do this. Deputy Assistant 
Secretary Bradtke, we would like to hear from you first.
    Mr. Bradtke. Thank you very much, Mr. Chairman.
    Senator Allen. Then we will have Deputy Assistant Secretary 
Brzezinski.
    Secretary Bradtke.

 STATEMENT OF ROBERT A. BRADTKE, DEPUTY ASSISTANT SECRETARY OF 
   STATE FOR EUROPEAN AND EURASIAN AFFAIRS; ACCOMPANIED BY: 
  HEATHER A. CONLEY, DEPUTY ASSISTANT SECRETARY OF STATE FOR 
EUROPEAN AND EURASIAN AFFAIRS; JANET L. BOGUE, DEPUTY ASSISTANT 
     SECRETARY OF STATE FOR EUROPEAN AND EURASIAN AFFAIRS, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Bradtke. I want to thank you for giving me and my 
colleagues the opportunity to testify today before you on the 
enlargement of NATO and the qualifications and the 
contributions of the seven countries that were invited to join 
NATO at the Prague Summit.
    At the outset, I would also like to thank Chairman Lugar 
and the members of the committee for your leadership on the 
issue of NATO enlargement. Your support, your encouragement, 
but also the tough questions that you have asked us have helped 
us to refine our approach to NATO enlargement. And I also want 
to thank Senator Biden as well for his leadership of the 
committee in the past. We have worked very closely with this 
committee over the last 2 years.
    Here before you today is the core of the interagency team 
from the State Department and from the Defense Department that 
has worked for the better part of the last 2 years on the 
enlargement issue. It was our job to ensure that our Principals 
had the information they needed to advise the President, who 
made the ultimate decision on whom to invite and which 
candidates to support.
    This was a responsibility, Mr. Chairman, that we took very 
seriously. There is no more important commitment that one 
country can make to another than to pledge that its citizens 
are prepared to fight for the other. And when a country is 
invited to join NATO, that is what we are deciding.
    The standards for NATO membership are high. But NATO 
leaders have wisely recognized that there is no single set of 
criteria that determines whether a country is qualified for 
membership. NATO needs to be able to accommodate countries as 
diverse as the United States and Luxembourg or Turkey and 
Iceland.
    When the last round of enlargement occurred and Poland, 
Hungary, and the Czech Republic formally joined the Alliance in 
1999, NATO's leaders recognized that preparing for NATO 
membership was a difficult task. They created a tool to help 
aspirant countries to understand what was expected of them and 
to prepare themselves for membership. They set up the 
Membership Action Plan or MAP.
    The MAP process has given us a strong basis by which to 
measure the readiness for NATO membership of the seven 
countries that were invited at Prague. But given the importance 
to the United States of NATO, the administration has carried 
out additional steps to evaluate each country and to encourage 
the hard work of reform.
    In February of last year, Ambassador Burns led a team, 
including a number of us on this panel, which visited all the 
aspirant countries. In July, we met again with all the leaders 
of the aspirant countries in Riga on the margins of the 
Vilnius-10 summit. And during the summer, we conducted what we 
called a midterm review of reform implementation with each of 
the embassies of the aspirant countries here in Washington. 
Finally, in October, another team led by Ambassador Burns, 
again including myself and others on this panel, returned to 
the aspirant countries to evaluate their progress.
    We have held literally hundreds of meetings and traveled 
thousands of miles to learn as much as we could about the 
aspirant countries and to encourage their preparations to join 
NATO. By issuing the invitation at Prague to the seven 
countries we are talking about today to join the Alliance, 
President Bush and his fellow leaders signaled their belief 
that these intensive efforts to promote and encourage reform 
had been a success.
    Mr. Chairman, nothing has happened since Prague that should 
cause us to question their judgment. The evidence shows that 
all seven invitees have made an enduring commitment to the core 
values of NATO and that each is ready, both politically and 
militarily, to contribute to the defense of the Alliance.
    All seven, as the chairman just mentioned, are already 
acting as de facto allies by providing overflight and basing 
rights and providing troops to peacekeeping operations in the 
Balkans and Afghanistan or by having liaison officers with 
CENTCOM in Tampa.
    All of the invitees acting through the Vilnius-10 group 
offered their political support to the United States on Iraq in 
a statement that was issued on November 21 and again in another 
statement that was issued in February of this year. All of the 
invitees have committed to spending at least 2 percent of GDP 
on defense. When they join the Alliance, they will bring with 
them 200,000 troops and important specialized capabilities.
    All of the countries, as you mentioned, Mr. Chairman, are 
parliamentary democracies that have had free and fair 
elections, that have open market economies, and that respect 
the principles of free speech and free press. All have taken 
steps to improve governance by bolstering judicial independence 
and adopting anti-corruption measures. All have improved their 
protection of human rights, including minority rights and civil 
liberties. And all have taken steps to restitute property and 
to deal with complex and difficult issues from the past.
    The President this week submitted his report to Congress on 
the enlargement of NATO. And this report goes into greater 
detail on each of the countries. The President's report 
documents an impressive record of contributions and 
accomplishments by the seven countries. But just as no current 
member is perfect, problems do remain in the invitee countries. 
Issues such as corruption, gray arms sales, treatment of 
minorities, protection of classified information, property 
restitution, and defense reform will continue to need the close 
attention of the leaders of the seven countries.
    Based on the extensive dialog that we have had with them, 
we are convinced of their commitment to continue their reform 
efforts. And we will help them to do so with our continued 
moral support, our technical assistance, and the systematic 
formal review process that NATO provides.
    Mr. Chairman, one might well ask why the administration is 
asking the Senate, during a period of such dramatic events in 
Iraq, to take the time now to consider the issue of NATO 
enlargement. Part of the answer lies in the leadership that the 
United States in the last two administrations has shown on the 
enlargement issue. Expeditious action by the Senate will 
demonstrate to our current allies and our new allies our 
commitment to a larger, stronger, more capable NATO, even 
during a period of Trans-Atlantic differences. It will show our 
commitment to a vision of Europe, whole, free, and at peace, 
that President Bush put forward in his speech in Warsaw in June 
of 2002.
    But there is one other reason, Mr. Chairman, which I would 
like to illustrate with a brief story. Earlier this month as 
the United States began to move its forces to the Bulgarian 
airfield of Burgas, an Iraqi diplomat traveled there. Standing 
outside the airbase, the Iraqi told a group of reporters that 
if the United States took military action in Iraq, then 
Bulgaria and the base at Burgas would be a target for Iraqi 
military strikes.
    When the Bulgarian Defense Minister was asked whether he 
was concerned about this threat, he responded, and I quote, 
``This is just the normal statement of an ambassador from a 
terrorist state.'' And then the Minister added, ``He will not 
be an ambassador when the regime in Iraq is changed.''
    In this willingness of the seven invitee countries to stand 
with us against such threats, in all that they are doing to 
enhance our collective security already and all that they have 
done to rid themselves of their totalitarian past, they have 
shown their abiding faith in us and their faith in our promise 
to open NATO's door to them. We need now to keep faith with 
them. We need, Mr. Chairman, to recognize them as true allies.
    Thank you very much for your time, Mr. Chairman. And at the 
appropriate moment, we would be happy to take your questions.
    Senator Allen. Thank you very much, Secretary Bradtke.
    [The prepared statement of Mr. Bradtke follows:]

Prepared Statement of Robert A. Bradtke, Deputy Assistant Secretary of 
                State for European and Eurasian Affairs

    Mr. Chairman, Members of the Committee, I want to thank you for 
giving me and my colleagues the opportunity to testify before you on 
the enlargement of NATO and the qualifications and the contributions of 
the seven countries invited to join NATO at the Prague Summit last 
November.
    At the outset, I would also like to thank Chairman Lugar and the 
members of the committee for your leadership on this issue. Your 
support and encouragement, but also the tough questions that you have 
asked, have pushed us to look closely at our approach on enlargement, 
and to refine and to strengthen our arguments. I also want to thank 
Senator Biden for his leadership as Chairman last year when much 
important work was being done. We have greatly appreciated the close 
cooperation that we have had from the Committee and its staff over the 
past two years.
    Here before you today, is the core of the inter-agency team, from 
the State Department and the Defense Department, that has worked for 
the better part of two years on the enlargement issue. It was our job 
to ensure that our Principals had the information they needed to advise 
the President, who made the ultimate decision on which candidates to 
support for membership.
    I would like to assure the Committee that my colleagues and I took 
our responsibilities very seriously. There is no more important 
commitment that one country can make to another than to pledge that its 
citizens are prepared to fight and--if necessary--to die for the other. 
And when a country is invited to join NATO that is what we are 
deciding. NATO is not a club; it is a collective defense organization 
in which its members commit themselves, under Article 5 of the 
Washington Treaty, to considering an attack on one as an attack against 
all.
    So, the standards for membership must be high, but NATO leaders 
have wisely recognized that there is no single set of criteria, no 
simple checklist that determines whether a country is qualified for 
membership. NATO needs to be able to accommodate members as diverse as 
the United States and Luxembourg or Turkey and Iceland.
    As a result, Article 10 of the Washington Treaty states only that:

        The Parties may, by unanimous agreement, invite any other 
        European State in a position to further the principles of the 
        Treaty and to contribute to the security of the North Atlantic 
        area to accede to this Treaty.

    When Poland, Hungary, and the Czech Republic formally joined the 
Alliance in 1999, NATO's leaders reflected on their experience and 
recognized that preparing for NATO membership was a difficult task. 
They decided to create a tool to help aspirant countries to understand 
what was expected of NATO members and to prepare themselves for 
membership. They set up the Membership Action Plan or MAP.
    In establishing the MAP, NATO's leaders stated specifically that 
the MAP ``cannot be considered as a list of criteria for membership.'' 
Instead, MAP is a tool to help countries prepare themselves. Each fall, 
under the MAP, the aspirant countries developed an Annual National 
Program (ANP) to set objectives and targets for reform. These reforms 
were focused on five key areas: political and economic development; 
defense and military issues; budgets; security of sensitive 
information; and legal issues. NATO reviewed the Annual National 
Programs, and each Ally provided comment and feedback. In the spring, 
each aspirant met with the North Atlantic Council in a ``19-plus-1'' 
format to review its progress in achieving its reform goals.
    The MAP process has given us a strong basis by which to measure the 
readiness for NATO membership of the seven countries that were invited 
at Prague. But, given the importance to the United States of NATO and 
the Article 5 commitment, the Administration has carried out additional 
steps to evaluate each country and to encourage the hard work of 
reform.
    In February of last year, Ambassador Burns led a team, including a 
number of us on this panel, which visited all of the aspirant 
countries. We met with Presidents, Prime Ministers, Ministers of 
Foreign Affairs, Defense, and Justice, as well as with military 
officers and parliamentarians. We warned our interlocutors that joining 
NATO was an intrusive process, that as allies we would need to know 
everything about each other. We asked difficult questions about 
corruption, about property restitution and historical issues, about the 
treatment of minorities, about gray arms sales, and defense spending. 
We urged the leaders to adopt specific programs of reforms.
    Later in 2002, in July we met again with all the leaders of all the 
aspirant countries in Riga on the margins of the ``Vilnius-10'' Summit. 
During the summer, we also conducted what we called a ``mid-term 
review'' of reform implementation with each of the embassies of the 
aspirant countries here in Washington. Finally, in October, another 
team led by Ambassador Burns, again including myself and others on this 
panel, returned to all of the aspirant countries to evaluate their 
progress. We met with every Prime Minister and with nearly every 
President, Minister of Foreign Affairs, and Minister of Defense. We 
again asked difficult questions and sought assurances that their reform 
processes would continue well beyond the Prague Summit, if an 
invitation to join NATO would be forthcoming.
    As I said at the beginning of my testimony, we have taken our 
responsibility seriously. We have held literally hundreds of meetings 
and traveled thousands of miles to learn as much as we could about the 
aspirant countries and to encourage their preparations to join NATO. By 
issuing the invitation at Prague to Bulgaria, Estonia, Latvia, 
Lithuania, Romania, Slovakia, and Slovenia to join the Alliance, 
President Bush and his fellow NATO heads of state signaled their belief 
that these intensive, hands-on efforts to promote and encourage reform 
had been an outstanding success.
    Mr. Chairman, nothing has happened since Prague that should cause 
us to question their judgment. The evidence clearly shows that all 
seven invitees have made an enduring commitment to the core values of 
NATO and that each is ready, both politically and militarily, to 
contribute to the defense of the NATO Alliance.

  <bullet> All seven are already acting as de facto allies by providing 
        overflight and basing rights and by providing troops to 
        peacekeeping operations in the Balkans and Afghanistan, or by 
        having liaison officers with CENTCOM in Tampa.

  <bullet> As Senator Voinovich will recall from his participation at 
        the Prague Summit, all of the invitees, acting through the 
        ``Vilnius-10'' group, offered their political support to the 
        U.S. on Iraq on November 21. They reiterated this support in 
        February in another V-10 statement which endorsed the U.S. 
        position that Saddam had to comply with UNSCR 1441 fully and 
        immediately or face the military consequences.

  <bullet> All of the invitees have committed to spending at least two 
        percent of GDP on defense and should be able to make real 
        contributions to NATO's defense. When these seven countries 
        join the Alliance, they will bring with them 200,000 troops and 
        important specialized capabilities, which will be further 
        developed in accordance with the Prague Summit Capabilities 
        Commitment.

  <bullet> All have taken steps to improve their political, economic, 
        legal, and military systems to overcome the burdens and 
        problems inherited from decades of Communist misrule. All are 
        parliamentary democracies with free and fair elections, open 
        market economies, and respect for the principles of free speech 
        and a free press.

  <bullet> All have taken steps to improve governance by bolstering 
        judicial independence and adopting anti-corruption measures. 
        All have improved their protection of human rights, including 
        minority rights and civil liberties. All have taken steps to 
        restitute property and to deal with complex and difficult 
        issues from the past.

    While each of the seven countries invited at the Prague Summit 
share these broad accomplishments, I would like to comment briefly on 
the particular contributions and steps that each invitee has made to 
qualify for NATO membership. I would note that the President's Report 
to Congress on NATO enlargement, submitted earlier this week, contains 
a more detailed analysis of each country.
    Bulgaria--All segments of Bulgarian political opinion strongly 
support NATO membership (including all four parties represented in 
Parliament). Bulgaria has also given strong support for the disarmament 
of Iraq. On November 7, the National Assembly approved the Government's 
decision to support coalition action against Iraq. Bulgarian support 
includes: over-flight rights and the transit of U.S. and coalition 
forces; basing for up to 18 U.S. aircraft at Sarafovo Airport near 
Burgas; and the deployment of Bulgarian NBC units (up to 150 personnel) 
to the theater of operations. Bulgaria was an important partner of the 
United States in dealing with Iraq in the United Nations Security 
Council. Bulgaria also contributed to Operation Enduring Freedom (OEF), 
including hosting a deployment of six US KC-135 transport aircraft and 
200 support personnel at Burgas, the first stationing of foreign forces 
in Bulgaria since WWII. Bulgaria has also provided personnel for SFOR 
and KFOR and donated arms and ammunition to the Afghan National Army. 
The Government has agreed on a minimum level of defense expenditures as 
a proportion of GDP, projected at higher than 2.8% in 2003 and 2004.
    Since the fall of Communism, Bulgaria has clearly demonstrated the 
sustainability of its commitment to democracy by holding free and fair 
elections and the peaceful transfer of power. Basic civil liberties are 
guaranteed by the Constitution. Bulgarians pride themselves on 
tolerance, and no extremist group enjoys significant support, either 
inside or outside the political system. Bulgaria has made material 
progress on the return of private and communal property. Macro-
economically, Bulgaria remains committed to the path of reforms laid 
out by the IMF and EU, even in the face of growing public 
dissatisfaction with low living standards.
    Estonia--The Prime Minister stated publicly on March 18 that 
Estonia is ready to contribute to post-conflict operations in Iraq. 
Possible contributions include a light point defense platoon, an 
explosive ordinance demolition team, and cargo handlers. In the 
Balkans, 100 Estonian personnel are currently on a six-month rotation 
as part of KFOR. Estonia also has deployed a 21-man military police 
contingent with the Italian Multinational Support Unit in KFOR. Estonia 
has deployed two explosive detection dog teams to Afghanistan to assist 
with airport security, and offered overflight and landing rights in 
support of OEF. It has also deployed an explosive ordnance destruction 
(EOD) team with ISAF.
    Estonia is a fully functioning democracy with a successful market-
oriented economy (GDP grew by an estimated 5.7% in 2002). The 
Government has committed to spending at least 2% of GDP annually on 
defense. Estonia is working actively to integrate its Russian-speaking 
minority by eliminating language requirements for electoral candidates 
and promoting naturalization. Estonia is also taking concrete steps to 
deal with the past, completing its restitution process entirely and 
emphasizing the work of its independent Historical Commission. In 
January, Estonia observed its first national Day of Remembrance of the 
Holocaust.
    Latvia--The Latvian parliament passed a bill March 19 allowing 
Latvian troops to take part in operations in Iraq. The bill authorizes 
the Government to send units of its Armed Forces to Iraq on operations 
``under the military command of the armed forces of the international 
coalition.'' Latvia has already deployed eight military medical 
personnel to ISAF, and participates in a six-month rotation every 18 
months of some 100 personnel as part of KFOR (previously in SFOR). It 
also maintains a medical and military police team with the British and 
an SOD team with the Netherlands in KFOR. The government is committed 
to spending a minimum of 2% of GDP on defense through 2008.
    Latvia has also undertaken significant political and economic 
reforms. Following parliamentary elections in October, 2002, a new 
government was formed headed by Prime Minister Einars Repse that has 
demonstrated a firm commitment to combating corruption. A newly created 
Anti-Corruption Bureau is working to investigate and prosecute 
corruption allegations within government. In addition, the new 
government has accelerated efforts to integrate Latvia's minorities. 
Since 1995, 58,145 persons have become naturalized citizens. The 
Government has taken steps, such as reducing fees, to ease the 
naturalization process. The property restitution process in Latvia, 
which is nearly complete, is also a great success story. The Government 
promotes Holocaust education and public awareness, and commemorates 
Holocaust Remembrance Day on July 4.
    Lithuania--On March 17, Lithuania reaffirmed the ``Vilnius-10'' 
group statement on Iraq of February 5, 2002. Lithuania's Parliament 
passed legislation on March 24 authorizing the Government to send 
logistical and military medical support to a possible effort in Iraq, 
as well as humanitarian aid. 37 Special Forces soldiers support OEF; 
four military physicians deployed with a Czech unit in ISAF in 2002 and 
will report to Afghanistan in May. Airspace and airfields in support of 
OEF are on standing offer. Contributions in the Balkans include a six-
month rotation every 18 months of 100 personnel with the Danish 
contingent in KFOR (previously in SFOR) and a platoon of about 30 
servicemen with the Polish-Ukrainian contingent in KFOR. The Government 
is committed to spending a minimum of 2% of GDP on defense.
    The Government has taken steps to strengthen its legal and 
institutional framework for combating corruption. It has successfully 
cracked down on corruption by customs and tax inspectors. We have seen 
a genuine and exemplary commitment to address the injustices of the 
past. The Government has returned hundreds of religious scrolls to 
Jewish community groups, instituted a Holocaust education program, 
announced plans to restore parts of the Jewish Quarter in Vilnius' Old 
Town, and consistently been one of the most active members of the 15-
country International Task Force on Holocaust Education. A joint 
Government-Jewish community committee is working on an amendment to the 
property restitution law to allow communal property restitution.
    Romania--Has demonstrated its readiness to contribute to NATO. 
Public support for NATO membership is about 80%, the highest of any 
invitee country. Romania is a staunch supporter of the war on terrorism 
and the effort to disarm Iraq. Romania granted blanket overflight, 
basing and transit rights to coalition forces for operations in both 
Afghanistan and Iraq. The Black Sea port of Constanta and Mihail 
Kogalniceanu airbase have accommodated U.S. troops en route to the 
Persian Gulf. Romania also has offered to deploy a 75-man nuclear, 
biological and chemical weapon response unit to support Iraq 
operations. Romania has provided robust support of OEF, self-deploying 
a 400-man infantry battalion to Kandahar, Afghanistan, and providing a 
military police platoon to the ISAF mission in Kabul. The Romanian 
defense budget is linked to GDP forecasts and will be based on the 
Government's commitment to ensure a minimum level of defense 
expenditures, representing 2.38% of GDP in the years 2003 to 2005.
    The Romanian government continues efforts to strengthen democratic 
foundations, improve living standards, and create a society based on 
respect for the rule of law. Romania has a free press, five major 
political parties, and an established record of consistently free and 
fair elections. To further strengthen democracy and improve 
transparency, the Government has drafted legislation to compel the 
disclosure of public figures' assets, limit their ability to influence 
business decisions, make political party financing more transparent, 
and increase the openness of the government decision-making process. 
While Romania still has much to do in the matter of restitution, it has 
now drafted and passed publicly available laws to replace the former ad 
hoc decrees and is adjudicating thousands of claims. Economic growth 
resumed in 2000 after a three-year recession, with increases in GDP 
growth of 5.3% in 2001 and 4.5% in 2002. Decreases in unemployment and 
inflation represent encouraging developments.
    Slovakia--Has also demonstrated its readiness and commitment to 
supporting U.S. national security interests by contributing to the 
global war on terrorism, operations in the Balkans/Afghanistan, and in 
Iraq. Contributions include sending 100 soldiers to Kosovo, an 
engineering unit to Kabul, and on February 26 a 75 person Nuclear, 
Biological and Chemical weapons unit to Kuwait. Slovak military reform 
is on course. Parliament is committed to joining NATO and has earmarked 
2% of its budget for defense spending.
    In September, Prime Minister Dzurinda's government was re-elected, 
firmly cementing Slovakia's democratic reforms. Former authoritarian 
Prime Minister Meciar's party HZDS has all but collapsed. Although 
economic reforms have been painful, with unemployment currently at 
around 18%, the Slovaks nonetheless have moved forward with 
privatization and financial reform, and their efforts are beginning to 
bear fruit. Slovakia has engaged actively with its Jewish community and 
with U.S. NGO's to settle outstanding restitution claims. The OECD has 
projected a 4% economic growth rate, the highest in the region, for FY 
2003.
    Slovenia--In addition to offering facilities, overflight 
permission, and intelligence support to the War Against Terrorism, 
Slovenia provided demining and humanitarian assistance to Afghanistan, 
donated arms and ammunition to the Afghan National Army Training 
Program, and will help train Afghan police. Slovenia also deployed a 
motorized infantry company to Bosnia in January 2003, adding to troops 
and equipment already sent to SFOR and KFOR. Slovenia shows good 
progress in increasing interoperability and reforming its military, 
emphasizing deployable and sustainable reaction forces. It will end 
conscription next year and plans to have a fully professional force by 
2008. Defense spending is rising steadily; the Government has committed 
to spending two percent of GDP by 2008.
    Slovenia has a stable, multi-party, democratic political system, 
characterized by regular elections, a free press, an independent 
judiciary, and an excellent human rights record. Slovenia has a free 
market economy, an impressive record of sustained, broad-based growth, 
and a per capita GDP approaching 72% of the EU average. There is near-
uniform support in Parliament for NATO membership, and 66% of 
participants in a referendum on March 23 voted in favor of joining 
NATO.
    Mr. Chairman, the record of contributions and accomplishments by 
the seven countries is impressive. But just as no current member is 
perfect, problems do remain in the invitee countries. Issues such as 
corruption, gray arms sales, treatment of minorities, protection of 
classified information, and defense reform will continue to need the 
close attention of the leaders of the seven invited countries. Based on 
the extensive dialogue that we have had with these countries, we are 
convinced of their willingness to continue their reform efforts. As the 
leaders of seven countries have told us, they are continuing reforms 
not just to impress us in the hope of joining NATO, but because these 
reforms are in their own long-term interest.
    This permanent commitment to reform was reaffirmed yesterday, when 
the Permanent Representatives of the nineteen NATO Allies signed the 
Accession Protocols for the new invitees at NATO headquarters. Each of 
the Foreign Ministers from the invitee countries submitted a reform 
timetable for their country at the time the Protocols were signed. 
These reform timetables are very detailed lists of further political, 
economic, military, resource, security and legal reforms that each 
country commits itself to. Each invitee designed its own timetable, in 
consultation with allies.
    We and our NATO Allies will ensure that they live up to these 
commitments. We will also help them to do so. They will need our 
continued moral support and technical assistance. The systematic and 
formal review process that NATO provides will allow them to make 
further progress along the reform path while simultaneously increasing 
their contributions to Alliance security and values.
    Mr. Chairman, one might well ask why the Administration is asking 
the Senate, during a period of such dramatic events in Iraq, to take 
the time now to consider the issue of NATO enlargement and give its 
approval to bringing Bulgaria, Romania, Slovakia, Slovenia, Estonia, 
Latvia, and Lithuania into NATO. Part of the answer lies in the 
leadership that the United States, in the last two Administrations, has 
shown on NATO enlargement. Expeditious action by the Senate will 
demonstrate to our current allies and our new allies our commitment to 
a larger, stronger, more capable NATO, even during period of 
transatlantic differences. It will show our commitment to the vision of 
a Europe, whole, free, and at peace, that President Bush put forward in 
his speech in Warsaw in June 2002.
    But there is another reason, Mr. Chairman. Perhaps nothing captures 
it better than a story about the head of the Iraqi embassy in Bulgaria. 
Earlier this month, as the U.S. began to move its forces to the 
Bulgarian airfield of Burgas, the Iraqi diplomat traveled there. 
Standing outside the airbase, the Iraqi told a group of reporters that 
if the United States took military action in Iraq, then Bulgaria and 
the base at Burgas would be a target for Iraqi military strikes. When 
the Bulgarian Minister of Defense was asked whether he was concerned 
about this threat, he responded: ``This is the normal statement of an 
ambassador from a terrorist state.'' And the Minister added, ``He will 
not be an ambassador when the regime in Iraq is changed.''
    In the willingness of the seven invitee countries to stand with us 
against such threats, in all that they are doing already to enhance our 
collective security, in all that they have done to rid themselves of 
their totalitarian past, they have shown their abiding faith in us and 
their faith in our promise to open NATO's door to them. We now need to 
keep faith with them. We need to recognize them as true allies.
    Mr. Chairman, members of the Committee, thank you very much for 
permitting us this time. My colleagues and I would be happy to hear 
your questions and concerns.

    Senator Allen. Secretary Brzezinski.
    I will say that Ms. Bogue and Ms. Conley will not be giving 
statements but will be able to share with us expertise in 
answering questions we may have.
    Secretary Brzezinski.

  STATEMENT OF IAN BRZEZINSKI, DEPUTY ASSISTANT SECRETARY OF 
 DEFENSE FOR EUROPEAN AND NATO AFFAIRS, DEPARTMENT OF DEFENSE, 
                         WASHINGTON, DC

    Mr. Brzezinski. Thank you, Mr. Chairman.
    Mr. Chairman, members of the committee, thank you for this 
opportunity to speak at this hearing on the enlargement. We 
know well the important leadership role that you, sir, and 
Senator Biden and Senator Brownback and this committee will 
play in advocating NATO enlargement. And I am eager to share 
with you today the Department of Defense's views of the 
qualifications of the seven candidate countries and how their 
membership in NATO will enhance the Alliance's security and 
military capability.
    Yesterday, accession protocols for Bulgaria, Estonia, 
Latvia, Lithuania, Romania, Slovakia and Slovenia were signed 
in Brussels. This is an important milestone in this round of 
enlargement. And I think it might be useful to review the 
principles that serve as the foundation for this 
administration's support for enlargement and more broadly our 
security relationship with Europe.
    The first principle is that a Europe that is whole, secure, 
and at peace is in the interest of the United States. NATO 
enlargement is the cornerstone of that vision. An undivided 
Europe, whole and free, will be a better partner to the United 
States in global affairs.
    I realize, of course, that differences between the United 
States and a few of our European allies regarding Iraq give 
some the impression that Europe and America are not natural 
partners. These differences are not to be minimized. But they 
do not define the totality of the relationship between Europe 
and the United States nor the strategic imperatives of the 
North Atlantic Alliance. Europe and the United States need each 
other. And I know that the seven invitees to NATO will stand 
among those most committed to the transatlantic relationship.
    The second principle is that the United States and Europe 
exist in the same global security environment. Before them lie 
the same opportunities, challenges, and dangers. Of the latter, 
none is more urgent and lethal than the nexus of weapons of 
mass destruction, terrorist organizations, and terrorist 
states. Cooperation with Europe is vital to the global endeavor 
under way to disrupt and destroy terrorist organizations, their 
leadership, their communications, and their sources of 
financial and material support.
    The third principle is that NATO is and will remain the 
anchor of the U.S. security relationship with Europe. It is the 
central framework for our military cooperation with Europe. And 
NATO promotes among its members common defense policies and 
doctrines and integrated force structures. This level of 
military integration is found nowhere else in the world.
    Finally, Europe remains essential to the maintenance of the 
forward presence for the United States military. In fact, U.S. 
forces forward deployed in Europe were some of the first to 
take up positions in the war against Iraq.
    It is with these principles in mind that we advocate an 
enlargement and open door policy. Our support for the 
aspirations of the seven invitees has been matched by their 
enthusiasm and willingness to contribute to NATO-led operations 
in the Balkans, to Operation Enduring Freedom, to the 
International security Assistance Force in Kabul, and more 
recently in the war against Iraq.
    Sir, you listed many of the contributions they are making 
in the Balkans in these conflicts and peacekeeping operations 
as far as in Afghanistan. So I will not belabor those points 
again. And I believe a chart was handed out to outline them in 
detail.\1\
---------------------------------------------------------------------------
    \1\ See page 21.
---------------------------------------------------------------------------
    What can we draw from these experiences? First, over the 
last decade, these seven invitees have been acting as de facto 
allies. They have demonstrated, by risking their own blood, 
that they not only understand the responsibility of NATO 
membership, they embrace it.
    Second, these seven invitees bring real capabilities to the 
table. Indeed, combined together, the seven add to NATO 
strength some 200,000 to 230,000 men in arms. They promise to 
bring these capabilities that will help NATO meet shortfalls in 
its current force structure.
    Moreover, for their contributions to NATO operations in the 
global war on terrorism, their defense establishments have 
developed a better understanding of how NATO and NATO allies 
conduct military operations. Clearly, there is still much work 
to be done to bring their militaries up to the standards we 
expect of our NATO members. My experience in working with these 
countries shaping and implementing the reform programs shows 
that they are making very good progress and will continue to do 
so.
    Mr. Chairman, in the travels that I and my colleagues 
undertook to these democracies, we have looked at two 
questions. Will this candidate or that candidate strengthen the 
Alliance's ability to protect and promote its security, values, 
and interests? And second, can we be confident that this 
candidate's commitment to democracy and the Alliance's 
responsibilities and values be enduring?
    From my vantage point, I believe the answer to these 
questions is yes for all seven. This conclusion is based on 
their conduct as de facto allies. It is based on their 
soundness of their defense reform programs, multi-year 
endeavors that give one some insight into out-year plans and 
intentions.
    And it is based on the fact that these democracies still 
have fresh memories of foreign domination and totalitarianism. 
With that comes a special appreciation for what it takes to 
protect the core values and interests of the Alliance. It 
explains in part their commitment toward the responsibilities 
that come with membership in an alliance that brought down the 
Berlin Wall, that helped end the Soviet Union, and helped make 
these countries free.
    Thank you, Mr. Chairman. And I am ready to answer any 
questions you or your colleagues may have.
    Senator Allen. Thank you.
    [The prepared statement of Mr. Brzezinski follows:]

  Prepared Statement of Ian Brzezinski, Deputy Assistant Secretary of 
                 Defense for European and NATO Affairs

    Mr. Chairman, members of the Committee, thank you for this 
opportunity to provide Department of Defense views on NATO enlargement 
and the qualifications of the seven candidate countries that were 
tapped at the NATO Prague summit for membership in the Alliance. I 
would especially like to provide you with our perspective on how their 
integration into NATO will enhance the Alliance's security and military 
capability. I would ask that my written statement be placed in the 
record.
    Yesterday, accession protocols for Bulgaria, Estonia, Latvia, 
Lithuania, Romania, Slovakia and Slovenia were signed in Brussels. As 
we pass this important milestone in this round of enlargement, it is 
useful to review the principles that serve as the foundation for this 
Administration' perspective on enlargement and more broadly our 
security relationship with Europe.
    First, a Europe that is whole, secure, and at peace is in the 
interest of the United States. Both America and Europe need each other. 
An undivided Europe, whole and free, and allied with the United States 
is America's natural partner in global affairs.
    I realize, of course, that differences between the United States 
and a few of our European Allies regarding Iraq give the impression 
that Europe and America are not natural partners. These differences are 
not to be minimized, but they do not define the totality of the 
relationship between Europe and the United States nor the strategic 
importance of the North Atlantic Alliance. I am confident that the 
seven invitees to NATO we will discuss today will stand with those most 
committed to the Transatlantic relationship.
    Second, the United States and Europe are both confronted by the 
same threats, and they both have the same opportunities in the changing 
global security environment. The nexus of weapons of mass destruction 
(WMD), terrorist organizations, and terrorist states present an urgent 
and lethal danger to North America and Europe. Cooperation with Europe 
is vital to our efforts to disrupt and destroy terrorist organizations, 
their leadership, communications, and sources of financial and material 
support.
    Third, NATO is and will remain the anchor of the U.S. security 
relationship with Europe. It is the central framework for our military 
cooperation with Europe. NATO promotes among its members common defense 
policies and doctrines and integrated force structures. This level of 
integration is found nowhere else in the world. Moreover, Europe 
remains essential to the maintenance of a forward presence for United 
States military forces. U.S. forces forward deployed in Europe were 
among the first to take up positions in the war against Iraq, ensuring 
not only America's security, but Europe's as well.
    Throughout its history, NATO has repeatedly adapted to changes in 
the international security environment. By continuing to meet the 
challenges of the day, NATO has ensured its ongoing relevance and 
vitality. An example is the historic decision NATO took last year to 
support German and Dutch forces leading the International Security 
Assistance Force (ISAF III) in Afghanistan. With this decision, NATO 
took on not only a new mission, the support of a ``coalition of the 
willing,'' but one well beyond its traditional geographic domain. For 
the Alliance, ``Out of area or out of business'' is no longer an issue.
    In this spirit, Allied Heads of State and Government made important 
and far-reaching decisions at the Prague Summit last November, 
continuing Alliance efforts to adjust to the profound changes in 
Europe's strategic landscape and the global security environment. They 
approved an agenda featuring a new focused capabilities initiative, a 
streamlined command structure and the extension of NATO membership to 
seven Central European democracies. Permit me, Mr. Chairman, to touch 
on some of these initiatives briefly before turning to enlargement.
                          nato response force
    The decision at the Prague Summit to establish a NATO Response 
Force (NRF) promises to provide the Alliance the ability to quickly 
deploy a force capable of executing the full range of missions NATO may 
be called upon to undertake. If implemented to the standards proposed 
by the U.S., the NRF will be lethal, technically superior to any 
envisioned threat, and readily deployable on short notice. Our goal for 
the NRF is an initial operational capability for training by October 
2004, and full operational capability by October 2006. We expect the 
NRF to become the focal point of NATO transformation efforts to meet 
the new threats that the Alliance faces.
                     prague capabilities commitment
    That said, the future success of the NRF depends on the willingness 
of our Allies to meet their agreed-upon NATO defense obligations. As 
you know, many have consistently failed to do so. At the Prague Summit, 
Heads of State and Government approved the Prague Capabilities 
Commitment (PCC) to overcome longstanding shortfalls in such areas as 
strategic lift, communications, NBC defense equipment, and precision 
guided munitions (PGMs). Allied contributions to NRF rotations must 
possess many of the critical military capabilities targeted by the 
Prague Capabilities Commitment in order to be effective. Allied 
contributions to NRF rotations must possess the critical military 
capabilities targeted by the Prague Capabilities Commitment if the NRF 
is to evolve from a paper concept to a fighting force.
                 streamlining nato's command structure
    At Prague, Heads of State and Government also approved the broad 
outline of a streamlined NATO command structure. Operational commands 
will be reduced from 23 to 16 commands. This will ensure the more 
efficient use of financial and manpower resources. More importantly, it 
will provide NATO commanders headquarters that are more mobile, joint, 
and interoperable--critical requirements in the 21st Century. And the 
establishment of a new functional command, Allied Command 
Transformation in Norfolk Virginia, will provide a new and needed 
engine to drive military transformation across the entire Alliance.
    Let me now turn to enlargement and a discussion of the seven 
candidates: Bulgaria, Estonia, Latvia, Lithuania, Romania, Slovakia and 
Slovenia.
                            nato enlargement
    Our support for the aspirations of the seven invitees has been 
matched by, if not superceded by, their enthusiasm and willingness to 
contribute to NATO-led operations in the Balkans, Operation Enduring 
Freedom, and ISAF. More recently, Bulgaria, Estonia, Latvia, Lithuania, 
Romania, and Slovakia joined our coalition in the war against Iraq.
    In short over the last decade, these seven invitees have been 
acting as de facto Allies. They understand the responsibility of 
membership and embrace it. There is still much work to be done to 
further the defense reforms these nations have undertaken to make their 
militaries interoperable with those of the Allies. Based on our 
experience at helping these countries with these reforms, we believe 
these nations are making good progress. We will continue to work 
closely with the invitees throughout the accession process and beyond 
to help them accomplish military reform goals and to develop niche 
capabilities that these nations can bring to the Alliance today to help 
meet capability requirements needed by NATO.
    The ability of the invitees to operate alongside U.S. and Allied 
forces in the Balkans or in the fight against terrorism is no accident. 
The U.S. and NATO have been working closely with the invitees through 
the Partnership for Peace and the Membership Action Plan (MAP) that 
NATO established after the 1999 round of enlargement. The MAP's primary 
goal is to aid the preparations of those nations seeking to join the 
Alliance. Their participation in the MAP and in the Planning and Review 
Process (PARP) within NATO's Partnership for Peace (PFP) has enabled 
them to make significant strides in reforming their militaries and in 
enhancing the interoperability of their armed forces with NATO.
    Mr. Chairman, let me provide the Committee with a few remarks about 
each invitee.
Bulgaria
    Bulgaria's defense plans are based on a force structure review that 
incorporated substantial U.S. and Allied input. Much progress has been 
achieved in the fundamental reform of the Bulgarian military that 
should help them develop force structures compatible with those of 
Allied countries. Sofia is concentrating its resources and military 
training on developing such niche capabilities as: special forces 
units; engineer units; logistic support units; and NBC Defense units. 
The Bulgarian government has agreed on a minimum level of defense 
expenditures, projected at 2.84 percent of GPD in 2003 and 2004. 
Bulgaria also hosted U.S. tanker and transport aircraft in support of 
Operation Enduring Freedom (OEF) and is hosting U.S. aircraft in 
support of the war with Iraq, as well as deploying a Bulgarian NBC unit 
as part of coalition forces.
    The illicit Terem arms-dealing scandal, which involved the 
attempted sale of dual use military equipment to Syria in the fall of 
2002, is of great concern of the United States. The Government of 
Bulgaria cooperated with the U.S. government in investigating this 
case. Sofia continues to work on reforms that will preclude a repeat of 
this case. The U.S. Government does not consider the Terem case to be 
closed and will continue to monitor closely the Terem investigation 
with the expectation that all individuals involved will be held fully 
accountable.
Estonia
    Estonia has worked hard to make the most of its defense resources, 
focusing its efforts on one brigade with a deployable battalion plus 
supporting units. It is also working to develop specialized 
capabilities for the Alliance, including Explosive Ordnance Disposal 
(EOD) teams and military police. Like the U.S., Estonia is outsourcing 
some of its logistics requirements through commercial contracts. 
Estonia has committed a minimum of 2 percent of GDP towards defense 
spending, and will focus efforts to improve the capability of its 
deployable units while reducing the amount of resources spent on 
territorial defense. Along with Latvia and Lithuania, Estonia has 
participated in many cooperative Baltic defense projects. These Baltic 
efforts include BALTBAT (the Baltic Battalion), BALTNET (the Baltic air 
surveillance network), BALTRON (the Baltic mine countermeasure 
squadron), and the Baltic Defense College. An Estonian EOD team 
deployed to Afghanistan in support of OEF and another is deploying 
there in support of ISAF.
Latvia
    Latvia's National Security Plan, based on it's new National 
Security Concept, was approved by the government in July 2002. Latvia 
is moving defense resources away from territorial defenses and toward a 
brigade that will include deployable units. It is also developing 
specialized formations, including divers, EOD, military police, medical 
units, and Special Operations Forces. Formation of a Special Operations 
Command is also underway. Latvia's Parliament is legally committed to a 
minimum of 2 percent of GDP towards defense spending through 2008. 
Along with Estonia and Lithuania, Latvia participates in the 
cooperative Baltic defense projects described above. Two Latvian 
medical teams have deployed to Afghanistan to support ISAF.
Lithuania
    Lithuania has examined its force structure in light of NATO 
initiatives agreed upon at the Prague Summit. Lithuania's defense 
modernization plans focus on a brigade with rapidly deployable units 
and specialized ``niche'' capabilities such as: engineers, medics and 
special forces. Lithuania's defense budget plans for 2002-2007 appear 
sound and affordable; all 12 major political parties are committed to 
defense spending of 2 percent of GDP. Along with Estonia and Latvia, 
Lithuania has partaken in the cooperative Baltic defense projects 
described above. Lithuania also has a special military relationship 
with Poland featuring a joint battalion, and a Lithuanian platoon is 
embedded in the Polish-Ukrainian battalion operating in Kosovo. A 
Lithuanian Special Operations Forces unit is deployed in Afghanistan to 
support OEF and a medical team is deployed with ISAF.
Romania
    Romania has placed a high priority on development of specialized 
``niche'' forces in preparation for NATO membership: mountain brigades, 
military police and unmanned aerial vehicles (UAVs). Its land force 
units are to be trained to meet NATO-compatibility requirements by the 
end of 2003, leading to an increase in the number of interoperational 
Romanian units. Romania is committed to defense expenditures of at 
least 2 percent of GDP. Romania has deployed--and transported with its 
own airlift--an infantry battalion and military police to Afghanistan 
in support of OEF and granted overflight, transit and basing rights for 
Afghanistan and Iraq operations. For the war on Iraq, Romania has 
provided an NBC unit, has offered peacekeepers for post-conflict Iraq 
and is providing basing for U.S. forces.
Slovakia
    Slovakia's current defense reforms are solid and follow the ``Force 
2010'' Long Term Plan, which is the product of a comprehensive defense 
review created with U.S. assistance. Slovakia's specialized ``niche'' 
capabilities include: dedicated nuclear-chemical-biological (NBC) 
reconnaissance and decontamination capability; mobile analysis labs 
with modern detection and marking systems; and engineering and special 
operations capabilities. Slovakia's Parliament approved 2 percent of 
GDP as the minimum for defense outlays, starting in 2003. Slovakia 
deployed an engineering unit to Kabul and an NBC unit to support the 
war with Iraq.
Slovenia
    Slovenia's defense reform is based upon the ``General Long-Term 
Development and Equipping Program of the Slovenian Armed Forces, 2002 
to 2007.'' This will encompass a new force structure concept aimed at 
creating more mobile, capable, and deployable reaction forces, while 
reducing and modernizing the main defense and reserve forces. Slovenia 
plans to end conscription in 2004 and implement a fully professional 
force, based on regular active duty personnel and a voluntary reserve, 
by 2008. Specialized ``niche'' capabilities and assets that can be 
offered to the Alliance include: mountain warfare, special operations 
forces, military police units, and military field medicine. Its new 
force structure emphasizes deployability and sustainability. Slovenia 
is committed to increase defense spending to 2 percent of GDP by 2008. 
(It is currently 1.6 percent).
                            nato's open door
    For those aspirants not invited at the Prague Summit, the door to 
NATO membership remains open. The three current NATO aspirants--
Albania, Croatia, and Macedonia--are continuing to participate in the 
MAP and to prepare themselves for the responsibilities of NATO 
membership. Through NATO programs and bilateral efforts, we will work 
with Kiev on the goal of Ukraine's integration into Europe--an 
integration that will not be complete as long as Ukraine remains 
outside of Europe's key political, economic, and security institutions.
    Mr. Chairman, we believe the candidates selected by Heads of State 
and Government at the Prague summit hold great promise as Allies, not 
only because of a common set of values that helped see them through the 
dark days of totalitarianism and communism, but also because of their 
eagerness to prove themselves as good Allies. We need to have their 
energy and enthusiasm at the table in the councils of NATO and we need 
their ideas and their capability too as we grapple with the issues and 
challenges yet to come.
    Thank you, Mr. Chairman, and I am ready to answer any questions you 
or the Committee may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Allen. Thank you, Secretary Brzezinski. I know you 
are very comfortable. We do want to welcome you back here to 
this committee. And both your statement and that of Secretary 
Bradtke, if you do not mind, we would like to make that a part 
of the permanent record of this hearing.
    Mr. Bradtke. Thank you very much, because I had summarized 
my statement.
    Senator Allen. I know you did. And I was just thinking that 
while you did not want to be repetitive, we appreciate that. 
But it is important that it is part of the record. We have your 
assessment of each and every one of these aspirant countries.
    We will have 7-minute rounds. With the indulgence of my 
colleague, I will start and then go over to you. And if others 
come in, we will go that way.
    The first question, and Secretary Bradtke brought this up, 
on the gray arms, and both of you alluded to it. And in 
particular, while we are all in favor of these aspirant 
countries joining NATO, in this love and happiness it is also 
important to recognize that there are problems and concerns, 
let us say, that still remain. In particular, in the area of 
gray arms, and in particular the country of Bulgaria. There 
have been reports that senior defense officials in Bulgaria may 
have been involved in a scheme to export dual-use military 
equipment to Iraq. Could any of you all share with us some of 
the efforts that have been made by these countries to combat 
such corruption? Are the measures working? What steps are these 
countries taking to deal with this gray arms sales issue? And 
how are we helping them improve their export controls?
    Whoever wants to take that----
    Mr. Bradtke. Mr. Chairman, if I may just introduce as an 
answer to that question say that a number of these countries 
did inherit from their days in the Warsaw Pact arms industries, 
which were involved in export to countries that we would have 
concerns about. And we have worked very intensively with all 
those countries to try to strengthen the systems of export 
control in those countries, to provide technical advice to 
them, to share intelligence with them, to shut off such sales.
    Now you raised the specific case of Bulgaria. And that is 
where I would like to ask my colleague, Janet Bogue, to respond 
in a little greater detail.
    Ms. Bogue. Thank you, Mr. Chairman. The question of gray 
arms is an extremely serious issue, and one which we take with 
the utmost seriousness. And it is one of those challenges you 
referred to, Mr. Chairman, that the countries, the aspirant 
countries, have had to overcome from their past.
    In the case of Bulgaria, I think Bulgaria's democratically 
elected government is tackling this issue of gray arms. And it 
is tackling it on the basis of recommendations we have made to 
the government for systemic and structural fixes to the system 
of export controls in the country, as well as the defense 
industry itself. And we are working very well, closely, and 
cooperatively with Bulgaria on those systemic changes.
    The case to which you alluded, Mr. Chairman, the so-called 
Teem case, I think, has been a wake-up call for Bulgaria. There 
is an ongoing investigation of the case in Bulgaria. I think it 
would be inappropriate for us to comment at this stage on the 
outcome of that investigation, which still proceeds.
    I would say that the U.S. Government, we have urged the 
government of Bulgaria to pursue that investigation to wherever 
it leads. And at the same time, as I mentioned, we are working 
closely with them to make fixes that will help prevent any kind 
of repetition of such a case.
    Thank you.
    Senator Allen. Thank you. I realize some of this is 
sensitive information that we would not want to make public.
    Secretary Brzezinski, do you have anything to add?
    Mr. Brzezinski. Sir, I guess I would just emphasize four 
points. First, the Terem case involved the sale of dual use 
materials that, according to some reports, could have ended up 
in Iraq. And that is----
    Senator Allen. Would you say that again? I did not 
understand. Could have ended up in Iraq?
    Mr. Brzezinski. Could have. Could have ended up in Iraq. 
And that is, of course, at a time when we are at war with Iraq, 
a grave concern.
    Second point is that cooperation with the Bulgarians has 
been very good. Now they have cooperated in the investigation 
with us in this. And that has been solid.
    Two, the case is still open. And we expect the case to 
yield to a result that will ensure all parties involved were 
held fully accountable.
    Senator Allen. Those are three points. What is the fourth? 
Could have gotten to Iraq, they are cooperating, case is still 
open.
    Mr. Brzezinski. And accountability is key.
    Senator Allen. That is at the end of the case. OK. Because 
I like to--when we come back months from now, I will just 
remember these key components.
    Let me ask you all another question here with my remaining 
time. You know, after the NATO aspirant countries here issued 
the Vilnius-10 declaration, which was in support of the United 
States action in Iraq, there were assertions by France and by 
Germany, they were kind of hinting, hinting that they may 
oppose EU membership for the Vilnius-10 countries. What is the 
European position today on the Baltic membership in NATO? And 
will Germany veto their membership because of the Vilnius-10 
declaration? And what would the U.S. position be if that were 
the case?
    Mr. Bradtke. I am more comfortable talking about what the 
American position is than what the European Union position is, 
Mr. Chairman.
    Senator Allen. All right. Well, you all have some 
intelligence. We----
    Mr. Bradtke. What I will say is that among the seven 
countries invited to join NATO, five of them are also on track 
to become members of the European Union in 2004. Bulgaria and 
Romania are on a somewhat longer track for EU membership. We 
have supported the EU's efforts to bring in new numbers. We 
think this strengthens the European Union. It strengthens the 
Trans-Atlantic relationship. It helps solidify and consolidate 
democracy and reform in these countries. So we have been 
supportive of this process.
    Frankly, it does distress us to read statements or hear 
reports that some EU countries are suggesting that because 
these countries have been supportive of the United States, that 
this might be a problem for their membership. As we look around 
the European Union, there are plenty of other current European 
Union members, including the United Kingdom with Tony Blair, of 
course, just here today, that are also supporting the United 
States' policy on Iraq.
    So again, we would not want to see their candidacy for the 
European Union in some way being jeopardized or endangered or 
threatened because they have decided that on this issue they 
are closer to the position of the United States. And this is a 
point we have made to the European Union and our European 
colleagues.
    Again, having said that, we are not looking here for these 
countries to be forced to make a choice between NATO or the 
United States and the European Union. We think this is 
compatible, membership in both organizations. And it 
strengthens the transatlantic relationship.
    Senator Allen. Does Secretary Brzezinski or any other have 
any comments, insight? So have you followed up? Have they made 
such assertions? Most of those that I am referencing were made 
publicly. And they were more of hints as opposed to real 
threats. Have you heard any further comments on that?
    Mr. Bradtke. I would just say that this has been an issue, 
that we have talked to both officials of the European Union and 
Commission on Brussels about from the commission. And it is 
also an issue that we have had as a part of our bilateral 
conversations with a number of European Union countries.
    Senator Allen. Well, have the French or the Germans said 
anything to you? Let me be direct here. Have you heard any 
noises, hints, assertions, assignations?
    Mr. Bradtke. We have had a variety of things said. Some of 
them have been said directly to the countries involved. And we 
have had conversations with those countries about those 
assertions. A number of the things have been said in public. 
And in response to those public comments and the comments we 
have heard privately, we have gone back to our European friends 
and said that we do not think this is an appropriate approach.
    Senator Allen. Well, if I may. What about--it does not just 
have to be the United States. What about the Dutch or Italians 
or Spanish or British, have they also said that they were not 
going to make this sort of an issue as far as the EU is 
concerned?
    Mr. Bradtke. I have not--I am not aware of what they are--
--
    Senator Allen. No. I know they are with us in Iraq. But it 
is not just our responsibility to talk to the French and the 
Germans or the Belgians.
    Mr. Bradtke. You make a very good point. This would 
undoubtedly be a matter of concern, not just to us----
    Senator Allen. Right.
    Mr. Bradtke [continuing]. But to those members of the 
European Union that have a different position on the Iraq 
issue. I cannot say that I am aware of anything specific where 
the UK or the Netherlands or some other country has brought 
this to the attention of the governments of France or Germany. 
That may have happened. I am just not aware of how internal EU 
discussions have gone on this point.
    Senator Allen. Fair enough.
    Now I would like to turn it over to the ranking member 
here, a man who is still our chairman and leader in so many 
ways, Senator Biden.
    Senator Biden. Thank you. Ian, which side is easier? Is it 
easier to be over there in the Defense Department, you know, 
doing it all or over here critiquing it? I mean, which do you 
like better?
    You do not have to answer that question. It may prejudice 
you in some way.
    It seems to me that NATO membership is going to serve as a 
powerful stimulus to an ongoing process of democratization and 
free market economic development in the seven aspirant 
countries. And it is precisely this process that I think is 
going to move the zone of stability to the east more than 
anything they add to the military prowess of NATO, although 
they will add, I hope.
    This committee, as some of you know, takes this advice and 
consent responsibility very seriously. And today's hearing is, 
to state the obvious, devoted exclusively to detailed 
examination by all of you of the qualifications for NATO 
membership for each of these candidate countries. And there is 
not any doubt that the future of these countries, in my view, 
is in NATO. Each country has effectively utilized the MAP 
process to move closer toward its goal of joining the Alliance. 
But the MAP, however, is not a universal checklist, nor is 
completion of the MAP process a guarantee of NATO membership.
    Ultimately, the current members of NATO have to consider 
whether these seven countries invited in Prague are ``willing 
and able to assume the responsibilities and obligations of 
membership.'' This requires a fair review of the military and 
nonmilitary qualifications. And there is a lot to cover.
    To the extent possible in our limited time, I would welcome 
your views on some or all of the following military issues: The 
level and priorities of each country's military spending; the 
extent of the civilian control over the military, the command 
structure, and the sophistication of the defense planning 
process; the interoperability of each country's forces with 
NATO, as well as how these forces are being restructured to 
better address modern security challenges; the specialty or 
niche capabilities of these invited countries, to the extent 
they have one; the collective training regimes in place and the 
development of English language competencies; and, very 
importantly, the counterintelligence capabilities and secure 
communications in each country, and the overall ability to 
safeguard NATO's classified information.
    There are also nonmilitary concerns that have to be raised. 
I will not raise them now. I would ask unanimous consent that 
the entirety of my statement be placed in the record, Mr. 
Chairman, at this time.
    Senator Allen. No objection.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Welcome. We are pleased to have such a talented panel with us here 
today.
    The reason for this hearing, as you know, is to begin our 
Constitutionally-mandated process of advice and consent, specifically 
to consider an amendment to the North Atlantic Treaty of April 4, 1949 
to enlarge the membership of NATO.
    At the Prague Summit last November, the Alliance voted to extend 
invitations to final discussions on membership to seven countries: 
Bulgaria, Estonia, Latvia, Lithuania, Romania, Slovakia, and Slovenia.
    Five years ago, I had the privilege of being the floor manager for 
the Ratification of the admission to NATO of Poland, Hungary, and the 
Czech Republic.
    The fundamental rationale for their admittance--extending the zone 
of security into Central and Eastern Europe--remains, in my opinion, 
persuasive today.
    Few would argue that the militaries of most of the seven candidate 
countries will greatly enhance the war-fighting ability of the 
Alliance, at least in the short-term.
    But, it seems to me, NATO membership will serve as a powerful 
stimulus to the ongoing processes of democratization and free-market 
economic development in the seven countries. And it is precisely these 
processes that will move the zone of stability in Europe farther 
eastward.
    This Committee takes the Senate's advice and consent responsibility 
very seriously.
    Today's hearing will be devoted exclusively to a detailed 
examination by Administration witnesses of the qualifications for NATO 
membership of each of the candidate countries.
    The outstanding team assembled today understands the importance of 
a serious examination of these issues. Each of you has visited some or 
all of the invited countries several times. I look forward to hearing 
your assessments.
    I am pleased to welcome you to the Foreign Relations Committee.
    Thank you, Mr. Chairman.

    Senator Biden. And I would like to move to a question I 
never thought I would ask when we were talking about NATO 
enlargement. And as Ian knows from working up here, because we 
worked closely with Senator Roth and we had the honor of sort 
of leading the effort to expand NATO last time, I am a staunch 
supporter of expanding NATO. But I have been a Senator for a 
fair amount of time now, or since 1973, and I have attended, I 
do not know, Lord knows, how many conferences on whither NATO. 
But this is the first time in my career, I think, there is a 
real question, not about expanding, about the relevancy of 
NATO, period.
    I will go into this next week. But I am told--and I do not 
have this for certain--but Belgium has called for a meeting in 
three or four weeks, where they disinvited the Brits and the 
Americans, to discuss what it seems to me, Ian, to be not ESDI, 
but ESDI at large, a totally separate, independent of NATO, 
European entity. And Prodi of the European Commission 
immediately thought that was a good idea. We have the 
confluence--and I am not making a judgment--of if there was 
ever oil and water, it is Cheney, Rumsfeld, Chirac, and 
Schroeder, if I have ever seen it anywhere.
    So my first question--and I am not being facetious about 
this--particularly from the Defense Department position, how 
committed is the administration to NATO? Because I have read 
all the neo-con stuff for the last 10 years about how NATO is a 
drain, how we are over-extending, the extent of our commitment 
to NATO exceeds its capacity, how the gap is so wide in 
capability that it is never going to be narrowed, because 
clearly not now or in your careers or mine--I will speak for 
myself, in my career--most of you are much younger, so you have 
a longer time--is it likely that France or Germany is going to 
step up to the plate and make the commitment that they need to 
make to reduce that gap in capabilities?
    So I have an urgent concern to expand NATO because I think 
it is the only thing that gives us any sort of footing to say 
that indirectly we plan on remaining a European power, in spite 
of all the rhetoric I hear coming out of primarily the Defense 
Department folks, not the uniformed military, the civilian 
military.
    And so I am not being a wise guy when I asked the 
question--if you would rather not answer it, I understand. I 
mean, because it, in a sense, is a phrase that--you remember, 
Ian, you were here--that got me in trouble with a guy who came 
and testified during the Clinton era, who was a U.N. inspector. 
What was that fellow's name?
    Staff. Scott Ritter.
    Senator Biden. Scott Ritter. And I said that his judgments 
were above his pay grade. And every right-wing guy in America 
attacked me. Where are they now with old Scott Ritter? But at 
any rate, this is, in a sense, above my pay grade here. And it 
may be above--not above my pay grade, frankly. It may be above 
your pay grade to answer the question.
    But really and truly, how vital is NATO in the eyes of this 
administration's defense establishment? For real. That is not a 
question that I am--it is not a rhetorical question. I am 
genuinely interested, if you could speak to that.
    Mr. Brzezinski. Yes, sir. And I will try and stay within my 
pay grade.
    Senator Biden. I just do not want to get you in trouble.
    Mr. Brzezinski. First, I think if you look at the Prague 
summit agenda and you look how aggressive it is and how 
historic it is, it would erase any doubts you may have of the 
administration or the Department of Defense's commitment to 
NATO. What we are committed to is a fundamental rejuvenation of 
NATO. We are committed to a vision where NATO plays an even 
more important role, taking on contemporary challenges and 
future challenges that we expect to face.
    At the Prague summit, we not only extended our commitments 
and some security guarantees to seven new democracies. We also 
undertook a certain amount of controversy within the Alliance 
itself. That is, we were pushing an agenda, an agenda that 
featured a NATO response force, an ability to give NATO the 
capability to respond on short notice, on a day's notice, to 
any contingency anywhere in the globe with a force capable of 
conducting the full spectrum of high end, high intensity 
military operations.
    We initiated the Prague Capabilities Commitment Initiative, 
another effort to help the allies fill gaps and shortfalls so 
that the Alliance can continue to play a relevant role to our 
common security. We have initiated a complex, politically 
difficult command structure reform. We are fundamentally 
redoing NATO's command structure. That is a thankless task. But 
we are doing it because we are committed to NATO. And we 
envision NATO playing an important role in the future.
    I would add, after September 11, that should erase any 
doubt in anybody's mind about the relevance of NATO in the 
administration, out of the administration, in the United States 
and in Europe.
    Senator Biden. Why?
    Mr. Brzezinski. Why? Because they responded effectively to 
an attack on the United States.
    Senator Biden. But then we responded effectively to say: 
Germany, keep your troops in Germany. Do not send them to 
Afghanistan. France, we do not need your help. Senator Lugar 
and I made a call to the White House. We wanted to go down to 
see the President right away and say: For God's sake, accept 
the offer. You do not need them, but accept the offer.
    Mr. Brzezinski. Sir, we have a number of allies working 
with us, including the Germans and the Danes and the French.
    Senator Biden. Where?
    Mr. Brzezinski. In Afghanistan today through ISAF and under 
Task Force 180.
    Senator Biden. All right.
    Mr. Brzezinski. And we have NATO playing an important role 
in supporting the German-Dutch lead of ISAF.
    Senator Biden. But that came after the fact, after we 
stiffed them on that vote of confidence by one vote.
    Mr. Brzezinski. I do not know if we stiffed anybody.
    Senator Biden. What would you call it?
    Mr. Brzezinski. I am not sure that NATO immediately after 
September 11 would have rushed into Afghanistan.
    Senator Biden. Well, the Germans actually took a vote, did 
they not, in their parliament? They took a vote, by one vote, 
to have troops out of the theater, to participate----
    Mr. Brzezinski. And they are. And they are standing by.
    Senator Biden. But we said no. After the fact, we got ISAF 
in. OK. Well, I hope you are right. I hope you are right. 
Because I think that--and I will end with this, Mr. Chairman. I 
think the entirety of America's ability to conduct its foreign 
policy globally depends in larger part upon the stability of 
Europe and us remaining a European power at its base, at our 
base, as any other single undertaking we have in the world. And 
I think we are--I hope we can turn this expansion into 
something more than it was intended to do in the first place.
    I hope we cannot merely expand. I hope we can remedy. I 
hope we can heal. Because it is, as you know, all of you know--
I doubt--well, I do not want to put words in your mouth. But 
let me put it this way: I would be surprised if any one of you 
in your trips to Europe in the last 8 months have met with as 
much skepticism or hostility as you have been in your entire 
careers.
    It may be passing. But I am worried that as we sort of 
engage mutually, particularly the French and the Germans, in 
the sort of name calling, you know, the comments that we each 
make about one another, I think is corrosive. And I hope we can 
use the expansion of NATO as an opportunity in Prague to begin 
to heal. Hopefully, it is temporary, a temporary divide here in 
the Alliance, because I really believe the Alliance's 
importance and consequence exceeds its military capability.
    But that is enough of my editorial comment. You all do not 
need that.
    Mr. Chairman, I have about a dozen questions specifically 
directed to our witnesses that I would like to submit to them, 
rather than have them go through them now, submit to them and 
ask if they would respond in writing. They are not going to 
make a lot of work. I mean, tomes are not required in response. 
But they are direct questions. With your permission, may I do 
that, Mr. Chairman?
    Senator Allen. Yes. You have my permission. And I am sure 
that all of our witnesses will work on answering those 
questions forthwith.
    Senator Biden. And I want to thank you, the four of you, 
for your professionalism, for the seriousness with which you 
have undertaken this effort, for both the scholarship and the 
political acumen that you possess. This is a difficult time in 
the Alliance. And I think we all have an obligation to try to 
repair. It may not be broke. As Ronald Reagan used to say, ``If 
it ain't broke, don't fix it.'' It may not be broke, but it 
could use a little fixing. It could use a little fixing right 
now. And I am glad you all are trying, because I know you are 
devoted to it. And I appreciate it.
    I thank you, Mr. Chairman.
    Senator Allen. Thank you, Senator Biden. Indeed, the 
questions that you ask are very pertinent questions, some of 
which I would have followed up on.
    And I think all the members of the committee, while 
everyone is scattered in a variety of areas, they are all very 
probative questions. And your answers, some of them were 
addressed in your statements, others in this committee will 
care to read very closely.
    I have no further questions. I want to thank you all for 
appearing, for your assistance, for your insight and your 
commentary here today and in the weeks to come. I am hopeful 
that this committee will vote very quickly on this matter, as 
decisions are being made. I do want to say, as did Senator 
Biden, my agreement with him on the concerns that we have had 
and the importance of the transatlantic alliance for military--
and as I said in my opening statement, I would like to see this 
ascension to NATO of the seven aspirant countries be able to 
revitalize NATO and also maybe renew the commitment that we all 
have to the shared values of individual rights and to our 
common goals.
    And I want to thank the Ambassadors Jurgenson, Usackas, 
Ducaru, and Kracun for being with us, and the Chiefs of 
Missions Yalnazov, Eichmanis, and Kmec for being here. I think 
that you all can report back to your countries that it appears 
that there was bipartisan support on the Foreign Relations 
Committee for you to join our team. And indeed, we celebrate in 
the freedoms and the liberties that you all are exercising so 
responsibly. And we look forward to working with you in the 
years to come.
    Thank you all. We are adjourned.
    [Whereupon, at 3:51 p.m., the committee adjourned, to 
reconvene at 9:30 a.m., April 1, 2003.]
                              ----------                              


             Additional Statements Submitted for the Record


           Prepared Statement of Senator Russell D. Feingold

    I thank the chairman and the ranking member for holding this 
hearing, and I thank all of the witnesses for being here today.
    Not long ago, the very suggestion that Bulgaria, Estonia, Latvia, 
Lithuania, Romania, Slovakia and Slovenia would be joining NATO would 
have been unlikely. Too often, we are blase about the changes that have 
taken deep root in Europe in such a short time. It is important to take 
a moment to marvel at how far we have come, and at how many positive 
changes we have witnessed in our world, especially at this tumultuous 
and difficult time in world affairs. The inclusion of Europe's new 
democracies in NATO is proof that positive change is possible on a 
grand international scale--and a reminder that it takes hard work and 
vision to facilitate such change.
    As NATO continues to define its role in the post-Cold War world, I 
believe that it will benefit from the membership of a whole and free 
Europe, and a strong NATO remains firmly in America's national 
interest. Of course, it is also in America's interest to ensure that 
decisions to expand NATO are responsible and provide for all NATO 
member states participate in burden sharing and to contribute 
meaningfully to the organization as a whole. Today's hearing is a 
valuable opportunity for exploring these important issues.

                                 ______
                                 

 Prepared Statement of Regina F. Narusis, J.D., Chair of the National 
       Board, Lithuanian-American Community, Inc.--NATO Position

    Lithuanian-American Community, Inc. supports:

          1. United States continued involvement and commitment to NATO 
        and security in Europe.

          2. The revitalization of the NATO Alliance.

          3. The admission of all seven nations invited to join the 
        NATO Alliance at Prague in 2002.

                   north atlantic treaty organization
    NATO has been since its formation in 1949 the most effective 
defensive alliance uniting North America and Europe. It was 
instrumental in winning the Cold War, in encouraging European nations 
to foster democracy, rule of law, free market economies and in 
preserving peace and stability. Pre-World War II non-engagement or 
isolationism has proven to be costly to us militarily, financially and 
in loss of life. History has taught us that the United States has been 
drawn into European conflicts of the 20th century because our vital 
interests are ultimately engaged there.
    The world has changed both technologically and geopolitically since 
the end of the Cold War. Distances and oceans are no longer barriers to 
danger. Established democracies have grown stronger and more assertive, 
such as France and Germany. New democracies have emerged and are 
seeking their rightful place in world affairs. Our involvement becomes 
more crucial as does transatlantic cohesion to prevent conflict among 
its key members.
    The Soviet Union no longer exists, but new threats have emerged. We 
have gone from the risk of nuclear exchange to multiple threats of 
global insecurity. The United States will not be able to sort out alone 
every international threat that now faces us, without depleting 
ourselves physically, mentally and financially. We need allies.
    The countries that share our values and history are the NATO 
countries. The United Nations is an organization of nations that do not 
have the same common values and thus, as recently evidenced, are able 
to debate but not solve problems, much less act to correct them.
    NATO has survived the test of time. It unanimously and for the 
first time in its history, invoked its founding principle of collective 
defense on behalf of the United States following the September 11th 
attacks. It did at first stumble when Turkey requested assistance in 
the event of an Iraqi attack, but it found a means to meet the Turkish 
request within the Alliance. The Alliance assisted Russia, the former 
adversary, to come to grips with reality. Moscow did sign a new 
cooperation pact with the Alliance in May of 2002 in Rome reaffirming 
the right of every nation to choose its own allies and alliances.
    NATO is reorienting itself, but if it revitalizes itself by means 
of further expansion and restructuring of its military forces and 
establishing a new NATO Rapid Response Force that can be staffed and 
shared by all members, it will become only stronger and better.
                             nato expansion
    The admission of the Czech Republic, Hungry and Poland was a 
success. The bulk of the actual costs of enlargement have been borne by 
the new countries. Their relationship with Russia has improved, rather 
than become a threat. These new members have been true allies. They 
have contributed to NATO operations: in NATO peacekeeping missions, 
sent specialized chemical warfare troops to the Gulf and hosted the 
Iraqi exiles for training to support United States forces. The largest 
NATO exercise involving 5,000 troops, ``Victory Strike'', was in 
Poland. These new members have given united support to the bond between 
United States and Europe.
    In 2002 in Prague the artificial Cold War division of Europe 
finally came to an end. NATO leaders approved the Alliance's largest 
expansion in its 53 year history. The expansion encompasses Estonia, 
Latvia, Lithuania, Bulgaria, Romania, Slovakia and Slovenia.
    NATO accession of these seven nations will change the way we 
perceive the region. With the support of the United States, these 
nations will take their rightful and equal place in a Europe whole and 
free. They will not let the Franco-German domination take root or the 
Russians exploit the effort to eliminate United States influence in 
Europe. These are the nations that understand the true meaning of 
freedom and democracy. Because of their enslavement and long struggle 
for freedom, their approach to foreign policy is different from those 
in Western Europe. They know that appeasement does not work and that 
dictators must be dealt with.
    These nations have a relationship with the United States that has 
stood the test of time. In great part, thanks to the United States, 
Europe rid itself of three forms of tyranny--Nazism, Communism and 
Fascism. They see America as the only real guarantor of their security. 
History has taught them, that neither France nor Germany can be trusted 
to put European interests ahead of their own. The supportive letter 
from the Vilnius 10 members proves their loyalty to NATO. These nations 
are dynamic, full of new energy and most of all are becoming 
increasingly assertive. These countries are also entering the European 
Union and will change that organization from within. We all need a 
united Europe, not a Western Europe (so called ``old Europe'') or 
Central and Eastern Europe (``new Europe''), but a Europe where all 
nations are equal and are so treated. Continued United States 
involvement can help bring this about. The countries of Central and 
Eastern Europe want NATO to be strong and to keep a United States 
presence. The American influence through the process of enlargement 
will only grow. Through enlargement of NATO all of Europe will be more 
balanced and reinvigorated. Enlargement makes strategic sense for the 
United States and will prove to be the greatest strategic and political 
gain for the Alliance.
    Though not yet members of the Alliance, the seven invitees to NATO, 
have already contributed to NATO, thus have proven their commitment and 
worth. They all have sent troops to preserve peace in the Balkans, they 
all have supported the United States in the war against terrorism and 
made their airspace and bases available to the U.S.-led coalition. They 
have joined the Operation Enduring Freedom in Afghanistan and are 
contributing highly skilled troops. These countries have issued a joint 
statement early on supporting the United States efforts to disarm the 
Iraq regime. Their governments have declared preparedness to contribute 
politically and with other means to the efforts of the United States 
led coalition against Iraq. Slovenia is contributing mountain units. 
Slovakia is contributing chemical and biological expertise. Romania 
sent a battalion of troops to the war zone. Bulgaria is sending 
chemical warfare specialists to the Gulf. The Baltic nations are 
contributing special units as well as cargo handling and medical teams.
    Lithuania alone has sent 914 military personnel, maintained an 
infantry platoon with the Polish battalion in KFOR, provided An-26 
transport aircraft with crew and logistics personnel and contributed 
medical personnel to preserve peace in the Balkans. To the war in 
Afghanistan, Lithuania has offered use of its airspace and airfields, 
support for ``Operation Enduring Freedom'', deployed medical teams with 
the Czech contingent in ISAF in 2002 and German contingent in 2003 and 
deployed Special Operations Forces unit in support of OEF. To the war 
in Iraq, Lithuania has sent its liaison officer to CENTCOM, signed the 
V-10 statement compelling Iraq to disarm, offered overflight and 
transit rights to United States and coalition forces and offered cargo 
handlers and medics.
         foreign policy is and should not be a partisan matter
    In l993 the Clinton Administration made the decision to invite new 
members. The l994 ``Republican Contract with America'' supported NATO 
enlargement. On April 30, 1998 United States Senate ratified the last 
NATO expansion by a 80 to l9 vote.
    The Democratic and Republican Party Platforms of 2000 supported 
NATO enlargement, as did both presidential candidates.
    On April 5, 2001 seventeen United States Senators, both Republican 
and Democrat leaders, wrote a letter to President Bush urging the Bush 
administration to ``ensure'' that NATO invites qualified European 
democracies to begin accession negotiations at the 2002 Summit in 
Prague.
    NATO enlargement and ratification is and should remain a non-
partisan issue.
    For all the reasons aforesaid, NATO enlargement will support and 
increase the security and international interests of the United States.
                              ----------                              


            Responses to Additional Questions for the Record


Responses of Ian Brzezinski, Deputy Assistant Secretary of Defense for 
   European and NATO Affairs, to Additional Questions for the Record 
               Submitted by Senator Joseph R. Biden, Jr.

                                bulgaria
    Question 1. The level and priorities of military spending:

    Answer. The Government of Bulgaria (GOB) has decided to spend no 
less than 2.84% of GDP on defense in 2003 and 2004. Priorities for 
Bulgaria's defense spending have focused on funding defense reform 
efforts, infrastructure upgrades and strategic command and control.

    Question 2. The extent of its civilian control over its military, 
the efficiency of its command structure, and the sophistication of the 
defense planning process:

    Answer. Bulgaria exercises civilian control over the military, 
although it is experiencing difficulties (like many nations) building a 
Ministry of Defense with professional civilian staff. Recent reform and 
reorganization has greatly streamlined the Bulgarian command and force 
structure (based on a force structure review incorporating substantial 
U.S. and Allied input). However, while improved over the past few 
years, Bulgaria still has problems in command and control due to the 
lack of interoperable communications equipment. Elimination of excess 
Warsaw Pact era equipment and ongoing upgrades of command and control 
systems will likely further streamline the command structure. In 1997, 
with U.S. assistance, the Ministry of Defense put into place a 
Planning, Programming, and Budgeting System (PPBS). As the Bulgarians 
become more experienced with the process it should make more effective, 
efficient and rational the allocation and control of defense 
expenditures and ensure that plans are more closely linked to available 
resources in the future.

    Question 3. The interoperability of Bulgaria's forces with NATO, as 
well as how these forces are being restructured to better address 
modern security challenges.

    Answer. Current interoperability with NATO remains low, but should 
improve as Bulgaria moves to a completely professional force by 2010. 
Though burdened by a large excess of Warsaw Pact era heavy equipment, 
Bulgaria is attempting to develop a smaller, lighter and more mobile 
force structure (Bulgaria has downsized its force structure 
approximately 50% since 1997). Its reform program emphasizes the 
creation of a rapid reaction force based in the center of Bulgaria able 
to respond to a deployment order within 30 days. Bulgaria has 
demonstrated gains in interoperability with Allied forces as shown by 
its participation in SFOR, KFOR and ISAF. Bulgaria's focus on the 
development of specialized niche categories such as special operations, 
engineer, and NBC Defense are indicative of its effort both to address 
the challenges of a changing security environment and to help NATO 
reverse existing capability shortfalls.

    Question 4. Any specialty or ``niche'' capabilities it has, or is 
developing.

    Answer. Bulgaria will concentrate its resources and military 
training on providing the following capabilities to NATO:

  <bullet> special operations forces
  <bullet> engineers
  <bullet> NBC Defense
  <bullet> helicopter and transport aviation

    Question 5. The collective training regimes it has in place and the 
development of its military's English-language competencies.

    Answer. Bulgaria actively participates in several annual NATO 
Partnership for Peace (PfP) training exercises. Given limited training 
funds, priority of resources tends to support a small, select number of 
units declared ready for PfP or which will be declared ready in the 
near future. Battalion/brigade level operations have suffered from the 
lack of resources and training time in the past three years but 
Bulgaria plans to focus more on collective training. The Bulgarian Air 
Force and Navy require substantially more flight hours/at sea days. 
Overall, Bulgaria's English language training program is progressing 
well but requires continued emphasis. A relatively small but growing 
number of officers are proficient in English. English language training 
for NCOs remains a shortfall and will remain a priority.
                                estonia
    Question 1. Level and priorities of military spending.

    Answer. The Estonian defense budget in 2002 was 1.9% of the 
country's GDP and is projected at 2% in 2003. As with other Baltic 
militaries, spending has focused on developing basic infrastructure and 
training of these recently established armed forces, with acquisition 
of more sophisticated weapons taking place over time. NATO's 2004 Force 
Goals process and an ongoing Estonian Force Structure Review will 
further shape priorities.

    Question 2. Extent of civilian control over the military, 
efficiency of its command structure, and the sophistication of its 
defense planning.

    Answer. Estonia exercises full civilian control over the military 
and is steadily developing a cadre of civilian professionals. The 
current command structure is a result of a 2001 Force Structure Review 
that had considerable U.S. and Allied input. It provides for a Joint 
Operational Command to direct land, maritime and air components, 
including wartime augmentations such as the Border Guard. The 
capabilities of this joint organization are being developed as the 
service components themselves flesh out their force structure. The 
invitation to join NATO has resulted in the initiation of another Force 
Structure Review to be finished in early 2004. Estonia has been 
refining its Planning, Programming and Budgeting System since 1998.

    Question 3. The interoperability of forces with NATO, as well as 
how these forces are being restructured to better address modern 
security challenges.

    Answer. Estonia, as the other Baltic states, has been developing 
its military from scratch. The Membership Action Plan (MAP) process has 
been invaluable in shaping the formation of the new units in ways that 
promote maximum interoperability with NATO forces. NATO standards shape 
the way the Estonian navy and air force air surveillance units train.
    Estonia's contribution to SFOR, KFOR and ISAF demonstrate that 
Estonian units have reached a level of proficiency that allows them to 
work with Allied forces in the field. These deployments also accelerate 
Estonia's interoperability efforts through the provision of real 
experience. Estonia has contributed a company on a rotation basis (six 
months out of every 18) to SFOR and KFOR. It also maintains a military 
police platoon with the Italian Multinational Support Unit in KFOR. 
Estonia has also deployed an EOD team with Germany as part of ISAF.
    Initially, Estonia's military was built around a mobilization 
structure suited for territorial defense. The post-Prague Summit Force 
Structure Review now underway will shift priority to deployable, 
sustainable forces that can more effectively contribute to the full 
spectrum of Alliance missions.

    Question 4. Specialty capabilities being developed.

    Answer. Specialty or ``niche'' capabilities being developed for 
NATO use include:

  <bullet> Military Police
  <bullet> EOD
  <bullet> Mine Countermeasures.

    Question 5. Collective Training Regime and Development of English 
Language Competencies.

    Answer. Shaped by U.S. and Allied bilateral assitance as well as 
advice from NATO defense planners, Estonia's collective training regime 
is being tailored to reflect a regime more appropriate for the current 
size and level of development of its armed forces. Its first battalion-
level exercise, using composite units, will be held this May. 
Nevertheless, the training needs to be improved for its deployable 
units. Estonian English-language training is proceeding apace.
                                 latvia
    Question 1. Level and priorities of military spending.

    Answer. The Latvian defense budget in 2002 was 1.8% of the 
country's GDP. Parliament has passed legislation mandating spending of 
2% of GDP during 2003-8. As with other Baltic militaries, spending has 
focused on the basic infrastructure and training of Latvia's newly-
developed armed forces, with more sophisticated weapon acquisition 
taking place over time. NATO's 2004 Force Goals process and an ongoing 
Latvian Force Structure Review will further shape priorities.

    Question 2. Extent of civilian control over the military, 
efficiency of its command structure, and the sophistication of its 
defense planning.

    Latvia exercises full civilian control over the military and 
continues to develop its cadre of civilian professionals. The current 
command structure is a result of a 2001 Force Structure Review having 
considerable U.S. and Allied input. It provides for a Joint Operational 
Command to direct land, maritime, air and Special Operations components 
that includes wartime augmentations such as the Border Guard. The 
capabilities of this joint organization are being developed as the 
service components themselves flesh out their force structure. Latvia 
has also established a National Crisis Management Center and is 
developing a National Military Command Center in order to respond more 
quickly to emergency situations (both foreign and domestic) and more 
effectively employ military forces if required.
    The invitation to join NATO has resulted in the initiation of 
another Force Structure Review to be finished in late 2003. Latvian 
planning has proven adaptable to changing circumstances, assisted by a 
Planning, Programming and Budgeting System it has used since 2001.

    Question 3. Interoperability of forces with NATO, as well as how 
these forces are being restructured to better address modern security 
challenges.

    Answer. Latvia, as the other Baltic states, has developed its 
military structure from scratch. The MAP process has been invaluable in 
shaping the formation of the new units in ways that promote maximum 
interoperability with NATO forces.
    Latvia's contribution to SFOR, KFOR and ISAF demonstrate that 
Latvia's units have reached a level of proficiency that allows them to 
work with Allied forces in the field. These deployments also accelerate 
Latvia's interoperability efforts through the provision of real 
experience. A Latvian company is embedded with Danish SFOR forces for 
six months out of every 18, military police and medical teams are 
attached to the UK contingent in KFOR and an EOD team works with a 
Norwegain contingent in KFOR. Latvia will also deploy two medical teams 
with the Dutch contingent in ISAF.
    NATO standards set the pace for the training of Latvian navy and 
air force air surveillance units. Latvia's previous force structure was 
primarily a mobilization structure suited for territorial defense, but 
the post-Prague Force Structure Review now underway should shift 
priorities to deployable, sustainable forces that can more effectively 
contribute to the full spectrum of Alliance missions.

    Question 4. Specialty Capabilities being developed.

    Answer. For its size, Latvia is developing a wide range of 
specialties comprising:

  <bullet> Military Police
  <bullet> EOD
  <bullet> Medical
  <bullet> Special Operations Forces
  <bullet> Divers
  <bullet> Mine Countermeasures.

    Question 5. Collective training regime and development of English 
language competencies.

    Answer. Latvia's collective training regime is developing into one 
that is appropriate for the current size and mission of its armed 
forces. The full professionalization of its national infantry battalion 
will further increase the proficiency of this unit. Nevertheless, 
training needs to be improved for its deployable units. Its English-
language training is proceeding well, being in the forefront of Baltic 
efforts.
                               lithuania
    Question 1. Level and Priorities of military spending.

    Answer. The Lithuanian defense budget in 2002 was 2% of the 
country's GDP, and Lithuania has committed itself to remain at this 
level at least through 2004. As with other Baltic militaries, spending 
was initially focused on the basic infrastructure and training of these 
newly-developed armed forces, with more sophisticated weapon 
acquisition taking place over time. NATO's 2004 Force Goals process and 
an ongoing Lithuanian Force Structure Review will further shape 
priorities.

    Question 2. Extent of civilian control over the military, 
efficiency of its command structure, and the sophistication of its 
defense planning.

    Answer. Lithuania exercises full civilian control over the 
military, with a Ministry of Defense and a small cadre of civilian 
defense officials. The current command structure is a result of a 2001 
Force Structure Review that had considerable U.S. and Allied input. A 
new National Security Strategy was approved in 2002 and a new Military 
Defense Strategy has been drafted. The effectiveness of the Lithuanian 
command structure will be increased by the creation of a streamlined 
Homeland Security Command and a Special Operations Command. The 
invitation to join NATO resulted in the initiation of another Force 
Structure Review, to be finished in late 2003. Lithuania has been 
refining its Planning, Programming and Budgeting System since 1998.

    Question 3. Interoperability of forces with NATO, as well as how 
these forces are being restructured to better address modern security 
challenges.

    Answer. Lithuania, as the other Baltic states, has developed its 
military structure from scratch. The MAP process has been invaluable in 
assisting Lithuania's military structure to become fully interoperable 
with NATO forces.
    Lithuania's contribution to KFOR, SFOR, ISAF, OEF and OIF 
demonstrate that Lithuanian units have reached a level of proficiency 
that allows them to work with Allied forces in the field. These 
deployments also accelerate Lithuania's interoperability efforts 
through the provision of real experience. A Lithuanian company is 
deployed with a Danish SFOR contingent for six months out of every 18, 
an infantry platoon is deployed with a Polish-Ukrainian Battalion in 
KFOR, and Lithuania also maintains AN-26 transport aircraft with crew 
and maintenance personnel in support of NATO operations. For ISAF, 
Lithuania deployed a medical team with the Czech and then the German 
ISAF contingents. Special Operations Forces were also deployed to 
Afghanistan and are working with U.S. troops in support of OEF. 
Finally, the Lithuanian Parliament voted in March to deploy cargo 
handlers and medical personnel to support Operation Iraqi Freedom. 
Training for the Lithuanian navy and for its air force air surveillance 
units are also shaped by NATO standards. Much of the Lithuanian reform 
efforts have focused on those units dedicated to participating in NATO-
led operations, especially its ``Iron Wolf'' Brigade. Lithuania's 
previous force structure was heavily focused on territorial defense, 
but priority is now shifting to more effective, deployable, sustainable 
forces that can contribute to the full spectrum of Alliance missions.

    Question 4. Specialty capabilities being developed.

    Answer. Lithuania is developing the following special or ``niche'' 
capabilities for NATO use:

  <bullet> EOD
  <bullet> Medical
  <bullet> Engineer
  <bullet> Special Operations Forces
  <bullet> Mine Countermeasures.

    Question 5. Collective training regime and development of English 
language competencies.

    Answer. The U.S. and other Allies, as well as NATO defense 
planners, have emphasized the importance of developing a collective 
training regime that is appropriate for the size and level of 
development of its armed forces. Its national battalion was certified 
as operational in fall 2002 by a joint Danish-Lithuanian team. 
Lithuania is making progress in this area, but training still needs to 
be improved for its deployable units. Its English-language training is 
proceeding apace.
                                romania
    Question 1. The level and priorities of military spending:

    Answer. The Government of Romania remains committed to defense 
expenditures at a level of at least 2% of GDP in the years 2003-2005. 
Priorities for Romania's defense spending have focused on funding 
defense reform efforts, increasing operational capabilities and 
readiness, and increasing NATO interoperability.

    Question 2. The extent of its civilian control over its military, 
the efficiency of its command structure, and the sophistication of the 
defense planning process.

    Answer. Romania exercises strong civilian control over its 
military, aided by a well-regarded National Defense College which has 
trained a robust cadre of civilan defense experts. As an example of 
civilian control of the military, the President of Romania relieved an 
acting Chief of the General Staff as a result of the General's 
statements and activities honoring the memory of World War Il-era 
dictator Ion Antonescu.
    Romanian defense plans are based in large part on a force structure 
review that incorporated substantial U.S. and Allied input. Subsequent 
reform and reorganization has resulted in a greatly reduced and 
streamlined command and force structure that has increased efficiency 
and permitted a corresponding increase in readiness of select units. 
(For example, the Romanians are working hard to complete the 
development of a deployable Brigade HQ).
    In previous years, Romania has experienced a considerable gap 
between the demands of military requirements and the resources 
allocated. However, following successful introduction of a Planning, 
Programming, and Budgeting System in 2001, the allocation and control 
of defense expenditures now seems to be more effective and more closely 
linked to available resources.

    Question 3. The interoperability of Romania's forces with NATO, as 
well as how these forces are being restructured to better address 
modern security challenges.

    Answer. Currently, Romania's overall interoperability with NATO is 
low, though some key land force units have attained a sufficient level 
of interoperability to participate in NATO-led operations. For example, 
several infantry units have performed exceptionally in NATO 
peacekeeping missions such as SFOR or in combat missions with the U.S. 
in Afghanistan. Training is currently underway to help Romania's land 
force units meet NATO-compatibility requirements; this should increase 
the number of interoperable Romanian units within the next five years. 
Romania has undertaken a restructuring program to move from a large, 
heavy Warsaw Pact era force structure towards a smaller, lighter and 
more mobile capability. For example, they are demonstrating 
deployablity by using their C-130s to deploy Romanian combat troops to 
Afghanistan for OEF. Romania's focus on development of special 
operations, reconnaissance and airlift capabilities are indicative of 
Romania's effort to address the challenges of a changing security 
environment and to help NATO meet capability shortfalls.

    Question 4. Any specialty or ``niche'' capabilities it has, or is 
developing.

    Answer. Romania is placing a high priority on development of 
specialized ``niche'' forces in preparation for NATO membership, 
especially:

  <bullet> airlift
  <bullet> military police
  <bullet> unmanned aerial vehicles.

    Question 5. The collective training regimes it has in place and the 
development of its military's English-language competencies.

    Answer. Romania actively participates in several annual NATO PfP 
training exercises. Given limited training funds, priority of resources 
tends to support those active units declared ready for PfP or will be 
declared ready in the near future. Individual soldier skills are quite 
good; in fact, Romanian forces fighting alongside U.S. forces in 
Afghanistan were recognized both by the Secretary of Defense and by 
comrades in the 82nd Airborne for their skills. Battalion/brigade level 
operations have suffered from the lack of training time in the past 
three years but Romania is striving to address this shortfall. The 
Romanian Air Force and Navy require substantially more flight hours/at 
sea days. Overall, Romania's English language training program is well 
managed and supported with instructors who are fluent in English. A 
large number of officers and professional NCOs are proficient in 
English.
                                slovakia
    Question 1. Level and Priority of Military Spending.

    Answer. In 2003, defense spending in Slovakia is expected to be 
approximately 2.0% of GDP, a level the Government of Slovakia is 
committed to keeping through 2006. Defense spending priorities are in 
the following areas: Modernization (to include upgraded C31 systems and 
aircraft modernization programs); Restructuring (to reflect a smaller 
structure based on battalions); and Interoperability (with an emphasis 
on English language training and secure communications).

    Question 2. The extent of civilian control over the military, 
efficiency of command structure and sophistication of Defense Planning.

    Answer. Civilian control over the Slovak military is well 
established, to include a strong Ministry of Defense and subordinate 
General Staff. The Slovak military command structure is being 
streamlined and strengthened under the Force 2010 reform plan. Force 
2010 was developed using U.S. assistance and is assessed to be a solid 
defense plan. Implementation of a Planning, Programming, and Budgeting 
System is improving the allocation and control of defense expenditures 
which now seems to be more effective and more closely linked to 
available resources.

    Question 3. The interoperability of Slovakia's forces with NATO, as 
well as how these forces are being restructured to better address 
modern security challenges.

    Answer. Slovak interoperability is hindered by obsolete equipment 
and weakness in English language training. Slovakia is working 
aggressively to overcome these hindrances, using U.S. bilateral 
assistance such as FMF and IMET. Participation in PfP exercises and 
international peacekeeping and coalition operations have helped, as 
have prudent use of their FMF and IMET budgets. The participation of 
Slovak units in SFOR and KFOR, as well as the deployment of a chem-bio 
unit in Operation Iraqi Freedom demonstrates progress in 
interoperability is being made. A centerpiece of Slovak reform is the 
immediate reaction brigade (5th Special Forces), which is already 
dedicated to participating in NATO-led operations.

    Question 4. Any specialty or ``niche'' capabilities it has, or is 
developing.

    Answer. Slovakia possesses niche capabilities useful to NATO, to 
include:

  <bullet> Chemical, Radiological and Nuclear (CRN) Defense
  <bullet> Special Operations Forces
  <bullet> Combat Engineering

    Question 5. The collective training regimes it has in place and the 
development of its military's English-language competencies.

    Answer. Slovakia is receiving help from NATO member neighbors in 
bolstering its collective training regime to NATO standards. Top 
leadership is typically well trained, but overall training levels vary. 
Conscription is being phased out, with the last conscripts leaving by 
2006. The transition to a professional military will result in better 
trained Slovak soldiers at all levels. Slovakia has a good English 
language training program being made better through use of IMET and FMF 
funds.
                                slovenia
    Question 1. Level and priority of military spending.

    Answer. Today, defense spending in Slovenia is approximately 1.6% 
of GDP; however, Slovenia intends to raise defense spending 
incrementally to 2% of GDP by 2008. Defense spending priorities 
include: modernization (especially aircraft upgrades and communications 
equipment); restructuring (to create smaller, lighter units); and, 
interoperability (English language training).

    Question 2. The extent of civilian control over the military, 
efficiency of command structure and sophistication of Defense Planning.

    Answer. Civil control of the military is firmly established in 
Slovenia. In 2002, Freedom House examined 27 Central and Eastern 
European nations in transition and ranked Slovenia #2 (behind Poland) 
in terms of rule of law. The Slovene command structure has been 
reformed to closely mirror NATO command structures. It is efficient, 
but improvements continue, especially efforts to reduce a top-heavy 
officer corps. Defense planning is improving, assisted greatly by 
Slovenia's aggressive participation in MAP and PARP. Slovenia's 
military reform plan extends through 2007.

    Question 3. The interoperability of Slovenian forces with NATO, as 
well as how these forces are being restructured to better address 
modern security challenges.

    Answer. Like many of the candidate nations, Slovenia has much work 
ahead to shape its force structure to become better interoperable with 
NATO forces. Slovene interoperability is improving, aided by 
participation in PfP exercises, funding to purchase modem equipment and 
the achievement of high levels of English proficiency. Implementation 
by Slovenia of a Planning, Programming, and Budgeting System is 
improving the allocation and control of defense expenditures, making 
them more effective and more closely linked to real resources. 
Slovenia's participation in SFOR (motorized infantry company) and KFOR 
demonstrate that Slovene forces have achieved a useful degree of 
interoperability with NATO forces. These contributions will also help 
accelerate, through Allied interaction, improvements in 
interoperability. The focus for much of the Slovene reform effort is 
the 10th Battalion, which is the unit Slovenia has dedicated to 
participating in NATO-led operations.

    Question 4. Any specialty or ``niche'' capabilities it has, or is 
developing.

    Answer. Slovenia possesses useful niche capabilities that they can 
bring to NATO upon accession, to include:

  <bullet> special operations forces
  <bullet> CBRN defense
  <bullet> military police.

    Question 5. The collective training regimes it has in place and the 
development of its military's English-language competencies.

    Answer. Slovenia is transitioning to a fully professional military 
force. As it does so, it is revamping its military training program to 
build up the competence and professionalism of its soldiers and aid in 
retention by offering opportunities for career soldiers. The English 
language training program in Slovenia is particularly strong, helped 
greatly by IMET and FMF funds. In addition to Slovene military 
personnel, Slovenia also trains personnel from PfP countries in English 
and other NATO languages.
                       qualifications of invitees
    Question 1. Did the introduction in 1999 of the MAP and DCI 
effectively raise the bar for NATO membership? If each of the seven 
candidates is measured rigorously against its own MAP criteria, do all 
of them pass muster? Is there a hierarchy of qualifications, i.e. are 
some weighted more heavily than others? How would you assess the 
qualifications of these candidates compared to Poland, the Czech 
Republic, and Hungary?

    Answer. The Membership Action Plan (MAP) did not raise the bar for 
NATO membership, but rather it created an intensive program of 
preparation at NATO in which the Alliance worked with the aspirants to 
encourage political, economic, and military reforms.
    All seven invitees have reformed and modernized their defense 
establishments with the intent to strengthen NATO's collective defense 
capabilities. All have demonstrated a firm commitment to NATO's 
community of values. They are addressing such issues as corruption, 
minority rights, regional relations, trafficking in persons, the legacy 
of the Holocaust, property restitution, and good governance. All have 
responded positively and constructively to a very intrusive U.S. 
examination of their efforts, often beyond the rigors of NATO's 
Membership Action Plan. None of the qualifications are weighted more 
heavily than others.
    We are confident that the accession of these seven invitees will 
strengthen NATO in the same way that membership of Poland, Hungary, and 
the Czech Republic strengthened the Alliance. Moreover, these seven 
democracies bring to the table experience with U.S. and NATO operations 
attained through their contributions to NATO peacekeeping missions in 
the Balkans and Operation Enduring Freedom in Afghanistan--missions 
that occurred after Poland, Hungary, and the Czech Republic joined the 
Alliance.
    Concerning input of DCI into NATO membership, Allies decided that 
Partners should not participate in DCI; therefore, DCI goals did not 
play in assessing candidates for membership.

    Question 3. Would the accession of each of these seven countries to 
NATO constitute a net increase in the ``security of the North Atlantic 
area'' as Article 10 specifies?

    Answer. Yes, each of these seven countries are ``in a position to 
further the principles of this Treaty and to contribute to the security 
of the North Atlantic area'' as specified in Article 10 of the North 
Atlantic Treaty. This positive assessment is based on our involvement 
in the development of each invitee's defense reform plans and our 
expectation that each invitee will be able to contribute niche 
capabilities to reinforce the Prague Capabilities Commitment. More 
importantly, the contributions these seven countries have already 
provided to SFOR, KFOR, Operation Enduring Freedom, the International 
Security Assistance Force in Kabul, and Operation Iraqi Freedom have 
concretely demonstrated that they can contribute to the security of the 
North Atlantic area and beyond. They have, for several years, been 
acting as de facto Allies.
                         continuation of reform
    Question 5. Do you believe that the candidate states will continue 
reforming their armed forces after membership? How soon will they be 
able to provide mobile, quickly deployable troops that will be useful 
during a conflict as well as for post-conflict peacekeeping? Will the 
``niche'' capabilities the candidate states are developing provide a 
meaningful contribution to NATO's military effectiveness?

    Answer. Yes, we expect that the candidate states will continue to 
reform their armed forces after acceding to the Alliance. This 
assessment is based on our experience assisting their Defense 
Ministries develop and implement multiyear defense reform plans. Prior 
to the signing of the accession protocols on March 26th each of the 
Invitees submitted to NATO Timetables for the Completion of Reforms 
committing themselves to specific reform measures that will improve the 
mobility and lethality of their forces as well as their 
interoperability with Allied militaries.
    The NATO invitees have already demonstrated a strong degree of 
ally-like behavior by providing military units in support of Coalition 
and NATO-led operations in the Balkans, Afghanistan and Iraq. Examples 
include:

  <bullet> Bulgaria is providing mechanized infantry and engineers for 
        KFOR.
  <bullet> Estonia, Romania and Slovakia are also providing company 
        level or larger units, and Estonia, Latvia and Lithuania are 
        rotating a company-level unit.
  <bullet> Slovenia is providing a mechanized infantry company for 
        SFOR.
  <bullet> Bulgaria, Romania and Slovakia are also providing units.
  <bullet> Romania deployed an infantry battalion, MPs and C-130 
        transport aircraft to Afghanistan.
  <bullet> Bulgaria, Estonia, Latvia, Lithuania and Slovakia have also 
        provided forces.
  <bullet> Slovakia and Romania deployed NBC units in support of OIF.
  <bullet> Bulgaria has also deployed forces, Lithuania has deployed 
        logistical and military medical personnel, and other invitees 
        are offering overflight and other assistance.

    Among the niche capabilities that these countries are developing 
that provide real capabilities to the Alliance are NBC defense units, 
Military police, Explosive Ordnance Disposal (EOD), and Special 
Operations Forces (SOF).











                       NATO ENLARGEMENT--PART II

                              ----------                              


                         TUESDAY, APRIL 1, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar (chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Allen, Enzi, 
Voinovich, Alexander, Coleman, Sununu, Biden, Bill Nelson, and 
Corzine.
    The Chairman. The meeting of the Senate Committee on 
Foreign Relations is called to order.
    We are especially fortunate to have a distinguished set of 
witnesses with us today. I am pleased to welcome Ambassador 
Nicholas Burns, the U.S. Permanent Representative to NATO; 
Bruce Jackson, president of the Project on Transitional 
Democracies; and Ronald Asmus, senior fellow at the German 
Marshall Fund.
    Mr. Ambassador, given the heightened responsibility 
required of you and your staff in Brussels during the ongoing 
campaign in Iraq, we especially appreciate your willingness to 
come and participate in our hearing today.
    As our thoughts and prayers continue to be with our troops 
in Iraq, we in Congress must examine the broader context of the 
fight against terror and weapons of mass destruction. The 
subject we take up today is important to our men and women in 
the military and to the well-being of our country. The Atlantic 
alliance is a key component of the fight against terrorism and 
we must attempt to maximize the utility of NATO in prosecuting 
that war.
    This hearing will examine the future of the Atlantic 
alliance, plans for NATO enlargement, and how we can work with 
our European allies to establish greater security in an era of 
global terrorism. The debate over Iraq exposed a division 
within NATO over the best methods to combat terrorism and 
weapons of mass destruction. This has strained some of our 
traditional alliances, but it has not broken them. The United 
States has more at stake and more in common with Europe than 
any other part of the world. These common interests and shared 
values will sustain the alliance if governments realize the 
incredible resource that NATO represents. When President Bush 
made his first trip to Europe in June 2001, he articulated his 
vision of the united Europe at peace, and he threw his full 
weight behind NATO enlargement, from the Baltic Sea to the 
Black Sea. As the leader of NATO, we have no intention of 
shirking our commitments to Europe.
    Fifty years ago, NATO's founders made a political decision 
that the United States and Europe needed a common strategy to 
meet common threats. That need has not dissipated. As President 
Bush told the German Parliament this year, ``NATO's defining 
purpose, our collective defense, is as urgent as ever. America 
and Europe need each other to fight and win the war against 
global terror.''
    At the Washington summit in 1999, NATO heads of state 
declared that they wanted the alliance to be as relevant to the 
threats of the next 50 years as it was to the threats of the 
past 50. Part of their vision was realized that day, when NATO 
officially welcomed Poland, Hungary, and the Czech Republic 
into the alliance. At that moment, NATO was engaged in a 
successful military campaign in Kosovo, which demonstrated that 
the alliance could operate in a complex combat situation. Two 
years later, less than 24 hours after the terrorist attacks of 
September 11, 2001, NATO invoked Article 5 for the first time 
in its history. This article declares that an attack on one 
member is an attack on all. And the United States remains 
grateful for that swift and unquestioning expression of 
solidarity.
    But the September 11 attacks and the ensuing war on 
terrorism have led to a debate on NATO's post-cold war role 
that has forced heads of state to reevaluate NATO's mission in 
the 21st century. When NATO was founded in 1949, its purpose 
was to defend Western democracies against the Soviet Union. But 
the demise of the Soviet Union diminished the significance of 
NATO's mission, and we began to debate where NATO should go and 
what NATO should do. In early 1993, I delivered a speech 
calling for NATO not only to enlarge, but to prepare to go out 
of area. And at that time, many people were skeptical about 
enlarging NATO's size and mission. Those of us who believed in 
NATO's enlargement prevailed in that debate. I believe that 
events have proven us right. But NATO requires constant 
maintenance and adjustment. No one should expect an effortless 
Atlantic alliance, devoid of disagreement.
    This is the second of four hearings that the Foreign 
Relations Committee will hold on NATO. The immediate goal of 
these hearings is to determine which of the seven candidate 
countries should be invited into the alliance. As we consider 
this new enlargement, it is clear that the last round has been 
highly beneficial. Hungary, Poland, and the Czech Republic are 
among the most dynamic countries in Europe. They are deeply 
interested in alliance matters, and they have sought to 
maximize their contribution to collective security. The 
prospect of NATO membership gave these countries the incentive 
to accelerate reforms, settle disputes, and cooperate with 
their neighbors. And their success in turn has been a strong 
incentive for democratization and peace among Europe's other 
aspiring countries.
    I believe that the candidate countries, Latvia, Lithuania, 
Estonia, Slovenia, Slovakia, Romania, and Bulgaria, are ready 
to assume full membership responsibilities and contribute to 
European stability and security. I am fully confident that 
these countries have made an enduring commitment to the core 
values of NATO and they will stand with those most committed to 
the transatlantic relationship. The candidates have worked hard 
to improve their military capability. They have taken steps 
ranging from developing a peacekeeping capacity to acquiring 
the equipment and skills necessary for high-intensity conflict. 
All seven have been supportive of coalition military efforts in 
Iraq. I will urge the Senate to vote in favor of bringing the 
seven candidate nations into NATO.
    As we consider new members, we must simultaneously 
reconsider NATO's purposes. In my view, the major security 
challenge we face today is the intersection of terrorism with 
weapons of mass destruction. NATO enlargement should be pursued 
as part of a broader strategic dialog aimed at establishing 
common transatlantic approaches to meet this challenge around 
the globe.
    Although NATO's mission no longer centers on Russia, the 
debate over NATO enlargement must include a discussion of 
Russia. Since September 11, 2001, Russian opposition to NATO 
enlargement, particularly Baltic membership, has eased. The 
Russians have recognized that enlargement is not directed 
against them. Stabilizing democracy in Eastern Europe does not 
threaten democracy in Russia. In fact, a stable and peaceful 
Europe will benefit the entire continent, including Russia. I 
fully supported the establishment of the NATO-Russian Council 
at the Rome summit last spring, which opened a new cooperative 
chapter in NATO-Russian relations.
    NATO is a remarkable institution bound by military strength 
and a common vision. But NATO will be reduced to a housekeeping 
role in Europe if it does not tackle the most pressing security 
threats to our countries today. We must complement NATO 
expansion with a plan to transform the alliance into an 
important force in the war on terrorism.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    We are fortunate to have an especially distinguished set of 
witnesses with us today. I am pleased to welcome Ambassador Nicholas 
Burns, the U.S. Permanent Representative to NATO; Bruce Jackson, 
President of the Project on Transitional Democracies; and Ronald Asmus, 
senior fellow at the German Marshall Fund. Mr. Ambassador, given the 
heightened responsibility required of you and your staff in Brussels 
during the ongoing campaign in Iraq, we especially appreciate your 
willingness to come before us today.
    As our thoughts and prayers continue to be with our troops in Iraq, 
we in Congress must examine the broader context of the fight against 
terror and weapons of mass destruction. The subject that we take up 
today is important to our men and women in the military and to the well 
being of our country. The Atlantic Alliance is a key component of the 
fight against terrorism, and we must attempt to maximize the utility of 
NATO in prosecuting that war.
    This hearing will examine the future of the Atlantic alliance, 
plans for NATO enlargement, and how we can work with our European 
Allies to establish greater security in an era of global terrorism. The 
debate over Iraq exposed a division within NATO over the best methods 
to combat terrorism and weapons of mass destruction. This has strained 
some of our traditional alliances, but it has not broken them. The 
United States has more at stake and more in common with Europe than 
with any other part of the world. These common interests and shared 
values will sustain the Alliance if governments realize the incredible 
resource that NATO represents. When President Bush made his first trip 
to Europe in June of 2001, he articulated his vision of a united Europe 
at peace, and he threw his full weight behind NATO enlargement, from 
the Baltic Sea to the Black Sea. As the leader of NATO, we have no 
intention of shirking our commitment to Europe.
    Fifty years ago, NATO's founders made a political decision that the 
United States and Europe needed a common strategy to meet common 
threats. That need has not dissipated. As President Bush told the 
German parliament last year, ``NATO's defining purpose--our collective 
defense--is as urgent as ever. America and Europe need each other to 
fight and win the war against global terror.''
    At the Washington Summit in 1999, NATO heads of state declared that 
they wanted the Alliance to be as relevant to the threats of the next 
fifty years as it was to the threats of the past fifty. Part of their 
vision was realized that day, when NATO officially welcomed Poland, 
Hungary, and the Czech Republic into the Alliance. At that moment, NATO 
was engaged in a successful military campaign in Kosovo, which 
demonstrated that the Alliance could operate in a complex combat 
situation. Two years later--less than 24 hours after the terrorist 
attacks of September 11, 2001--NATO invoked Article 5 for the first 
time in its history. This Article declares that an attack on one member 
is an attack on all. The United States remains grateful for that swift 
and unquestioning expression of solidarity.
    But the September 11th attacks and the ensuing war on terrorism 
have led to a debate on NATO's post-cold war role that has forced heads 
of state to reevaluate NATO's mission in the 21st century. When NATO 
was founded in 1949, its purpose was to defend Western democracies 
against the Soviet Union. But the demise of the Soviet Union diminished 
the significance of NATO's mission. We began to debate where NATO 
should go and what NATO should do. In early 1993, I delivered a speech 
calling for NATO not only to enlarge, but also to prepare to go ``out 
of area.'' At that time, many people were skeptical about enlarging 
NATO's size and mission. Those of us who believed in NATO enlargement 
prevailed in the debate. I believe that events have proven us right. 
But NATO requires constant maintenance and adjustment. No one should 
expect an effortless Atlantic Alliance, devoid of disagreement.
    This is the second of four hearings that the Foreign Relations 
Committee will hold on NATO. The immediate goal of these hearings is to 
determine which of the seven candidate countries should be invited into 
the Alliance. As we consider this new enlargement, it is clear that the 
last round has been highly beneficial. Hungary, Poland, and the Czech 
Republic are among the most dynamic countries in Europe. They are 
deeply interested in Alliance matters, and they have sought to maximize 
their contribution to collective security. The prospect of NATO 
membership gave these countries the incentive to accelerate reforms, 
settle disputes, and cooperate with their neighbors. Their success, in 
turn, has been a strong incentive for democratization and peace among 
Europe's other aspiring countries.
    I believe that the candidate countries--Latvia, Lithuania, Estonia, 
Slovenia, Slovakia, Romania, and Bulgaria--are ready to assume full 
membership responsibilities and contribute to European stability and 
security. I am fully confident that these countries have made an 
enduring commitment to the core values of NATO and that they will stand 
with those most committed to the Transatlantic relationship. The 
candidates have worked hard to improve their military capabilities. 
They have taken steps ranging from developing a peace-keeping capacity 
to acquiring the equipment and skills necessary for high-intensity 
conflict. All seven have been supportive of Coalition military efforts 
in Iraq. I will urge the Senate to vote in favor of bringing the seven 
candidate nations into NATO.
    As we consider new members, we must simultaneously reconsider 
NATO's purposes. In my view, the major security challenge we face today 
is the intersection of terrorism with weapons of mass destruction. NATO 
enlargement should be pursued as part of a broader strategic dialog 
aimed at establishing common transatlantic approaches to meet this 
challenge around the globe.
    Although NATO's mission no longer centers on Russia, the debate 
over NATO enlargement must include a discussion of Russia. Since 
September 11, 2001, Russian opposition to NATO enlargement--
particularly Baltic membership--has eased. The Russians have recognized 
that enlargement is not directed against them. Stabilizing democracy in 
Eastern Europe does not threaten democracy in Russia--in fact, a stable 
and peaceful Europe will benefit the entire continent, including 
Russia. I fully supported the establishment of the NATO-Russia Council 
at the Rome Summit last spring, which opened a new cooperative chapter 
in NATO-Russia relations.
    NATO is a remarkable institution bound by military strength and a 
common vision. But NATO will be reduced to a housekeeping role in 
Europe if it does not tackle the most pressing security threat to our 
countries today. We must compliment NATO expansion with a plan to 
transform the Alliance into an important force in the war on terrorism. 
Ambassador Burns, Mr. Jackson, and Dr. Asmus, we look forward to your 
insights on these issues.

    The Chairman. Ambassador Burns, Mr. Jackson, and Dr. Asmus, 
we look forward to your insights on these issues. And before I 
ask you for those insights, I want to recognize the 
distinguished ranking member, Senator Biden.
    Senator Biden. Thank you very much. Mr. Ambassador, 
welcome. It is an honor to have you here. Thanks for making the 
trip. Welcome home. And Ron and Bruce will be following you. We 
indeed have a distinguished group of witnesses this morning.
    As all of you know better than most of us, this Friday 
marks the 54th anniversary of the signing of the North Atlantic 
Treaty Organization treaty. In the alliance's 54 years, 30 of 
which I have been sitting here in the Senate, I do not believe 
I have seen such--I want to choose my adjectives correctly--
such a concern, in some quarters rancor, dissension.
    I have attended so many conferences on whither NATO. Most 
of them I have brushed off over the years as part of the 
necessary national inclinations of each of the countries 
responding to their political needs of the moment. But I think 
this is different.
    To illustrate this turn of events and their consequences, I 
want to recall a few important facts.
    During several weeks in January and February, France, 
Germany, and Belgium blocked consensus in the North Atlantic 
Council for providing assistance to fellow member Turkey which 
requested help under Article 4 of the North Atlantic Treaty 
because it feared an attack by Iraq in the event of a war.
    Commenting on that bit of theater, just last week the head 
of an important French think tank made the following statement, 
``that NATO was unable to meet the challenges of the age came 
as no great surprise to close observers of the organization. In 
the Kosovo war, its military structure was shown to be too 
American-dominated to satisfy European needs. And while its 
political side could be used by the Europeans to constrain U.S. 
power, that made NATO too multilateral for the Americans. Its 
future as an effective and viable body has been very much in 
doubt ever since.''
    Next month the leaders of France, Germany, Belgium, and 
other European countries, but not the United Kingdom, which was 
not invited, will meet to assess the prospects for an EU-based 
military alliance outside of NATO. The President of the 
Commission of the European Union, Mr. Prodi, praised this 
initiative calling it ``timely and good,'' and with regard to 
transatlantic relations, he added, ``it is evident the Iraq 
crisis has brought us to a new crossroads. We must choose a 
different path.''
    Prodi said that a non-NATO military alliance would give 
Europeans more clout on the international stage and prevent 
them from being, ``left out from the management of world 
affairs.''
    Now, I am well aware that there is a ``yes, but'' response 
to each of these events.
    First, thanks largely to the skillful work of you, Mr. 
Ambassador, the question of the Article 4 assistance to Turkey 
was moved from the NAC to NATO's Defense Planning Committee 
where France is not a member. And the alliance, at least 
temporarily, survived this crisis.
    Second, commentators, however articulate and provocative 
they may be, are just that, commentators, not people who have 
to make the tough decisions.
    And third, I met last year with Mr. Prodi, and I have 
tremendous respect for him, but he is not a political military 
strategist. Moreover, he may be President of the Commission of 
the European Union, but he does not speak for the entire EU, as 
the governments of the U.K., The Netherlands, Italy, Spain, 
Denmark, and perhaps others will attest. Moreover, to put it 
somewhat crudely, talk is cheap.
    The idea that the Parliaments of all EU members states 
would suddenly have a security epiphany and appropriate the 
considerable sums of money necessary to bring their militaries 
into the 21st century at a level with those of the United 
States is, I would submit, not something you would like to bet 
your mortgage on.
    Nonetheless, these events and many others over the last 
several months do point, in my view--and I hesitate to use this 
phrase, it has been so overused over the years--to a crisis in 
NATO that is unlike anything I have experienced since I have 
been here.
    We are faced with a quandary and a quantitatively new 
decision and a new situation in which the very fundamentals of 
the alliance I think are being questioned unlike any time 
before, and I think we had better figure out how to respond to 
it. We are going to reach an immediate crisis, God willing, 
with a swift victory in Iraq. We are going to face this crisis 
fairly quickly about how and if we internationalize the 
responsibility for Iraq after Saddam is gone.
    It is within this context, it seems to me that, we have to 
assess the strategic benefits of further enlarging the 
alliance, which I support. At our last hearing, we heard from 
administration witnesses on the qualifications and 
contributions of each of the seven candidate countries, and we 
will continue our examination in another hearing on Thursday. 
And I agree with the chairman. I will join him on the floor in 
moving for the accession of the candidate countries.
    But today I'd like to address the more fundamental question 
on the nature and the direction of the alliance that these 
seven countries will soon be joining, hopefully.
    Mr. Ambassador, you are deeply engaged on a daily basis in 
what I believe are critical debates about the evolution of 
NATO. I would welcome your views on some or all of the 
following questions. And you may think I am being provocative 
with the first one, but I mean it sincerely.
    Is the Bush administration truly committed to NATO? For 
many who have top positions in the administration have for the 
previous 6 to 8 years been talking about how we are 
overextended in Europe, how it is not the most critical 
responsibility we have, and that NATO does not have the utility 
it once had.
    I would also like to know if the political structures of 
the alliance have become too multilateral for us as is asserted 
by our French colleagues.
    Will we bypass NATO structures in the future in favor of 
coalitions of the willing if future political discussions 
become too difficult for us?
    Would we support changes in the decisionmaking process of 
the NAC to facilitate action?
    Five years ago, I, and I think the chairman as well--I do 
not want to tar him with the same brush--opposed successfully 
an amendment to the Resolution of Ratification calling for the 
creation of a dispute resolution mechanism in the NAC. I still 
see this approach as a cure worse than the disease, but I would 
ask you, Mr. Ambassador, from your experience in Brussels, how 
do you anticipate the accession of seven countries invited at 
Prague would affect decisionmaking in the NAC and discussions 
on the various NATO committees?
    Finally, Mr. Ambassador, I invite you to share with us some 
of the strategic thinking currently going on among our allies. 
Are they engaged in similar debates on how to improve the 
alliance structures and capabilities?
    I am also very pleased that both Ron Asmus and Bruce 
Jackson, who have been here many times and on whom we have 
relied over the years, are here to join us to contribute to 
this important discussion. Both Ron and Bruce have personally 
played key roles in the conception and implementation of the 
last two rounds of NATO enlargement. They are two of the most 
astute observers of the alliance in my view, and I am eager to 
hear their views on a broad range of questions regarding the 
possible directions NATO will take in the future.
    Once again, let me say, Mr. Ambassador, how delighted I am 
to welcome you. My questions are not--I hope you know me well 
enough to know are not meant to be confrontational. I mean them 
sincerely. I think that without--let me put it another way, and 
I will conclude with this, Mr. Chairman, right after I saw our 
good friend, the Senator from Nebraska, outside the Foreign 
Relations Committee room over outside the Senate yesterday, I 
walked upstairs, Chuck, and was greeted by two of our 
colleagues who are both very bright, enlightened guys. And they 
immediately started on me about what are we going to do to 
teach the French a lesson and what are we going to do to teach 
the Germans a lesson and, by the way, Turkey. And it dawned on 
me that these were not people who do not think a lot about 
this. This was not just a knee-gut reaction coming from a guy 
on the street who is angry because of what is going on.
    All I could think to say was--I said, let me ask you a 
rhetorical question. How secure and well-off do you think we 
will be if 10 years from now we do not have close relations 
with Germany, France, and Turkey? And they looked at me like 
why in the devil would I ask that question. That is unfair.
    But there is a feeling here, a feeling that worries me. And 
I would like to get some sense from you whether that feeling is 
felt in Brussels among our NATO allies, that we may, as my dear 
mother, God bless her--she is alive and well and strong at 85 
years old, has an expression that she has reminded me of. I 
guess it is the Irish in me. From the time I was a kid when I 
would get angry, she would say, Joey, don't bite your nose off 
to spite your face. To be purely colloquial, I think we may be 
close to biting our nose off to spite our face here if we do 
not get this straight.
    So you have got a tough job, Mr. Ambassador.
    I apologize, Mr. Chairman, for going longer than I should 
have, but I cannot think of anyone who is more appropriate or 
more knowledgeable to have here this morning to discuss some of 
these topics with us than Ambassador Burns. Thank you.
    The Chairman. Thank you very much, Senator Biden.
    Let me mention, for information of the committee, that it 
would be my hope that when 10 of us around the committee table 
are present, that at some point we could break into the 
discussion of NATO to consider the Joint Convention on the 
Safety of Spent Fuel Management. This is a request of Senator 
Abraham, and this assent is needed for the United States to 
participate in a very important conference on April 6. We have 
6 members now, and hopefully we will have 10 at some point.
    But I ask if members are not acquainted with the spent fuel 
treaty, please ask your staffs to put the memo in front of you 
so that you will be up to speed when we come to that point.
    Now, second, I just recognize in the audience the friendly 
faces of many distinguished ambassadors who are good friends of 
the committee. I do not want to embarrass any of you, but I am 
going to anyway, by asking you to identify yourselves as I go 
through the roll of the aspirant countries to see who is here.
    The Ambassador from Latvia.
    Voice. I am afraid the Ambassador is not here. I am the 
DCM.
    The Chairman. Excellent. I am pleased that you are here, 
and other members of the staff likewise are recognized and 
welcomed today.
    Lithuania. The distinguished Ambassador from Lithuania.
    Estonia. Excellent.
    The Ambassador from Slovenia. Good to have you here, sir.
    And I see the Ambassador from Slovakia, and likewise from 
Romania, and the distinguished lady from Bulgaria. We are 
delighted. Thank you so much for coming today for this 
important discussion.
    Finally, we look forward to hearing from you, Ambassador 
Burns, after indulging the preliminaries, but as you can tell, 
Senator Biden and I are deeply committed, as is this committee, 
to the future of NATO. I agree with Senator Biden. There is 
nobody better able to articulate from hands-on experience, 
which you have had as our distinguished Ambassador.
    I appreciated especially your hospitality a year ago 
January at the workshop meeting which you invited me to meet 
with the working members there. It was an educational 
experience for me. It was very important. And I have 
appreciated your returning to the United States frequently to 
infuse us with enthusiasm as well as information.
    The floor is yours. We look forward to your testimony, and 
the entirety of your statement will be made a part of the 
record. If you wish to go through that, fine, or summarize, it 
would be fine likewise.

      STATEMENT OF HON. R. NICHOLAS BURNS, U.S. PERMANENT 
   REPRESENTATIVE TO THE NORTH ATLANTIC TREATY ORGANIZATION, 
                       BRUSSELS, BELGIUM

    Ambassador Burns. Mr. Chairman, thank you very much for 
inviting me here today. It is a pleasure to be with all of you, 
all the members of this committee and of the Senate.
    I did submit a statement for the record and I will not read 
that so that we can get to questions sooner. I do have a very 
brief statement I thought I should make to summarize the views 
that our administration would like to put forward.
    First, Mr. Chairman, let me thank you for your leadership 
on this issue of the U.S. commitment to NATO for your entire 
career in the Senate. I do remember very well the trip that you 
made to Brussels a year and a half ago. It was important for us 
and we appreciated the guidance you gave us. All of us in the 
United States Foreign Service appreciate the commitment you 
have given and the very sensible advice you have given many 
administrations on this issue.
    I would like to say to Senator Biden, thank you very much 
for your chairmanship of this committee last year and your 
commitment that you gave to us before the Prague summit as we 
tried to think through how we would restructure the alliance 
and as we began to debate the issue of NATO enlargement as 
well. And I appreciate the participation this morning of all 
the members of this committee.
    Senator, I just wanted to say to begin that I am very happy 
to take the questions that Senator Biden has given me. I list 
six and perhaps when we get to the question and answer period, 
if there are some that you would like me to answer especially 
this morning, I am happy to do that because I take them in the 
best possible way and I think they are the questions that we 
need to think about, about the future of this alliance. It is 
an alliance in transformation and it does require us to be 
willing to seek changes when they are necessary.
    Mr. Chairman, we are meeting at a time of momentous 
challenges for the United States overseas. America's soldiers 
and our coalition soldiers are in harm's way in Iraq and they 
are attempting to undertake by force what Saddam Hussein has 
refused to do peacefully for the last 12 years and that is to 
disarm.
    As Senator Biden mentioned and as you mentioned, we also 
have a number of differences with our longstanding allies over 
how to deal with the grave threat posed by Saddam Hussein, and 
that has put a serious strain on the transatlantic 
relationship. Just as we are going to have to rebuild Iraq, we 
are going to have to bring NATO back to the consensus and unity 
that marked the Prague summit 4 months ago when we agreed that 
NATO should take in new members and seek new military 
capabilities and build those new relationships, Senator, that 
you talked about with Russia, Ukraine, with the states of 
Central Asia and the Caucasus that are so important to us as we 
try to meet the threats of the 21st century.
    Last week on March 26 in Brussels, I had the honor of 
signing on behalf of the United States the Protocols of 
Accession to the North Atlantic Treaty of Bulgaria, Estonia, 
Latvia, Lithuania, Romania, Slovakia, and Slovenia. I certainly 
strongly encourage the U.S. Senate to provide its advice and 
consent to the ratification of those Accession Protocols. I am 
convinced that bringing these seven nations into the alliance 
will make NATO a stronger collective defense organization and I 
am convinced they will help us to increase the security of the 
United States.
    When President Bush and the NATO leaders invited the seven 
countries to begin accession talks with the alliance at the 
Prague summit, it was a historic step forward because the 
greatest strategic goal of the United States and all of our 
European allies since the fall of the Berlin Wall and since the 
fall of communism in the late eighties and early nineties has 
been the construction of a Europe that would be whole, free, 
peaceful, and secure. That is what President George H.W. Bush 
believed when he worked with Chancellor Kohl and President 
Mitterand and Prime Minister Thatcher. It is what President 
Clinton believed in the 8 years of his administration, and it 
has certainly been the hallmark of President Bush's European 
policy over the last 2 years.
    I think that this enlargement of NATO, coupled with the 
simultaneous enlargement of the European Union, will move 
Europe beyond the divisions and instability that made the 20th 
century one of the bloodiest in human history. And this is a 
very profound achievement for the United States and for our 
European allies. And it is the transatlantic relationship 
encapsulized that we need to preserve for the future.
    We have pushed the seven countries very hard to be ready 
for the requirements of membership. Since the end of the cold 
war, but particularly since they announced their candidacy, the 
seven nations have joined Poland, Hungary, and the Czech 
Republic in consolidating democracy and free markets in that 
half of Europe, which was closed behind the Iron Curtain during 
the cold war. And the prospect of bringing these countries in 
has helped to erase old dividing lines and it has had the 
benefit of shifting Europe's center of gravity and NATO's 
center of gravity eastward, thereby broadening security on the 
continent.
    Twice last year, Mr. Chairman, in February and again in 
October, I led a U.S. interagency team to these seven 
countries, along with Albania and Macedonia. We tried to assess 
their readiness for membership in anticipation of sending the 
adapted treaty to the Senate, and we had over 100 meetings with 
the Presidents and the Prime Ministers and the Foreign and 
Defense Ministers of these countries during that time, and we 
urged them to press ahead with the reforms that they and we 
felt were important to make them candidates for NATO.
    Based on those meetings and based on all the other contacts 
that we have had, I believe that these countries are ready for 
NATO membership. All of them have reformed. All of them have 
modernized their defense establishments. That will add to the 
collective defense capability of the alliance. All have 
demonstrated a very firm commitment to NATO's values. They have 
addressed issues as diverse as corruption, minority rights, 
trafficking in women and children, the legacy of the Holocaust, 
and good governance, and they have all responded positively and 
constructively to the concerns we have put before them.
    I think most notably for this committee all seven of these 
countries have served with us in Bosnia and in Kosovo. All 
seven have been in Afghanistan to help us with that very 
difficult problem since September 2001, and all seven have 
spoken up publicly in support of the coalition in Iraq. And six 
of the seven countries are members of the current coalition in 
Iraq. So I think that they have been de facto allies and have 
shown in deed, as well as in word, that they are ready to join 
our alliance.
    When I first took up my assignment a year and a half ago, 
the conventional wisdom in the summer of 2001 was that perhaps 
one to four of these countries might be ready for membership at 
the Prague summit. Certainly you did not find many people, 
perhaps present company excluded, Senator, who believed that 
all seven were ready for membership. It was President Bush's 
vision, which he articulated in the speech you referred to, the 
Warsaw speech of June 2001, that we should try to create an 
alliance from the Baltics to the Black Sea that began to shift 
thinking in the alliance in favor of robust enlargement. And I 
think it is fair to say that from the very beginning, it has 
been the United States--and that is the Clinton administration, 
as well as the Bush administration--that has championed the 
idea of an expansive enlargement, a fact that has not been lost 
on the invited countries themselves. They know that if it were 
not for the leadership of the last two American Presidents and 
the leadership of many Members of the Senate, NATO membership 
might not have been possible for them in 2002 and 2003. So I 
think they can thank President Bush and his predecessors, but 
also members of this committee and of the Senate for that 
distinction.
    We think these countries will value their NATO membership. 
They will never take it for granted. And I believe, as I sit 
around the conference table with our 19 allies many times per 
week, that when these seven countries, Senate willing, take 
their place in May 2004, they will become immediately among our 
strongest allies when they become members of the alliance.
    Mr. Chairman, some European leaders have said that these 
seven countries should be seen and not heard, and the United 
States differs with that view. We believe these nations deserve 
our respect and our support for everything they have done to 
reassert their independence and their sovereignty over the last 
12 years. They know the meaning of democracy because it was 
denied to them for a very, very long time. And so they do not 
just bring military capabilities to the table, they bring a 
strong sense of political will which, combined with ours, we 
think will keep NATO strong.
    We think in this sense that we ought to look at NATO 
enlargement not as how many countries we are obligated to 
defend, which of course was a pertinent question that we had to 
ask and that Senators had to ask in decades past during the 
cold war, but rather how many countries can we count on to 
stand with us when the going gets tough as it was in 
Afghanistan and as it currently is in Iraq. In this sense, the 
size of a country, the geography and population count for less 
than the political will to defend our principles and our 
collective security.
    These seven countries, as you said, Mr. Chairman, 
understand they are joining an alliance in transformation and 
in transition. They understand the threats to us are different 
than in times past, and we think that they understand one of 
the principal lessons of September 11 and that is that NATO's 
future is not just in the defense of Europe, but NATO's future 
has to be to defend us from threats wherever they arise. NATO 
has to go wherever it is needed, and as you said very famously, 
Mr. Chairman, NATO is either going to be out of area or out of 
business. You said that a very long time ago, but it was 
prescient because that is exactly the decision that our Foreign 
Ministers made at the Reykjavik meeting last year and the 
primary sentiment that is now fueling the future of this 
alliance.
    If NATO's past was centered in countering the Soviet threat 
to western Europe, its future must be devoted to meeting the 
greatest security challenge of this generation and that is the 
toxic mix of terrorism and weapons of mass destruction far from 
Europe's shores. NATO needs to pivot from an inward focus on 
Europe, which was necessary and appropriate during the cold 
war, to an outward focus on the arc of countries where most of 
the threats are today, in the Middle East and Central Asia and 
in South Asia. And that is why the United States believes that 
NATO should play a larger role in Afghanistan as we begin to 
think about the next iteration of the peacekeeping force there, 
and it is why we believe that NATO ought to be playing a role 
in Iraq after that conflict is over on weapons of mass 
destruction, on reconstruction, and in peacekeeping. These are 
some of the issues that Secretary Powell will address when he 
arrives at NATO tomorrow night for his meetings with NATO 
leaders on Thursday in Brussels.
    As you know, Mr. Chairman, we are asking our European 
allies to spend more on defense, to fill NATO's shortfalls in 
areas such as heavy air- and sea-lift, air-to-air refueling, 
precision-guided munitions, and advanced communications, and 
these are precisely the military capabilities that are so much 
in need and so evident in our own application of force in Iraq. 
We have launched a wholesale transformation of our alliance 
military structure with the NATO Response Force, with a new 
command structure.
    Mr. Chairman, you and Senator Biden mentioned the divisions 
within the alliance over the last couple of months, 
particularly in the debate that we had in January and February 
on the defense of Turkey and Article 4, and I thought I should 
give you my views on why that happened and what it means for 
the alliance.
    First let me say I think we need to keep divisions with our 
European allies in some historical perspective. If we remember 
Suez in 1956 and the debates we had with the Europeans, the 
debates over Vietnam with our European allies, the debates 
about the introduction of Pershing missiles in the 1980s, the 
debates over Bosnia in the early nineties, Kosovo in the late 
nineties, these were all issues that divided in one way or 
another the United States from its European allies. I think 
that we will survive this present transatlantic debate and we 
will be the stronger for it.
    Having said that, it is also important to remember that 
when we debated the defense of Turkey last month, the great 
majority of the allies were with the United States. There were 
16 of us who felt it was a fundamental obligation of the 
alliance, in essence, a matter of principle, that we should 
come to Turkey's aid. The actions of France, Germany, and 
Belgium led to a crisis of credibility within the NATO alliance 
because their narrow efforts violated the core fabric of NATO, 
which is that all of us come to each other's assistance in time 
of need.
    In the end, Germany and Belgium did the right thing and 
NATO did meet its commitment under Article 4 of the Washington 
Treaty, and we have deployed AWACs and Patriot missile systems, 
and chemical and biological teams as an alliance to Turkey, and 
the presence of those forces has helped to deter and defend 
Turkey at a very critical time in the midst of the war in Iraq.
    But our final success in breaking the impasse was only made 
possible by the decision that our administration made to meet 
in NATO's Defense Planning Committee at 18, which is without 
France.
    One of the bright spots, in an otherwise very, very 
frustrating month for me and for my colleagues at NATO, was 
when the Ambassadors of the seven invited nations visited me in 
my office to tell me that they were with us, that they would 
have supported aid to Turkey had they been part of our 
deliberations, and I certainly would have liked to have had 
them at the table with us that week, and I look forward to the 
day when they will be with us at that table.
    Senator Biden mentioned some of the issues that have arisen 
since that debate. Can NATO make decisions effectively if we 
grow from 19 members to 26 members? Does the consensus way of 
decisionmaking still make sense for NATO? And I would be very 
happy to address that question, Senator, and from any other 
Senator during the question and answer time.
    Senator, let me just conclude by saying that, as we look to 
the future, I think we do have some major challenges ahead of 
us, and I would count six priorities for us.
    First, we need to strengthen NATO's role in meeting threats 
outside of Europe, thus our wish that NATO play a larger role, 
as I have said, in Afghanistan and in Iraq post-conflict.
    Second, we need to complete the transformation of the 
military side of the alliance that we began at Prague--and 
Senator Voinovich was there with us at the Prague summit--a new 
command structure, NATO Response Force, asking the European 
allies to do more, to spend more and to spend more wisely to 
create a better and stronger military capability.
    Third, we will need to integrate these allies into the 
alliance if the Senate gives its advice and consent, and we 
need to keep our door open to future enlargement in the years 
ahead as other European countries seek membership and are 
capable of meeting the obligations.
    Fourth, Senator Lugar, you mentioned Russia. Russia, 
Ukraine, and the countries of Central Asia are on the front 
lines of the war against terrorism. We have new NATO 
relationships with them and we have to give them our full 
support.
    Fifth, Senator Biden mentioned the issue of NATO and the 
European Union. We have had some success. We now have a new 
NATO-EU arrangement which allowed the EU to take over yesterday 
NATO's peacekeeping mission in Macedonia, which is a step 
forward, and we would like to see the European Union continue 
to cooperate with us, use NATO resources, not to build their 
own on their own missions.
    Senator Biden also mentioned the fact that on April 29 it 
has been announced that Belgium, France, Germany and Luxembourg 
will have a summit to discuss the possibility of building a 
separate European military command. You mentioned President 
Prodi of the EU. I was with him last week and I gave him my 
advice that we thought that any meeting that would discuss a 
European command separate from NATO would be a mistake and 
would be dangerous to the fabric of the transatlantic 
relationship and of NATO itself. One of the Europeans present 
said, well, Mr. Ambassador, the problem is we need a strong 
European defense. I said, you have it and it is called NATO and 
you have had it for 54 years. And we cannot give up on that.
    Our sixth priority should be to maintain our commitments 
that we have got in Bosnia and in Kosovo. They are still 
commitments we have to meet and there is still a transition 
that has not been completed.
    Senator, let me just finish and say that we need to remain 
engaged with our allies through NATO. We need to remember that 
NATO has been there with us and for us for 54 years. I am 
firmly of the view that the United States should not operate 
alone in the world, that we need friends and allies, that we 
need a permanent alliance, and that we need to build that 
relationship and rebuild it after the strains of the last 
several months. NATO is vital because it is America's only 
permanent bridge to Europe. It is the expression of our 
commitment to their defense and of them to ours. It is a 
vehicle through which we continue to provide the nuclear and 
conventional defense of Europe and by which we must now address 
threats outside of Europe in places like Afghanistan and Iraq. 
And as we reaffirm and rebuild our sometimes troubled 
transatlantic ties from the debates of the past few months, 
NATO has to be one of our key instruments. We should continue 
to depend on NATO and to believe in it as a guidepost for our 
policies in Europe.
    Thank you very much, Mr. Chairman and Senators, for 
listening to me. I am very happy now to respond to your 
questions.
    [The prepared statement of Ambassador Burns follows:]

   Prepared Statement of Ambassador R. Nicholas Burns, United States 
  Permanent Representative to the North Atlantic Treaty Organization, 
                           Brussels, Belgium

                              introduction
    Mr. Chairman, thank you for inviting me here today. I am honored to 
appear before the Senate Foreign Relations Committee to discuss the 
future of NATO, our most important Alliance and a central pillar of 
U.S. foreign and defense policy. America needs a permanent Alliance 
willing and able to take on the dangers posed by terrorism, weapons of 
mass destruction and other new threats. The Administration's policies 
are designed to ensure that NATO can continue to meet this challenge.
    Before I begin, Mr. Chairman, I want to acknowledge your leadership 
in defining a sensible American policy on NATO. I very much appreciate 
the advice and guidance that my team received from you when you visited 
us in Brussels last year. Your commitment to NATO throughout your 
Senate career has been steadfast and very much appreciated by all of us 
in the United States Foreign Service.
    I would like to thank Senator Biden for his leadership of this 
Committee last year, when the Senate supported both NATO's 
transformation and NATO enlargement in preparation for the Prague 
Summit.
    Let me also say that I greatly appreciate the participation of the 
Congress in the NATO Parliamentary Assembly. We are proud that 
Congressman Doug Bereuter now serves as President of this important 
forum.
    Mr. Chairman, we are meeting at a moment when the United States 
faces momentous challenges overseas. American and coalition soldiers 
are in harm's way in Iraq, undertaking by force what Saddam Hussein 
refused to do peacefully--to disarm as demanded by the international 
community for over 12 years.
    Differences with a number of our long-standing Allies over how to 
deal with the grave threat posed by Saddam have put a serious strain on 
Trans-Atlantic ties. Just as we will have to rebuild Iraq, we will have 
to bring NATO back to the consensus and unity that marked the Prague 
Summit just four months ago, when we agreed that NATO needs new 
members, new capabilities and new relationships to meet the threats of 
the 21st century.
    Today I would like to give you a view from Brussels on where NATO 
is right now, where we want it to go, and how we believe the seven 
invited nations will help us get there. I will try to make the case 
today that the seven invited nations are ready to become full NATO 
members, and that their accession is in the best interests of the 
United States. I will also tell you why I believe NATO remains our most 
important Alliance, and how we seek to transform it to meet the new 
threats so evident after September 11, 2001. Finally, Mr. Chairman, I 
will give you my thoughts on the key challenges that NATO faces in the 
period ahead.
                     the u.s. enlargement strategy
    Mr. Chairman, last week, on March 26, I had the honor of signing on 
behalf of the United States in Brussels the Protocols on the Accession 
to the North Atlantic Treaty of Bulgaria, Estonia, Latvia, Lithuania, 
Romania, Slovakia and Slovenia. I strongly encourage the U.S. Senate to 
provide its advice and consent to the ratification of these protocols. 
I am convinced that bringing these seven nations into the Alliance will 
make NATO a stronger collective defense organization and will increase 
the security of the United States.
    When President Bush and NATO leaders invited the seven countries to 
begin accession talks with the Alliance at last November's Prague 
Summit, it was truly a historic step forward. Since the fall of the 
Berlin Wall and communism more than a decade ago, the U.S. and our 
Allies have pursued the strategic aim of creating a Europe whole, free, 
secure and at peace. This has been President George Bush's objective as 
it was of President Clinton and of President George Herbert Walker 
Bush, with wide bipartisan support--to firmly anchor the nations of 
Central and Eastern Europe in both NATO and the European Union.
    NATO's enlargement, coupled with enlargement of the EU, will move 
Europe beyond the divisions and instability that made the 20th century 
one of history's bloodiest. This is a profound achievement for the 
United States and our European Allies.
    We have pushed these countries hard to be ready for NATO 
membership. Since the end of the Cold War, and particularly since 
becoming candidates for NATO membership, the seven invited nations have 
joined Poland, Hungary and the Czech Republic in consolidating 
democracy and free markets in that half of Europe closed behind the 
Iron Curtain during the Cold War. The prospect of Alliance membership 
has helped to erase old dividing lines and shift Europe and NATO's 
center of gravity eastward, broadening security and stability on a 
continent that has seen too little of both.
    Mr. Chairman, my recommendation of ratification is based on months 
and years of work by our government with the invited countries. Twice 
last year, in February and in October, I led a U.S. interagency team to 
the seven invited nations--as well as to Albania and the Former 
Yugoslav Republic of Macedonia--to assess their readiness for NATO 
membership. During these visits, as well as in Brussels and at the 
Vilnius-10 Summit in Riga last July, our team met with every President, 
Prime Minister, Foreign and Defense Minister of the seven nations--in 
well over one hundred separate meetings. Our goal was to learn as much 
as we could about these countries' readiness for NATO membership, and 
to encourage them to press ahead with their historic reform efforts.
    Based on these meetings and visits, and on our wide-ranging 
contacts with these nations at all levels of the U.S. Government, I 
believe that all of the invited nations meet NATO's high standards for 
membership. All seven are reforming and modernizing their defense 
establishments to add strength to NATO's collective defense 
capabilities. All have demonstrated a firm commitment to NATO's 
community of values by addressing such issues as corruption, minority 
rights, regional relations, trafficking in persons, the legacy of the 
Holocaust, property restitution, and good governance. All have 
responded positively and constructively to a very intrusive U.S. 
examination of their efforts, often beyond the rigors of NATO's 
Membership Action Plan that all of the invited nations have endured 
since 1999.
    This is not to say that the invited nations have solved all their 
problems. Despite the remarkable progress we have seen, each of them 
remains a society in transition from communism to an open democratic 
and market-oriented system. Their levels of progress differ, and many 
challenges remain. Together with our Allies, we will need to continue 
to encourage and support their reform efforts in the years ahead.
    The invited nations are the first to recognize that the job is not 
done. They are committed to reform. Their efforts have not slowed, but 
rather accelerated, in the months since NATO's historic decisions in 
Prague. Each of the Invitees has made new commitments in writing, at 
the highest level, to specific reform measures on a range of issues. 
These individual Timetables for the Completion of Reforms were 
submitted to NATO prior to the signing of Accession Protocols on March 
26. They constitute important political commitments that will guide 
their efforts throughout the accession period and beyond--and will help 
inform Allied parliaments about the status of these nations' 
preparations for membership.
    Take a look at Romania's reform timetable and you will find 
budgetary commitments to enable its anti-corruption office to do its 
work. Read Bulgaria's and you will see specific steps that the 
government is taking to curb illicit arms sales and safeguard NATO 
secrets. The timetables of Estonia, Latvia, and Lithuania outline their 
strategies for educating their children about the Holocaust and 
restituting communal property. Read Slovenia's timetable and you will 
find a specific commitment to increase defense spending to 2 percent of 
GDP by 2008. See Slovakia's for a detailed description of the 
government's efforts to improve the situation of its Roma minority.
                              the invitees
    Mr. Chairman, the President's report to Congress on NATO 
enlargement, which was submitted last week, contains a detailed 
analysis of each of the invited nations. Rather than review all the 
findings of that report, let me try to give you a brief snapshot of 
these seven countries, each of which brings a different set of 
strengths to the NATO table. Their participation in the MAP and in the 
Partnership for Peace ``PfP'' program has enabled them to make 
significant strides in reforming their militaries and in enhancing the 
interoperability of their armed forces with NATO. Furthermore, each of 
these countries has also made important political and military 
contributions to the security challenges we face--in the Balkans, in 
Afghanistan, in Iraq, and in some cases in all three theaters.
    Romania, the largest of the invited nations, self-deployed over 400 
combat troops to Afghanistan and now has a 70-strong nuclear/
biological/chemical defense team on the ground in Kuwait in support of 
the coalition, with more personnel en route. Again and again, Romania 
has demonstrated the ambition, and the means, to play a major role in 
NATO as a close Ally of the U.S. The government is also showing a clear 
commitment to tackling its remaining reform challenges, including 
corruption and cementing the rule of law, where much work remains to be 
done.
    Like Romania, Bulgaria has been with us every step of the way on 
Iraq--despite calls from some other parts of Europe to remain on the 
sidelines. Bulgaria has played a key role in UN Security Council 
deliberations, joined our Coalition, and contributed a nuclear/
biological/chemical defense team to the Iraqi theater of operations as 
well as airfields for our movements to and from Afghanistan. Bringing 
Bulgaria and Romania into NATO would further extend stability into 
Europe's most troubled region--southeast Europe. Bulgaria's government 
has taken numerous painful steps on defense reform, including 
destroying its SS-23 and SCUD missiles and reducing the size of its 
armed forces by the thousands. Moreover, Bulgaria is working closely 
with us to tighten export controls and protect NATO classified 
information. These are tough challenges, but I am confident that the 
government will succeed on both counts.
    Like Bulgaria and Romania, Slovakia has faced the challenge of 
reducing a large, antiquated military machine inherited from its Warsaw 
Pact past--and is accomplishing this task with success. Slovakia's 
military is capable of making a significant contribution to Alliance 
defense, including through its mechanized infantry battalion for NATO-
led operations and its nuclear/biological/chemical defense team now on 
the ground in Kuwait in support of the coalition. Slovakia is also on a 
very positive political and economic trajectory, having put the 
autocrat Vladimir Meciar out to pasture in last September's elections, 
and is making good progress on remaining problems such as integration 
of the Roma and fighting corruption.
    One week ago, Slovenia surprised many by winning its referendum on 
NATO membership by a two-to-one margin, a tribute to the efforts of its 
government and--I believe--to the wisdom of its people. The mandate 
that the government has received bodes very well for Slovenia's future 
contributions to the Alliance. With its model democracy and strong 
economy, we can expect Slovenia to continue to serve as a leader in the 
Balkans, in areas like de-mining and mountain warfare training. We 
welcome the government's commitment to raise defense spending every 
year from now until it reaches 2 percent of GDP by 2008.
    Latvia, Lithuania and Estonia are well prepared to take up the 
responsibilities of NATO membership. Though small, they have worked 
hard for a decade to develop niche military capabilities to fill 
Alliance shortfalls, and we can expect continuing staunch support from 
them for U.S. objectives. All three have contributed troops to NATO-led 
operations in the Balkans and all three are on the ground with us in 
Afghanistan. All three have joined the coalition to disarm Saddam 
Hussein, and all are taking steps to deploy military personnel to the 
theater for purposes of peacekeeping and reconstruction. The Senate and 
successive U.S. Administrations deserve credit for having been true and 
loyal friends of the Baltic States. The U.S. never recognized their 
illegal annexation by the Soviet Union and stood by them as they built 
their new democracies. These are truly admirable countries, freed 
forever from totalitarianism, and ready to enjoy the benefits of 
freedom and security that they surely deserve.
                      a more atlanticist alliance
    Mr. Chairman, I think it is important to consider not only the 
objective qualifications of the seven invited nations, but also the 
factors that have led them to seek membership in NATO, what kind of 
Alliance they are interested in joining, and how this affects more 
broadly U.S. national security interests.
    In the thousands of miles that my colleagues and I have traveled, 
and in the hundreds of meetings that we have held--not only with 
government officials but with members of the opposition, public opinion 
leaders, and civil society as well--we have heard time and again how 
grateful the invited nations are for the leadership that the U.S. has 
shown on enlargement and in strengthening security in the Euro-Atlantic 
area.
    When I first took up my assignment in Brussels in the summer of 
2001, the conventional wisdom at NATO was that somewhere between one 
and four nations might receive Prague Summit invitations--certainly not 
seven. It was President Bush's vision--first articulated in Warsaw 
earlier the same year of an Alliance stretching ``from the Baltics to 
the Black Sea''--that shifted the balance at NATO in favor of a robust 
enlargement. The horrible events of September 11, 2001 further 
convinced many at NATO that the Alliance should expand its ranks with 
those countries willing to take risks to win the war on terrorism.
    From the very beginning, it was the U.S. that championed the most 
robust possible enlargement--a fact that has not been lost on the 
invitees. They know that if not for U.S. leadership, NATO membership 
might not have happened for them. They can thank President Bush and his 
predecessors as well as the Senate for this achievement.
    Let there be no doubt--these are nations that understand the value 
of NATO membership and they will never take it for granted. They will 
be among our most committed Allies when they walk through NATO's doors 
as full members. Senator Voinovich of this committee, who attended the 
Prague Summit, will recall the remarkably eloquent words of Latvian 
President Vike-Freiberga at the North Atlantic Council meeting 
following her country's invitation to join the Alliance. She said,

          Our people have been tested in the fires of history, they 
        have been tempered by suffering and injustice. They know the 
        meaning and the value of liberty. They know that it is worth 
        every effort to support it, to maintain it, to stand for it and 
        to fight for it. We make a solemn pledge and a commitment here 
        today, on this historic and solemn occasion, that we will 
        strive to our utmost to do our part to contribute not just to 
        the strength of the Alliance but to do whatever needs to be 
        done to create a world where justice and liberty are available 
        to all.

    Hearing those words again, it is easy to understand why President 
Bush said at Prague that he expects the invited nations to ``refresh 
the spirit'' of NATO itself.
    Some say these nations should be seen and not heard. The U.S. 
believes these nations deserve our respect for all they have done to 
reassert their own independence and freedom. Theirs is one of the most 
dramatic and hopeful stories of our time. We need to hear their views 
on the issues of the day, including on NATO's future. These nations 
know the meaning of democracy, having been denied it for so long. They 
know the value of freedom, having had theirs crushed by Soviet 
communism and totalitarianism. They don't just bring new capabilities 
to the table; they also bring strong political will to defend our way 
of life.
    Mr. Chairman, in this new century, we should look at NATO 
enlargement not as how many countries we are obligated to defend, but 
rather how many countries we can count on to stand with us when the 
going gets tough. Size and geography and population count less than the 
political will to defend our principles and collective security.
                      new threats/new capabilities
    Mr. Chairman, the seven nations that received invitations at the 
Prague Summit understand that the threats we face today are 
fundamentally different from those of the last century--that the 
threats of today come not from strong states within Europe, but from 
unstable failed states and terrorist organizations far from Europe's 
borders.
    As NATO Secretary General George Robertson has said in his 
inimitable fashion, ``geography will no longer act as our shield,'' 
because the current and future security environment ``does not afford 
us the luxury of fighting theoretical battles about what is `in' and 
what is `out of area.' '' In other words, as you famously said, Mr. 
Chairman, NATO is either ``out of area or out of business.''
    This was the lesson the United States derived from the tragic 
events of September 11--that the gravest threats to our security can 
come from anywhere on the globe. NATO's future is thus the defense of 
peace not just in Europe but wherever threats arise to all of us in the 
Euro-Atlantic community. In fact, NATO is already operating well beyond 
the borders of our member states, and that is where NATO belongs. The 
old ``out-of-area'' debate is indeed dead.
    Today in Afghanistan, troops from fourteen NATO, and fourteen NATO 
Partner, countries make up the vast majority of the 4,500 strong 
International Stabilization and Assistance Force (ISAF). In addition, 
NATO itself has assisted current ISAF lead nations Germany and the 
Netherlands with force generation, planning, intelligence, coordination 
and information sharing, and communications.
    If NATO's past was centered in countering the Soviet threat to 
Western Europe, its future must be devoted to meeting the greatest 
security challenge this generation faces--the toxic mix of terrorism, 
states that sponsor terrorism, and weapons of mass destruction far from 
Europe's shores. NATO needs to pivot from its inward focus on Europe--
which was necessary and appropriate during the Cold War--to an outward 
focus on the arc of countries where most of the threats are today--in 
Central and South Asia, and in the Middle East.
    Mr. Chairman, our transformation agenda for NATO is an ambitious 
one, and there are many challenges to overcome. But at the Prague 
Summit last November, President Bush and his fellow Heads of State and 
Government took historic decisions to set this process in motion.
    The Prague vision was both simple and far-reaching--to launch a 
wholesale transformation of the Alliance for the 21st century. The old 
NATO served us well, but because the threats to our common security had 
changed, Allies agreed that NATO had to change with them.
    At the Summit, Allies agreed to a three-part reform effort--to 
build new military capabilities to fight terrorism and the spread of 
Weapons of Mass Destruction and to keep the peace; to take in new 
members to broaden NATO's reach; and to nurture new relationship with 
Russia, Ukraine, our Mediterranean Dialogue Partners, and our partners 
in the Partnership for Peace, particularly with the states of Central 
Asia and the Caucasus to extend security across Eurasia.
    NATO's goal of new military capabilities was expressed in the 
Prague Capabilities Commitment, through which our European Allies 
committed to fill NATO shortfalls in areas such as heavy air and 
sealift, air-to-air refueling, precision guided munitions, and advanced 
communications. In recent months, Allies have begun implementing the 
Prague decisions, pooling their resources by establishing a number of 
multinational consortiums aimed at acquiring these capabilities.
    Our challenge between now and the next NATO Summit in mid-2004 is 
to ensure that our Allies follow through on these commitments in a 
tight budget climate. At NATO, we are keeping the heat on--both through 
bilateral pressure and peer group pressure within the North Atlantic 
Council. Our most effective lobbying tactic is through leadership and 
example. As demonstrated so vividly again in Iraq, Congress has funded 
the strongest military in the world. Allies know what they have to do 
to catch up.
    In Prague, our Allies also agreed to a U.S. proposal to establish a 
NATO Response Force to allow us to move more quickly and flexibly 
wherever needed. This will be a rotational force that is 
technologically advanced, lethal, and has trained and exercised 
together as a combined and joint force. The NATO Response Force was 
Prague's capability headline; it will also be the most visible 
determinant of our success on this front.
    This cutting-edge NATO force needs to be matched by similar 
streamlining in the NATO command structure, with new technologies and 
military doctrines designed to address 21st century threats. We are 
making good progress in transforming NATO's structure and should be 
able to agree on the key elements by the June Defense Ministerial.
                       defense of turkey impasse
    Mr. Chairman, earlier in my remarks I mentioned the very difficult 
debate that we had in Brussels several weeks ago regarding the defense 
of Turkey. I know that this is an issue of concern to this committee so 
I think it is important that I address it.
    This was not the first time that NATO members have disagreed 
vocally, and publicly, on a difficult issue. The Suez Crisis and 
Vietnam were bitter, as was President DeGaulle's decision in 1966 to 
withdraw from NATO's integrated military structure. NATO debate leading 
up to the 1979 Two-Track Pershing Missile decision that eventually led 
to the elimination of an entire class of nuclear weapons in Europe was 
coupled with public demonstrations that rivaled those we have seen 
during the last month.
    My point, Mr. Chairman, in providing this historical perspective, 
is that NATO has survived crises in the past, and NATO will survive 
this latest episode.
    Mr. Chairman, we should also remember that in this latest 
disagreement, only three of our Allies opposed the wish of the majority 
to respond immediately and positively to Turkey's request for 
contingency measures to assist in its defense. Sixteen Allies supported 
the proposal, and the divisions were as deep within Europe as they were 
across the Atlantic.
    For the 15 Allies who stood with Turkey, it was a fundamental 
obligation of the Alliance--a matter of principle--to come to Turkey's 
aid. The actions of France, Germany and Belgium led to a crisis of 
credibility in the Alliance because their narrow efforts violated the 
core fabric of NATO--that we come to each other's assistance in times 
of need.
    In the end, Germany and Belgium did the right thing, and NATO met 
its commitment under Article 4 of the Washington Treaty by deploying 
AWAC surveillance aircraft, Patriot missile systems, and biological and 
chemical response units to Turkey in order to deter and defend against 
Iraqi aggression. Our final success in breaking the impasse was only 
made possible by the decision to meet in NATO's Defense Policy 
Committee and decide to help Turkey ``at 18''--that is, without France, 
which withdrew from NATO's integrated military structure in 1966.
    One of the bright spots in that otherwise frustrating week was when 
the Ambassadors of the seven invited nations visited me in my office to 
tell me they were with us and would have supported aid to Turkey if 
they had been part of the deliberations. I would have liked to have had 
them at the table with us that week, and I look forward to the day when 
they will be. The seven invited nations are expecting to join NATO as 
equal members on an equal footing, and to have their voices heard and 
respected when we differ.
    Privately, a few of these Ambassadors told me that their publics 
back home were wondering whether NATO's collective defense commitment 
was still reliable. I assured them that the U.S. would always insist 
that NATO live up to its core responsibility and meet its commitment to 
its members--as we will for them once they become members.
    An Alliance that keeps its word is the kind of Alliance that the 
seven invited nations want to join. It is the kind of Alliance that 
they are dedicated to preserving. These are countries that understand 
the value of freedom and see NATO as the way to maintain that freedom.
    Some commentators have suggested that enlarging the Alliance by 
seven will make decision-making more cumbersome and difficult. I agree 
that this will be a challenge but one that we can manage well. Gaining 
consensus did not become more difficult with the accession of the 
trans-Atlantic minded Czech Republic, Poland and Hungary in 1999. On 
the contrary, NATO's newest members have shown themselves to be the 
least likely to block consensus and among the most likely to seek it. 
The issue is not the number of nations at the table, but rather the 
will to act collectively and decisively in our common interest.
                             six challenges
    In summing up, Mr. Chairman, as we look toward the next NATO Summit 
in mid-2004, we hope the Senate and NATO's other eighteen National 
Parliaments will ratify the Accession Protocols so that we can 
strengthen NATO with seven new members. We need these nations with us 
as we pursue a NATO agenda that is both clear and complex. Here are the 
six main challenges for NATO as I see them:
    Our first order of business should be to strengthen NATO's role in 
meeting threats outside of Europe. In Afghanistan, NATO is already 
providing support to German and other Allies participating in the 
International Stabilization and Assistance Force. We are prepared to 
favorably consider having NATO provide additional support should 
participating Allies request this. Lord Robertson and some of our 
Allies would like to see NATO take a larger role in ISAF. This makes 
sense to me.
    We believe that NATO should also consider a role in rebuilding 
Iraq, including WMD destruction, civil-military reconstruction and 
contributions to peacekeeping. Rebuilding Iraq will require a broad 
coalition and NATO should play its part--ideally as a collective 
contributor, but at least as a facilitator of individual Allied 
contributions.
    NATO's second challenge is to complete the military and defense 
transformation of the Alliance that we started at Prague, including 
implementing the Prague Capabilities Commitment, establishing a NATO 
Response Force, and streamlining our command structure, to create a 
more nimble, expeditionary Alliance capable of addressing the new 
threats we face today.
    Our third challenge is to integrate the seven new members into the 
Alliance, provided the Senate and NATO's other parliaments give their 
advice and consent to the Accession Protocols. We intend to work 
closely with our new members to ensure that they strengthen Alliance 
defense capabilities and are on the cutting edge of NATO's 
transformation. At the same time, we will continue to emphasize that 
NATO's door remains open, including for Albania, Macedonia, Croatia and 
others who may apply for membership in the future, as we pursue our 
strategic aim of building a unified and peaceful Europe.
    Our fourth challenge is to lift the quality of NATO's relations 
with Partner nations, to realize the full potential of the NATO-Russia 
Council and to further support reform in Ukraine. We also want to make 
a major push this year to jumpstart NATO's interaction with Partners in 
Central Asia and the Caucasus on the front lines of the war against 
terrorism. In addition, we should do more with Middle Eastern countries 
through NATO's Mediterranean Dialogue.
    Our fifth challenge is to work more effectively with the European 
Union. The recent NATO-EU breakthrough on Berlin-plus arrangements sets 
the stage for greatly enhanced strategic security cooperation. We now 
have the opportunity for a cooperative--not competitive--relationship. 
Just yesterday, Mr. Chairman, NATO handed over its peacekeeping 
operation in Macedonia to the EU, on the basis of these arrangements. 
We should seize this opportunity while recognizing that NATO will 
remain Europe's preeminent security organization. We must preserve and 
protect NATO's interests as we move ahead with the EU.
    Sixth, we should be true to NATO's commitments in Bosnia and 
Kosovo. The recent tragic assassination of Serbian Prime Minister 
Djindjic reminds us of the risks that reformers take each day to secure 
a better future for their nations. We must continue to support their 
efforts. At the same time, we should look for additional opportunities 
to integrate the nations of this troubled region into the Euro-Atlantic 
community. This should eventually include the transformation of the 
Alliance's role in Bosnia and Kosovo to civilian authorities.
                   preserving the trans-atlantic link
    Mr. Chairman, let me close with just a few words about why I 
believe the United States should stay engaged with our Allies through 
NATO.
    While it may sometimes be necessary to go it alone in the world, it 
is always preferable to act with our Allies and friends. As Churchill 
said, ``the only thing worse than fighting with Allies is fighting 
without them.''
    For more than a half-century, NATO has been our most important 
Alliance and the strongest bridge across the Atlantic, linking North 
America and Europe in a community of shared democratic traditions and 
values. We should continue to ask NATO to play this role, and to adapt 
to help us meet the new threats of the 21st century.
    Mr. Chairman, we will continue to rely on our Allies to share the 
risks with us in places like Bosnia, Kosovo, Afghanistan and Iraq, and 
to work with them in the war against terrorism. Their contributions 
make us a stronger nation, and will give us a more secure and peaceful 
world.
    I do not underestimate the challenges that lie ahead, but I am 
confident that we are on the right path and that the seven invited 
countries will strengthen the Alliance, refresh its spirit and infuse 
it with a stronger political will.
    Amid all that has happened since September 11, 2001, many have 
asked if NATO still has a future and is still relevant to the U.S. and 
its Allies. Mr. Chairman, I am firmly of the view that NATO will remain 
central to American national interests and to those of our European 
Allies for as far into the future that we can see. NATO is vital 
because it is America's only permanent bridge to Europe; it is the 
expression of our commitment to each other's defense; it is the vehicle 
through which we continue to maintain the peace in Europe and by which 
we must now address threats outside of Europe. As we reaffirm and 
rebuild our sometimes troubled Trans-Atlantic ties from the debates of 
the past few months over Iraq, NATO is one of our key instruments. We 
should continue to depend on NATO and to believe in it as a guidepost 
for our future in Europe and beyond.
    Mr. Chairman distinguished Members of this Committee, thank you 
very much for inviting me here. I will be happy to respond to any 
questions or comments that you have.

    The Chairman. Thank you very much, Ambassador Burns, for 
your testimony.
    We have a good attendance and we have a distinguished panel 
following, so I am going to suggest we have on the first round 
5 minutes for questions of members. I will start and ask really 
two questions to give you the maximum amount of time, 
Ambassador Burns, to explore these questions.
    What is the status of progress on the Prague Capabilities 
Commitment [PCC] and the NATO Response Force [NRF]? Does our 
administration expect candidate states, if they join the 
alliance, to participate in the PCC and the NRF, and are they 
capable of giving a militarily significant contribution to 
each?
    Now, second, to what extent are we moving toward a division 
of labor in NATO between states able to undertake combat 
missions and those able to undertake only peacekeeping 
missions? And how does that gibe with our expectations with 
regard to candidate states joining the PCC and the NATO 
Response Force?
    Ambassador Burns. Senator, thank you very much. On your 
first question, as you remember, at the Prague summit, the 
centerpiece of that summit was the reconstruction of NATO's 
military capabilities because for many decades we had an 
alliance that was facing a Soviet conventional and nuclear 
threat in Europe, and we were structured and equipped to 
counter that threat. The new threats, of course, are threats 
that take place far from Europe's shores and America's. They 
are in places like Iraq and Afghanistan. So we need to have an 
expeditionary quality to our NATO defense doctrine. We need to 
have airlift that will bring forces to the area, precision-
guided munitions that we have used so effectively over the last 
2 weeks in Iraq, air-to-air refueling, secure communications. 
And these are deficiencies that are present in most of our 
allied forces.
    Just to give you a sense of the context of this problem, 
the Congress has appropriated close to $380 billion for 
America's national defense this year. Our European allies and 
Canada will spend roughly $140 billion on their defense. That 
is 18 allies versus $376 billion. So we are outspending our 
allies by a very long margin.
    We are getting more from our $376 billion, I would wager, 
than most of our allies are getting from their $140 billion, 
because we have made the investments in military technology. We 
spend a greater percentage of our budget on R&D and on 
technology and less on keeping up, maintaining the force in 
terms of the personnel costs. So in Prague what we said to the 
allies, what President Bush said was we have got a big gap that 
is separating the United States from all of its allies 
militarily. We want to see that gap narrowed.
    So we have asked the allies to see if by June of this year, 
when our Defense Ministers meet--and Secretary Rumsfeld will be 
at that meeting in Brussels--can we make some real progress. 
Can a consortium of our allies agree to lease or to purchase 
strategic airlift for the future? You have seen what the C-17s 
have been able to do in Iraq in ferrying our forces and 
equipment there. The European allies have exactly four C-17s 
available to them across the European continent, and we have 
several hundred. You have seen what the PGMs can do. And so we 
have created these separate groups of allies that are working 
for progress in each of these critical areas, Senator, and we 
hope that there can be progress.
    What we have said to the smaller nations, including the 
seven nations that are at issue today, the invited nations, is 
that in the future, smaller nations need not feel that they 
have to have fully fledged and fully constructed armies, 
navies, and air forces, that they might want to concentrate on 
niche military capabilities. So, for example, the Czech 
Republic has specialized in chemical and biological weapons 
decontamination units, and they are in Kuwait serving the 
coalition right now. And that is a specialty that is a 
shortcoming in the NATO alliance and that we need more of. 
Norway is specializing in special forces. So we think that some 
of the smaller allies ought to focus on niche capabilities and 
they ought to pool their resources, four or five or six of 
them, to purchase some of these military capabilities that they 
could not on their own.
    In terms of your second question, a division of labor in 
NATO, we do not want to see it develop. We do not want to see a 
two-tiered alliance where the United States is uniquely capable 
of projecting force, of doing the fighting, and our European 
allies cannot be with us. Certainly the United Kingdom and 
France have the kind of military capabilities that make them 
expeditionary, but most of our allies do not. So that is why 
the emphasis on spending more money, for our European allies 
spending more wisely, arriving at niche capabilities is the 
focus of our efforts.
    The Chairman. Thank you very much.
    Senator Biden.
    Senator Biden. Thank you.
    Nick, I know I gave you a whole bunch of questions there. I 
hope I get a chance maybe to get you alone and talk about some 
of this. I do not expect you to be able to do that now, 
especially since we have so many members anxious to speak.
    I would like to focus on, in the brief 5 minutes we have, 
on two points. But I would like to make a point to you as well.
    I hope the administration is prepared to support some of us 
who want to push back on this $150 million slush fund at the 
Defense Department with no oversight by State or Congress.
    Second, this new office in the White House to receive and 
distribute most of the supplemental moneys that we are now 
giving directly to State and USAID. I want to talk to you about 
that later. That is just a little red flag going up here. We 
pushed back on it twice, and I hope we succeed in doing it 
again. But we are going to need some inside help on this one.
    Let me go to my two questions. I could not agree with you 
more about how prescient my chairman was and is, as well as the 
need for a wider role for NATO in Afghanistan and Iraq. But, 
Nick, I am not sure how to get from here to there. I do not 
think you would find much disagreement among us up here that 
that is needed.
    I recall, as the chairman said in his opening statement, 
when immediately after 9/11, Article 5 was invoked, the first 
time in NATO's history, when headlines of Le Monde said we are 
all Americans, when Schroeder literally risked his government 
by a vote of confidence to send, I think it was, 1,000 crack 
German troops. I forget the number now. Was it 1,000, Michael? 
I think it was 1,000 to Afghanistan out of country. He won by 
one vote. And then we immediately stiff-armed him and said we 
do not need you.
    The French also committed forces. I do not want to get my 
chairman in trouble, but I think we had a discussion and we 
both made it clear to the administration we thought whether or 
not we needed those troops, politically we needed those troops. 
And it was very important. We made a plea to the President, at 
least I did, and I think the chairman did. Saying please accept 
their help for God's sake. NATO--this matters. Pride matters. 
Humiliation is not a real good tool to use, even if it is 
unintended, in foreign policy.
    So how the heck do we get from here to there? Initially the 
State Department supported an expanded ISAF with NATO 
components in it. Now, I know you are not talking about the 
same precise thing. You are not talking about ISAF necessarily 
being expanded. Quite frankly, I am not sure what you are 
talking about other than an expanded role for NATO. But how do 
we get there, Nick?
    What is the chemistry that makes the Germans and the French 
and a number of our NATO allies who were--skeptical is not the 
word--hostile to our actions in Iraq--how do we get them in the 
deal in Iraq, which I think is critical, without engaging them 
in a way where they have some say, impact, input in what this 
transition government will look like? Because there is an 
intense debate we hear about--I will speak for myself--I hear 
about--between the--my phrase, no one else's--the Cheney-
Rumsfeld axis and the uniform military-State Department axis 
that says that on the one side, we do not want anybody, we will 
take care of security, which I understand. And by the way, we 
are going to make sure of the transition. We are going to pick 
the transition government. We are going to pick the makeup. We 
are not going to have NATO or anyone else involved. And last, 
we are not going to have anybody, especially the French, engage 
in any of this reconstruction effort.
    Tell me, what elements do you have to have available to you 
to convince your colleagues that NATO should be engaged 
militarily in Afghanistan and in Iraq, larger in Afghanistan 
initially and for as long as it take in Iraq?
    Ambassador Burns. Thank you, Senator. First, let me say I 
would be very happy to sit down, whenever it is convenient to 
you, to address the questions you asked before at the beginning 
of the hearing.
    I would just like to say one word on your first question. I 
am absolutely convinced of the commitment of this 
administration to NATO. I think we have obviously gone through 
a lot in trying to think through how to adapt a cold war 
institution to be effective in a very changed world where the 
strategic threats are different and the requirements are 
different. And President Bush's participation in the Prague 
summit was the culmination of that where we essentially wrote 
and decided on a new foundation for the alliance militarily as 
well as politically. So I think that the United States has 
shown the right leadership in rebuilding the alliance.
    What we need now are two things. We need the Europeans to 
have greater military capabilities, but we also need--and this 
gets to your specific question on Afghanistan and Iraq--we need 
a common sense of political will that we have got to go out and 
meet these threats of this nexus of weapons of mass destruction 
and terrorism.
    On Afghanistan, there really is no debate in NATO about 
whether or not NATO should be present. We are present. As you 
know, the U.K. was the first lead of the peacekeeping force; 
Turkey, the second. And now Germany and The Netherlands are co-
leads of the third iteration of ISAF. NATO is playing a support 
role already to Germany and The Netherlands with planning and 
logistics and with special military advice. The question for 
us, as we look toward the summer, is should NATO continue to 
play a support role to individual country leads in ISAF or 
should NATO become the peacekeeping mission itself and take it 
on as we took on Bosnia and Kosovo so successfully. The United 
States believes that we have got to now engage in a debate on 
that issue and make a decision in the next month or two, and we 
are open to either option. We could certainly support either 
option.
    Senator Biden. What is in it for our NATO allies? I 
apologize, Mr. Chairman. What thinking process do they have 
that said this makes sense for the alliance to take on a more 
formal role, which I strongly support? What ingredient? I mean, 
what is the thought process? What do you have to convince them 
that that makes sense or for them to conclude that? That is 
what I am trying to get at.
    Ambassador Burns. Seventeen of our 18 NATO allies made it 
to Afghanistan after October 2001 when we initiated military 
action in Afghanistan. Thirteen remain there. Some of them are 
in Operation Enduring Freedom in the combat force, and some are 
in ISAF.
    I think what binds us together with them in Afghanistan is 
they see the same threat that we do. What threatens Germany and 
France and Belgium, just to choose three NATO members with whom 
we have had a disagreement over the last couple of months, in 
Afghanistan is this threat of weapons of mass destruction and 
terrorism that they know could hit them, as it hit us on 
September 11, 2001. So we have never had any kind of 
divisiveness in the alliance about whether we should be in 
Afghanistan.
    The issue now is should NATO go all the way and take the 
lead, take over the peacekeeping force. There are some 
countries that say, well, NATO should not be that much out of 
area or are we ready for that kind of commitment. Other 
countries say only NATO can do it, to establish a command with 
SACEUR's authority and the political control of the North 
Atlantic Council and the ability to draw upon the 2 million 
troops that our 19 nations bring to the table. So I think it is 
common and shared interests, Senator, that binds us together 
with our allies.
    The discussion on Iraq is quite different than Afghanistan, 
very different. When Deputy Secretary of Defense Paul Wolfowitz 
came to NATO 3 months ago, he suggested to all the allies that 
NATO think of a role for itself in Iraq post-conflict. It 
obviously was not going to be possible for the alliance to be 
part of the coalition because Germany and France and the other 
countries had made it clear they would not participate in 
offensive military action. So Paul Wolfowitz suggested how 
about a role for NATO once the fighting stops. We will need 
many, many troops for peacekeeping, for reconstruction, for 
humanitarian assistance. We have to locate where the chemical 
and biological weapons are. We have to take custody of them and 
then begin to destroy them. So those options are still on the 
table and the United States is prepared to discuss with our 
allies whether or not they would like to come into Iraq after 
the conflict has ended.
    Most of the allies are telling us that they will need some 
kind of legitimizing U.N. Security Council resolution so they 
can go to their Parliaments, as all democratic governments need 
to do, to where the power is and say, this is why we should be 
in Iraq because the international community has decided these 
are legitimate functions.
    Senator Biden. Godspeed, Nick.
    I have taken too much time.
    The Chairman. Thank you very much, Senator Biden.
    Temporarily the hearing will be suspended and the committee 
will move into a business session.
    [Whereupon, at 10:33 a.m., the committee was recessed to 
proceed in a business session, and reconvened at 10:36 a.m.]
    The Chairman. Senator Hagel, you are recognized for your 
questions.
    Senator Hagel. Mr. Chairman, thank you.
    Ambassador Burns, welcome. We appreciate your good work and 
leadership at a difficult time.
    I particularly appreciated your presenting some perspective 
in your testimony as to the differences over the years that we 
have seen within NATO. They are very relevant I think to our 
discussion today and what will continue as very important 
discussion as to the role of NATO, the role of individual 
members, the collective responsibilities of NATO, in particular 
as we look to bring in seven new members. So thank you for 
that.
    Some of the more interesting parts of your testimony, in my 
opinion, focused on what is going on in the world today. 
Senator Biden has just discussed some of that with you, 
particularly Afghanistan and Iraq. I would like to followup on 
a couple of points.
    In your testimony you reference what you and Senator Biden 
have been discussing, a role for NATO in Afghanistan, quoting 
Lord Robertson, and this is from your testimony. ``Lord 
Robertson and some of our allies would like to see NATO take a 
larger role in ISAF.'' Then you add, ``That makes sense to 
me.'' Are you speaking for the administration when you say that 
or for Ambassador Burns?
    Ambassador Burns. Senator, I am speaking for the 
administration obviously.
    Senator Hagel. Does that include then our consideration of 
U.S. troops in ISAF if we broadened that responsibility?
    Ambassador Burns. Yes, sir. As you know, we have troops in 
Operation Enduring Freedom. One of the questions that we would 
have to face if we did decide that NATO should take on full 
responsibility for ISAF would be, how many troops could you 
raise and could you raise from NATO 2 million and from which 
countries?
    But let me just say that when Lord Robertson visited 
Washington in February, this issue was discussed in the White 
House. It was discussed with the Secretary of State and the 
Secretary of Defense, and the administration believes that NATO 
should play a larger role. That is our policy.
    Senator Hagel. Including ISAF. And the policy of our 
government would be to be part of that, would be enlarging our 
efforts in Afghanistan with American troops in an ISAF force.
    Ambassador Burns. Well, we have not addressed that question 
specifically. The question before us--and I think this will 
obviously be an issue that will come up when Secretary Powell 
visits on Thursday with the NATO allies in Brussels, and we 
have got to have a good debate on this over the next month or 
two and make an early decision because the German-Dutch lead 
expires in August of this year.
    The question is, can we find a NATO country or countries 
that would provide most of the forces and NATO would provide 
then support to that? Or should NATO--the second option, as I 
said to Senator Biden--assume full responsibility? In the 
latter case, then each country would have to make a decision as 
to whether or not they were willing to contribute their own 
national forces. As to what the United States would do, we 
would certainly support either option, but in terms of 
committing troops, that is a decision that only the President 
and the Secretary of Defense can make.
    Senator Hagel. Thank you.
    Moving to Iraq--and you pursued this a bit in your 
testimony as well as your exchange with Chairman Lugar and 
Senator Biden. NATO's participation in a post-Saddam Hussein 
Iraq. First, are you involved in any of this discussion within 
our government, the U.S. Government, as our representative to 
NATO?
    Ambassador Burns. That would be the discussion over the 
shape that the post-conflict international----
    Senator Hagel. The reconstruction effort. General Garner, I 
understand, reporting to the Defense Department, that is where 
it resides, my understanding is. Have you been asked to 
participate as reflecting on where NATO might be in this?
    Ambassador Burns. I have not been centrally involved in 
those discussions. They have taken place back here in 
Washington, Senator. I have been out in Brussels for the last 
few months.
    But I have been involved in one slice of it, and that is, 
could NATO be part of the piece of the puzzle of putting 
together an international presence in Iraq post-conflict. As I 
mentioned, that debate started when Deputy Secretary Wolfowitz 
came to NATO on December 4, 2002. He put these ideas on the 
table to the 18 NATO allies.
    We have had a lot of discussions at NATO since then.
    Senator Hagel. But actually you have not been a part of 
that. As you know, there is a rather significant debate going 
on, at least if I understand this correctly, between the State 
Department, Defense, and other elements of the administration 
over agreeing and disagreeing. There is a story in the 
Washington Post this morning supposedly that the Secretary of 
Defense dismissed the eight nominees from the State Department 
to be part of that effort. I do not expect you to know all 
that.
    But again, you have had no involvement there in any of that 
discussion or that debate.
    Ambassador Burns. That is correct, Senator. I have not been 
involved in that particular debate.
    Senator Hagel. Thank you.
    The Chairman. Thank you very much, Senator Hagel.
    Senator Nelson.
    Senator Nelson. Following up on Senator Hagel's comment, 
some of the information that we have gotten incorrectly about 
the amount of resistance that we would expect in Iraq has come 
from Iraqi exiles, of which we have sought their opinion, and 
that has turned out to be inaccurate information. So when you 
project that into a post-war Iraq and who is going to be 
running the country, you wonder about the capability of some of 
the exiles being brought back in at a time when we are going to 
be struggling transitioning from a military to a civilian type 
of structure there to run the country.
    So thank you very much for your comments.
    I am concerned about our relationship with Turkey. The 
Turks have hurt us by not allowing us to bring in that heavy 
division so that we could be moving in a pincer movement from 
the north to the south right now. And American lives are going 
to be lost as a result of us not having that ability to come at 
Baghdad from the north.
    And the relationship with Turkey has been a longstanding 
one of half a century, and it has been very good and now it is 
not very good. I would like your comments.
    Ambassador Burns. Senator, thank you very much. You will 
appreciate the fact that I am not Ambassador to Turkey and I 
am, of course, working with the Turkish Government at NATO 
every day. I have that perspective.
    Secretary Powell is now en route to Turkey today. He is 
flying in tonight. He will be meeting with the leadership 
tonight and tomorrow. So I would not want to say anything that 
would prejudice his trip.
    But let me just say that we think that we did the right 
thing at NATO in mid-February by responding to Turkey's request 
for Article 4 assistance with the Patriot missile systems and 
the AWACs and the chemical and biological units. We showed 
Turkey that we are a nation that meets our commitments. We went 
the extra mile by effectively getting around the French problem 
by electing to go to the Defense Planning Committee, which we 
believe was the right decision, and we would do that again if 
necessary. If we were in a position where NATO was 18 countries 
wanting to go ahead and France did not, we would use the 
Defense Planning Committee to make sure that NATO can act 
because NATO always has to act.
    As a number of the administration leaders have said, we 
were very disappointed in the fact that the Turkish Parliament 
did not vote positively to allow the 4th Division and the other 
U.S. forces to be present on Turkish soil and to use it to be 
able to cross the border into northern Iraq. So we would agree 
with you, Senator, in that great disappointment that the 
administration felt.
    Senator Nelson. Well, what do you pick up when you talk to 
your Turkish representatives in NATO about the impression that 
they were dealt with in too much of a bullying manner? Do you 
get that sense?
    Ambassador Burns. I have not gotten that sense from the 
Turks with whom I work at NATO headquarters. The Turkish 
Ambassador and members of his delegation have not made that 
charge. What they have said and what others have said is that, 
of course, this was a democratic vote of the Turkish 
Parliament. It is a new government. The government did take the 
proposition to the Parliament and seek to have it approved. It 
did not do that.
    I guess if you are looking for a silver lining in what 
admittedly is a cloud--and I agree with you that it would have 
been far preferable if we had had the ability to have a second 
offensive from Turkey in northern Iraq--is that Turkey is a 
democracy. NATO is not the Warsaw Pact. We are a collection of 
democracies and sometimes our individual members go in 
directions that we would not care for them to go. But we have 
to respect that democratic vote, and I think now we continue to 
build the strongest possible relationship with Turkey that we 
can. That is one of the reasons, obviously, for Secretary 
Powell's trip there today and tomorrow.
    Senator Nelson. Let me shift to Bosnia. We still do not 
have those two main war criminals in the former Yugoslavia. 
Tell us about that.
    Ambassador Burns. Well, we believe that Radovan Karadzic, 
leader of the Bosnian Serbs, and Ratko Mladic, the leader of 
the Bosnian Serb military, are war criminals. Between July 11 
and July 18, 1995, they ordered the extermination, the massacre 
of 8,500 men and boys at Srebrenica, and we believe that they 
ought to be extradited to The Hague. They ought to face trial 
as Mr. Milosevic and Mr. Milutinovic have faced trials. This 
ought to be a priority for all NATO countries to pressure them, 
to pressure the Bosnian Government, to see that these two 
leaders are brought to trial.
    Senator Nelson. Well, undoubtedly that is our policy and 
that is what we believe. Why do we not have them?
    Ambassador Burns. They are two different cases. In the case 
of General Mladic, from my understanding, he is someone who--I 
should, let me just go back and correct the record. I believe, 
pressure the Bosnian Government. We want to pressure Serb 
Government. That was a slip of the tongue.
    In the case of General Mladic, he has been seen in Serb 
military hospitals in Belgrade. He has been seen in 
restaurants. We believe he has enjoyed the protection of 
certain elements of the Serb military. And we have made it a 
point in talking with that government very recently of saying 
that before we can have a full normalization of Serbia's 
relationship with NATO--Serbia is seeking membership in the 
Partnership for Peace. Serbia would like one day even to apply 
for NATO membership. But this issue of General Mladic has to be 
resolved and he has to be sent to The Hague.
    Mr. Karadzic is more elusive. We are not quite sure always 
where he is. NATO forces are trying to track him down. There is 
a very large effort being made to do so. Obviously, we have 
been unsuccessful for a number of years. We want to be 
successful, and we will not rest until these two people are 
brought to justice.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Nelson.
    Senator Chafee.
    Senator Chafee. Thank you very much, Mr. Chairman.
    Welcome, Ambassador. Chairman Lugar, in his opening 
statement, talked about Russia and he said although NATO's 
mission no longer centers on Russia, the debate over NATO 
enlargement must include a discussion of Russia. I am curious 
as to the relationship at present between NATO and Russia and 
their views toward this expansion of these seven new countries.
    Ambassador Burns. Thank you, Senator.
    Russia's attitude in general has been far different for 
this round of enlargement than in the last round in the late 
1990s. President Putin went to Brussels in October 2001 and 
essentially said that NATO enlargement was NATO's business. We 
have not seen any kind of demonstrable attempt by the Russian 
Federation to stand in the way of these seven countries 
becoming members. I cannot say the Russians are pleased about 
it. They are clearly not pleased about it. They are 
particularly sensitive, of course, to the three Baltic 
countries whom we strongly support for membership. But Russia 
has not mounted any type of campaign to stop it, and I think 
Russia understands that it is the right of the NATO allies to 
make this decision under Article 10 of the North Atlantic 
Treaty.
    I should also say, Senator, that we have worked very, very 
hard in the last two administrations, beginning with President 
Clinton and now with President Bush, to make sure that we have 
a good NATO-Russia relationship. We have a new NATO-Russia 
Council which we inaugurated under President Bush's leadership 
last May. It is working well. I sit in it. Every month we have 
a meeting of the 20 Ambassadors, the 19 NATO Ambassadors and 
the Russian Ambassador. We have been working on theater missile 
defense to see if there are synergies between us that would 
lead us to cooperate in theater missile defense in Europe. We 
have worked on WMD proliferation, on the counter-terrorist 
threat. We have worked in trying to help protect our civilian 
populations from chemical and biological attacks. So these are 
real projects. We think the NATO-Russia Council is off to a 
good start and we think in general the NATO-Russia relationship 
is very healthy right now.
    Senator Chafee. You mentioned their hesitancy about the 
three Baltic countries. Why is that?
    Ambassador Burns. Among the seven countries that are 
seeking membership in the alliance, the three Baltic countries 
were illegally occupied by the Soviet Union between May 1940 
and September 1991. So some Russians tend to be either wrongly 
nostalgic for that period or they are sensitive because these 
three countries are contiguous to western Russia.
    It is our very firm belief that these are three of the 
strongest candidates for membership, that they are superbly 
well qualified, and obviously, given their democratic 
dispositions, the democratic base of all three countries, they 
represent no threat whatsoever to the Russian Federation, and I 
think the lack of a Russian campaign here to try to derail NATO 
enlargement, either before the Prague summit or during this 
period of ratification, is testimony to the fact that the 
Russians do understand that these countries can be friends and 
partners of Russia in the future.
    Senator Chafee. Thank you. So you 20 Ambassadors meet 
monthly. Is that right? Is that what you said? Monthly?
    Ambassador Burns. Yes, sir, we do. Under the new NATO-
Russia Council, we meet monthly, and actually we have meetings 
every day at various levels at NATO among Russian and NATO 
diplomats on all the issues that I mentioned.
    Senator Chafee. I would like to switch course a little bit. 
In your opening statement, you said just as we will have to 
rebuild Iraq, we will have to bring NATO back to the consensus 
and unity that marked the Prague summit just 4 months ago, 
obviously alluding to the fractures that exist in the last few 
months. How bad are those fractures?
    Ambassador Burns. Senator, I think that the deliberations 
that we had over the defense of Turkey were very damaging to 
the alliance. As Secretary General Robertson said in his 
inimitable fashion, NATO took a hit, but it was above the water 
line not below the water line. But we took a hit and there is 
still smoke coming from that hit.
    Because the essence of NATO, of course, is Article 4 and 
Article 5. When our allies are in trouble, we come to their 
assistance. We do not debate it for 2 months. We do not say, 
well, we will do it next time. We do not say we will do it 
later. We come to their assistance, and that is what the United 
States felt, that we had a question of principle here. We were 
very strongly opposed to the view of France and Germany and 
Belgium. We thought that the fact that they held out and they 
blocked the discussions, we thought that was dangerous and 
obstructionist.
    I think now we have got to repair that frayed fabric that 
has held NATO together for 54 years. This is one of the reasons 
why Secretary Powell will be going to Brussels tomorrow night 
and Thursday to begin a discussion to try to bind up these 
fissures and to try to make sure that we are all going off 
united to tackle the very important problems that a number of 
the Senators and that you have mentioned as well. We think that 
can be done.
    But France, in particular, has got to decide how it can 
show us that it wants to be part of the future of the alliance, 
that it wants to work with us, that it wants to be part of the 
solution, a country that can say yes at NATO, not just a 
country that can say no. I think that is an obligation that 
France has now. We have had these discussions with the French 
Government and we think we will be stronger if the French 
Government would play a full role in NATO, if we can operate at 
19. But we are prepared to operate at 18, should that be 
necessary.
    Senator Chafee. Thank you. I see my time has run out. Thank 
you.
    The Chairman. Thank you very much, Senator Chafee.
    I want to recognize now Senator Allen. Perhaps as you now 
know, Ambassador, Senator Allen, as the chairman of our 
Subcommittee on European Affairs, has already been working 
through the hearings on European matters. So I appreciate that 
and wanted to sound that note in recognizing him this morning.
    Senator Allen. Well, thank you, Mr. Chairman. We did have a 
very good hearing on the 27th of March. It is good to see 
Ambassadors Jurgenson, Usackas, Ducaru, and Kracun with us, as 
well as the DCMs Kmec, Eichmanis, and Yalnazov here.
    Voice. And the Ambassador is here. I am here.
    Senator Allen. And the Ambassador is here this time as 
well.
    The seven aspirant countries and their Ambassadors and DCMs 
are very much like associate members of this committee as we 
discuss the issues of NATO expansion.
    I look on our second panel, Bruce Jackson here--and I 
mentioned this in the last hearing that when I was Governor of 
Virginia, I worked with Bruce and after my term, in advocacy of 
the expansion of NATO to Poland, the Czech Republic, and 
Hungary. As Senator Biden was ranking member at that hearing, 
we have all looked at that as very positive for our country. 
And the seven aspirant countries have met all their criteria. 
In fact, reading through Bruce Jackson's remarks, they are 
pretty much my extended remarks from the previous hearing. So 
we are still in agreement.
    The State Department and the Defense people who testified 
all recognize the value politically and militarily of NATO with 
the expansion of these seven aspirant countries and how they 
are already, de facto members and how they are helping 
politically in the war on terrorism, some sending actual troops 
and capabilities into Afghanistan or into the Balkan area.
    This country, and I think in particular with you, Mr. 
Ambassador, listening to you with your steadiness, with your 
knowledge, and your articulate diplomacy, is very, very well 
served. Your patience with some of these difficult issues on 
this bridge, this Atlantic Brucke, our German friends might 
call it, cannot be frayed. We are doing what we think is right 
to serve and protect the security of our country, and it is 
important to note that the vast majority of European countries 
and NATO countries are on our side helping us out.
    Now, what I would like for you to share with us--and I 
think it was in response to Senator Hagel is expound on the 
scenario of the likelihood of NATO's involvement in the 
rebuilding of Iraq. What will be the issues in making the 
decision, and what role would they take? When we talk about 
just the problems we ran into in the decision to eventually 
defend Turkey, regardless I think this is going to be a much 
more difficult situation. What would you foresee as the issues, 
the decisionmaking process?
    And once the military action is concluded, it is not going 
to be a situation where the consensus building can drag on for 
weeks and months. Action is going to need to be taken quickly. 
So if you could share with us a scenario whereby and the issues 
that will arise in making a decision by NATO to actually 
participate in the reconstruction or rebuilding of Iraq.
    Ambassador Burns. Senator, thank you very much. Let me just 
say first, as I answer that question, that six of the seven 
invited countries are a part of our coalition in Iraq, and all 
seven were signatories of a letter of the Vilnius-10. You 
remember that letter from February supporting the position of 
the United States during the United Nations debate. So we very 
much value what they have done.
    A number of the countries that are at issue today for 
membership in the alliance have also taken decisions in their 
Parliaments that when the conflict ends, they will be present. 
And we would think that that would be an opportunity for them, 
if NATO does go in, for them to be present with NATO. So we 
very much would like these countries to be with us, and I think 
the results are good so far.
    Of the 18 NATO allies of the United States, 12 are members 
of the coalition, and that is no coincidence because we train 
together. We are interoperable, but we have a common political 
vision. We have suggested that once the conflict ends, NATO 
should be present in Iraq because there will be a long-term 
commitment that all of us in the international community will 
have to make to that country.
    Think of the requirements. We will certainly need 
peacekeeping. We will need, as I said before, to think about 
reconstruction of the country and delivery of humanitarian 
supplies to the people of the country. There will be a need to 
find and secure and dispose of the weapons of mass destruction.
    No one is suggesting from our government that NATO can take 
on this responsibility in totality. Obviously, the United 
States and our coalition partners are going to have a major 
responsibility for what happens in Iraq after the conflict has 
ended. President Bush has spoken--he did in the Azores summit--
about the need for U.N. Security Council resolutions. Most of 
our NATO allies are telling us that they would need to see and 
to have some kind of umbrella U.N. Security Council resolution 
that would, in essence, allow them to make the decision to be 
part of any effort.
    But, Senator, I must tell you it has been interesting. 
Since Paul Wolfowitz put these ideas on the table at NATO in 
December 2002, some of our allies have been reluctant to even 
bring it to discussion, and that is because the French and the 
Germans and the Belgians and some others were linking what was 
happening in the U.N. Security Council in January, February and 
March to what was happening at NATO, and they did not even want 
us to begin a discussion because they thought that would hurt 
what they were trying to accomplish, we felt wrongly, in the 
U.N. Security Council.
    So now that that debate is past and that the coalition is 
taking action, and that we soon have to face our 
responsibilities to help the Iraqi people recover from a Saddam 
regime and from the war, we would like NATO to get to that 
debate as soon as possible.
    As to whether or not we can be successful, I frankly do not 
know. I think it will be up to some of those countries that 
have resisted the conversation until now to decide if they want 
to use NATO in part as one of the international participants in 
the reconstruction of Iraq. We hope that they will be willing 
to do that because we think the alliance is always stronger 
when we work together. But that is a question really for them, 
and we look forward to discussing this with them I think quite 
intensively in the weeks ahead.
    Senator Allen. Thank you, Mr. Ambassador. Thank you, Mr. 
Chairman.
    The Chairman. Thank you very much, Senator Allen.
    I recognize now Senator Voinovich who, as you have already 
acknowledged, has been present at the Prague summit, and who 
was a very active participant even prior to his coming onto 
this committee. We are grateful that he is with us now, and I 
recognize him for his questions.
    Senator Voinovich. Thank you, Mr. Chairman. I would like to 
welcome you, Mr. Ambassador. I recall what a wonderful meeting 
we had in May of last year when I visited Brussels after 
visiting Slovakia and Slovenia and being at the NATO 
Parliamentary Assembly meeting in Bulgaria.
    I also appreciate your giving me an opportunity when the 
chairman spoke to the NATO Ambassadors that you brought here to 
Washington last June, if you recall, I kind of was like a Dutch 
uncle and suggested to them that they needed to step up to the 
table and fulfill their commitments to NATO, that we were doing 
our fair share, but some of them were not fulfilling their 
obligations to NATO.
    I think at the Prague summit, there was a consensus that 
the DCI did not work; and they came back with some 
recommendations called the Prague Capabilities Commitment. At 
that meeting, the heads of state said NATO must be able to 
field forces that can move quickly to wherever they are needed 
upon decision by the North Atlantic Council, to sustain 
operations over distance and time, including an environment 
where they might be faced with nuclear, biological, and 
chemical threats, and to achieve their objectives.
    In discussing NATO's future contributions, how does the 
NATO Response Force factor into that? Really, what I would like 
you to comment on is, has NATO defined the responsibilities of 
the member countries and the aspirants and identified what the 
commitments will be? Has that been worked out yet, or are we 
kind of doing it on an ad hoc basis? I know the aspirants are 
participating. They have helped out with Afghanistan and they 
hopefully will be helping with Iraq. But the real issue is, are 
we doing this by just responding to situations and developing 
capabilities as we move along? Or has anybody sat down and 
looked at the big picture and said, here is what respective 
countries can participate in? Do the aspirant countries have 
any idea at all about what niche they would play in this new 
NATO capability?
    Ambassador Burns. Senator, thank you very much. I remember 
very well your visit to NATO, and we appreciated the fact that 
you took the time to come to Brussels and spend time with us 
and give us your advice. We hope you come again.
    On Prague Capabilities Commitments, that was the 
centerpiece in many ways of the Prague summit on the military 
side because we recognize that NATO as a whole does not now 
have the right mix of military capabilities to take on these 
expeditionary missions to places like Afghanistan in the 
future.
    So what we have done is, we have built four consortia. 
There is an airlift consortium headed by Germany, which is 
seeking to purchase or release airlift for the future. There is 
a sealift consortium headed by Norway and Denmark. There is a 
precision-guided munitions consortium headed by the Dutch, and 
they have already made a lot of progress in replenishing NATO 
countries' stocks of precision-guided munitions. You have seen 
how important they are to the United States and to the United 
Kingdom in Iraq. And there is a consortium on air-to-air 
refueling headed by Spain.
    We have focused on these four core military capabilities as 
the key capabilities that are currently missing from NATO's 
collective arsenal and that are critical for the new missions 
that we anticipate will be the core of what NATO does, out-of-
area missions, far from European garrisons in Europe itself in 
places like Central and South Asia, in the Middle East. We do 
not want to have an alliance develop where only the United 
States, the United Kingdom, and France and a couple of other 
countries have these full-scale capabilities. As I said before, 
we hope that when our Defense Ministers meet on the 12th and 
13th of June in Brussels, that we will see some progress there.
    We are involving the seven invited nations into our 
deliberations. They have been fully briefed on what we decided 
at Prague. I meet with the seven Ambassadors in Brussels every 
2 weeks.
    Senator Voinovich. So generally, you have discussed what 
their capabilities are and how they might ultimately fit into 
the overall picture. One of the things that I was worried about 
is that some of the countries were making decisions in terms of 
their own military forces and spending money and wondered 
whether or not those decisions would be in accord with what 
they might be asked to do in terms of their NATO 
responsibilities.
    Ambassador Burns. Senator, we have tried to integrate them 
fully into this effort. So to give you an example, we have 
obviously counseled some of the smaller nations, the three 
Baltic nations, for instance, that if they can find a 
specialization, a niche military capability, that can be part 
of these multinational efforts, that will be the best addition 
they can make to NATO. And they have done that. As you know, 
they have formed the Baltic battalion that has been present 
both in the Balkans as well as Afghanistan, and we very much 
appreciate their willingness to think strategically in this 
fashion.
    The Romanians have an unusual capability. They were able to 
use their own airlift to send a mechanized battalion to 
Operation Enduring Freedom in Afghanistan last July. Romania 
did what few current allies could do.
    So we think the invited nations are on the right track. 
They are integrating into the military side of the alliance so 
that if the Senate gives its advice and consent, they will hit 
the ground running in May 2004 when they become members.
    Senator Voinovich. Thank you.
    The Chairman. Thank you very much, Senator Voinovich.
    Senator Biden, do you have additional questions?
    Senator Biden. I do not.
    The Chairman. Senator Hagel?
    Senator Hagel. No.
    Senator Biden. Actually, I have one, Mr. Chairman.
    The Chairman. Very well.
    Senator Biden. Has France considered, in order to have 
greater influence, as they say, joining up fully with NATO, 
totally integrating in order to be able to impact on some of 
the decisions? If they had, you would not have been able to 
deftly move discussion of support for Turkey, as you did. I 
mean, is there any talk about that?
    Ambassador Burns. Senator, there has been very little talk 
about France reintegrating in NATO's integrated military 
structure. It would be our hope that France would make that 
decision. It was de Gaulle's decision in March 1966 to bring 
them out, and there has been in that sense kind of an 
ambivalence, if you will, about France's role in NATO ever 
since.
    Our view is that NATO is always stronger at 19 and 
hopefully at 26 in the future. We would like France to come 
back and to make that decision, but it is clearly a decision 
that the French Government has to make. We cannot make it for 
them. But following these events in February, we very much hope 
that the French will support some of the issues that your 
colleagues have been asking about, NATO Response Force, a new 
command structure, new military capabilities, and new missions 
in Afghanistan and Iraq. We hope France will be part of the 
solution on all those issues.
    Senator Voinovich. Mr. Chairman, could I just ask one 
question?
    The Chairman. Yes, of course, Senator Voinovich.
    Senator Voinovich. When I talked to the Ambassador last 
May, one of the issues I talked about was organized crime. I 
know that the OSCE is working in that area, that SECI is 
involved in that area, that the EU is involved. Is NATO 
involved at all in this consortium of groups that are coming 
together to deal with this problem that is very, very prevalent 
in that part of the world and really demands that there be some 
organized effort to respond to it?
    Ambassador Burns. Senator, NATO has been involved in the 
Balkans very much in trying to help the local authorities 
combat organized crime because of our long-term presence in 
Macedonia, Bosnia, and Kosovo. So we have been active there. It 
is not the kind of issue where NATO would naturally take the 
lead because we are essentially a military alliance, but when 
we have a long-term presence, obviously we have got to be 
involved in all sorts of issues to try to be helpful.
    What we have done with the seven invited nations is to 
review this issue very carefully with each of them, as well as 
the issue of corruption. I met with the seven Foreign Ministers 
last Wednesday in Brussels when they were there for the signing 
of the Accession Protocols. I raised this issue of corruption 
and organized crime with each of the Foreign Ministers of the 
seven invited countries. All of them acknowledged that there 
are problems in their countries. That is no surprise to us. We 
have some of the same problems sometimes even in our own 
countries among the NATO members. And all of them assured us 
that they are dedicated to working on this and to working with 
us to try to reduce it as far as that is possible.
    The Chairman. Thank you very much, Senator Voinovich.
    Ambassador Burns, we thank you again for your testimony. I 
would just extend the appreciation of all of our members for 
your articulate ability really to define what is occurring in 
each country, both those who are members of NATO, as well as 
the aspirants, and the particular contributions and ways that 
you personally in behalf of our government have been working 
with those countries, both old and new. It is a very impressive 
set of facts and your testimony has been remarkable, as always. 
We appreciate your coming.
    Ambassador Burns. Senator, thank you for inviting me today. 
Thank you for all the questions. I am obviously available to 
you and to all the members, should that be necessary, by phone 
or fax or visit.
    If I could just conclude on one point. I have very much 
appreciated, when I was Ambassador to Greece, but now 
Ambassador to NATO, the visits by Members of the Congress. It 
helps us to do our job and it helps us to receive the guidance 
and support that you have. I have seen each of you in those 
places, and I look forward to future visits as well.
    The Chairman. We thank you for that invitation.
    It is now the pleasure of the chair to call forward Mr. 
Bruce Jackson, president of the Project on Transitional 
Democracies in Washington, DC, and Dr. Ronald D. Asmus, senior 
transatlantic fellow, the German Marshall Fund, Washington, DC.
    Gentlemen, I will ask you to testify in the order that I 
introduced you. As was the case with the previous witness, your 
full statements will be made a part of the record, and you may 
proceed in ways that you wish. Mr. Jackson.

  STATEMENT OF BRUCE PITCAIRN JACKSON, PRESIDENT, PROJECT ON 
            TRANSITIONAL DEMOCRACIES, WASHINGTON, DC

    Mr. Jackson. Thank you, Mr. Chairman. For someone who has 
been a student of the leadership of this committee for 8 years, 
it is a great privilege to have an opportunity to testify 
before you today.
    The Chairman. Thank you.
    Mr. Jackson. In the interest of time, I will just summarize 
the main elements and get to some of the points Senator Biden 
correctly raised in his questions to Ambassador Burns.
    With regard to the candidates themselves, I would just like 
to state we are confronting a political decision, and the body 
of what I have written out makes two arguments. One, that these 
democracies have matured at different rates, but basically they 
have reached a point where we have all concluded they do, in 
fact, share our values and the basic principles of the 
Washington alliance.
    As you look through them, they have defined their 
democracies in different ways.
    Lithuania has been exceptional in its treatment of its past 
and Holocaust rissues.
    Latvia has been extraordinary in the way it has reached out 
to Russian minorities and basically defined a whole new 
enlightened look at how we handle minority issues in Europe.
    Estonia's commitment to market reforms has really led the 
way toward the European Union and created a model for how we 
work with Russia, the new relationship with Russia, which in a 
way answers Senator Chafee's questions, that were it not for 
the Baltics, we would not have the new relationship with Russia 
today.
    In Slovakia, its triumph over the forces of Meciar and 
extremism has been profound, and what they have done in the 
last 5 years is extraordinary. And they are now the first 
center-right reformist government in Europe to be returned by 
an overwhelming mandate, which is a confirmation of the 
maturity of this democracy.
    Slovenia was the first country to tell us that they could 
actually resist tyranny themselves alone in 1990 and 1991. 
Frankly, they have done the most to educate their populace 
about the responsibilities of NATO, and the new results from 
their referendum is really quite extraordinary. This is the 
first of the Yugoslav states that have basically triumphed over 
their predicament.
    In the south, Romania has showed us that reform of the 
military, very large militaries, while working with 23 million 
people, is possible.
    Bulgaria's diplomacy continues to distinguish itself by its 
assistance to us and in the Security Council.
    So all of these countries have basically chosen their own 
way after 1989 but have, indeed, defined themselves as 
democracies. Obviously, there is more work to be done and 
clearly Senator Voinovich is right that corruption is the most 
profound issue that we should continue to work on. We should 
continue to talk to our allies--frankly all of them--about this 
danger. Corruption is the one thing that can kill a new 
democracy.
    With regard to their contributions, I think we should also 
take a wide view. I do not know how we calculate the military 
or strategic value of the solidarity of President Freiberga, or 
the non-governmental organizations of Slovakia in working to 
overthrow Milosevic. Frankly, Romania and Bulgaria have today 
forces in being twice what the European Union will have in 10 
years. They already exist, already available, already committed 
to the alliance. So both in terms of their principles, in terms 
of their contributions, I think the committee members are right 
to say that these countries are very well qualified to enter 
the alliance.
    Turning to the question of NATO's future that Senator Biden 
talked about, the road in front of us, I would just like to 
quickly review where these countries came from because I had 
the opportunity to write a briefing that became known as the 
Big Bang several years ago. The argument in that briefing was 
the inclusion of these seven countries confers certain 
strategic advantages to NATO and other moral benefits for the 
community of nations. There are five elements to this claim.
    One, that the invitation to the Baltic countries would 
bring a comprehensive peace to the Baltic and Nordic region and 
set the stage for a new relationship between Europe and Russia. 
This seems to have occurred.
    The inclusion of Slovakia would create a coherent center 
and close the door to transnational crime, making Europe safe 
for historic neutrals, and basically set up a situation where 
Ukraine could reconsider its relationship with Europe.
    The inclusion of Slovenia would create a model for post-
Yugoslav success and accelerate the democratization of the 
Balkans.
    The invitations to Romania and Bulgaria would bring a 
southern dimension to NATO, which would limit transnational 
threats to the western Balkans, bring Turkey and Greece closer 
to Europe, and begin to set the stage for a security structure 
in the Black Sea.
    Collectively, these invitations would signal the strategic 
integration of Southeast Europe within Euro-Atlantic 
institutions which could resonate as far away as Cyprus and the 
Caucasus.
    So these initial hopes have been realized to a far greater 
extent than the founders of the Vilnius Group could have 
realized in the year 2000. And Dr. Brzezinski has begun to talk 
about this as the third and final phase of European history. 
This transformation that began in 1989 has essentially 
completed two phases, and we are now beginning a final stage of 
transformation.
    My argument here would be that in this final stage lies the 
answer to Senator Biden's question, that basically NATO has 
this key role, and has since 1989, in extending the peace. And 
we have an opportunity in this round of expansion to continue 
the extension of peace that Steve Hadley and others have talked 
about over the last year.
    It seems to me we have excellent chances over the next 5 or 
6 years to bring in countries in the western Balkans, Albania, 
Croatia, and Macedonia, to build an enduring peace as we have 
done in the north in the Baltic region and to use NATO as 
central in rebuilding our relationship with Turkey, developing 
a Black Sea system, reaching out to Ukraine. And it is all 
along these frontiers of freedom--these are the new missions 
for NATO which have implications for our security. So the 
mission of NATO should be nothing less than to set the stage 
for the completion of Europe in this next decade, and these 
seven countries in the alliance will improve our chances of 
success.
    Taking the two questions that are topical and of the day, 
which may come up at the same time the Senate considers this 
treaty, we look at structural changes to the treaty itself. 
This is a case where I think one could argue that a good 
political case might make bad treaty law.
    The first suggestion is on the majority voting system is an 
effort to constrain France by restricting decisionmaking. It 
seems to me that this would have the opposite effect. Majority 
decisionmaking would give rise to factions within NATO which 
would attempt to achieve slim majorities to the detriment of 
our leadership. The rise of factionalism would inevitably lead 
to the passage of half-baked schemes with the United States in 
the dissenting minority. And over time, the erosion of U.S. 
leadership in NATO would precipitate a decline in American 
political support for our security commitments in Europe. At 
present, the United States is the only country that can produce 
unanimous outcomes at the level of the NAC or, failing that, 
the DPC. It seems to me that the process of achieving this 
unanimity uniquely favors the United States. The countries 
whose ratification you are considering are aghast that NATO 
might consider weakening U.S. leadership in NATO, which is the 
very aspect of NATO they most admire and have drawn them toward 
us, just as their democracies have reached the threshold of 
membership.
    The second suggestion is that we need an exclusion clause 
to protect the institutions from members who deviate from the 
principles of the alliance or fall short on human rights. One, 
we have not needed that standard for the last 54 years.
    But in my view, this expulsion clause would invariably be 
employed against the vulnerable and never against the 
deplorable. It is easy to envision a 1930's NATO expelling 
Czechoslovakia for their mistreatment of the Germans 
immediately before an invasion or concluding that the abduction 
of Christian children, in quotes, by the Jews of Warsaw 
relieved the alliance of the obligation to defend Poland. And 
today, if Turkey were threatened by military attack, I am 
certain there would be a motion to conclude that deteriorating 
human rights conditions obviated any obligation to honor 
Article 5 commitments. I have deliberatedly overstated all 
this, but the automaticity of Article 5 is the soul and genius 
of the Washington Treaty. A provision to expel would introduce 
a corrosive mental reservation in the commitment to defend an 
embattled democracy and would completely debilitate the 
alliance we have built so carefully.
    It seems to me that this committee and the Senate have a 
far better option. The Senate can significantly strengthen the 
constituency, character, and resolve of the alliance by 
ratifying the accession of Bulgaria, Estonia, Latvia, 
Lithuania, Romania, Slovakia, and Slovenia as NATO members. 
This affirmative action would improve the security of the 
United States, and I think more importantly strengthen the 
moral and political fabric of the alliance.
    That, Mr. Chairman, concludes my summary.
    [The prepared statement of Mr. Jackson follows:]

  Prepared Statement of Bruce Pitcairn Jackson, President, Project on 
                Transitional Democracies, Washington, DC

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to testify before you on the case for NATO enlargement and 
the qualifications of the seven countries which have been invited to 
join the Alliance. I would also like to offer a strategic context for 
the decision the Senate is being asked to ratify and to suggest how 
this enlargement will further shape and strengthen NATO.
                                   i.
    The decision at the NATO Summit at Prague to invite seven countries 
to join NATO was a major step in the post-war strategy of the United 
States to build a Europe that is whole and free. Assuming we count the 
reunification of Germany as a de facto enlargement, the so-called 
``Vilnius States'' whose ratification is before the Senate will 
constitute the sixth round of enlargement since the formation of the 
Alliance in 1949. A brief review of NATO's history suggests that there 
are several misconceptions about the current round.
    Many people believe that this will be the largest round of 
enlargement in history since the Senate may consent to the ratification 
of seven states. But NATO has always been as much of an alliance 
between peoples as an alliance between governments so population may be 
a better guide. Next to Spain which entered in 1982 and East Germany 
during reunification, the combined population of the Vilnius States of 
43 million constitutes one of the smallest enlargements to date. Greece 
and Turkey in 1952, West Germany in 1955, and Poland, the Czech 
Republic and Hungary in 1999 were all significantly larger in terms of 
population and physical size.
    Many people believe that the seven Vilnius democracies are weaker 
militarily than their predecessors. This is also a misperception. In 
1955, when West Germany was invited to join the Alliance, it had no 
army and no budget for defense. Today, Lithuania, Latvia, Estonia, 
Slovakia and Slovenia have well-trained self-defense forces, regional 
security arrangements such as BALTBAT, and have achieved or are 
approaching defense budgets of 2% of GDP. The two larger countries, 
Romania and Bulgaria, can tell an even more impressive story. After 
downsizing and modernization, the end-strength of Romanian forces will 
be approximately 75,000 and Bulgarian forces approximately 45,000. 
Together, Romanian and Bulgarian forces in being are twice the size of 
what the European Union defense force might be in ten years. More 
importantly, Romanian and Bulgarian forces are deployable today to most 
of the contingencies the EU fictional force could not deploy to 
tomorrow.
    Some critics have suggested that the quality of democracy in the 
Vilnius states is somehow more fragile and potentially reversible than 
the democracy in existing NATO states. While it is true that democracy 
in the Vilnius states flowered after the Revolution of 1989 making them 
some of Europe's newest democracies, their youth in an historical 
context does not indicate a weakness of civic society. In fact, the 
opposite is true. Few countries in recent European history have 
struggled longer for their freedom or worked harder to build democratic 
institutions than the countries under consideration by the Senate. 
Although these evaluations are highly subjective, it would seem to me 
that the democratic credentials of the seven Vilnius states are 
superior to Greece, Turkey and West Germany at the time of their 
invitations and comparable favorably to where Polish, Czech and 
Hungarian democracies were at the time of the Senate's ratification in 
1998. In some ways, the energy and enthusiasm of Europe's new 
democracies make them more robust than the older democracies of Western 
Europe and more resistant to extremism and political backsliding. This 
Committee should also be aware that there has been no instance where 
democracy has been overturned or reversed in Central and Eastern Europe 
since the Fall of the Berlin Wall.
    Finally, some critics have argued that this round of enlargement is 
exceptional because of the absence of a Soviet threat and the 
appearance that the decision of the nineteen NATO Heads of State at 
Prague was motivated by political reasons, rather than presumably more 
legitimate calculations of military advantage. Here again, NATO's 
history conflicts with this view. There has been no Soviet threat 
during the last three rounds of NATO enlargement in 1982, 1991 and 
1999. When the Senate ratified the accession of Spain in 1982 in a 
unanimous voice vote, there was no threat to Spain posed by Soviet tank 
armies. It is quite clear from commentary at the time that Franco and 
the last vestiges of Spanish fascism had finally died and that it was 
time for Spain to rejoin the community of shared values. Every decision 
to expand the alliance of democracies has been a political act in the 
finest sense of the term ``political.'' Both German enlargement and 
German reunification were part of the great project of rebuilding a 
democratic Germany. Greece and Turkey were not invited because they 
were strong, but precisely because, if they remained isolated, they 
would remain weak and vulnerable. For the past fifty-four years, the 
central decisions on membership have been guided by the belief that 
there is a natural tendency of democracies to ally with one another in 
a collective effort to defend themselves and the values they share.
    Deputy Assistant Secretary of State Robert Bradtke, in his 
testimony before you last week cited Article 10 of the Washington 
Treaty, which speaks to the political question at the heart of the 
Senate decision on ratification. Article 10 permits the NATO allies to 
invite ``any other European State in a position to further the 
principles of the Treaty and to contribute to the security of the North 
Atlantic area.'' I would like to turn to the qualifications of the 
seven invited countries in light of these two criteria: democratic 
principles and the willingness to contribute to security.
                                  ii.
    President Bush in his historic speech at Warsaw University said 
that he believed the community of European states which share our 
values and are prepared to share our responsibilities stretches from 
the Baltic to the Black Sea. Let me begin with the Baltic States and 
focus on how each state has defined its democracy and where they stand 
on individual contributions.
    Lithuania: Apart from the role Lithuanian freedom fighters played 
between 1989 and 1990 in regaining their independence, the signal 
achievement of Lithuanian democracy has been its handling of issues 
surrounding the Holocaust. For a nation that was itself brutally 
victimized by Nazi Germany and held captive by Stalin and his Soviet 
successors, the complicity of Lithuanian citizens in the destruction of 
the Jewish community in Vilnius and their nation's subsequent 
indifference to Jewish survivors came as an unwelcome shock to this 
generation of Lithuanians. Nevertheless, consecutive Lithuanian 
Governments made Lithuania's painful past their priority. As a result, 
Holocaust education is taught at all levels of Lithuania's educational 
system. Torah scrolls have been returned to the Jewish Community. The 
restoration of the Jewish Quarter in Vilnius is beginning and 
legislation is being prepared to enable the restitution of communal 
property. While more work needs to be done, Lithuania's commitment to 
come to terms with its past should give us great confidence in its 
future. Lithuanians have taken the time to build a foundation of 
religious tolerance and historical understanding for their democracy. 
These values are the core principles of the Alliance.
    With regard to Lithuania's willingness to contribute to security, 
there can be no serious question. Lithuania is already contributing to 
NATO operations in Kosovo and Operation Enduring Freedom in Afghanistan 
and is sending military medical personnel and logistics experts to 
Iraq. From the beginnings of the Vilnius Group in May 2000, it has been 
obvious why the new democracies chose Vilnius. Lithuania has been 
stalwart on security issues from the days of Popular Front and an 
advocate for solidarity with the United States throughout the Vilnius 
process. Lithuania and the six other countries I will discuss agreed in 
the Statement of the Vilnius Group Countries on February 5, 2003:

        Our countries understand the dangers posed by tyranny and the 
        special responsibility of democracies to defend our shared 
        values. The trans-Atlantic community, of which we are apart, 
        must stand together to face the threat posed by the nexus of 
        terrorism and dictators with weapons of mass destruction. . . . 
        The clear and present danger posed by the Saddam Hussein's 
        regime requires a united response from the community of 
        democracies.

    Latvia: Latvia has also distinguished itself in terms of the 
democratic transformation of its civic society. Possibly the greatest 
accomplishment of Latvian democracy has been the integration of 
Latvia's Russian-speaking minority. Despite 50 years of Soviet 
deportations and occupation, Riga has reached out to ethnic Russians 
who have come to regard themselves as Latvian by offering citizenship 
to tens of thousands, reducing fees and language barriers to 
naturalization, and removing bureaucratic barriers to political 
participation at all levels of elected office. There are many countries 
in Western Europe which fall short of the enlightened approach to the 
integration of minorities that Latvia has chosen. Secondly, the new 
government of Prime Minister Repse has launched a serious campaign to 
counter corruption. The Latvians have recognized that corruption is the 
single greatest threat to the growth and development of their democracy 
and taken steps to eradicate corruption at the governmental level. All 
the countries of the Vilnius Group have reached this same conclusion, 
and I will try to point out their different approaches.
    Latvia is also a stand-out in its contributions to KFOR, ISAF and 
has authorized combat forces for deployment to support coalition 
operations in Iraq. Few Presidents in the history of the alliance have 
made a greater contribution to its political and moral leadership in as 
short a time as President Vaira Vike-Freiberga. Many believe (I think 
correctly) that the Latvian President has emerged as the moral and 
political successor to President Vaclav Havel. Consistent moral counsel 
and militant political solidarity may be the most enduring contribution 
a democracy can offer to the security of the Alliance.
    Estonia: Estonia has focused its effort on sustained democratic and 
market reforms which have brought it to the forefront of EU accession 
in addition to the NATO invitation it secured in Prague. The Estonian 
model has not only resulted in significant economic success but also 
informs us of how market-oriented democracies can build cooperative and 
equitable relations with Russia. Estonia's role in leading the Baltic 
democracies into the European Union also serves to link NATO countries 
more closely with the Nordic states and will certainly influence 
Finland's decision in 2005 regarding a closer relationship with NATO.
    Estonia's contributions to security compare favorably with its 
Baltic neighbors. Like Lithuania and Latvia, Estonia is supporting NATO 
operations in Kosovo and Enduring Freedom in Afghanistan and is 
preparing to deploy in support of peacekeeping operations in Iraq. The 
willingness of Estonians to contribute to the collective defense of the 
alliance is best illustrated by the oft-quoted remark of Prime Minister 
Sum Kallas to President Bush shortly before the war with Iraq:

        You don't have to tell us about Saddam Hussein. We have seen 
        what happens when democracies are indecisive. That's when small 
        countries like ours lose their freedom.

    Slovakia: Because of its struggle for political stability since the 
Velvet Divorce, Slovakia's democratic credentials are, in many ways, 
the most impressive of all the Vilnius states. In the past five years, 
Slovaks have fought and won a hard fight with corruption, political 
extremism and primitive nationalism. The first anti-Meciar coalition 
elected in 1998 consisted of five disparate parties and ran the gamut 
of politics from left to right. Few thought it would survive for four 
years let alone succeed in major defense reforms and choose as its 
final act the enactment of funding for a Holocaust reparation program. 
As a result of the seriousness of purpose of this coalition of 
democratic parties, Meciar and other extremists were rejected 
conclusively in September 2002 and a second, stronger center-right 
coalition was reelected. The return of Prime Minister Mikulas 
Dzurinda's coalition is the first re-election of a center-right reform 
government in Central or Eastern Europe since the fall of the Wall. In 
itself, this is a huge achievement in a post-Communist electorate and a 
clear indication of the rapidly growing political maturity of Slovakia.
    In addition to the sweeping reform of the Ministry of Defense I 
mentioned, the Slovak army has joint programs with the Indiana National 
Guard and has deployed peacekeepers to Bosnia, Kosovo, Afghanistan and 
Cyprus. Slovakia has also just deployed a company-size Nuclear, 
Chemical, and Biological unit capable of detection and demining to 
Kuwait to support coalition operations in Iraq. As impressive as these 
contributions are, this Committee should not overlook the political 
contributions of Slovakia to Euro-Atlantic security. In addition to a 
significant leadership role within the Vilnius and Visegrad Groups, 
Slovak diplomacy and non-governmental organizations (NGO's) were at the 
forefront of the popular movement to overthrow the Milosevic regime in 
Belgrade. Continuing the tradition of Charter 77, Bratislava is the 
center of activities for NGO's and human rights activists working for 
democratic change in the Balkans and in Europe's eastern neighbors.
    Siovenia: In the last decade, Slovene democracy has faced slightly 
different challenges than the other invitees because of the difficult 
circumstances of Slovenia's independence. Whereas the Baltic States, 
Slovakia, Romania and Bulgaria are all in some sense the children of 
1989, Slovenia is more the oldest orphan of the death of Yugoslavia. In 
a remarkably short period of time, Slovenia has built a self-confident, 
coherent nation and an economic miracle in the ashes of Milosevic's 
first war of aggression. The greatest challenge faced by the Slovenes 
was to rebuild the trust of the people in governmental and Euro-
Atlantic institutions, which had failed the Slovene people all too 
frequently in the past. The achievement in the recent referendum of 90% 
public support for EU membership and 66% public support for NATO 
membership is a watershed in the construction of Slovene democracy.
    Sadly, the greatest contribution of Slovenia to Euro-Atlantic 
security is often forgotten. In 1990-1991, Slovene freedom fighters, 
such as Janez Jansa, met invading Serbian forces in the mountains of 
Slovenia and defeated them. The Slovene accomplishment can be compared 
with the heroic struggle of the Finns in the Winter War, albeit on a 
much smaller scale. Like the Finns, the fledgling Slovene state fought 
alone for its survival, without Western aid against a superior enemy, 
and years before the intervention of Allied forces. Quite without our 
help, Slovenia handed Milosevic his first defeat on the battlefield. In 
addition to its historical record, Slovenia has contributed 
humanitarian assistance and training to Afghanistan, military forces to 
NATO operations in Bosnia, and troops and equipment to SFOR and KFOR.
    Romania: Romania is both the largest and most consequential 
strategically of the Vilnius Group. It is also widely regarded as the 
most dramatically improved democracy and economy in Central and Eastern 
Europe. The difficulties inherent in constructing democratic 
institutions after the civic devastation caused by the Ceaucescu regime 
were compounded throughout the 1990's by the recessionary effect of war 
in the Western Balkans and the sheer size of Romania's population. 
(More than half of the people whose countries may join NATO carry 
Romanian passports.) Against this forbidding backdrop, Romania has 
rebuilt a free and contentious press, multiple political parties, and a 
flowering artistic and literary community. While reforms often move too 
slowly in the Parliament and anti-corruption offices are still getting 
traction, the reform of the Ministry of Defense and Romanian security 
services has become the case study of success in bringing national 
security under civilian control and democratic oversight. On the 
economic front, former Prime Minister Isarescu, who now chairs the 
Romanian Central Bank, has instituted monetary reforms which have 
created the conditions for GDP growth rates of nearly 5% for the last 
three years. Moreover, this growth has been achieved organically, 
without significant foreign direct investment and in a recessionary 
European economy.
    On defense contributions, Romania has been a stalwart even among 
contributors. Less than 48 hours after the September 11th attacks, 
Romania and Bulgaria granted blanket overflight rights, basing and port 
facilities, and full intelligence cooperation with U.S. forces. These 
contributions were approved by a unanimous vote of the Romanian 
Parliament despite the fact that the United States had not requested 
this assistance either formally or informally. Nevertheless, Romania 
and Bulgaria recognized that they had a responsibility to make assets 
and access available to U.S. and coalition forces. Romania has 
contributed military forces to every major NATO and coalition action in 
the last five years: Bosnia, Kosovo, Afghanistan and Iraq to name but a 
few. Finally, Romania is the only country in Europe to deploy a 
battalion-strength combat force to Afghanistan using its own military 
airlift. Romania is already making concrete security contributions 
which exceed the military capabilities of some existing NATO members.
    Bulgaria: Bulgaria has faced many of the same structural problems 
which Romania confronted and a few of its own. As one of the oldest 
nations in Europe, Bulgaria has a long tradition of religious and 
political tolerance and, in the post-Communist period, has succeeded in 
building robust political parties and a system of free and fair 
elections. Bulgaria's long history, however, is a mixed blessing. 
Bulgaria's natural conservatism and extended isolation from Western 
Europe have slowed the pace of market and judicial reforms and 
contributed to a sluggish economic environment, which, in turn, has 
contributed to an increasing alienation of the electorate.
    Therefore, I disagree with the testimony given to this Committee on 
March 27th by Administration officials who suggested that the 
management of the Bulgarian Ministry of Defense is the greatest concern 
in Bulgarian democracy. I do not think this analysis is correct. 
Despite the recent scandal of illegal arms sales, Minister of Defense 
Svinarov has held those responsible to account and continues to press 
for reform in the military services. The real threat to Bulgarian 
democracy lies in a profoundly corrupt judiciary system and the 
tolerance of corruption in the business community among the leaders of 
Parliament and Government. The greatest danger to Bulgaria's future is 
the penetration of the judiciary by transnational crime and the failure 
of the Office of the Special Prosecutor to investigate governmental 
corruption, organized crime or the manipulation of Bulgaria's media and 
political processes by foreign parties. Over the next 5-10 years, 
Bulgaria must devote a major effort to strengthening its judiciary and 
criminalizing corrupt business and political practices.
    Although the pace of non-defense reforms has lagged other Vilnius 
Group democracies, Bulgaria's contributions to security, both 
militarily and politically, have been exemplary. Like Romania, Bulgaria 
has contributed troops and bases to all major NATO and coalition 
deployments. From the beginning, Bulgaria has steadfastly supported the 
United States in the war on terror and in coalition action against 
Iraq. It is also evident that U.S. diplomacy got as far as it did in 
the UN Security Council only as a result of the firm support and 
solidarity of Bulgaria in what must certainly have seemed to Bulgarians 
to be a thankless job. I think Americans should be immensely grateful 
for the loyalty of Bulgaria in this difficult and dangerous time.
    I have tried to outline the specific challenges facing these seven 
democracies as well as their strengths and general willingness to 
contribute. I do not think we should expect every post-1989 democracy 
to develop at the same rate or to choose the identical path to self-
definition. On balance, however, I believe that each of these countries 
is fully qualified in terms of democratic values and security 
contributions for membership in NATO. I would now like to turn to how 
these new members might shape a ``New NATO'' and contribute to its 
changing mission.
                                  iii.
    Shortly after the Washington NATO Summit in 1999, I wrote a 
briefing which came to be known as the ``Big Bang.'' This briefing 
proposed the inclusion of these seven countries in NATO and claimed for 
this enlargment strategic advantages for NATO and moral benefits for 
the democratic community of nations. On May 19, 2000 in Vilnius, 
Lithuania, these propositions were adopted by nine of Europe's new 
democracies as their own and became the objectives of the Vilnius 
Group. It might be useful to review these original claims in the light 
of NATO's new missions and continuing institutional adaptation.
    There were five central elements to the argument for the ``Big 
Bang.''

          1. The invitation of Estonia, Latvia, and Lithuania would 
        bring a comprehensive peace to the entire Baltic Sea and Nordic 
        region and set the stage for a new relationship between Europe 
        and Russia.

          2. The inclusion of Slovakia would create a coherent center 
        in the alliance and close the door to transnational crime. This 
        would make Europe safe for historic neutrals and allow 
        countries like Ukraine the opportunity to redefine their 
        relations with Europe.

          3. The inclusion of Slovenia would create a model for post-
        Yugoslav success and accelerate the larger democratization of 
        the Balkans.

          4. Invitations to Romania and Bulgaria would bring a 
        ``Southern Dimension'' to NATO. This ``Southern Dimension'' 
        would limit transnational threats to the Western Balkans, serve 
        to bring Turkey and Greece closer to Europe, and begin to 
        create a security structure for the Black Sea.

          5. Collectively, invitations to Bulgaria, Romania and 
        Slovenia would signal the strategic integration of Southeast 
        Europe in Euro-Atlantic institutions and could bring states as 
        far away as Cyprus and the Caucasus into a peaceful European 
        system.

    Surprisingly, these initial hopes for the Vilnius Group have been 
realized to a far greater extent than its founders had any right to 
expect. Dr. Zbigniew Brzezinski observed shortly after the Prague 
Summit that the invitation to the seven countries of the Vilnius Group 
marked the beginning of the third and final phase of contemporary 
European history. The transformation of Europe which began with the 
Revolution of 1989 has effectively completed two major phases. The 
first phase, the Visegrad, was marked by the integration of democratic 
nation-states with long European histories into modern Euro-Atlantic 
institutions. The second phase, the Vilnius Group, saw European nation-
states mature as democracies and integrate into the institutions of the 
West.
    In the third phase, which began at the Prague Summit and whose 
conclusion will presumably mark the end of the period of Europe's post-
war geopolitical transformation, states which are not adequately 
democratic, isolated from mainstream European history and, in some 
cases, still in the process of defining themselves as nations will 
attempt to become integrated European democracies. These states will 
define the borders of modern Europe. In my view, the mission of a new 
NATO is inextricably linked with these frontiers of freedom.
    Deputy National Security Advisor Stephen J. Hadley defined NATO's 
strategy in a speech in Brussels on October 3, 2002. He said:

        The strategy has three pillars: We will defend the peace by 
        opposing and preventing violence by terrorist and outlaw 
        regimes; we will preserve the peace by fostering an era of good 
        relations among the world's great powers; and we will extend 
        the peace by seeking to extend the benefits of freedom and 
        prosperity across the globe. As you can see from these three 
        pillars this is a strategy that does not render NATO obsolete 
        but rather envisions a central place for NATO.

    The integration of the seven Vilnius states in NATO will create a 
stronger, more inclusive alliance which can turn its attention to the 
final stage of this defining period in European history. This third 
phase will undoubtedly be the most complex of this historical period 
and in some ways may be the most critical to long-term Euro-Atlantic 
security. Where we find ourselves politically five years in the future 
will be where we stand geopolitically for the following fifty years. 
Stephen Hadley is right to remind us that NATO is ``the critical 
vehicle'' for this task.
    Therefore, we should not define the New NATO solely in terms of its 
capabilities, lest it become a tool kit without a purpose. Nor should 
we define NATO exclusively as an expeditionary force, which would only 
serve to create a Foreign Legion for out-of-area peacekeeping and 
garrison duties. The mission of the New NATO is to extend the peace.
    Over the next five years, we have excellent chances to bring the 
remaining three Vilnius countries, Albania, Croatia and Macedonia, into 
Euro-Atlantic institutions, thereby building an enduring security 
structure in the Balkans. In the few short months since the Prague 
Summit, these three countries and the United States have developed an 
Adriatic Charter which will serve to accelerate democratic reform and 
provide a roadmap to EU and NATO membership. NATO will be central in 
rebuilding our relationship with Turkey and, perhaps, developing a 
Black Sea security system linking the South Caucasus to their neighbors 
around the Black Sea. Ukraine is also seeking a new relationship with 
Europe and with NATO. All along the frontiers of freedom, there are 
missions for NATO which have major implications for Euro-Atlantic 
security. The mission of NATO should be nothing less than to set the 
stage for the completion of Europe before the end of this decade. An 
alliance with the seven nations of the Vilnius Group will improve our 
chances of success in this great endeavor.
                                  iv.
    In conclusion, I would like to appeal to this Committee to consider 
the proposed amendment to the Washington Treaty on the merits of these 
seven democracies. Last week in the Senate Armed Services Committee, 
frustration with French diplomacy introduced two questions of 
structural change in the Washington Treaty apart from the question of 
ratification. These changes would be a great mistake and serve as a 
cautionary example of how a good political case can make bad law.
    The first suggestion is that NATO might adopt a majority voting 
system in an effort to limit France's ability to obstruct prompt 
decision-making. Unhappily, this change would have the opposite effect. 
Majority decision-making would give rise to factions within NATO which 
would attempt to achieve slim majorities to the detriment of U.S. 
interests and leadership. The rise of factionalism would lead 
inevitably to the passage of half-baked schemes with the United States 
in the dissenting minority. Over time, the erosion of U.S. leadership 
in NATO would precipitate the decline of American political support for 
our security commitments in Europe. At present, the United States is 
the only country that can consistently produce unanimous outcomes at 
the level of the North Atlantic Council or, failing in that, at the 
Defense Planning Committee. The process of achieving unanimity is 
uniquely and, perhaps intentionally, to the advantage of the United 
States. The countries whose ratification is before this Committee are 
aghast that the Senate might consider weakening U.S. leadership in 
NATO, which is the aspect of NATO they most admire, just as their 
democracies reach the threshold of membership. I share their concern.
    The second suggestion is even more pernicious. Some have suggested 
that NATO needs an expulsion clause to protect the institution from 
members who deviate from the principles of the alliance or otherwise 
fail to maintain accepted standards of human rights. Notwithstanding 
the fact that this clause has not been necessary for fifty-four years 
and that NATO membership has been the most effective mechanism for 
democratic reform we have found since 1989, advocates maintain we need 
to protect NATO from hypothetical bad actors.
    In my view, an expulsion clause would invariably be employed 
against the vulnerable and never against the deplorable. It is easy to 
envision a 1930's NATO expelling Czechoslovakia for their 
``mistreatment'' of ethnic Germans immediately before Hitler's invasion 
or concluding that the ``abduction of Christian children'' by the Jews 
of Warsaw relieved the Atlantic Alliance of the obligation to defend 
Poland. And, today, if Turkey were threatened with military attack, I 
am certain there would be a motion to conclude that deteriorating human 
rights conditions obviated any obligation to honor NATO's Article 5 
commitment. Although I have overstated for the purpose of effect, my 
point is that no country could fully rely on Article 5, if the members 
of the Alliance harbored the option to expel. The automaticity of 
Article 5 is the soul and the genius of the Washington Treaty. A 
provision to expel would introduce a corrosive mental reservation in 
the commitment to defend an embattled democracy and would completely 
debilitate the most powerful military alliance ever created.
    This Committee and the Senate of the United States have a far 
better option. The Senate can significantly strengthen the 
constituency, character and resolve of the Alliance by ratifying the 
accession of Bulgaria, Estonia, Latvia, Lithuania, Romania, Slovakia 
and Slovenia as NATO members. This affirmative action would improve the 
security of the United States and strengthen the moral and political 
fabric of the alliance. Thank you, Mr. Chairman.

    The Chairman. Thank you very much, Mr. Jackson.
    Now, Dr. Asmus.

STATEMENT OF DR. RONALD D. ASMUS, SENIOR TRANSATLANTIC FELLOW, 
              GERMAN MARSHALL FUND, WASHINGTON, DC

    Dr. Asmus. Thank you, Mr. Chairman, Senator Biden, Senator 
Voinovich. I, too, am going to briefly summarize my statement 
so we can maximize the time we have for discussion, 
particularly with Senators who I have had the honor to work 
with so closely in the past.
    But first, I would just like to note that it's not only a 
pleasure to be here, but it is also a historical moment. The 
vision of Europe whole and free stretching from the Baltic to 
the Black Sea is now truly within our reach for the first time. 
And I would like to take this opportunity to congratulate the 
leaders and peoples of those seven countries that received 
invitations at Prague and whose Ambassadors and DCMs are 
sitting behind me. As we all know, this is a very special 
moment for them and a vindication of their hard work and 
perseverance over many years.
    It is also a special moment for those Americans who helped 
make this day reality as well. In particular, I would like to 
thank you, Mr. Chairman, and you, Senator Biden, for the 
leadership that you and this committee have shown over the last 
decade. Were it not for the leadership of this committee, I do 
not think we would be here today celebrating this particular 
round of NATO enlargement.
    At the same time, we all know that we are meeting a time 
when NATO is in trouble. While we celebrate the extension of 
the boundaries of freedom and security eastward, we are also 
facing one of the biggest crises in the alliance's history. An 
alliance committed to dealing with the problems of terrorism 
and weapons of mass destruction finds itself unable to do so in 
the real world when confronted with Saddam Hussein. NATO is 
probably more divided and marginalized at a moment in time when 
we, the United States, need that unity, solidarity, and support 
more than ever.
    Indeed, in recent days as I was preparing to testify before 
the committee today, people have also asked me; why are we 
enlarging NATO when it seems to be in a process of decline? My 
answer is that we still need to do so but that we also have to 
address the question of where this alliance is headed. But let 
me first start with the three reasons why I think enlargement 
is still very important in spite of those larger problems we 
face.
    First, let us not lose sight of what we set out to 
accomplish by opening NATO's door, namely to lock in a new 
peace order in Europe following the end of the cold war and, to 
make sure that the prospect of armed conflict in the eastern 
half of the continent became as remote as it has become in the 
western half. To a large degree, we have succeeded in doing 
that, and that is an historic accomplishment.
    Second, as Americans, we wanted to enlarge NATO to help 
ensure that a future President would never again have to face 
the prospect of fighting a major war in Europe. And at a time 
when we are at war in Iraq, and may face a major crisis in 
Korea, I often ask myself: imagine what the world would be like 
if we also faced an unstable Europe. And I think it is a true 
vindication of this policy over the last decade that we can 
turn and pivot, as Nick Burns said, to face these new problems, 
knowing and being confident that Europe is at peace, stable and 
secure. Because if we had to face three major crises at the 
same time, we truly, truly would be in trouble as the United 
States.
    But third, let us also remember that it was our hope that 
as Europe became more secure, our European allies would raise 
their geopolitical horizon and would become allies not only in 
securing the peace in Europe, but also in facing a new set of 
challenges from beyond Europe that we knew or sensed were 
headed our way. In other words, we hoped not only to lock in a 
new peace in Europe, but to gain new allies who would join us 
in addressing the new threats of the post-cold war era.
    I think September 11 has validated each of these points. 
There is not a day that goes by where we should not be grateful 
that the U.S. President, for perhaps the first time in nearly a 
century, does not have to worry about a major conflict breaking 
out on the continent that could draw in the United States. And 
as has been said here today, we note that among those allies 
supporting us in Iraq today are those new allies of the last 
round and this round of NATO enlargement. That is why NATO 
enlargement still makes sense.
    But this brings me to what I think is the key question we 
need to focus on. What do we do, apart from enlargement, to 
address the very real crisis we face today across the Atlantic? 
How do we revitalize NATO once the war in Iraq is over and the 
dust is settled?
    The core question we face today is a simple one and, 
Senators, both of you alluded to it in your opening statements. 
What is NATO's mission in a world where communism is gone and 
Europe is increasingly safe and secure? Should its job be 
limited to maintaining peace on the continent, a continent that 
is increasingly secure, or do we want to retool it to address 
the new threats, the Afghanistans and Iraqs of the future?
    On paper, we have all--all of us, not just the United 
States, but our European allies--answered that question by 
saying we want to transform NATO to face the new threats of the 
21st century. We have done so because we know that if NATO is 
not relevant to these central strategic questions of our day, 
it will not play a central role in our thinking.
    The problem is that we have agreed to do it on paper, but 
we have not figured out how to do it effectively in practice. 
Indeed, NATO has thus far failed to find common ground on how 
to deal with these threats and that divide--which we see most 
clearly in Iraq today--now truly threatens the alliance. The 
alliance worked during the cold war because there was a shared 
sense of risk and responsibility. That was the glue that kept 
us together. During the nineties the glue that kept us together 
was the consensus that NATO had to stop the bloodshed in the 
Balkans and anchor Central and Eastern Europe to the West.
    Today we do not have, or have not yet found, that same 
sense of shared risk and shared responsibility. Somewhere 
between Afghanistan and Iraq, the U.S. and many of our European 
allies lost each other. Moreover, the sad truth is that today 
there is no systematic strategic dialog taking place across the 
Atlantic to heal the rift that has emerged.
    One day someone is going to write a great book about how 
this all happened. But the question we need to focus on today 
is not apportioning blame, but looking forward. And once 
enlargement is ratified, I believe the administration, as well 
as this committee, must focus quickly on how to pick up the 
pieces and rebuild the alliance. And we must do so with the 
same degree of intensity and commitment that the enlargement 
issue has received over the last decade. If 10 years from now, 
historians look back on today's hearings and conclude that we 
enlarged NATO only to have it fade into irrelevance, then we 
all will have truly failed.
    Let me conclude by saying I think it is critical for the 
U.S. Senate to ratify this round of enlargement quickly and 
enthusiastically. It will help complete the work of the 20th 
century in securing a Europe whole and free. It will send a 
signal that we are still committed to our alliances in Europe 
at a time when people question that commitment.
    At the same time, we need to start thinking now about how 
to repair the alliance once the war in Iraq is over, and to 
pursue that goal with the same degree of dedication and 
perseverance as we have pursued NATO enlargement.
    In these moments of trouble across the Atlantic, I often 
ask myself: what would Harry Truman and that generation of 
leaders be doing today or want us to do today? As you may know, 
Harry Truman once remarked that the accomplishment he was most 
proud of was creating NATO. I think Harry Truman would be 
aghast if he could come down from the heavens and see the 
damage that has been done to the transatlantic relationship in 
recent months. And it would be the ultimate indictment of our 
leaders on both sides of the Atlantic if, in the need to deal 
with Saddam Hussein, we were to undo Harry Truman's greatest 
legacy.
    Sustaining this legacy is the challenge we need to face 
today in this hearing and as we look forward. I think it is 
doable. NATO enlargement was difficult, too. Rebuilding the 
alliance after Iraq is something that is going to require the 
same degree of creativity, of hard work that went into making 
NATO enlargement possible over the last decade.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Asmus follows:]

Prepared Statement of Dr. Ronald D. Asmus, Senior Transatlantic Fellow, 
                  German Marshall Fund, Washington, DC

    Mr. Chairman, Senator Biden and Members of the Committee:
    It is a pleasure to appear before you today to discuss the future 
of NATO and the accession of seven new Central and East European 
members to the North Atlantic Treaty. This is a historical moment. The 
vision of a Europe whole and free stretching from the Baltic to the 
Black Sea set out a decade ago is now within our reach.
    I would like to take this opportunity to congratulate the leaders 
and peoples of each of the seven countries invited to join the Alliance 
at the Prague summit last November. This is a very special moment for 
them and a vindication of their hard work and perseverance over many 
years. While they have been part of the West in spirit for a long time, 
they will now join the West's premier military alliance to help us 
defend the territory and interests of the Euro-Atlantic community. As a 
result, Europe will be more peaceful, democratic and secure.
    It is also a special moment for those Americans who have worked 
with these countries to help make this day become reality. I would like 
to congratulate the Administration as well as this Committee for its 
leadership and support of NATO enlargement. Many members of this 
Committee know how much work and heavy lifting was also required here 
in the United States to make this day possible. Were it not for the 
leadership, perseverance and skill demonstrated by Washington, 
including by the leadership of this Committee, I doubt we would be here 
today.
    We are also meeting at a time when the Alliance is in trouble. 
While we celebrate the extension of the boundaries of freedom and 
security eastward, we know that the trans-Atlantic relationship faces 
one of the deepest crises in its history. The United States is fighting 
a war in Iraq and many of our key NATO allies are not with us. An 
Alliance that has committed itself to dealing with the problems of 
terrorism and weapons of mass destruction as a core mission, finds 
itself unable to find common ground on how to confront that challenge 
in the real world in the form of Saddam Hussein. As a result, NATO is 
divided and marginalized at a time when Western unity, solidarity and 
support are very much needed.
    One only has to read the newspapers to see the growing doubts on 
both sides of the Atlantic about NATO's future viability. Indeed, in 
recent weeks I have often been asked why we are even bothering to 
enlarge the Alliance further when many people consider it to be in a 
process of decline. My answer has been that it is still in America's 
interest to successfully complete this round of enlargement in spite of 
current trans-Atlantic differences. Let me explain why.
    First, we must not lose sight of what we set out to accomplish by 
opening NATO's door to Central and Eastern Europe. From the beginning, 
the purpose of NATO enlargement was to help lock in a new peace order 
in Europe following communism's collapse and the end of the Cold War. 
We wanted to promote a process of pan-European integration and 
reconciliation that would make the prospect of armed conflict as 
inconceivable in the eastern half of the continent as it had become in 
the western half.
    To a remarkable degree, we have succeeded in doing so. For much of 
the 20th century, Europe was the greatest potential source of conflict 
anywhere in the world. It was there where the great wars of the 20th 
century had started, and where we feared the Cold War could become a 
hot one. Today, the continent is more peaceful, democratic and secure 
than at any time in recent history. And strategic cooperation across 
the Atlantic between the U.S. and Europe through NATO is a big part of 
the reason why.
    When I was in the State Department, I often told my staff that our 
goal was to integrate all the countries from the Baltic to the Black 
Sea within a decade of communism's collapse.
    If the West failed to achieve this, I told them at the time, future 
historians were likely to condemn us as having failed to seize this 
moment of history--and rightly so. But today we can be proud of having 
achieved that goal on the timeline we set for ourselves--and we did so 
without the confrontation with Russia or any of the other dire 
scenarios so many critics predicted.
    Second, America made NATO enlargement a top priority for moral and 
strategic reasons. The moral imperative was to help those new 
democracies who had liberated themselves from communism and turned to 
us to help them anchor their countries once and for all to the West. 
But the strategic imperative was equally important. Simply put, that 
imperative was to ensure that America never again had to fight another 
major war in Europe. We wanted to use the window that had opened after 
the end of the Cold War to lock in a durable peace in Europe. As 
Americans, we wanted to be able to face future security challenges 
elsewhere in the world knowing that security in Europe was assured.
    Third, we also hoped and believed that as Europeans felt 
increasingly secure within their own borders, and no longer had to 
worry about conflict with Russia or ethnic strife in their own back 
yard, they would start to broaden their strategic horizons and focus 
with us on a new set of challenges from beyond the continent. In other 
words, we hoped that in addition to locking in a new peace in Europe, 
we could gain new allies who would join us in addressing the new 
threats of the post-Cold War era. And it is certainly no secret that it 
was also our hope that new allies from Central and Eastern Europe, 
having fought hard to regain their freedom and independence, would also 
bring fresh blood, ideas and enthusiasm to NATO and help us transform 
it for a new era.
    I believe that events since September 11th have validated each of 
these points. Just imagine what the world would be like today if the 
United States--in addition to the war in Iraq and a budding crisis in 
North Korea--also faced an unstable Europe? There is not a day that 
goes by where we should not be grateful that today the President of our 
country--for the first time in nearly a century--does not have to worry 
about a major conflict breaking out on the European continent that 
could draw in the U.S. And I know it has not gone unnoticed in this 
Committee that among those European allies supporting us on Iraq today 
are many Central and Eastern European countries.
    That is why, from an American perspective, this round of NATO 
enlargement remains strategically crucial. If the last enlargement 
round firmly anchored Central and Eastern Europe's core--Poland, the 
Czech lands and Hungary--then this round will achieve something just as 
historic: the resolving of the Baltic question in the north, 
consolidating democracy in the heart of Europe by bringing in Slovakia 
as well as Slovenia; and the anchoring of two key countries like 
Bulgaria and Romania in southeastern Europe at a time when that corner 
of Europe is playing an increasingly important role in the war against 
terrorism. There are objectives that are clearly in American interest.
    Of course there is another side to enlarging NATO--the increased 
risk and responsibilities that we, too, are assuming. The United States 
is making the most sacred of all commitments--a pledge to go to the 
defense of these countries in a future crisis. Moreover, there are some 
potential risks in bringing a large group of countries like this into 
the Alliance. This enlargement round consists of a larger group of 
countries, some of which are smaller and/or perhaps weaker than those 
countries invited to join in 1997.
    Let me be absolutely clear. I believe that each of the seven 
countries has earned its invitation through the combination of its 
domestic performance and its strategic cooperation. If one could 
quantify how much reform ground these countries have covered from where 
they started a decade ago, many of them have covered as much ground as 
their predecessors if not more. They have already acted as allies with 
us in conflicts ranging from Bosnia and Kosovo to the war against 
terrorism. But we also know that none of these countries are perfect 
and that they, like their predecessors, still have a long way to go 
before they mature into full-fledged NATO allies.
    I therefore support the Administration's decision to pursue what 
has become known as a ``Big Bang'' round of enlargement. I know there 
is some nervousness in the Senate about what one might call the 
``rotten apple'' scenario--i.e., the danger that a country turns out to 
have real problems down the road that we do not anticipate today. While 
we have worked hard to ensure that is not the case, we cannot exclude 
that possibility with total certainty. Indeed, we all know that the 
several of the countries included in the last round have had a harder 
time integrating into NATO than many imagined. But this is not, in my 
view, an argument to not enlarge but rather a reason to take a close 
look at how we can update our policies to help them stay on track once 
they are in.
    I mention this since some voices, in the Senate as well as in the 
academic community, have suggested amending the Treaty to allow the 
Alliance to sanction or even suspend a member should their performance 
be inadequate. This issue was debated in 1998 and I suspect it may be 
raised again. Let me just say that while I understand the intent of 
such efforts, I oppose such a step because I do not think it will work 
given how NATO works in practice, an issue we might be able to come 
back to during questions.
    This brings me to the final issue I would like to address today: 
what do we do, apart from enlargement, to address the very real crisis 
across the Atlantic? We cannot ignore the reality that we have just 
witnessed a trans-Atlantic train wreck over the issue of Iraq. How do 
we revitalize NATO once the war in Iraq is over and the dust has 
settled?
    Let me start with a small historical footnote. When this Committee, 
as well as the Senate as a whole, debated and ratified the past round 
of enlargement, many of the most lively arguments and discussions 
centered not only on the specific qualifications the invitees. Instead 
they revolved around the question of where the Alliance was heading and 
what it was becoming. That question is even more pressing today. I 
therefore think it is appropriate that our debate on the merits of 
enlargement again include the question of how to ensure that a larger 
NATO is a stronger alliance.
    The core question facing NATO today is simple: what should be this 
Alliance's main mission in a world where Europe is increasingly secure 
and many if not all of the major threats we are likely to face in the 
future will come from new sources beyond the continent? Should NATO's 
job be limited to maintaining the peace on an increasingly secure 
content--a worthwhile objective but hardly America's only or most 
important concern? Or should the Alliance retool itself to address new 
threats to its members security irrespective of where they emanate 
from? To be blunt, do we and our allies want NATO to have a significant 
role in the future Afghanistan and ``Iraqs'' that we will inevitably 
face?
    This question of NATO's missions was debated at length during the 
ratification of the last round of NATO enlargement. At that time, an 
overwhelming majority of Senators voted in favor of an amendment by 
Senator Jon Kyl that clearly stated that the Alliance had to face these 
new threats if it was to remain central in American strategic thinking. 
Since then the Alliance has, with increasing clarity, embraced that 
goal of being willing and able to meet the new threats of the 21st 
century. And it has done so because people realize that if NATO is not 
relevant to the central strategic questions of the day, it will cease 
to play a central role in our thinking or policy.
    The terrorist attacks of September 11th were a watershed in this 
regard. They started to convince many previously skeptical European 
governments that such a strategic shift was necessary. In Reykjavik 
last summer, NATO Foreign Ministers crossed a Rubicon by finally ending 
the debate over the so-called ``out of area'' issue. And at the Prague 
summit, heads-of-state embraced a set of capability initiatives that, 
if successfully implemented, would help NATO turn the corner in terms 
of having some modest capabilities to play a larger role in such 
conflicts.
    But that is all on paper. The divide across the Atlantic on Iraq 
now threatens to destroy that limited progress. NATO thus far has 
failed to find common ground on addressing these new threats. The 
Alliance worked during the Cold War because there was a shared sense of 
risk and responsibility across the Atlantic. That was the glue that 
kept the Alliance together. During the 1990s the common ground that 
brought us together was a consensus that NATO's new job was to stop 
bloodshed in the Balkans, anchor Central and Eastern Europe to the West 
and try to build a new partnership with Russia--all part of its new 
mission of stabilizing Europe as a whole.
    Today we lack that common sense of risk and shared responsibility. 
Somewhere between Afghanistan and Iraq, the U.S. and much of Europe 
lost each another. The United States, NATO's lead power, feels more 
threatened than many of our allies in Europe. That sense of urgency 
about confronting potential new threats is not shared by many of our 
European allies, at least not yet. Some leaders understand this 
imperative--which is why Prime Minister Blair, Aznar and some other 
European leaders support us on Iraq in spite of considerable domestic 
political risk.
    But it is clearly not shared across the continent as a whole, and 
especially not in France and Germany. Moreover, the sad truth is that 
today there is no systematic strategic dialogue taking place across the 
Atlantic that would enable us to reconnect and heal this rift. A 
growing number of Europeans, including some of America's closest 
friends for decades, believe the United States has or is in the process 
of giving up on the Alliance and Europe. Here in the U.S., many people 
are baffled over European hostility to the war in Iraq and the depth of 
resentment directed against the Bush Administration.
    I know some have suggested that a quick fix to get us out of the 
current crisis might be for NATO to revisit how it operates and to 
consider moving to a new system of decision-making to replace the 
current consensus system. Such suggestions have been fueled in large 
part by resentment over France's position on Iraq and its refusal, 
along with Belgium and for a time Germany, to support steps like 
prudent defense planning for Turkey. I very much hope that wisdom 
prevails on this issue. We need to be very careful not to do anything 
foolish that would damage NATO even more in the longer-term. There may 
well be ways in which we can streamline NATO decision making that we 
should explore. But the Alliance's commitment to consensus has, on 
balance, been a source of great strength over the years and it should 
not be abandoned. The answer to NATO's problems is to fix the current 
divide across the Atlantic, not to try to find some way to get around 
it.
    One of these days someone is undoubtedly going to write a great 
book about how and why the Alliance has gotten itself into its current 
quandary. But the real question we need to focus on is not apportioning 
blame, but rather on finding a way out of the current crisis. Once 
enlargement is ratified, I believe the Administration as well as this 
Committee must focus quickly on this issue of how to pick up the pieces 
and rebuild the Alliance. And it must do so with the same degree of 
intensity and commitment that the enlargement issue has received over 
the last decade. If ten years from now historians look back at this 
round of Senate ratification and conclude that we enlarged NATO only to 
have it fade into irrelevance, then we all will have truly failed.
    In conclusion, I would like to underscore that it is critical for 
the U.S. Senate to ratify this round of enlargement expeditiously and 
enthusiastically. It is a critical step in completing the work of the 
20th century by securing a Europe whole, free and at peace. It will 
send a powerful signal that America is still committed to and cares 
about its friends and alliances in Europe at a time when many question 
that commitment.
    At the same time, I would urge the members of this Committee to 
start thinking now about how to repair the Alliance once the war in 
Iraq is over--and to pursue that goal with that same degree of 
dedication and perseverance as you pursued NATO enlargement. U.S.-
European strategic cooperation is one of the major reasons why the 
second half of the 20th century was so much better than the first half. 
And no one can doubt that the prospects for making the world--and the 
Greater Middle East in particular--a better place in the 21st century 
will be much enhanced if the U.S. and Europe once again find common 
strategic ground.
    Can we still do it? My answer is yes. Will it be easy? No. But a 
common strategy across the Atlantic during the Cold War didn't 
materialize instantly like magic. It was created by far-sighted leaders 
who understood the strategic need to find common ground and who ordered 
their best and brightest to harmonize different views and needs. Unless 
we learn from the mistakes of recent months, come up with the right 
leadership and back it up with the kind of ties that successfully 
created common ground in the past, we may be destined to stumble from 
one crisis and train wreck to the next.
    Former U.S. President Harry Truman once remarked that the 
accomplishment he was most proud of was the creation of the Atlantic 
Alliance and the transformation of former foes into allies. Truman 
would be aghast if he could see the damage done in recent weeks and 
months to the trans-Atlantic relationship today. It would be the 
ultimate indictment of our leaders on both sides of the Atlantic if the 
need to deal with Saddam was to undo Harry Truman's greatest legacy.

                                 ______
                                 

             [From the Wall Street Journal, March 31, 2003]

                               commentary

                       We Need to Repair the Rift

                           (By Ronald Asmus)

    As the Bush administration conducts war against Saddam Hussein, one 
casualty of this conflict was evident even before the shooting started: 
the relationship with France and Germany. In the early months of 2003 
we witnessed what future historians might well dub the Great Trans-
Atlantic Train Wreck as Washington, London and Madrid clashed with what 
is known in Europe as the Franco-German Axis over how to deal with 
Saddam. That clash was, in turn, part of a broader battle within Europe 
over who speaks for the continent and what kind of relationship with 
America it desires.
    Can the relationship be put back together again once Saddam and his 
regime are gone? One can envision two very different scenarios.
    The first would essentially be a continuation of the political 
guerrilla warfare we have seen between Washington/London and Paris/
Berlin in recent mouths. It is likely to be a high stakes knock-down 
drag-out fight over how Europe is led and relations with America and 
the world are shaped. The other would include a serious attempt by both 
sides of the Atlantic to turn the page, close a sorry chapter in U.S.-
European relations and to rebuild this relationship to face the 
challenges that still lie ahead.
    There are very real reasons why both sides should aim for the 
second. Although some U.S. conservatives brush off the alienation of 
allies such as France and Germany as a cost-free exercise, America 
today bears a higher price in terms of blood and treasure due to the 
inability to find common ground in facing down Saddam. To be sure, the 
U.S. and British militaries, with help from others such as Australia 
and Poland, will win the war on their own. But the much harder battle 
may be to win the peace.
    That is why the Bush administration should start thinking now about 
the day after in relations with France and Russia. Such a strategy has 
to start at the top. Magnanimity is a noble American tradition. Once 
victory in Iraq is clear, President George W. Bush should make clear 
his desire to rebuild this relationship. The president is scheduled to 
travel to Europe and Russia in just over two months, including for a G-
8 summit in France. NATO foreign ministers meet in Spain in early June 
and a U.S.-EU summit takes place in Washington shortly thereafter. 
These meeting can set the stage for reconciliation.
    In the case of Europe, those who opposed this war must now face the 
fact that they, too, have a shared interest in seeing the U.S. succeed 
in not only winning the war but in building a democratic and unified 
Iraq. For the consequences of failure to do so on Europe's own doorstep 
would surely be felt across the continent. Disarming, stabilizing and 
rebuilding a peaceful and democratic Iraq will be an enormous effort. 
While the U.S. will necessarily bear the initial burden, much of the 
longer-term security presence and resources will have to come from 
allies.
    The U.S. and Europe may also have a chance to follow up on victory 
in Iraq with a push for progress towards Middle East peace. Washington 
knows it will never be seen as a champion of democratization and 
modernization in the Arab world unless and until it again puts it 
shoulder to the wheel resolving the Israel-Palestinian conflict. Mr. 
Bush's embrace of the road map may be only the first step of what could 
become a top priority of his administration's foreign policy. But if 
France and Germany continue to fight Washington, they will have no 
influence in shaping this outcome.
    Repairing relations with core allies is essential if we are to halt 
the marginalization of NATO and if the EU integration is to move 
forward. One thing that has become crystal clear in recent months is 
that French attempts to create splits across the Atlantic inevitably 
divide Europe as well--with a result that leaves all of us as losers. 
U.S.-European strategic cooperation is one of the major reasons why the 
second half of the 20th century was so much better than the first half 
for Western Europe. And no one can doubt that the prospects for making 
the world--and the Greater Middle East in particular--a better place in 
the 21st century will be much improved if the U.S. and Europe can once 
again find common strategic ground.
    A common strategy across the Atlantic during the Cold War didn't 
materialize instantly. It was created by far-sighted leaders who 
understood the strategic need to stay together and who ordered their 
best and brightest strategists and diplomats to produce a strategy that 
harmonized different views. Unless we learn from the mistakes of recent 
months, we are destined to stumble from one crisis and train wreck to 
the next.
    Former U.S. President Harry Truman once remarked that the 
accomplishment he was most proud of was the creation of the Atlantic 
Alliance and the transformation of former foes into allies. Truman 
would be aghast if he could see the damage done in recent weeks and 
months to the transAtlantic relationship today. It would be the 
ultimate indictment of leaders on both sides of the Atlantic if the 
need to deal with Saddam undoes Harry Truman's greatest legacy.

    The Chairman. Thank you very much, Dr. Asmus.
    Let me just comment, before I commence questioning, that I 
appreciate especially the contribution that you have made, Dr. 
Asmus, in bringing a number of us together in a colloquy that 
has involved some Members of the Congress, but more importantly 
members of the administration, both current and past. 
Otherwise, persons such as Dr. Brzezinski, whom you have 
mentioned, offer a historical perspective, and who try to think 
through the past 2 years about the challenges of new members 
and who then move into new missions, into a Russian 
relationship with NATO, and now into the current troubles that 
you have described so well.
    I appreciate your participation, Mr. Jackson, as a faithful 
attender around the table because the wisdom of both of you has 
enhanced all of our understanding.
    The ranking member and I will indulge in whatever time we 
need, but we will set a time for my first round of 10 minutes 
so that I will not overstep and likewise, I know he will not 
subsequently.
    Let me just ask these questions that sort of followup what 
both of you have talked about in very sophisticated ways for 
members of our body, the U.S. Senate, as we take up the treaty, 
as we will--I have no doubt--out of this committee, given the 
sentiment of our members for strong relations with European 
countries and for this whole idea of Europe whole and free and 
the very specific new entrants and this enthusiasm.
    We will get to the floor of the Senate at some point, and 
we will find other Members who have not been a part of this 
colloquy and this enthusiasm who will ask how, really basically 
in a common sense way, does NATO work if in fact polling data 
indicates fairly large majorities in many countries that are 
members of NATO who not only have a very strong view about not 
participating in a war with Iraq, but even worse still, a 
growing anti-sentiment with regard to the United States in 
particular, which is more serious?
    In other words, it is sort of hard to parse right now 
between the question in which countries would say, ``after all 
we are democracies and this specific war we do not like but you 
have to understand that, but still our affection for the United 
States of America, our desire for solidarity, common defense, 
all the rest of it remains just as strong as ever.'' I do not 
hear that coming, at least from popular sentiment and from 
polling in many countries.
    Now, second, this has led, I suppose, to two things that 
have been commented on, and I oversimplified problems in both 
France and Germany. In France, in fact, there is at least a 
group of statespersons who want to set up really a deliberate 
counterweight who would say essentially that the supposed 
hegemony of the United States in the world is a dangerous 
thing. Whether it is Iraq or whatever else it is, we want to 
offer leadership to make sure that these folks in Washington 
cannot go anywhere that they want to go. We want to make sure 
there are sufficient roadblocks, if not to slow it down, to 
stop it, and then to sort of jerk them back to reality and back 
to some other discussion.
    Or the other problem in Germany in which a chancellor, in a 
difficult election campaign, finds the same polling data I just 
cited, namely that a large percentage of the populace does not 
like the way things seem to be heading with the United States 
and Iraq. Despite all the protestations of support, the strong 
solidarity with America for all these years, he comes out 
overreaching, at least in my judgment, anything that needed to 
be said, scores a narrow election victory and is stuck with it. 
Having said that, Americans also note that German public 
opinion has not really changed, whatever the problems of the 
chancellor and the relationship may be.
    So there you have two different situations, one 
representing democracy and sentiment that we respect, and 
another maybe a deliberate desire for a counterweight, all 
coming along at the time we discuss this treaty and expansion 
of the treaty.
    So some of our members, not terribly misguided, will say 
what is going on here? Why are we even bringing this up right 
now? This is rather inappropriate. Why are the Senate Foreign 
Relations Committee people having a hearing today in the middle 
of this war, in the middle of all of this sentiment? In other 
words, are you folks on a different wavelength altogether from 
general common sense about our foreign policy? Do you have your 
own niche agenda of enthusiasm for Europe and these countries?
    Well, in part, we do. That is one reason why the hearing is 
going on. We think this treaty is important. The entry of 
countries is important, and notwithstanding all that I have 
talked about.
    But I simply want to get your general sentiment on how, in 
the long run or maybe in the intermediate run, we move ahead. 
Now, you have made some suggestions today. Perhaps Lord 
Robertson's volunteering effort to take hold in Afghanistan in 
a more substantial way--or perhaps through contributions--I 
noticed the distinguished columnist, Tom Friedman, yesterday 
has become enthusiastic about NATO playing a very large role in 
Iraq in the post-war situation.
    [The article by Mr. Friedman follows:]

               [From the New York Times, March 30, 2003]

                            NATO's New Front

                        (By Thomas L. Friedman)

    In this time of war, I find it helpful to step back a little. So I 
went last week to NATO headquarters in Brussels, and, I must say, the 
view from there was illuminating. What I think I saw were some huge 
tectonic plates of history moving. Here's how I would describe it: 9/11 
was the start of World War III, a la Pearl Harbor; the U.S. invasion of 
Afghanistan was the initial response, a la the North Africa campaign; 
the Invasion of Iraq was akin to D-Day (I hope it ends as well); and 
now we are present at the creation of some kind of new global power 
structure.
    At this new historical pivot point, we're still dealing with a 
bipolar world, only the divide this time is no longer East versus West, 
but the World of Order versus the World of Disorder. But here's the 
surprise: the key instrument through which the World of Order will try 
to deal with threats from the World of Disorder will still be NATO. 
Only in this new, expanded NATO, Russia will gradually replace France, 
and the region where the new NATO will direct its peacekeeping energies 
will shift from the East to the South. Yes, NATO will continue to be 
based in Europe, but its primary theaters of operation will be the 
Balkans, Afghanistan, Iraq and possibly the Arab-Israel frontier.
    No, I haven't lost my marbles. Here's what's going on: Ever since 
the U.S. invasion of Afghanistan, individual countries--first Britain, 
then Turkey, then the Netherlands and Germany--have taken 
responsibility for providing the 5,700-man peacekeeping force in Kabul. 
It is a very expensive job for one country and it is very inefficient 
to be changing brigades every six months, but that was how the Bush 
team wanted it. It did not want NATO getting in the way of its combat 
troops or nation-building.
    But in February, President Bush quietly told NATO's chief, Lord 
Robertson, that beginning in August, when the current Dutch-German 
force is supposed to leave Afghanistan, the U.S. would like to see NATO 
permanently take over peacekeeping duties there and work alongside U.S. 
combat troops. If this is approved by NATO, for the first time the 
North Atlantic Treaty Organization will be operating outside Europe, in 
the heart of the Muslim world.
    France is fighting this idea, because it wants to see NATO, the 
anchor of America's military presence in Europe, wither away. But many 
key NATO members favor the idea, and what's really interesting is that 
the Russians have said they would consider sending a platoon as well, 
under the NATO-Russia partnership. Even the Chinese have winked their 
approval. Both of these big powers feel threatened by the disorder 
coming from parts of Central Asia and the Middle East. If France stands 
in the way, NATO officials say they will just work around it.
    What the U.S. is doing in Afghanistan is ``internationalizing'' the 
nation-building process there, because we found we simply could not 
pull it off alone. Eventually, we will have to do the same in Iraq. 
That is what Prime Minister Tony Blair of Britain came over to tell 
President Bush this past week. The Bush team keeps arguing that this 
silly alliance it cobbled together to fight the war in Iraq is 
multilateral and therefore the moral equivalent of the U.N. Nonsense. 
Other than Britain, we bought this alliance. Almost every government in 
it is operating without the support of its people. Fighting this war 
without international legitimacy is hard enough, but trying to do 
nation-building without it could be even harder.
    Yet, the Bush team is right about one thing. Nation-building in 
Iraq can't be done by the U.N. It can't be done by a committee. So what 
we will eventually need in Iraq is a credible peacekeeping force that 
is multilateral, legitimate and still led by the U.S. That will bring 
us back to NATO, possibly in partnership with some Arab and Muslim 
armies. This is not your grandfather's NATO anymore. That NATO 
patrolled the German-Soviet frontier. This one will be patrolling Kabul 
and Baghdad.
    And while NATO is changing, it may just go all the way. NATO's 
chief, Lord Robertson, is retiring this year (a real loss). A favorite 
to succeed him is the Norwegian defense minister, Kristin Krohn Devold, 
a woman. So get ready for this CNN headline: ``The NATO alliance, for 
the first time led by a woman and including a Russian platoon, took 
over peacekeeping operations in Afghanistan today, as a prelude to 
taking over peacekeeping in Iraq. France refused to participate.''
    Yes, we may be present at the creation of a very new world, and no, 
I have not lost my marbles.

    The Chairman. So you might say, well, we have become 
immersed in the affairs of this world. There is work to be 
done. We want to make sure that we do not have failed states. 
As a result, we sort of lean into this and this requires 
obviously the United States being enthusiastic about the NATO 
role and both of us working out some modus vivendi in all of 
this, quite apart from the Government of Afghanistan and 
President Karzai and the warlords and all the rest out there 
and whoever we have to deal with in Iraq in the post-war 
situation.
    Still, NATO could become busy. Maybe we could have a NATO 
commander generally in charge of sort of assigning roles so we 
do not have a pickup game each 6 months wondering who might 
show up and volunteer in Afghanistan.
    This committee has been sort of ardent in our enthusiasm 
for making certain we do everything possible to help the 
Afghans have a successful state. I hope we will have the same 
commitment with regard to Iraq. Both Senator Biden and I have 
pointed out that this is probably going to be expensive and 
probably time consuming, and we are admonished that we may not 
have that much time, that for a number of reasons, what we are 
advocating may not work out.
    This is a whole collection of things, but it gets to the 
heart of what I want to ask, which is essentially in this 
question, where goes NATO? In fact, where does it go if in fact 
the sentiment of European countries has turned south with 
regard to the United States?
    That is not a unique predicament, and without being 
anecdotal, polling sentiment in South Korea, for example, at a 
time of tremendous crisis in the judgment of most of the 
members of this committee, is very ambivalent about what is to 
be done there. A good number of South Koreans, we are advised, 
under the age of 40 feel that we are the problem, the United 
States, and that if trouble is going to come there, it will 
come because we are agitated about the building of nuclear 
weapons and their potential proliferation.
    I ask finally, do we have here, for the time being, a split 
because of a perception of the world on our part that having 
been attacked in New York City with the World Trade Center and 
in Washington with the Pentagon, that we are vulnerable? We are 
vulnerable to people that are not nation-states, to sub-
national groups, undefined, unknown, without agendas that 
strike and try to kill as many Americans and damage as much of 
our cities as possible.
    In a way, the Europeans really do not get it, do not 
understand this. They are closer to the problem maybe in the 
Middle East or Iraq and so forth, but strangely do not really 
believe that somebody is likely to come through Westminster 
Abbey the Eiffel Tower, or the Brandenburg Gate and 
deliberately attempt to kill several hundred thousand people 
using nuclear weapons if they could get some aboard. Now, this 
may still be so far-fetched for our NATO allies that we are 
still arguing about mission.
    My thought, I suppose, is that we do not know where the 
threat is coming from. How any European could feel secure today 
is hard for me to believe knowing what has happened in this 
city, what has happened in the Hart Building next door with an 
anthrax attack. It routed all of us out of there for 96 days, 
throat swabs, Cipro tablets for everybody. If you take them, 
you do not die. People in the Post Office died. I just do not 
conceive that many Europeans understand, despite lecturing to 
us that they have been through wars, that they have been 
through all sorts of things, exactly what this world is about.
    So here the United States comes along and says, we are 
worried about proliferation of weapons of mass destruction. We 
are worried if the North Koreans built a few more bombs and 
sold them to somebody to save the economy of their state, 
somebody might use them. They might use them in Europe quite 
apart from the United States or wherever else they thought they 
were going to get the greatest effect.
    How do we bridge this gap really in understanding how the 
world works? Because if we can, maybe then we have an alliance 
that is relevant to what we in the United States believe is our 
existential threat, as opposed to a superficial one in which 
there may be wars here, there, and yon, and they are very 
tragic, but they are very limited in terms of the hundreds of 
thousands, millions, cities disappearing, other things that may 
be a part of our world that hopefully NATO perceives.
    Do either one of you want to begin to comment on that 
basket of issues?
    Dr. Asmus. Thank you, Mr. Chairman.
    Well, my answer--I would start by saying to those 
colleagues of yours who ask you why the hell are you holding 
this hearing and focusing on this issue, I would say, look, the 
U.S.-European relationship remains the single most important 
strategic relationship we have, and let us be honest. We may 
pay a price in terms of blood and treasure today because of the 
rift that we have across the Atlantic. Does anyone doubt that 
we would not be in better shape if we had Turkey, France, and 
Germany fully behind us in this war, that casualties might be 
lower, that that united front may have led Saddam to calculate 
differently? This is not a cost-free exercise unfortunately.
    Second, I believe this crisis actually was not inevitable. 
Many of us have read the Barbara Tuchman's famous book, the 
``Guns of August,'' where she shows how World War I was a war 
that no one wanted, but which became inevitable by a series of 
miscalculations by leaders on all sides. And I have been saying 
there is a Barbara Tuchman-like quality to this crisis.
    Gerhard Schroeder did not want this crisis. George Bush did 
not want this crisis, and I contend that Jacques Chirac did not 
want this crisis either. But all of our leaders have made 
mistakes that have left us in the bind we are in. I think it 
could have been different had people behaved differently, but 
that is history.
    The question now becomes, Senator, I think that we need to 
win the war, and then I think a window will open for us to 
think very carefully about putting this relationship back 
together. I believe that we can do it--and I listened very 
closely, Senator Biden, when you reminded me of all those 
``whither NATO'' meetings and conferences you have been to and 
that I have sometimes attended with you. You can go through a 
spat like this for 6 months. You cannot do it for 3 or 4 years. 
Once the dust has settled in Iraq, a window opens to try to 
turn the tables and to change the dynamic to reframe the issue. 
I think the President has a huge opportunity here. As a 
Democrat, I am not in the business of giving a Republican 
President advice, but I would suggest that he needs to be 
magnanimous in victory. We need to win the war, win it 
decisively, and then he has to say to Jacques Chirac and 
Gerhard Schroeder, you know, that was terrible. I do not want 
to go through that again. It hurt us; it hurt you. Let us send 
our guys and gals to sit down with your guys and gals and have 
a very honest discussion about what we can do to put this back 
together.
    And the President--let us not forget--he is going to Europe 
in 2 months. And if I was in charge of that trip, I might be 
slightly anxious at the moment about the reception he is going 
to receive in France as well as Russia. Now, that trip can 
either become a prolongation of our current fight. Or it can be 
turning a page to a new chapter in U.S.-European relations 
where he can come and say: I, as the President of the United 
States, want to fix this relationship. I want to do these 
things together. I want to restore the credibility of the 
alliance and this relationship and I am prepared to do a number 
of things. And imagine if he did. People do not believe he is 
capable of doing this, but I believe he is. If he were to do 
it, it would be the way to turn the page here.
    Then you come to the substance, Senator. What do we really 
need to do together? Well, I think if we look at a map--and 
Senators Lugar and Biden, you both said this, so I know you 
agree--what is the big challenge we face? It is the Greater 
Middle East. It is the toxic combination in a region that is 
contiguous with Europe of terrorism, radical ideologies and 
weapons of mass destruction. And I actually think the Europeans 
too, are starting to recognize that they have a strategic 
nightmare growing on their doorstep. They did not have 
September 11. There is a gap in threat perceptions. But if you 
go to Europe today, the debate is less about the problem. If 
Joschka Fischer was here, even Schroeder if he was here, they 
would agree with the problem. They would disagree with our 
solution on Iraq. But those are differences we need to move 
beyond.
    And if you ask me, what do I want NATO to do? If you could 
get the President and European leaders to turn the page what do 
we want NATO to do? We do want it to take over ISAS in 
Afghanistan. I think we all know that some of us wanted it to 
do Afghanistan a year ago. I remember a dinner and I remember 
an op-ed that the two of you co-authored urging NATO to do 
exactly that. And we missed that opportunity. We also wanted 
NATO to play a role in Iraq. That was not possible. We will 
have a chance to revisit this once the war is over. If we could 
get NATO to take responsibility in Afghanistan, to have a role 
in Iraq that would be progress. I also believe NATO should be 
prepared, if it made sense and if we ever get a Middle East 
peace agreement between Israel and the Arabs, to be prepared to 
do peacekeeping there.
    We need a success story. As you know, in this country we 
have the three strikes rule. And I often say, well, NATO is 0 
and 2 because we have thus far missed two chances to go out of 
area, go beyond Europe. We all said yes in principle to the 
idea, but then Afghanistan came. I believe the Europeans were 
ready to go to Afghanistan, as limited and as crappy as their 
militaries may have been. But we fumbled the football because 
the U.S. said we did not need them.
    Then we came to Iraq. I give this administration credit. It 
came back. Paul Wolfowitz went back to the NAC and said, here 
are four creative ways we could use NATO in Iraq. I think the 
Europeans blew it on that one.
    We are not going to have that many more opportunities in 
the future. We have to get one of these right and get things 
right soon to turn around this dynamic that you are pointing 
to. And if we do so, Senator, I believe you will see a lot of 
those public opinion numbers start to change. But if we do not 
exploit this window, which will open up this spring after the 
war in Iraq, to change this dynamic, I think we really are in 
trouble.
    The Chairman. Yes, Dr. Jackson.
    Mr. Jackson. Sir, with your permission. I have maybe a 
little different analytical question here. One of the problems 
in evaluating U.S. policy is we tend, since we experience 
Europe through NATO, we tend to think every problem in Europe 
is a problem in NATO because it is a symptom. That is how we 
see the alliance.
    One of the things we have not discussed is maybe it is 
Europe that is in crisis, not NATO. There may be a profound 
political problem that has been disguised through the Nice 
process and other processes over the last 2 years. So we may 
not really understand what is happening within Europe that is 
manifesting itself in the politics of Schroeder or Chirac, and 
it may be Europe is in crisis and not actually the institutions 
with which we deal with Europe. That would be analytical 
question one.
    Second, we tend in a period when we are at war--actually in 
two wars or two fronts of the same war--we tend to perhaps 
interpret some of our foreign policy a little more broadly than 
it was intended. Article 5 and the Washington Treaty is not a 
contract that they have to agree on Rwanda, they have to agree 
on East Timor, they have to agree on the Middle East. There is 
nothing in the Washington Treaty that guarantees that Article 5 
is a defense of democracy beyond the North Atlantic area. So we 
will always have a number of people that do not want to go, 
which is fine.
    Frankly, many of the powers in Europe with which we have 
assembled this great alliance have defined their modern 
identity by withdrawing from Dien Bien Phu, withdrawing from 
Suez and Algeria and Kurdestan. And just because our view has 
changed of the world, theirs has not. They got out of that. 
That is how they became modern nations. Just because we want to 
go back to those same areas, does not mean they will come.
    It will probably take us 10 years to talk them through this 
problem. So we are basically again in the period in 1956 when 
we disagreed in Suez until the French withdrawal, we had to 
talk about the foundations of the alliance. For the next 10 
years, we are going to talk about what we think are the 
requirements. And frankly, a couple of them are going to decide 
they do not want to be members of the military committee 
because they did not sign up for it. And that is not bad 
because we have so many more people that want to come in and do 
share our values.
    So that is why I think in addition or perhaps even as a 
precondition to this greater project of the greater Middle 
East, we really have to talk about the 170 million people that 
are actually close to Europe on Europe's borders that actually 
do want to have a relationship with this alliance, whether it 
be Turkey's relationship with the European Union or Ukraine's 
relationship with NATO or the Caucasus, or the western Balkans. 
These frontiers of freedom out of area missions. If you do not 
get Kiev right, you are not going to get Ouagadougou and 
Mogadishu and the difficult things right. In a certain sense, 
charity and security begin at home.
    Now, the difficult test is when do we use NATO as an 
institution out of area. And I do not actually know the answer. 
I was hoping Ambassador Burns would supply it. But I notice 
that many of the people that serve in the Oval Office actually 
went to Yale, but I do not see anybody proposing that Yale 
University take over the Oval Office. Many of the countries who 
go to Afghanistan were educated in NATO. It does not mean that 
NATO goes to Afghanistan. Just so long as the education that 
they got carries us when we make the move to move NATO from an 
education institution to a management institution. I think this 
is a question this committee has uniquely raised. And I do not 
think we have the answer yet. I think how NATO responds in 
these defining issues will tell us when they are ready to make 
the move. But my guess is NATO will move a little more slowly 
than Americans would like them to because they are just not 
ready and they have not developed the skills.
    Anyway, that would be my very preliminary answer to your 
discussion.
    The Chairman. I thank you both for very comprehensive 
answers.
    I would just add one final thought, and that is, on your 
point, Mr. Jackson, obviously we have not discussed today 
economic issues, the World Trade Organization, biotechnics, and 
food. Nor have we discussed all sorts of reasons why there are 
problems in terms of relationships that we have never 
commingled fortunately, we tried to keep security apart from 
trade, but that is not easy in our politics, nor in the 
politics perhaps of many European countries. I appreciate very 
much your answers.
    Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman. My only 
regret is we do not have a couple hours to talk about--I mean 
that sincerely--to expound on some of the points made by you, 
as well as by our witnesses.
    I agree with Ron that, to put it a slightly different way, 
the only war worse than one that is intended is one that is 
unintended, and I have been driving my staff crazy for the last 
6 months talking about it in those terms. I think we have sort 
of three riverboat gamblers here, all on the boat at the same 
time, all being pushed by different domestic needs and internal 
instincts, in France, the United States, and Germany right now. 
It is not the time now in my view publicly for us to be 
analyzing how things got out of whack so rapidly with Germany 
or, as I facetiously said to one of my staff, someone is going 
to write a book, ``How Bush Won the War and Lost the World,'' 
in terms of public opinion here unless we start to get 
something straight here. So it does make sense at some point 
for us to analyze how we got to this point so catty-wonked 
here.
    I agree with Bruce that I think the genesis here is as much 
a European crisis as a crisis in the institutions. But in 
practical terms, Bruce, I think it is a distinction without a 
difference. It may require a different remedy, but in terms of 
the impact, the impact is the same.
    So at some point, Mr. Chairman, God willing this war ending 
successfully and quickly, and hopefully us doing the right 
thing, I hope there are enough minds out there in the foreign 
policy establishment in this administration and among us that 
are privately discussing what went wrong at the front end so in 
the next, God willing, week or two, if everything went 
perfectly, or the next couple months, we do not replicate the 
mistakes. I agree again with you, Ron, that I think that we 
should be looking at post-Saddam Iraq as an opportunity not 
only to generate the prospect of putting Iraq on a path toward 
democracy but remedying, repairing our situation in Europe with 
France and Germany, as well as others. We should look at this 
as an opportunity.
    I again drive my staff crazy. I know my quoting my parents' 
sayings all the time gets old, and I begin to even sound 
foolish to myself. But my dad used to always say when you are a 
kid, it is much more difficult to be a graceful winner than a 
graceful loser. And another expression he had was, big men can 
bend further.
    We are the big man on the block here. We should be able to 
bend. We should not be putting out press releases or letting 
the word go out that we are serving freedom fries on Air Force 
One. That is not a very mature thing for a nation to do right 
now.
    So I hope we get a little smarter about this because I, 
like you, Ron--you heard me say in the beginning. I said to my 
colleagues, picture a secure America with either no 
relationship or a mildly adversary relationship with France and 
Germany 10 years from now. I do not get it. When you put it in 
that context, I mean, people go, well, of course, you have got 
to. Well, you know, little things matter. Words matter. Actions 
matter. And as one of you said, we can be out of sorts for 6 
months, maybe a year. We cannot be out of sorts here for 2 or 3 
years, and this leads me to my question.
    By the way, I think the President is capable. I trust the 
President's instincts. I disagree with the President profoundly 
on a lot of things. Obviously, I am a Democrat who has even 
every once in a while fantasized maybe that he should be 
removed electorally in the next election. But nonetheless, I 
have tried to be supportive, and I have faith in his instincts.
    Two things I think are happening. You may not want to 
comment on this, but I do think it is related. Maybe I am the 
only one who thinks it is related. I think we operate at our 
own peril if we underestimate the degree to which there is 
legitimate and serious intellectual ferment in France and in 
Europe, in terms of a European crisis and their identity 
crisis, about American hegemony and the need for a more 
independent Europe, or to put it another way, for the United 
States not to be a European power. I think there are some very 
serious people, very serious intellects, very serious elements 
of the French body politic, as well as in other countries, who 
sees that in the long-term interest of France and the long-term 
interest of Europe and the world.
    At the same time, operating here are what is, in a very 
oversimplified way, referred to as the neocons, who have been 
writing and saying things for the last 10 years that I always 
kid my Democratic friends. I say, you know, you are so used to 
saying things you do not mean, you do not understand that these 
guys on the right, when they say it, they mean it. There has 
been a consistent pattern among the intellectual right in this 
country and the so-called neocons for the last 10 years about 
their vision of the U.S. role in the world with an overwhelming 
distaste for multilateral institutions, a relatively high 
disregard for NATO, a very serious and genuine assertion on 
their part, not born out of anything other than what they view 
the self-interest of the United States, is that at the point of 
our being, relative to the rest of the world, at the most 
profoundly obvious apex of our power, that now is the time to 
exercise independently our force, our judgment, and even 
better, in the face of world opposition, to exercise it 
successfully, thereby leveraging our power, bringing the 
malcontents of the world--I do not mean Europe--the malcontents 
of the world, the axis of evil group, into compliance.
    These guys mean it. They mean it. And I think we are 
kidding ourselves if we, in a partisan desire not to 
acknowledge it, think that there are not very serious, very 
bright, very skillful, and very patriotic Americans in this 
administration and in some elements of the Democratic Party who 
have the view of the world, who have that--my vast 
oversimplification--that neocon view of the world.
    And when the President is presented with options, they 
usually are cast in sort of the mainstream, internationalist, 
Republican--I am going to get him in trouble--the Lugar view of 
the world, and this neocon view of the world. And he has some 
tough choices to make, some very difficult choices.
    I do not know why we do not admit that that more 
unilateralist view, that serious and longstanding distrust for 
international institutions and multilateral associations is 
not--why we pretend that voice is not heard loudly in Europe 
and why it does not play into the hands beautifully of those, 
particularly within France, who have more of a de Gaulle view 
of the world in 2003. I think it is an incredibly combustible 
combination.
    And so--as the chairman warned you all, we were going to 
indulge ourselves here a little bit with no one else around--
that leads me to the following two questions. If you look at 
NATO enlargement in terms of the half-full/half-empty 
metaphor--what is that old expression? The wish is the father 
of the thought or whatever that is. I do not know which it is. 
But anyway, I do not know if I am kidding myself here or not. 
But I want to believe that the expansion of NATO will have a 
mollifying impact upon those institutional voices in Europe 
that view the United States' hegemonic influence, even if it is 
benign or benevolent, as negative and wish to somehow cabinet 
from their perspective that the Ambassadors sitting behind 
you--that their countries I want to believe along with, as you 
said, Bruce, the 160 million people that they represent, 
including the ones that have already been admitted--that they 
will have an impact upon those voices in the minority--I think 
it is still a minority voice in Europe--that says having the 
United States as a European power is not a good thing. They 
will have the impact of mollifying, of isolating not in a 
formal sense, but isolating that view of the world, most 
articulated now or associated with the Chirac government.
    But then I ask myself the question, what is more important 
to Lithuania, Estonia, Bulgaria, Romania? Being a member of the 
EU or being a member of NATO? Now, obviously they do not want 
to make that choice, and hopefully they will not have to make 
that choice. But I wonder whether or not in a world where they 
may not feel the threat, the security threat, particularly if 
Russia decides to play a French card instead of a U.S. card, 
that they may not find themselves, if not directly pressured, 
indirectly not having that mollifying impact upon that school 
of thought I, in a very oversimplified way, characterize is in 
France and other places, but maybe will feel they have to 
succumb to that because they will choose at the end of the day 
it is better to have the relationship with the two major 
economic forces in Europe who determine more than anyone else 
their economic well-being in the near term.
    Talk to me about that. Is that a false choice? Are those 
concerns--is that optimism or pessimism? Are they both 
misplaced? Am I way off here? Those are my questions, and I 
yield, Mr. Chairman.
    Mr. Jackson. Let me respond to the question you posed at 
the end and then maybe say one or two words about the exegesis.
    I think in the process of the last 10 years or more now, 13 
years, since 1989, people have come to appreciate, even in 
Paris, that the NATO and the EU are parallel and complementary 
institutions. Were it not for the success of Treaty of 
Washington, there would not be the success of the Treaty of 
Rome, that basically solving the fear and insecurity of these 
states is the predicate for setting up their political and 
market integration and other solutions that these countries 
look forward to. I think even in Paris they will admit that. A 
high degree of correlation between the Prague and Copenhagen 
selections shows that these institutions are talking to each 
other, not as much as we might like, but even the first hand-
off between NATO and EU in Macedonia, does suggest they are 
trying to find models of cooperation.
    I think it is a horrible political thing to take young 
democracies and say choose which part of the West you want to 
be part of. They should answer in the negative, we choose all 
of it, and there should be access to all the institutions and 
hopefully this is a temporary judgment of Paris that has been 
thrown at them because nothing confirms that that is either 
inevitable or desirable.
    With regard to your larger question, it probably will not 
surprise you that I do not think the title of the book on this 
period will be ``How Bush Won the War and Lost the World.'' I 
would hope for a more felicitous review of----
    Senator Biden. Well, I hope so too. That is not my 
judgment. That is not my outcome. I mean, I hope it is 
temporary, and I think it can be temporary if we do, in the 
next 4 months, make some very important and seriously correct 
decisions here. But right now there is no place in the world--
name me a place--where the populations, if any of the polling 
data is correct, are as favorable toward the United States as 
they were, including the aspirant countries, as they were 
before January of last year, for example. There is no place I 
have seen. I cannot think of a single one.
    Mr. Jackson. Yes, sir. I guess my observation would be it 
is hard to predict the post-war world when we are still in a 
foxhole at the Kasserine Pass. It is just hard to see that far 
into the future before we have come through this period.
    I completely agree with your remark and what Ron said 
earlier, that the United States diplomacy really has to hit the 
ground running and with a positive message and go back on 
essentially our messages or ideas, and we have to get back on 
the offensive with our ideas.
    I think we have learned something about wartime, though, 
that this country really did not remember, that wartime really 
has constrained our diplomacy not since the beginning of Iraq, 
but since the 9/11 attacks. It does exaggerate the effects of 
political opinion. It does basically cause ideology to 
overshoot its mark a bit in rhetoric which is dangerous because 
everything seems to be more inflamed in this period. I think 
these are temporary phenomena and that I hope do not obtain.
    It seems to me--and probably not for this hearing but 
perhaps in the future--this committee actually should consider 
structural adjustments in American diplomacy because I am not 
sure we have a failure of ideas. There is a serious argument 
that we have a failure of instruments, looking at the amount of 
aid we have, the way we conduct public diplomacy, the way we 
organize our regions. The regions are not coherent. So I think 
that there is a lot of organizational stuff that perhaps we can 
discuss in some of these meetings outside this committee in 
talking about how to improve our ability to get our message out 
because they are not really hearing us overseas.
    Senator Biden. Thank you.
    Dr. Asmus. Thank you, Senator.
    Well, there have been two rather spectacular food fights 
taking place in recent months. The one has been across the 
Atlantic, which we have discussed. The other has been within 
Europe, Senator Biden, over who leads Europe and who speaks for 
Europe. And it has been that fight between what you might call 
the Chirac-Schroeder group versus the Aznar-Blair group with 
the Central Europeans largely being on the side of Blair and 
Aznar obviously. We need to repair both of these rifts once 
this is over.
    Like you, I too, sometimes worry about there being a kind 
of unholy alliance between our unilateralists and their 
unilateralists which feed off of each other. But I still 
believe--and I have spent a lot of time in Europe recently--
that the vast majority of European governments, the vast 
majority of European peoples want a good, solid, healthy, 
strategic alliance with the United States. But just like many 
of us are on the edge of losing confidence in Europe; they are 
on the edge of losing confidence in the United States.
    As a Democrat going to Europe trying to defend the 
President, the thing that is so frustrating is that the debate 
over Iraq is not about Saddam Hussein. It is all too often 
about George Bush. It is about America. And one reason why we 
have lost this debate in European public opinion is because we 
did not get it framed right. We did not really have a chance to 
make the case.
    So when it comes back to fixing this problem, I believe--
and I think the President is capable of doing this--we have to 
reestablish American credibility. Then we need to repair the 
institutions. And then we need very real common projects where 
we can succeed because the one thing that hasn't changed is 
that the problems are not going away. We can have these 
debates, these abstract discussions, but the need to rebuild 
Iraq is going to be upon us very soon.
    Senator Biden. Do you think the administration wants to do 
it? I ask you both that question. That is the $64 question. Do 
you think the bulk of the administration wants to do it?
    I do not know how you want to do it when, if the 
scuttlebutt is correct, there are means by which--trying to 
figure out how no contracts in the rebuilding of Iraq can go to 
the French or the Germans. I do not how you can say you want to 
do it when in fact you want no part of Europe participating in 
what a transition government will be, if that turns out to be 
the case. I hope that is not the position. But we hear the same 
scuttlebutt you hear. We get importuned by--every 
administration has divisions in it.
    I guess my question is if you do not include Europe in the 
reconstruction, or make it incredibly difficult, if you do not 
include Europe having a say in what the transition government 
will be and what the makeup of it will be, if you do not have 
the U.N. having a resolution giving them the cover to be able 
to come back in, could you still say you really want to repair 
the lines? I mean, how can you do that if you do not do that?
    Dr. Asmus. You know, the messages that I hear, like the one 
you hear, are very mixed. And it is not clear to me which way 
the administration is going to go.
    I think there has been a certain sobering. I think there is 
a growing awareness that we are at a historical turning point, 
and I very much hope that those people in the administration, 
understand that we too screwed up, that we have ended up in a 
Barbara Tuchman-like scenario where we could destroy the 
transatlantic relationship, and that we have a window in which 
we can turn this around and that we need to exploit this. But 
if those decisions come out the way you describe them, Senator 
Biden, we are only digging ourselves in deeper.
    Senator Biden. Bruce, what do you think?
    Mr. Jackson. I spent a lot of time with this administration 
both during campaigns and at the platform and also in the last 
2 years. I do not think this administration should bow to 
anybody in its transatlantic commitments and its recognition 
that the alliance is actually the foundation for how we act in 
world politics. You know many of the Zoellicks and the 
Wolfowitzs and the Hadleys and the Rices. They have been doing 
this for years. Actually they were students again of this 
committee. So I do not think anybody disagrees on the 
principles.
    We have not actually seen diplomacy conducted under this 
kind of wartime threat perhaps ever, and it is obviously 
constrained outcomes in a way we did not expect. I think if we 
were just having an objective test, how many telephone calls, 
how many meetings, how many visits to Europe----
    Senator Biden. Well, that is really not my question. I am 
sorry. I'm not questioning--what I am trying to get at is, if 
in fact we shut out NATO by whatever means and NATO members, 
particularly those who did not agree with us, from quote, the 
``rebuilding,'' however you want to characterize it, from 
playing some role a la Karzai, a la Kosovo, even a la Bosnia, 
which was not a success in my view, if we shut them out in 
those serious decisionmaking processes which relate to who and 
how are we going to get to a civilian control of Iraqis, the 
Iraqis controlling Iraq, if we shut them out from the 
rebuilding, if we shut them out from playing any part in the 
security, not dominant--we will play the dominant role--is it 
possible, Bruce, to say then that we really do want to repair 
this breach? Or does that say that the view held by some names 
I will not mention, that you know as well as I know, who do not 
want to see us as engaged with NATO as we have been--what does 
it say about our policy?
    Mr. Jackson. Sir, I agree with you. Obviously our NGO will 
be in there campaigning that this kind of stuff should not 
happen.
    I think one of your colleagues mentioned that there will be 
an anger at Turkey and France and Germany. I think this is a 
dangerous character, and leadership is needed from you and the 
chairman to make sure this does not happen.
    Senator Biden. Well, quite frankly, we are counting on guys 
as respected as you--I am counting on folks like you, men and 
women like you, who are respected, serious voices, who have 
relationships and alliances in the best sense of the word with 
the administration to weigh in. This is a time for all good men 
to come to the aid of their party here. Far be it for me to 
speak for the Republican side of this. But I really mean it.
    These decisions are going to be made in the next weeks. 
They may be made now. This is not something that is going to be 
made 3 months from now in my humble opinion.
    Well, I have said too much already.
    Mr. Jackson. I think Ron said it correctly. Magnanimity is 
a quality of our democracy and it is a great thing in victory. 
So let us get victory and then we will have magnanimity.
    Senator Biden. I am with you. All right. Well, thank you 
very much.
    The Chairman. Thank you, Senator Biden.
    We thank both of you. I would just add to the list of 
people that might be helpful, members of our committee, and 
Senator Biden and I will try to do our best too. I think each 
one of us has a responsibility. This is an important time of 
decision in which we are all not helpless in trying to 
intervene and to weigh in sincerely, at least, with views that 
we have. This is one reason why we have had this timely hearing 
today. It has been an opportunity not only to talk about the 
treaty and commend the seven countries that aspire to 
membership, as well as the organization, but to think among 
ourselves about the future and the importance of that future 
being a bright one for NATO.
    So on that note, why, we will end the hearing. We thank you 
again for your testimony.
    [Whereupon, at 12:18 p.m., the committee adjourned, to 
reconvene at 2:30 p.m., April 3, 2003.]
                              ----------                              


             Additional Statement Submitted for the Record

                    Congress of Romanian Americans,
                                       1000 Gelston Circle,
                                         McLean, VA, April 1, 2003.

The Honorable Richard Lugar,
Chairman, Senate Foreign Relations Committee,
U.S. Senate,
Washington, DC 20510

    Dear Senator Lugar:

    Romania should be embraced by the U.S. Senate as the ``newest'' 
member of NATO.
    Its characteristics, both human and strategic, combine to 
underscore its importance as an addition to NATO. Romania has 
contributed hundreds of soldiers in peacekeeping efforts to Afghanistan 
and the western Balkans and recently has sent troops to Iraq, with 
additional troops ready for deployment on request.
    There are numerous strategic, military, political and economic 
reasons for including Romania as a NATO member.
For military reasons:
    Romania has a large and well-trained army, that has demonstrated 
its compatibility with other international forces in peace-keeping 
missions in Bosnia, Angola, Somalia and the Persian Gulf, and in joint 
military exercises with NATO forces.
    Romania would be a bridge between the Northern and Southern flanks 
of NATO.
    Romania has an active bilateral military cooperation with the 
United States.
    Romania was the first country to join the Partnership for Peace.
    Its Armed Forces have not been dependent on Russian training or 
military technology for over 25 years.
For political reasons:
    In Romania, integration in NATO enjoys the largest popular and 
political support of all candidate countries. It is endorsed by a 
consensus of the major Romanian political parties and by over 80% of 
the population.
    In a survey taken for the European Commission in Brussels, 
Romanians displayed the strongest pro-American sentiments throughout 
the nations of Central and Eastern Europe.
    Romania is an oasis of regional political and social stability in 
the Balkans.
    Romania has a democratic administration, with a distinct Euro-
Atlantic orientation.
    Romania protects its minorities. It was showcased by the U.S. 2 
years ago, as a model in its treatment of its ethnic minorities.
For economic reasons:
    Romania is ready to bear its share of the cost of military 
restructuring and modernization to ensure compatibility with NATO 
forces through massive purchases of U.S. and West European military 
equipment.
    Inclusion in NATO would protect the growing American investment in 
Romania and thus provide incentives for major projects currently being 
evaluated.
    Romania's economy follows a steady upward trend.
    Romania fulfills the basic requirements for inclusion in NATO.

  <bullet> Civilian control over the military.

  <bullet> Good relations with its neighboring countries (A treaty with 
        Hungary was signed and ratified in 1996.).

  <bullet> A democratic political system.

  <bullet> Commitment to economic reform and free-market economy.

  <bullet> Demonstrated potential of interoperability with NATO forces.

    Romania is an asset to NATO.

            Sincerely,
                                Armand A. Scala, President.










      NATO ENLARGEMENT: QUALIFICATIONS AND CONTRIBUTIONS--PART III

                              ----------                              


                        THURSDAY, APRIL 3, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:40 p.m. in room 
SD-419, Dirksen Senate Office Building, Hon. George V. 
Voinovich, presiding.
    Present: Senators Voinovich, Lugar, and Corzine.
    Senator Voinovich. The committee will please come to order. 
I would like to begin by thanking Chairman Lugar and Senator 
Biden for scheduling this hearing to continue discussion on the 
merits of NATO enlargement. This is the third of a series of 
hearings dedicated to the subject which I believe is highly 
important as we continue to confront the challenges to global 
security and the changing world since September 11.
    Now, the question of NATO enlargement is one that has long 
been close to my heart. As Mayor of Cleveland and Governor of 
Ohio, I have worked closely with constituents in my State with 
ties to countries that once were subject to life behind the 
Iron Curtain. It is amazing to me how far many of these 
countries have come in a short time, rising to embrace 
democratic reforms after so many years under Communist rule. 
The fact that seven countries once part of the former Soviet 
Union, Warsaw Pact and one, Yugoslavia, have been invited to 
join the NATO alliance, including Bulgaria, Estonia, Latvia, 
Lithuania, Romania, Slovenia, and Slovakia is testament to just 
how much has been achieved since the collapse of the Soviet 
empire more than a decade ago.
    Because of a commitment that I have to make, I am not going 
to read the rest of my statement, and I am going to have it 
inserted in the record so that I can have the opportunity to 
hear from our witnesses today, and I want to thank them for 
being here today, Dr. Stephen Larrabee of the RAND Corporation, 
who will discuss progress made by the Baltic Nations of 
Estonia, Latvia, and Lithuania, Mr. Janusz Bugajski of the 
Center for Strategic International Studies will then highlight 
developments in Bulgaria and Romania, and Dr. Jeff Simon of the 
National Defense University will cover Slovenia and Slovakia.
    [The prepared statement of Senator Voinovich follows:]

           Prepared Statement of Senator George V. Voinovich

    I would like to begin by thanking the Chairman, Senator Lugar, and 
Senator Biden for scheduling this hearing to continue discussion on the 
merits of NATO enlargement. This is the third in a series of hearings 
dedicated to this subject, which I believe is highly important as we 
continue to confront challenges to global security in a changed world 
post-September 11th.
    The question of NATO enlargement is one that has long been close to 
my heart. As Mayor of Cleveland and Governor of the State of Ohio, I 
worked closely with constituents in my state with ties to countries 
that were once subject to life behind the Iron Curtain.
    It is amazing to me to see how far many of these countries have 
come in such a short time, rising to embrace democratic reforms after 
so many years under communist rule. The fact that seven countries once 
part of the former Soviet Union, the Warsaw Pact or Tito's Yugoslavia 
have been invited to join the NATO Alliance--including Bulgaria, 
Estonia, Latvia, Lithuania, Romania, Slovenia, and Slovakia--is 
testament to just how much has been achieved since the collapse of the 
Soviet Empire more than a decade ago.
    While the seven countries invited to join the Alliance at the NATO 
Summit in Prague last November have met the political and economic 
qualifications for membership, it is also true that they bring to the 
table defense capabilities that will enhance the overall security and 
stability of the NATO Alliance. President George W. Bush, Secretary of 
Defense Donald Rumsfeld, Secretary of State Colin Powell, and the 
highest-ranking member of the U.S. military, Chairman of the Joint 
Chiefs of Staff General Richard Myers, have all expressed this view. 
They maintain that in addition to niche military capabilities, these 
countries bring energy, freshness and enthusiasm to the Alliance.
    While there are without a doubt disagreements within NATO that must 
be addressed, there is general consensus amongst the current members of 
the Alliance on the question of enlargement. This was clear to me last 
November, when I joined President Bush, Secretary Powell and other 
members of the Administration as a member of the Senate delegation to 
the NATO Summit in Prague. Our Allies, too, believe that these 
countries will make significant contributions, militarily and 
otherwise, to the Alliance.
    On November 21st of last year, when NATO Secretary General Lord 
Robertson announced the historic decision to invite the three Baltic 
nations, as well as Bulgaria, Romania, Slovakia and Slovenia to join 
the Alliance, I listened as heads of state from our allied nations--
including the Czech Republic, France, Spain, Great Britain, Poland, 
Canada, Turkey, and many others--praised the work done by the seven 
candidate countries and expressed their strong support for enlargement 
to include these new European democracies.
    Secretary General Lord Robertson, after working with the NATO 
aspirant countries on comprehensive domestic reforms in preparation for 
membership in the Alliance, concluded, (quote) ``We can therefore say 
with complete confidence that this round of enlargement will maintain 
and increase NATO's strength, cohesion and vitality.''
    I share this view, and I believe it is appropriate and timely that 
we now consider these candidates for membership in NATO. They have 
provided crucial support in the aftermath of the terrorist attacks 
against our country on 9/11, and continue to make significant 
contributions to the ongoing campaign against terrorism. They have 
shown their solidarity in our efforts to disarm Saddam Hussein and 
liberate the Iraqi people, and have pledged to work with the 
international community to promote security and reconstruction in Iraq 
following the end of military action.
    The candidate countries have also moved forward with democratic 
reforms to promote the rule of law and respect for human rights. On a 
subject that remains of strong concern to me--the need to address a 
disturbing rise in anti-Semitic violence in Europe and other parts of 
the world--several of the candidate countries, including Latvia, 
Bulgaria, and Romania, have joined with the United States, Poland and 
other countries to actively encourage the chair in office of the 
Organization for Security and Cooperation in Europe (OSCE) to mount a 
serious and credible OSCE conference on anti-Semitism. Due in part to 
their efforts, the OSCE has agreed to conduct such a conference, and it 
is scheduled to take place in June. This is just one example, but it is 
indicative of important action that is taking place.
    As was highlighted last week when an inter-agency team from the 
Departments of State and Defense testified before the Committee, the 
seven candidate countries bring nearly 200,000 new troops to the 
Alliance. They have also pledged to commit significant resources to 
national defense, with Bulgaria, Romania, Estonia, and Lithuania all at 
or above the 2 percent of Gross Domestic Product (GDP) mark in 2002. 
Slovakia and Latvia were just under 2 percent (1.9 percent and 1.8 
percent, respectively) and Slovenia, at 1.6 percent in 2002, has 
committed to reach the 2 percent mark by 2008.
    The average defense spending among the candidate countries was 2.1 
percent for 2002, which is equal to the average spent by current NATO 
Allies countries for the same period. It is interesting to note that 11 
of 19 members of the Alliance did not reach the 2 percent mark for 
defense spending in 2002. Clearly, there is room for improvement in 
this regard.
    Last week, Under Secretary of State for Political Affairs Marc 
Grossman testified before the Armed Services Committee regarding the 
future of NATO. When asked about the benefits of enlargement, he said, 
(quote) ``I believe, senators, that the accession of these countries 
are about the future of NATO, and will be good and directly benefit 
U.S. interests. Why? They're strong Atlanticists. They're allies in the 
war on terror. They've already contributed to Operation Enduring 
Freedom and the International Security Assistance Force (ISAF) in 
Kabul.''
    The list goes on. I agree with Marc's assessment. These countries 
already make significant contributions that strengthen the 
transatlantic relationship. They have acted as de facto allies, and I 
believe they will make important contributions as members of the NATO 
Alliance.
    While much has been achieved, there is still work to be done as the 
candidate countries continue work on their Membership Action Plans 
(MAPs). As has been said before, Prague should be viewed as the 
starting line, not the finish line.
    Efforts have continued since the Prague Summit, and I was very 
pleased to learn that the people of Slovenia--who have been engaged in 
discussion about NATO membership for many years now--voted 
overwhelmingly in support of Slovenia's membership in NATO during a 
national referendum on March 23rd, with roughly two-thirds of voters 
favoring accession to the Alliance. This was a crucial step for the 
country.
    It is imperative that the candidates continue to address 
outstanding issues that require attention, including military reform, 
respect for human rights, and efforts to combat organized crime and 
corruption. It is this last piece that perhaps concerns me the most. 
These problems have the potential to undermine democratic reforms, 
respect for the rule of law and other core NATO values, and I believe 
they could be very dangerous if left unchecked.
    After meeting with leaders from these seven countries and spending 
time in each country that has been invited to join the NATO Alliance, I 
am confident that reforms will continue. I sincerely believe that 
reforms will be swifter and more complete as these countries are 
brought into the Alliance, rather than left out.
    As we consider enlargement today, it is clear that the world is a 
very different place than it was when Poland, Hungary and the Czech 
Republic were brought into NATO. The world's democracies and 
multilateral institutions, including the NATO Alliance, face new 
threats to freedom, marked not by communist aggression but instead by 
the dangerous nexus between weapons of mass destruction, rogue nations, 
and terrorists who shown their willingness to use them against those 
who value freedom and democracy, if given the chance to do so.
    NATO has been challenged to meet these future threats and has 
embarked upon a course to identify the capabilities needed to confront 
new challenges to international security. This discussion was a primary 
item on the agenda at the Prague Summit, where NATO heads of state 
agreed that new challenges could require the Alliance to operate beyond 
Europe's borders. The Prague Declaration noted that (quote): ``In order 
to carry out the full range of its missions, NATO must be able to field 
forces that can move quickly to wherever they are needed, upon decision 
by the North Atlantic Council, to sustain operations over distance and 
time, including in an environment where they might be faced with 
nuclear, biological and chemical threats, and to achieve their 
objectives.''
    To do so, NATO heads of state announced the creation of a NATO 
Response Force, which is envisioned to consist of approximately 20,000 
troops who are ready and able to deploy anywhere in the world within 30 
days. This is still a paper concept, and we look forward to learning 
more about efforts to turn this into a viable force at the June 
ministerial in Madrid.
    The NATO Summit last November also produced the Prague Capabilities 
Commitment, replacing the Defense Capabilities Initiative (or DCI) that 
was initiated at the 1999 Washington Summit. It calls on allies to 
improve and develop military capabilities, focusing on defenses against 
weapons of mass destruction; intelligence; command, control and 
communications; and strategic air and sea lift, among other things.
    If NATO is to meet future challenges, it is imperative that the 
capabilities gap between the U.S. and our European allies be addressed. 
The Prague Capabilities Commitment highlights critical needs within the 
Alliance. Without adequate capabilities, NATO's ability to respond to 
future security challenges will be seriously undermined.
    As we discuss enlargement, we must also ask how the candidate 
countries will respond to these urgent challenges. We must ask what 
role the potential new members will play in the Alliance, and what 
contributions they are prepared to make as we assess whether they are 
ready to be part of a permanent, stabilizing force in Europe.
    The Committee began an examination on the contributions and 
qualifications that the seven candidate countries bring to the table 
last Thursday, receiving testimony from officials of the Departments of 
State and Defense.
    We will continue this discussion today, and I would like to welcome 
our witnesses. They include: Dr. Stephen Larrabee of the RAND 
Corporation, who will discuss progress made by the Baltic nations of 
Estonia, Latvia and Lithuania; Mr. Janusz Bugajski of the Center for 
Strategic and International Studies will then highlight developments in 
Bulgaria and Romania; Dr. Jeff Simon of the National Defense University 
will cover Slovenia and Slovakia.
    I thank the witnesses to taking the time to be here today. I look 
forward to their testimony. I would like to recognize the ranking 
member, Senator Biden, for his opening remarks.

    Senator Voinovich. Again, I want to thank the witnesses for 
being here today, and we will start with Dr. Stephen Larrabee 
of the RAND Corporation. Dr. Larrabee.

  STATEMENT OF DR. F. STEPHEN LARRABEE, SENIOR STAFF MEMBER, 
                      RAND, ARLINGTON, VA

    Dr. Larrabee. Thank you very much, Mr. Chairman, members of 
the committee. It is a great honor and privilege to be invited 
to testify before this committee on the qualifications of the 
three Baltic States, Estonia, Latvia, and Lithuania, for 
membership in NATO.
    Mr. Chairman, I believe that membership of the Baltic 
States in NATO is very much in U.S. interests and will 
significantly contribute to enhancing the overall security in 
Europe. The Baltic States have made significant progress in 
meeting the economic, political, and military requirements for 
NATO membership since achieving their independence.
    All three States have functioning democratic systems and 
viable market economies. Indeed, the growth rates in the Baltic 
States are among the highest in Europe. The Baltic States are 
also among the most pro-American countries in Europe. Public 
support for NATO membership is also extremely strong in the 
three countries.
    All three Baltic States have made significant progress in 
modernizing their military forces and making their forces 
capable of operating with NATO forces. Moreover, unlike some 
other aspirants for NATO membership who inherited legacy forces 
from their membership in the Warsaw Pact, the Baltic States had 
to create militaries from scratch after achieving independence.
    Mr. Chairman, I do not have time to go through the details 
of their modernization plans. Some of this is outlined in my 
written testimony, however, let me highlight a few aspects. 
Defense budgets in all three have been rising. Estonia's 
defense budget increased from 1.6 percent of GDP in 2000 to 1.8 
in 2001 and rose to 2 percent in 2002. Defense spending in 
Lithuania has also risen.
    In 2001, all parliamentary parties signed an agreement 
reaffirming their commitment to devote no less than 2 percent 
of GDP in 2001 to 2004. To reinforce this commitment, the 
extension of the accord until 2008 is currently under 
consideration. Latvia has also pledged to raise its defense 
spending to 2 percent by 2003.
    Given the small size of their armed forces and the strong 
financial constraints they face, the Baltic States cannot hope 
to build powerful armed forces that can match those of the 
larger and richer members of the alliance. Instead, they have 
sought to enhance their value to the alliance by developing 
specialized capabilities in certain areas, that is to say, 
niche capabilities. Latvia, for instance, is developing 
specialized ordnance and minesweeping units and is considering 
developing a chemical-biological defense unit. Estonia is also 
developing a minesweeping unit, while Lithuania is creating a 
medical unit.
    All three Baltic States, moreover, have shown a willingness 
to contribute to the war on terrorism. Latvia deployed a 
special forces unit and demining team in Afghanistan, Estonia 
sent an explosive detection dog team, and Lithuania deployed a 
special forces unit and a medical team, as well as offered its 
air space and airfields for Operation Enduring Freedom.
    In short, before they had even been invited to join NATO, 
the three Baltic States were already beginning to act like 
members of NATO and good allies. All three countries also have 
lent political support to the U.S.-led effort to disarm Iraq. 
All three signed a letter of the Vilnius-10 calling on Saddam 
Hussein to disarm. They have also contributed militarily. 
Lithuania, for instance, has sent a liaison officer to CENTCOM 
and provided overflight rights and transit for U.S. and 
coalition forces in the Iraq campaign.
    The existence of a large Russian minority in the 
territories of the Baltic States has created some tensions with 
Russia, particularly in Latvia and Estonia. However, over the 
past decade the Baltic States have worked closely with the OSCE 
and EU to bring their citizenship and electoral laws into 
conformity with OSCE and EU norms and procedures. Both 
organizations have certified that the laws of the Baltic States 
today fully conform to OSE and EU norms. This has significantly 
reduced the credibility of Russian complaints about the 
treatment of the minority.
    Some Western observers have expressed fears that Baltic 
membership in NATO could seriously complicate NATO's relations 
with Russia. I do not think this is likely. President Putin 
played down the Baltic issue in the run-up to the Prague 
summit. He also made clear that his main goal is to improve 
Russia's ties to NATO. Thus, he is unlikely, in my view, to 
make Baltic membership a major issue in relations with NATO in 
the future.
    Mr. Chairman, in conclusion let me say that the invitations 
issued at Prague are an important achievement. They help to 
anchor the Baltic States more firmly in the West and end the 
debate about their place in the post-cold war European security 
order. At the same time, NATO membership will create a new set 
of strategic challenges which the U.S. and the Baltic States 
need to address. For much of the last decade, ensuring the 
security of the Baltic States was an important U.S. priority. 
Indeed, the Baltic States issues spurred some of the most 
innovative security arrangements in the post-cold war period.
    However, having succeeded in obtaining invitations to join 
NATO, the Baltic States now run the risk of becoming victims of 
their own success. There is a danger that once the Baltic 
States are members of NATO, the United States may essentially 
regard the Baltic issue as fixed, so to say, and disengage from 
the region.
    Indeed, there are signs that this is already happening. 
Momentum behind the Northern European Initiative, one of the 
most innovative policy initiatives toward the region, has begun 
to wane in the last several years. In short, the strategic 
framework that shaped Western policy toward the Baltic region 
is increasingly becoming obsolete and being overtaken by 
events.
    That paradigm, that strategic framework centered around the 
integration of the Baltic States into NATO. With the 
invitations of Prague and Copenhagen, these goals have largely 
been achieved. Thus, the challenge in the post-Prague period is 
to develop a new paradigm or a new strategic agenda that can 
help keep the U.S. engaged in the Baltic region.
    I would submit that this new agenda should include at least 
four elements, No. 1, enhancing cooperation with Russia, No. 2, 
helping to stabilize the situation around Kaliningrad, No. 3, 
promoting democratization of Belarus, and No. 4, supporting 
Ukraine's integration into Euro-Atlantic structures. At the 
same time, with growing demands on government resources, some 
of the mechanisms of U.S.-Baltic cooperation may need to be 
revamped to give a larger role to NGOs and to the private 
sector. It is important, however, that the Northern European 
Initiative receive adequate funding.
    The second key challenge is to assure that Article 5 is not 
a hollow paper commitment. While enlargement of the Baltic 
States is largely being carried out for political reasons, the 
military dimensions remain important. Thus, in the post-Prague 
period, the U.S. and its NATO allies will need to give more 
attention to the military dimensions carrying out an Article 5 
commitment to the Baltic States.
    Lacking any clear conceptual thinking about how to defend 
the Baltic States, NATO planners may be tempted to dust off the 
plans for defending Poland and Central Europe and use them as a 
model for defending the Baltic States. However, it is not clear 
that the Polish model, that is, large indigenous land and air 
forces, plus a robust NATO reinforcement package, is the right 
defense model for the Baltic region. The Baltic region lacks 
the strategic depth and large military forces that were 
available in the Polish case. In addition, Russian forces are 
closer, and Belarus does not provide a strategic buffer, as 
Ukraine does in the Polish case.
    At the same time, to diffuse Russian concerns about the 
military impact of Baltic membership, NATO should make a 
unilateral commitment that it does not intend to deploy nuclear 
weapons or permanently station major combat troops on Baltic 
soil as long as there is not a significant deterioration in the 
security environment. NATO made such a unilateral statement 
during the first round of NATO enlargement, and repeating such 
a statement when the Baltic States enter the alliance would 
help to ease Russia's anxiety about NATO's intentions.
    Finally, the third challenge is to enhance cooperation with 
Russia. Some observers have worried that NATO membership will 
have a negative impact on Baltic-Russian relations. The 
opposite, however, in my view is likely to be the case. Rather 
than leading to a deterioration in Baltic-Russian relations, as 
some fear, Baltic membership in NATO is likely to lead to a 
gradual improvement of Baltic-Russian relations.
    Now that the basic battle for long-term security 
orientation of the Baltic States has been resolved, Moscow is 
likely to stop its bullying tactics and show greater interest 
in improving ties with the Baltic States just as happened with 
Poland after Poland entered NATO. At the same time, NATO 
membership is likely to increase the self-confidence of the 
Baltic States and allow them to expand ties to Moscow.
    Mr. Chairman, that concludes my testimony. Thank you very 
much for your attention. I would be happy to answer any 
questions you or other committee members have.
    [The prepared statement of Dr. Larrabee follows:]

Prepared Statement of Dr. F. Stephen Larrabee,\1\ Senior Staff Member, 
                          RAND, Arlington, VA
---------------------------------------------------------------------------

    \1\ This statement is based on a variety of sources, including 
research conducted at RAND. However, the opinions and conclusions 
expressed are those of the author and should not be interpreted as 
representing those of RAND or any of the agencies or others sponsoring 
its research.
---------------------------------------------------------------------------
                 the baltic states and nato membership
    Mr. Chairman, it is a great honor and privilege to be invited to 
testify before this committee on the qualifications of the three Baltic 
states--Estonia, Latvia, and Lithuania--for membership in NATO.
    Mr. Chairman, I believe that the membership of the Baltic states in 
NATO is very much in U.S. interest and will significantly contribute to 
enhancing overall security in Europe. The Baltic states have made 
significant progress in meeting the economic, political and military 
requirements for NATO membership since achieving their independence in 
1991. All three states have functioning democratic systems and viable 
market economies. Indeed, growth rates in the Baltic states are among 
the highest in Europe.
    Public support for NATO membership is also strong in all three 
countries. In Latvia, a poll taken in December 2002 showed that 68.5 
percent of the population supported membership in NATO. Polls in 
Estonia consistently show support for NATO running about 70 percent, 
while those in Lithuania indicate that over 75 percent of the 
population support Lithuania's membership in NATO.
                   military reform and modernization
    Unlike some other aspirants for NATO membership from Central and 
Eastern Europe who inherited legacy forces from their membership in the 
Warsaw Pact, the Baltic states had to create militaries from scratch 
after achieving independence. Given their small size and limited 
financial resources, this has not been an easy task. Nonetheless, all 
three Baltic states have made significant progress in modernizing their 
military forces and making them capable of operating with NATO forces.
    Defense budgets in all three have been rising. Estonia's defense 
budget increased from 1.6 percent of the GDP in 2000 to 1.8 percent in 
2001 and rose to 2 percent in 2002. Estonia is in the process of 
creating a small intermediate reaction force; a battalion-size rapid 
reaction force; and 2 brigades of main defense forces.
    Defense spending has also risen in Lithuania. In 2001, all 
parliamentary parties signed an agreement reaffirming their commitment 
to devote no less than 2 percent GDP in 2001-2004. To reinforce this 
commitment, the extension of the accord until 2008 is currently under 
consideration. Lithuania has also taken important steps to modernize 
its forces and make them NATO compatible. It plans to have one NATO-
interoperable Reaction Brigade by 2006. It has also formed a 
peacekeeping battalion (LITPOLBAT) with Poland.
    In the future, Lithuania plans to have a slightly smaller but more 
easily deployable force and to move away from the concept of 
territorial defense. In line with this, it is planning to reduce the 
number of conscripts and increase the number of professionals in the 
armed forces as well as restructure the territorial units to provide 
host nation support, protection of key strategic facilities and 
assistance to civil authorities. The volunteer and active reserve 
forces will also be downsized.
    Latvia's defense spending has been the lowest of the three. 
However, Latvia has pledged to raise defense spending to 2 percent by 
2003. By the end of 2004, Latvia will be able to commit a fully 
professional Motorized Infantry Battalion, with some Combat Support and 
Combat Service Support Units, to the Alliance for a full range of NATO 
missions.
    Given the small size of their armed forces and the strong financial 
constraints they face, the Baltic states cannot hope to build powerful 
armed forces that can match those of the larger and richer members of 
the Alliance. Instead they have sought to enhance their value to the 
Alliance by developing specialized capabilities in certain areas. 
Latvia, for instance, is developing specialized ordnance and 
minesweeping units and is considering developing a chemical/biological 
defense unit. Estonia is also developing a minesweeping unit, while 
Lithuania is creating a medical unit.
                    support for the war on terrorism
    All three Baltic states, moreover, have shown a willingness to 
contribute to the war on terrorism. Latvia deployed a special forces 
unit and demining team in Afghanistan, while Estonia sent an explosive 
detection dog team. Lithuania deployed a special forces unit and a 
medical team as well as offered its airspace and airfields for 
Operation Enduring Freedom. While these contributions were small and 
largely symbolic, they were an important indication that all three 
Baltic states were prepared to contribute to the war on terrorism.
    All three countries also lent political support to the U.S.-led 
effort to disarm Iraq. All three signed the letter of the Vilnius 10 
calling on Saddam Hussein to disarm. Lithuania has also sent a liaison 
officer to CENTCOM and provided over-flight and transit for U.S. and 
Coalition forces in the Iraq campaign.
                      regional defense cooperation
    The three Baltic states have also taken a number of steps since 
1993 to strengthen regional defense cooperation. The most important and 
successful initiative has been the creation of a joint Baltic 
Peacekeeping Battalion (BALTBAT). Composed of a company from each of 
the three Baltic states, BALTBAT has been deployed in Bosnia as part of 
the Nordic Brigade. The joint peacekeeping battalion is an important 
expression of the Baltic states' readiness to contribute to 
international peacekeeping. At the same time, it has helped the Baltic 
states to gain valuable experience in working closely with NATO.
    In addition, several other efforts have been undertaken to enhance 
regional defense cooperation:

  <bullet> A joint Baltic Naval Squadron (BALTRON) has been set up. 
        BALTRON is composed of a combined Lithuanian-Latvian-Estonian 
        staff and national ships from the navies of the three Baltic 
        countries. It is based in Estonia. The long-term goal is to 
        make the Squadron interoperable and compatible with NATO and 
        able to conduct mine countermeasure operations.

  <bullet> A Baltic Air Surveillance Network (BALTNET), based in 
        Lithuania, has been established. It is designed to improve 
        international cooperation between civilian and military 
        authorities in aviation matters and to increase operational 
        effectiveness. The data distributed in BALTNET will be 
        compatible with other European data systems.

  <bullet> A Baltic Defense College (BALTDEFCOL) has been set up in 
        Tartu, Estonia. Its primary function is to train senior staff 
        officers and civilians from the Baltic states in NATO-based 
        staff procedures, strategic planning and management. In 
        addition to students from the three Baltic states, the first 
        course of BALTDEFCOL also included students from Denmark, 
        Germany, Hungary, Sweden and the U.S.

    These initiatives have helped to promote a greater sense of 
cohesion and regional cooperation among the Baltic states. The three 
Baltic states are also cooperating in joint arms and equipment 
purchases in order to save money. In August 2001, Latvia and Estonia 
agreed to jointly purchase long-range radars from Lockheed Martin. The 
radars will form part of the Baltic states' joint airspace surveillance 
system (BALNET), which will be integrated into similar NATO systems in 
the future.
                       the russian minority issue
    The existence of large Russian-speaking minorities in the territory 
of the Baltic states has created some tensions with Russia. Moscow has 
often accused the Baltic states, especially Latvia and Estonia, of 
discriminating against the minority. However, over the past decade the 
Baltic states have worked closely with the OSCE and EU to bring their 
citizenship and electoral laws into conformity with OSCE and EU norms 
and procedures. Both organizations have certified that the laws of the 
Baltic states today fully conform to OSCE and EU norms.
    However, overall Moscow has much less influence in the Baltic 
states today than it did five or ten years ago. Russia's influence over 
the Russian minorities in the Baltic states is declining. While many 
members of the minority continue to feel that they are second class 
citizens, few wish to emigrate to Russia. Today a growing number of the 
younger members of the minority see their fate tied to the process of 
European integration rather than to Russia's evolution. This has 
reduced Russia's ability to use the minority as a means of pressure on 
the Baltic states.
                          religious tolerance
    The Baltic states have also taken steps to promote religious 
tolerance and address important historical legacies by creating 
Holocaust Commissions. Lithuania, for instance, intends to introduce 
amendments into the existing Law on the Restitution of Religious 
Property, which would provide a legal mechanism for Jewish property 
restitution and compensation for lost communal property. These 
amendments are being drafted in cooperation with the Lithuanian 
Government Commission, headed by the Minister of Justice, and the 
International Committee to Represent Jewish Property Claims in 
Lithuania. In Latvia, the subject of the Holocaust is included in the 
compulsory history curriculum as a component of general education.
          impact of baltic membership on russia-nato relations
    For a long time Russia strongly opposed Baltic membership in NATO, 
arguing that Baltic membership in the Alliance would cross a ``red 
line'' and lead to a serious deterioration of Russian-NATO relations. 
At the Helsinki summit in March 1997, President Yeltsin tried to get a 
private oral agreement from President Clinton--a ``gentleman's 
agreement'' that would not be made public--not to admit the Baltic 
states into the Alliance. President Clinton flatly refused to make such 
a commitment.
    President Putin, however, played down the Baltic issue. While 
opposing NATO enlargement in principle, he seemed to recognize that 
Russia had over-reacted to the first round of enlargement and appeared 
intent on not allowing the Baltic issue to disrupt his effort to deepen 
cooperation with NATO. In addition, the closer U.S.-Russian cooperation 
on terrorism in the aftermath of the September 11 attacks helped to 
defuse the impact of the Baltic issue on NATO-Russian relations.
    Some Western observers have expressed fears that Baltic membership 
in NATO could seriously complicate NATO's relations with Russia. 
However, this seems unlikely. As noted, Putin played down the Baltic 
issue in the run-up to the Prague summit. His main goal is to try to 
improve ties to NATO. Thus he is unlikely to make Baltic membership a 
major issue in relations with NATO.
              the post-prague agenda in the baltic region
    Mr. Chairman, the invitations issued at Prague are an important 
achievement. They help to anchor the Baltic states more firmly in the 
West and end the debate about their place in the post-Cold War European 
security order. At the same time, NATO membership will create a new set 
of strategic challenges, which the U.S. and the Baltic states need to 
address.
    The first challenge is directly related to U.S. policy. For much of 
the last decade ensuring the security of the Baltic states was an 
important U.S. priority. Indeed, the Baltic issue spurred some of the 
innovative security arrangements in the post-Cold War period. However, 
having succeeded in obtaining invitations to join NATO, the Baltic 
states now run the risk of becoming victims of their own success. There 
is a danger that once the Baltic states are members of NATO, the U.S. 
will essentially regard the Baltic issue as ``fixed'' and disengage 
from the region. Indeed, there are signs of this already happening. 
Momentum behind the Northern European Initiative--one of the most 
innovative policy initiatives toward the region, has begun to wane in 
the last several years.
    In short, the strategic framework that shaped Western policy toward 
the Baltic region is increasingly becoming obsolete and being overtaken 
by events. That paradigm centered around the integration of Baltic 
states into NATO and the EU. With the invitations at Prague and 
Copenhagen, these goals have largely been achieved. Thus the challenge 
in the post-Prague period is to develop a new paradigm--a new strategic 
agenda--that can keep the U.S. engaged in the Baltic region.
    The pre-Prague agenda centered around stabilizing the Baltic 
region. In the post-Prague period, the strategic agenda should shift 
from stabilizing the Baltic region to stabilizing the immediate 
neighborhood. The new agenda should include 4 elements: 1) enhancing 
cooperation with Russia; 2) helping to stabilize the situation around 
Kaliningrad; 3) promoting the democratization of Belarus; 4) supporting 
Ukraine's integration into Euro-Atlantic structures. At the same time, 
some of the mechanisms for U.S.-Baltic cooperation may need to be 
revamped to give a larger role to NGO's and the private sector.
    The second key challenge is to ensure that Article 5 is not a 
``hollow'' paper commitment. While enlargement to the Baltic states is 
largely being carried out for political reasons, the military 
dimensions remain important. Thus in the post-Prague period the U.S. 
and its NATO allies will need to give more attention to the military 
dimensions of carrying out an Article 5 commitment to the Baltic 
states.
    Lacking any clear conceptual thinking about how to defend the 
Baltic states, NATO planners may be tempted to dust off the plans for 
defending Poland and use them as a model for defending the Baltic 
states. However, it is not clear that the ``Polish Model''--i.e., large 
indigenous land and air forces, plus a robust NATO reinforcement 
package--is the right defense model for the Baltic region. The Baltic 
region lacks the strategic depth and large military forces that were 
available in the Polish case. In addition, Russian forces are closer 
and Belarus does not provide a strategic buffer as Ukraine does in the 
Polish case. Finally, Western reinforcements are not next door as is 
the case in Poland. Thus getting reinforcements to the Baltic states 
will be much harder and take longer.
    At the same time, changes in warfare and technology--above all 
precision-guided weapons and network centric warfare--may give the 
United States and NATO new options for defending the Baltic states 
which don't require large reinforcements stationed on Baltic territory. 
Such options would also reduce the relevance of CFE since these options 
would not require large amounts of TLE (Treaty-Limited Equipment) on 
Baltic soil.
    This is all the more important because Russia may try to use CFE to 
constrain the ability of NATO--and especially the U.S.--to carry out an 
Article 5 commitment to the Baltic states by limiting NATO's ability to 
temporarily station forces on the territory of the Baltic states. 
NATO's reinforcement capacity was a major issue in the first round of 
enlargement and it could be an issue in the second round of enlargement 
as well in regard to the Baltic states. Thus the Alliance will need to 
devise a CFE strategy that assures that the interests of the Baltic 
states are adequately protected.
    Moreover, the Baltic states cannot be expected to announce their 
TLE levels until they know how they will be defended and how much TLE 
they will need. This highlights the need for NATO to begin to develop 
its plans for defending the Baltic states now. Otherwise, there is ``a 
danger that the Alliance's CFE policy and its Baltic policy could 
operate at cross-purposes, leading to strains in relations with the 
Baltic states.
    At the same time, to defuse Russian concerns about the military 
impact of Baltic membership, NATO could make a unilateral statement 
that it does not intend to deploy nuclear weapons or permanently 
station major combat troops on Baltic soil as long as there is not a 
significant deterioration in the security environment. NATO made such a 
unilateral statement during the first round of NATO enlargement and 
repeating such a statement when the Baltic states enter the Alliance 
could help to ease Russian anxiety about NATO's intentions.
    These pledges could be accompanied by proposals for confidence-
building measures. One idea worth considering would be to expand the 
German-Danish-Polish Corps in Szczecin (Stettin) to include units from 
the Baltic states and eventually perhaps even Russian forces from 
Kaliningrad. Initially, cooperation could begin with joint exercises on 
an ad hoc basis. But as mutual confidence increased, the cooperation 
could be expanded and institutionalized.
    The third challenge concerns relations with Russia. In the pre-
Prague period, the main challenge was to overcome Russia's opposition 
to Baltic membership. This was successfully accomplished. However, in 
the post-Prague period, the key challenge will be to improve 
cooperation between the Baltic states and Russia.
    Some observers worry that NATO membership will make this task 
harder. The opposite, however, is likely to be the case. Rather than 
leading to a deterioration in Baltic-Russian relations, as some fear, 
Baltic membership in NATO is likely to lead to the gradual improvement 
of Baltic-Russian relations. Now that the basic battle for the long-
term security orientation of the Baltic states has been resolved, 
Moscow is likely to stop its bully tactics and show greater interest in 
improving ties to the Baltic states--just as happened with Poland after 
Poland entered NATO. At the same time, NATO membership is likely to 
increase the self-confidence of the Baltic states and allow them to 
expand ties to Moscow.
    Fourth, U.S. policymakers need to ensure that there is no 
backsliding away from democratic reform and social tolerance in the 
Baltic states. All three Baltic states need to continue to make an 
honest reckoning with the past, including the Holocaust. In addition, 
they need to intensify efforts to root out corruption.
    Finally, U.S. policymakers should continue to encourage the Baltic 
states to promote the integration of the Russian minority more fully 
into Baltic political and social life. The social integration of the 
Russian minority is an important prerequisite for long-term political 
stability in the Baltic states as well as for maintaining cordial 
relations with Russia.
    Mr. Chairman, that concludes my testimony. Thank you for your 
attention. I would be happy to answer any questions you or other 
Committee members may have.

    Senator Voinovich. Thank you, Dr. Larrabee. I had the 
opportunity to visit the Baltic States and to see first-hand 
what they are doing militarily, and I was extremely impressed 
with what they are doing, and I think your comment about the 
issue of having a new vision after these new countries join 
NATO is very, very important, so that we have a broad vision of 
what their respective responsibilities are going to be, and 
look at the whole issue of how they would be protected in the 
event that they needed to be protected.
    Thank you very much, and I have some statements here that I 
am going to insert in the record, there being no objection to 
them, from the Lithuanian-American Community, Inc., and also 
from the Baltic American Freedom League, Inc. Without 
objection, they are inserted in the record.
    [The statements referred to follow:]

           Lithuanian-American Community, Inc.,    
                       National Board of Directors,
                                 213 West Lake Shore Drive,
                                           Cary, IL, April 1, 2003.

Dr. Michael H. Haltzel,
Senior Professional Staff Member,
Senate Foreign Relations Committee,
Dirksen Building,
Washington, DC.

Re: NATO Ratification Hearings

    Dear Dr. Haltzel:

    Per our recent conversation, I am enclosing herewith the 
Lithuanian-American Community, Inc., position paper on NATO 
ratification now pending in the Senate. Please be kind enough to 
include our remarks in the Senate Foreign Relations Committee hearing 
records. We would very much like to address the Committee conducting 
the hearings if that is at all possible. However, we understand the 
reasons that may make such an address not possible.
    Thanking you in advance and wishing you our best wishes, I remain,
            Sincerely yours,
                         Regina F. Narusis, J.D., Chairman,
                                       National Board of Directors,
                                Lithuanian-American Community, Inc.

       Prepared Statement of Lithuanian-American Community, Inc.,

                             nato position
    Lithuanian-American Community, Inc. supports:

          1. United States continued involvement and commitment to NATO 
        and security in Europe.

          2. The revitalization of the NATO Alliance.

          3. The admission of all seven nations invited to join the 
        NATO Alliance at Prague in 2002.
                   north atlantic treaty organization
    NATO has been since its formation in 1949 the most effective 
defensive alliance uniting North America and Europe. It was 
instrumental in winning the Cold War, in encouraging European nations 
to foster democracy, rule of law, free market economies and in 
preserving peace and stability. Pre-World War II non-engagement or 
isolationism has proven to be costly to us militarily, financially and 
in loss of life. History has taught us that the United States has been 
drawn into European conflicts of the 20th century because our vital 
interests are ultimately engaged there.
    The world has changed both technologically and geopolitically since 
the end of the Cold War. Distances and oceans are no longer barriers to 
danger. Established democracies have grown stronger and more assertive, 
such as France and Germany. New democracies have emerged and are 
seeking their rightful place in world affairs. Our involvement becomes 
more crucial as does transatlantic cohesion to prevent conflict among 
its key members.
    The Soviet Union no longer exists, but new threats have emerged. We 
have gone from the risk of nuclear exchange to multiple threats of 
global insecurity. The United States will not be able to sort out alone 
every international threat that now faces us, without depleting 
ourselves physically, mentally and financially. We need allies.
    The countries that share our values and history are the NATO 
countries. The United Nations is an organization of nations that do not 
have the same common values and thus, as recently evidenced, are able 
to debate but not solve problems, much less act to correct them.
    NATO has survived the test of time. It unanimously and for the 
first time in its history, invoked its founding principle of collective 
defense on behalf of the United States following the September 11th 
attacks. It did at first stumble when Turkey requested assistance in 
the event of an Iraqi attack, but it found a means to meet the Turkish 
request within the Alliance. The Alliance assisted Russia, the former 
adversary, to come to grips with reality. Moscow did sign a new 
cooperation pact with the Alliance in May of 2002 in Rome reaffirming 
the right of every nation to choose its own allies and alliances.
    NATO is reorienting itself, but if it revitalizes itself by means 
of further expansion and restructuring of its military forces and 
establishing a new NATO Rapid Response Force that can be staffed and 
shared by all members, it will become only stronger and better.
                             nato expansion
    The admission of the Czech Republic, Hungry and Poland was a 
success. The bulk of the actual costs of enlargement have been borne by 
the new countries. Their relationship with Russia has improved, rather 
than become a threat. These new members have been true allies. They 
have contributed to NATO operations: in NATO peacekeeping missions, 
sent specialized chemical warfare troops to the Gulf and hosted the 
Iraqi exiles for training to support United States forces. The largest 
NATO exercise involving 5,000 troops, ``Victory Strike'', was in 
Poland. These new members have given united support to the bond 
between. United States and Europe.
    In 2002 in Prague the artificial Cold War division of Europe 
finally came to an end. NATO leaders approved the Alliance's largest 
expansion in its 53 year history. The expansion encompasses Estonia, 
Latvia, Lithuania, Bulgaria, Romania, Slovakia and Slovenia.
    NATO accession of these seven nations will change the way we 
perceive the region. With the support of the United States, these 
nations will take their rightful and equal place in a Europe whole and 
free. They are not second class countries. They will not let the 
Franco-German domination take root or the Russians exploit the effort 
to eliminate United States influence in Europe. These are the nations 
that understand the true meaning of freedom and democracy. Because of 
their enslavement and long struggle for freedom, their approach to 
foreign policy is different from those in Western Europe. They know 
that appeasement does not work and that dictators must be dealt with.
    These nations have a relationship with the United States that has 
stood the test of time. In great part, thanks to the United States, 
Europe rid itself of two forms of tyranny--Nazism and Communism. They 
see America as the only real guarantor of their security. History has 
taught them, that neither France nor Germany can be trusted to put 
European interest ahead of their own. The supportive letter from the 
Vilnius 10 members proves their loyalty to NATO. These nations are 
dynamic, full of new energy and most of all are becoming increasingly 
assertive. These countries are also entering the European Union and 
will change that organization from within. We all need a united Europe, 
not a Western Europe (so called ``old Europe'') or Central and Eastern 
Europe (``new Europe''), but a Europe where all nations are equal and 
are so treated. Continued United States involvement can help bring this 
about. The countries of Central and Eastern Europe want NATO to be 
strong and to keep a United States presence. The American influence 
through the process of enlargement will only grow. Through enlargement 
of NATO all of Europe will be more balanced and reinvigorated. 
Enlargement makes strategic sense for the United States and will prove 
to be the greatest strategic and political gain for the Alliance.
    Though not yet members of the Alliance, the seven invitees to NATO, 
have already contributed to NATO, thus have proven their commitment and 
worth. They all have sent troops to preserve peace in the Balkans, they 
all have supported the United States in the war against terrorism and 
made their airspace and bases available to the U.S.-led coalition. They 
have joined the Operation Enduring Freedom in Afghanistan and are 
contributing highly skilled troops. These countries have issued a joint 
statement early on supporting the United States efforts to disarm the 
Iraq regime. Their governments have declared preparedness to contribute 
politically and with other means to the efforts of the United States 
led coalition against Iraq. Slovenia is contributing mountain units. 
Slovakia is contributing chemical and biological expertise, Romania 
sent a battalion of troops to the war zone. Bulgaria is sending 
chemical warfare specialists to the Gulf. The Baltic nations are 
contributing special units as well as cargo handling and medical teams.
    Lithuania alone has sent 914 military personnel, maintained an 
infantry platoon with the Polish battalion in KFOR, provided An-26 
transport aircraft with crew and logistics personnel and contributed 
medical personnel to preserve peace in the Balkans. To the war in 
Afghanistan, Lithuania has offered use of its airspace and airfields, 
support for ``Operation Enduring Freedom'', deployed medical teams with 
the Czech contingent in ISAF in 2002 and German contingent in 2003 and 
deployed Special Operations Forces unit in support of OEF. To the war 
in Iraq, Lithuania has sent its liaison officer to CENTCOM, signed the 
V-10 statement compelling Iraq to disarm, offered overflight and 
transit rights to United States and coalition forces and offered cargo 
handlers and medics.
         foreign policy is and should not be a partisan matter
    In 1993 the Clinton Administration made the decision to invite new 
members. The 1994 ``Republican Contract with America'' supported NATO 
enlargement. On April 30, 1998 United States Senate ratified the last 
NATO expansion by a 80 to 19 vote.
    The Democrat and Republican Party Platforms of 2000 supported NATO 
enlargement, as did both presidential candidates.
    On April 5, 2001 seventeen United States Senators, both Republican 
and Democrat leaders, wrote a letter to President Bush urging the Bush 
administration to ``ensure'' that NATO invites qualified European 
democracies to begin accession negotiations at the 2002 Summit in 
Prague.
    NATO enlargement and ratification is and should remain a non-
partisan issue.
    For all the reasons aforesaid, NATO enlargement will support and 
increase the security and international interests of the United States.

                                   Regina F. Narusis, J.D.,
                           Chairman of National Board of Directors,
                                Lithuanian-American Community, Inc.

                                       Algimantas S. Gecys,
                         President of National Executive Committee,
                                Lithuanian-American Community, Inc.

                                 ______
                                 

              Baltic American Freedom League, Inc.,
                                            P.O. Box 65056,
                                   Los Angeles, CA, March 26, 2003.

The Honorable George Voinovich,
Senate Foreign Relations Committee,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Voinovich:

    On behalf of the members of the Baltic American Freedom League, I 
am submitting the League's statement recommending NATO membership for 
Estonia, Latvia and Lithuania.
    We respectfully request that the statement be made part of the 
record of the Foreign Relations Committee's hearings on amending the 
Protocols to the North Atlantic Treaty of 1949.
    You have been a great and true friend to the Baltic American 
community and the Baltic countries, and we sincerely appreciate it. The 
Baltic American community believes that the Baltic countries are 
qualified for membership in NATO, and we hope that you will continue to 
support them in this endeavor.
            Sincerely,
                            Valdis V. Pavlovskis, President

Prepared Statement of Valdis V. Pavlovskis, President, Baltic American 
                          Freedom League, Inc.

                       baltic membership in nato
    On behalf of the members of the Baltic American Freedom League, the 
Board of Directors respectfully request that the Senate Foreign 
Relations Committee support the membership of Estonia, Latvia and 
Lithuania in NATO and recommend their membership in NATO to the full 
Senate.
    Since the Baltic countries regained their independence, Congress 
has supported the integration of the Baltic nations in western defense 
structures. In support, in 1994 Congress enacted the NATO Participation 
Act, in 1996 it passed the European Security Act, and in 2002, by an 
overwhelming vote, the Freedom Consolidations Act. In addition, last 
year the House of Representatives passed HCR 116 and HCR 468 
recommending Baltic membership in NATO.
    Congress has supported Baltic aspirations to join NATO by annually 
providing funding through FMF and IMET for the development of Baltic 
armed forces. For a decade, American military advisory teams have 
served in the Baltic countries training the Baltic military, and 
hundreds of Baltic soldiers of all ranks have graduated from U.S. 
military schools. Baltic military forces have participated in joint 
military exercises with NATO forces. Recent NATO inspection teams as 
well as visits by U.S. Congressional delegations have concluded that 
the Baltic countries are qualified for NATO membership.
    In the short period since they regained their independence, the 
Baltic countries have developed strong and responsible democratic 
governments, viable free market economies and transparent and 
democratic armed forces. OSCE, the U.S. Department of State, and 
various international bodies have found that the Baltic countries 
respect and fully comply with international standards of civil and 
human rights.
    The early fears that Russian opposition to Baltic membership in 
NATO would give rise to Russian nationalism and have a deleterious 
effect on U.S.-Russian relations have not materialized.
    Today, the Baltic countries participate in the Partnership for 
Peace program and operation Enduring Freedom. Baltic troops are serving 
in the Balkans and Afghanistan.
    The Baltic countries were one of the first to support U.S. action 
in Iraq, and they were the initiators of the Vilnius Ten declaration in 
support of the U.S., in spite of retaliation threatened by their larger 
neighbors France and Germany. All three Baltic countries are preparing 
to assist in reconstruction of a post Saddam Iraq.
    The Baltic countries have demonstrated their willingness and 
capability to assume the responsibilities of NATO membership. They 
share our values and have proved to be loyal friends of the United 
States. As Americans of Baltic heritage, the Baltic American Freedom 
League is proud and confident to support Baltic membership into NATO. 
We hope that you will too.
    We look forward to working with you to gain support for amending 
the Protocols to the North Atlantic Treaty of 1949 to include Estonia, 
Latvia and Lithuania.

    Senator Voinovich. Mr. Janusz Bugajski.

STATEMENT OF JANUSZ BUGAJSKI, DIRECTOR, EASTERN EUROPE PROJECT, 
 CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Mr. Bugajski. Mr. Chairman, members of the committee, thank 
you very much for inviting me to offer my perspectives, both on 
NATO's future, but more importantly here the inclusion of 
Bulgaria and Romania. In the limited time I have, and I will 
try and be brief, I will simply present the core of my written 
testimony, which is brief to begin with.
    Let me say this at the outset. America's national security 
doctrine issued in September 2002 declared that the NATO 
alliance must be able to act wherever common interests are 
threatened, create conditions under NATO's own mandate, and 
contribute to mission-based coalitions. To achieve this, quote, 
``we must expand NATO's membership to those democratic nations 
willing and able to share the burden of defending and advancing 
our common interests,'' unquote. I think it is primarily in 
this context that the newly invited countries can be assessed.
    If, indeed, the United States is determined to cultivate 
alliances with reliable partners, whether by reinvigorating 
NATO or bypassing its cumbersome decisionmaking procedures, 
then each NATO aspirant needs to be measured according to five 
basic standards, domestic stability and democracy, bilateral 
political cooperation, military collaboration, regional 
security, and commitment to the anti-terror coalition. I 
believe that in each of these cases, both Bulgaria and Romania 
have passed the test for membership. Let me just note a few 
examples.
    Bulgaria has developed a stable democratic system with a 
functioning market economy. It has held several free and 
democratic elections, and the political transition between 
governing parties has been smooth and trouble-free. The 
policies of all major political forces has been pro-reform and 
pro-NATO. The Bulgarian economy has been stabilized through an 
effective Currency Board that controls State spending, and the 
country has registered a steady GDP growth in recent years. 
Substantial progress has been registered in the restructuring 
of the armed forces into a modern and combat-ready military 
tailored to NATO needs.
    There is comprehensive political and public support for 
Bulgaria's NATO membership, despite the country's financial 
constraints, and there is a commitment to allocate 
approximately 3 percent of GDP to defense spending over the 
coming years.
    Bulgaria considers itself a partner and ally of the United 
States, and there is overall agreement on major decisions 
related to Bulgaria's contribution to NATO and the anti-terror 
campaign. As a nonpermanent member of the U.N. Security Council 
for the 2002-2003 period, Bulgaria has consistently supported 
U.S. positions, unlike several of America's NATO allies.
    In terms of contributions to the U.S.-led anti-terror and 
anti-rogue State operations, Bulgaria has enabled air, land, 
and sea transit to coalition forces and the temporary 
deployment of U.S. aircraft for refueling and cargo-lifting 
purposes in both the Afghani and Iraqi operations. It has 
allocated military units to the International Security 
Assistance forces in Afghanistan, and dispatched an anti-
nuclear, biological, and chemical unit on a defensive mission 
to a country neighboring Iraq.
    Similar to its neighbor to the south, Romania has achieved 
a high level of political stability, it has held several free 
and fair elections, and created a democratic political 
structure. The country's major political forces are committed 
to democracy, free markets, and integration into international 
institutions.
    Romania has displayed economic growth and stabilized the 
most important macroeconomic indicators. In terms of military 
progress, Romania has established full civilian control, 
substantially streamlined its forces, and is intent on 
modernizing its military hardware. President Iliescu has 
asserted that defense spending will not fall below 2.3 percent 
of GDP in the next few years.
    Romania itself, similar to Bulgaria, has made significant 
progress as America's strategic partner. Bucharest has provided 
diplomatic support for the U.S. positions in various 
international venues, such as the U.N. and OSCE. It has backed 
American immunity from the ICC process, and has on occasion 
taken pro-U.S. positions that were at odds with the European 
Union.
    Romania supported the United States from the outset after 
September 11, and participated in the post-war mission in 
Afghanistan. Intelligence-sharing and law enforcement 
cooperation has been growing. Bucharest has provided political 
support for U.S. operation against Iraq, and concrete 
assistance in the Iraqi campaign, including fly over rights, 
use of ports and military facilities. It has dispatched 
decontamination, medical, and demining contingents to the 
Middle East, and pledged to participate in Iraq's post-war 
reconstruction.
    In light of the evidence, I believe that both Bulgarian and 
Romanian membership in NATO will directly assist U.S. national 
security interests and global strategies, and I cite five 
reasons. Let me briefly go through these. This is in 
conclusion.
    First, NATO entry is a reward for Bulgaria's and Romania's 
proven record of reform in recent years, and their commitment 
to Western norms and objectives. It will help propel forward 
the reform process and enable further military development and 
interoperability with U.S. forces. Although neither country is 
presently capable of making significant military contributions, 
both can offer specialized support in particular niches.
    Second, NATO entry for Bulgaria and Romania is a practical 
method for reinvigorating the Transatlantic link and creating a 
larger pool of interoperable countries with which the United 
States can construct coalitions for future security operations. 
NATO as an organization will remain divided into allies of 
various degrees of dependability for Washington. However, 
Bulgaria and Romania can be placed at the high end of the 
spectrum and their membership can serve to narrow the 
transatlantic divide or provide new bridges across existing 
gaps.
    Third, NATO entry for Bulgaria and Romania is a valuable 
means for buttressing the U.S. position vis-a-vis the European 
allies. It will give Washington additional voices of support 
within NATO's decisionmaking process, and broaden diplomatic 
and political assistance in various international fora and 
organizations.
    Fourth, NATO entry for Bulgaria and Romania will enhance 
the shift of the U.S. security focus to the Black Sea-Caspian-
East Mediterranean triangle. Located on the Black Sea, Romania 
and Bulgaria offer more direct routes to the Middle East across 
the Black Sea to the Caucasus or through Turkey. The strategic 
and economic significance of these regions is increasing, 
especially with the development of oil and gas lines from 
Russia and Central Asia, and with ongoing regional conflicts 
that challenge America's security interests.
    And fifth and last, NATO entry for Bulgaria and Romania 
will encourage other southeast European countries to accelerate 
their reform programs. It will provide vision and direction to 
several States in the region that are preparing for NATO 
membership, including Croatia, Albania, and Macedonia. It will 
also help to place future contenders, including Serbia and 
Montenegro, on track for both PfP and eventual NATO accession.
    Washington, I also believe, should support Montenegro's 
aspirations toward independent statehood if, indeed, the EU-
sponsored link with Serbia proves untenable. The United States 
can also take a more active role in ending the U.N.-mandated 
status quo in Kosovo and moving that pro-American aspiring 
State toward independence.
    It is plainly evident, Mr. Chairman, that the greater 
number of new European States, the bigger the pool of new 
American allies.
    Thank you very much.
    [The prepared statement of Mr. Bugajski follows:]

Prepared Statement of Janusz Bugajski, Director, East European Project, 
             Center for Strategic and International Studies

          the future of nato: do bulgaria and romania qualify?
    Before we can answer the question whether any European state 
qualifies for NATO membership, we need to determine how NATO has 
evolved and in what way it will be further transformed. The North 
Atlantic Alliance is in turmoil if not crisis and the reasons are 
plentiful: insufficient burden sharing by the west Europeans, 
inefficient decision-making in times of crisis, differing commitments 
to potential combat missions, and serious political disputes between 
leading Allies. The newly invited east European states need to reflect 
that the NATO they are poised to enter is very different to the one 
that they first petitioned for membership. For the United States, the 
most vital question is whether the entry of seven new democracies, 
including Bulgaria and Romania, into the Alliance will help or hinder 
America's national interests and global strategies
                        nato present and future
    We have entered a turbulent era in trans-Atlantic relations that 
may drastically reshape the strategic map of Europe. While NATO may not 
disappear from the scene, it could increasingly: resemble the OSCE 
(Organization for Security and Cooperation in Europe) or a mini-UN with 
a more pronounced emphasis on crisis management, conflict prevention, 
and ``soft security.'' Alternatively, in addition to promoting stronger 
bilateral ties with like-minded Allies, Washington may seek a revamped 
NATO structure that can more effectively intersect with U.S. interests. 
In this context, it is useful to highlight some of the fundamental 
questions that are not only troubling for current members but also for 
all NATO aspirants:

  <bullet> Is NATO a coherent and effective Alliance or a fractured 
        organization with multiple and diverse objectives? Can NATO act 
        in unison or will it evolve into a looser structure in which 
        certain members respond to specific crises by assembling 
        smaller willing coalitions? How will NATO decision-making be 
        modified to adjust to these new circumstances?

  <bullet> Will NATO remain as a single and capable military alliance, 
        as well as a security and political alliance? Or will there be 
        a growing division of labor between combat missions and peace-
        keeping operations with an emphasis on smaller ad-hoc 
        coalitions both within and outside of NATO?

  <bullet> Is NATO largely superfluous for U.S. policy not only in 
        terms of military capabilities and performance, but even in 
        terms of collective political and diplomatic support? If France 
        and Germany can block the United States on the UN Security 
        Council and in NATO decision-making, will a different sort of 
        trans-Atlantic Alliance emerge, one that bypasses some of 
        Europe's older democracies?

  <bullet> Will the United States severely diminish its involvement 
        with NATO, both militarily and politically? Washington is 
        increasingly disregarding NATO as an organization in its 
        struggle against rogue regimes and terrorist networks and 
        focusing instead on bilateral relations with more dependable 
        allies. As a result, is NATO's significance declining 
        regardless of its enlargement into the eastern half of Europe?
                        europe's new democracies
    America's National Security Doctrine issued in September 2002 
declared that the NATO alliance must be able to act wherever common 
interests are threatened, create coalitions under NATO's own mandate, 
and contribute to mission-based coalitions. To achieve this: ``We must 
expand NATO's membership to those democratic nations willing and able 
to share the burden of defending and advancing our common interests.'' 
It is primarily in this context that the newly invited countries can be 
assessed:

  <bullet> The east Europeans operate on two basic principles--to keep 
        NATO united and effective and to maintain U.S. engagement in 
        Europe. In their estimation, even if the former fails the 
        latter must succeed to help ensure their own security. The 
        obvious fear is that if France or Germany or any other power 
        can block Alliance planning for assistance to a long-standing 
        NATO ally, such as Turkey (and disregard NATO's Article 5), 
        then an Alliance reaction to a potential Russian threat to 
        Estonia, Lithuania, or Poland could prove even more timid.

  <bullet> All NATO applicants view the United States as the preeminent 
        guarantor of their security, freedom, and national 
        independence. Both publicly and privately, east Europe's 
        political leaders remain skeptical about west Europe's security 
        capabilities and deliveries. Moreover, they are fearful lest 
        some new French-German-Russian axis undermines American 
        engagement in Europe and diminishes their own sense of 
        security. East Europe's objective is not to choose between 
        Europe and America but to help protect Europe by keeping 
        America engaged in the ``old continent.''

  <bullet> If Washington sees only obstruction and uncooperativeness in 
        Paris, Berlin, and Brussels, then it can redirect its resources 
        and refocus its interests on more willing allies elsewhere in 
        Europe. Reports that Washington may be planning to move 
        military bases from Germany to Poland indicate that some of the 
        older allies are no longer viewed as dependable or their 
        positions are no longer perceived as strategically significant. 
        Although at present the military potential of the new European 
        democracies is limited, Washington can help invest in 
        developing their military capabilities over the coming decade.

    If indeed the United States is determined to cultivate alliances 
with reliable partners, whether by reinvigorating NATO or by bypassing 
its cumbersome decision-making procedures, then each NATO aspirant 
needs to be measured according to five basic standards: domestic 
stability and democracy; bilateral political cooperation; military 
collaboration; regional security; and commitment to the anti-terror 
coalition.
                       bulgaria's qualifications
Domestic Stability and Democracy
    Bulgaria has developed a stable democratic system with a 
functioning market economy. It has held several free and democratic 
elections and the political transition between governing parties has 
been smooth and trouble-free. The policies of all major political 
forces have been pro-reform and pro-NATO, and even the post-communist 
Socialist Party has developed a Western orientation. Bulgaria has not 
experienced any significant ethnic conflicts although the social and 
economic position of the large Roma minority remains a point of concern 
as in several other east European states. The sizable Turkish minority 
is represented in the coalition government.
    The Bulgarian economy has been stabilized through an effective 
currency board system that controls state spending and has registered a 
steady GDP growth in recent years. However, much of the population 
experiences low standards of living and foreign investment has been 
limited. The country still faces problems with corruption and the 
judiciary system is often ineffective and needs to be more resolutely 
restructured. Anti-corruption measures have been implemented, but more 
tangible results will be evident with more comprehensive judicial 
reform.
    Substantial progress has been registered in the restructuring of 
the armed forces into a modern and combat-ready military tailored to 
NATO needs. Force Structure Reviews have been completed in full 
compliance with NATO requirements. Democratic civilian control over the 
armed forces is being consolidated and the government needs to maintain 
its commitment to streamlining the armed forces in line with its 
Defense Plan 2004.
    There is comprehensive political and public support for Bulgaria's 
NATO membership despite the country's financial constraints, and there 
is a firm commitment to allocate approximately 3% of the GDP to defense 
spending over the coming years. There is a high level of protection of 
classified information in compliance with NATO standards while controls 
over the export of possible dual use weapons and technologies have been 
tightened.
Bilateral Political Cooperation
    Bulgaria considers itself a partner and ally of the United States 
and there is overall agreement on major decisions related to Bulgaria's 
contribution to NATO and the anti-terrorist campaign. As a non-
permanent member of the UN Security Council for the 2002-2003 period, 
Bulgaria has consistently supported U.S. positions unlike several of 
America's NATO allies. The current center-right government has backed 
Washington in the Iraqi crisis despite some verbal criticism by the 
Socialist President Georgi Parvanov and the Socialist opposition in 
parliament. Although the Socialists are supportive of NATO membership, 
some of their leaders maintain close links with the Russian 
authorities, which seek to diminish America's global role. Such ties 
have weakened over the past decade and it is clearly in U.S. interest 
to limit Moscow's political interference in Bulgaria's domestic and 
foreign policy.
Military Collaboration
    Bulgaria has supported U.S. and NATO military operations in both 
word and deed. It granted airspace for the NATO ``Allied Force'' 
operation in Serbia in March-June 1999 and the transit of NATO forces 
and equipment for the ``Joint Guardian'' operation in Kosova in July 
1999. Bulgaria played an important role in avoiding a possible crisis 
in relations between NATO and Russia in June 1999 by denying Russian 
forces overflight rights during NATO's liberation of Kosova. Sofia 
interacted with NATO during the transit of KFOR contingents through 
Bulgarian territory. Bulgaria has also participated in two NATO-led 
operations: in SFOR (Bosnia-Hercegovina) and in KFOR (Kosova) and is 
the only NATO PfP state to participate with its own contingent in SFOR.
Regional Security
    Bulgaria maintains good relations with all of its neighbors and has 
no outstanding disputes. It has played a leading role in a number of 
regional cooperation formats, including the multi-national South East 
European Peace-Keeping Force (SEEBRIG), and has hosted its headquarters 
in the city of Plovdiv. Sofia has participated in the regional security 
initiative SEDM (South East Europe Defense Ministerial). Bulgaria has 
played a constructive role vis-a-vis Macedonia and was the first 
country to recognize Macedonia's independence in 1992. It has also 
contributed to democratic developments in Serbia following the ouster 
of Slobodan Milosevic in 2000.
Anti-Terror Coalition
    In terms of contributions to the U.S.-led anti-terror and anti-
rogue states operations, Bulgaria has enabled air, land, and sea 
transit to coalition forces and the temporary deployment of U.S. 
aircraft for refueling and cargo-lifting purposes in both the 
Afghanistan and Iraq operations. It has allocated military units to the 
International Security Assistance Forces (ISAF) in Afghanistan, and 
dispatched an anti-nuclear, biological, and chemical (NBC) unit on a 
defensive mission to a country neighboring Iraq. Moreover, Bulgaria has 
consistently supported the U.S. position toward the Iraqi question on 
the UN Security Council.
                        romania's qualifications
Domestic Stability and Democracy
    Similarly to its neighbor to the south, Romania has achieved a high 
level of political stability, held several free and fair elections, and 
created a democratic political structure. One troubling element has 
been the parliamentary representation of a populist-nationalist party, 
which has exploited Romania's economic difficulties. Nevertheless, the 
country's major political forces are committed to democracy, free 
markets, and integration into international institutions.
    Ethnic relations have remained reasonably stable in Romania 
although some disputes have been visible with the Hungarian minority. 
The persistent problem of poverty with regard to the large Roma 
minority will require more intensive governmental and international 
involvement.
    Romania has displayed economic growth and stabilized the most 
important macro-economic indicators. With reductions in the public 
deficit, stabilized inflation, and strengthened foreign relations, both 
Romania and Bulgaria are pushing toward EU accession over the next few 
years. However, the IMF has stressed that Bucharest needs to maintain 
consistency in its economic policies to avoid lurching back toward the 
stagnant economic conditions notable in the 1990s.
    In terms of military progress, Romania has established full 
civilian control, substantially streamlined its forces, and is intent 
on modernizing its military hardware. President Ion Iliescu has 
asserted that defense spending will not fall bellow 2.3% of GDP in the 
next five years. Romania still has some problem areas that need to be 
tackled more resolutely in the years ahead. In particular, official 
corruption needs to be combated, the judicial system overhauled, and 
the screening of ex-Securitate personnel staff continued in order to 
protect official defense secrets and NATO intelligence.
Bilateral Political Cooperation
    Romania has made significant progress as America's ``strategic 
partner.'' Bucharest has provided diplomatic support for the U.S. 
positions in various international venues such as the UN and OSCE. It 
has backed American immunity from the ICC (International Criminal 
Court) process and has on occasion taken pro-U.S. positions that were 
at odds with the European Union. President Bush's visit to Romania 
after the NATO summit in November 2002 highlighted the closeness of the 
bilateral relationship.
Military Collaboration
    Romania and America have developed close military contacts, through 
joint exercises, educational programs, and arms contracts with U.S. 
companies. Romania is thereby becoming increasingly interoperable with 
NATO and with American forces. Bucharest has completed a new 
headquarters for SEEBRIG in Constanta on the Black Sea that will help 
ensure the unit's interoperability with NATO. Romania has also 
contributed one ship to the BLACKSEAFOR multinational naval patrol and 
will play an increasingly important role in this region.
Regional Security
    Romania has endeavored to play a stabilizing role across several 
regions, including South East Europe and the Black Sea zone. It has 
participated in several Balkan peace-keeping missions, including in 
Bosnia-Hercegovina, Kosova, and Albania, and in several regional 
security initiatives such as SEDM (South East Europe Defense 
Ministerial). Bucharest has established a regionally focused anti-crime 
center in Bucharest under the auspices of SECI, originally an American 
initiative. It has helped to coordinate, together with Bulgaria, its 
approach on NATO accession through participation in the ``Vilnius 10'' 
group.
Anti-Terror Coalition
    Romania supported the U.S. from the outset after September 11th and 
participated in the post-war mission in Afghanistan. Intelligence-
sharing and law enforcement cooperation has been growing. Bucharest has 
provided political support for the U.S. operation against Iraq and 
concrete assistance in the Iraqi campaign, including fly-over rights, 
use of ports and military facilities, dispatched decontamination, 
medical, and demining contingents to the Middle East, and pledged to 
participate in Iraq's post-war reconstruction. Seventy soldiers 
belonging to Romania's anti-nuclear, biological, and chemical unit 
(NBC) are stationed in the Persian Gulf region. The unit will intervene 
behind front lines ``for decontamination actions'' in the event the 
Iraqis use chemical or biological weapons against coalition forces.
                   u.s. interests in nato enlargement
    In sum, both Bulgaria and Romania together with the other NATO 
invitees have matured into self-sustaining democracies. As in Central 
Europe, American ``democracy-building'' assistance needs to be 
privatized and indigenized under competent local control. A self-
standing civil society, a broad spectrum of political parties, and a 
professional free media can develop more effectively without 
unnecessary, inappropriate, and sometimes counter-productive outside 
oversight. Such an approach will send a strong signal of trust and 
commitment to America's new allies. In the light of the evidence, both 
Bulgarian and Romanian membership in NATO will directly assist U.S. 
national interests and global strategies.

  <bullet> NATO entry is a reward for Bulgaria's and Romania's proven 
        record of reform in recent years and their commitment to 
        Western norms and objectives. It will help propel forward the 
        reform process and enable further military development and 
        interoperability with U.S. forces. Although neither country is 
        presently capable of making significant military contributions, 
        both can offer specialized support in particular niches.

  <bullet> NATO entry for Bulgaria and Romania is a practical method 
        for reinvigorating the transAtlantic link and creating a larger 
        pool of interoperable countries with which the United States 
        can construct coalitions for future security operations. NATO 
        as an organization will remain divided into allies of various 
        degrees of dependability for Washington. Bulgaria and Romania 
        can be placed at the high end of the spectrum and their 
        membership can serve to narrow the trans-Atlantic divide or 
        provide new bridges across existing gaps.

  <bullet> NATO entry for Bulgaria and Romania is a valuable means for 
        buttressing the U.S. position vis-a-vis the European allies. It 
        will give Washington additional voices of support within NATO's 
        decision-making process and broaden diplomatic and political 
        assistance in various international fora and organizations.

  <bullet> NATO entry for Bulgaria and Romania will help enhance the 
        shift in the U.S. security focus to the Black-Caspian-East 
        Mediterranean triangle. Located on the Black Sea, Romania and 
        Bulgaria offer more direct routes to the Middle East, across 
        the Black Sea to the Caucasus, or through Turkey. The strategic 
        and economic significance of these regions is increasing, 
        especially with the development of oil and gas lines from 
        Russia and Central Asia and with ongoing regional conflicts 
        that challenge America's security interests.

  <bullet> NATO entry for Bulgaria and Romania will encourage other 
        Balkan countries to accelerate their reform programs. It will 
        provide vision and direction to several other states in the 
        region that are preparing for NATO membership, including 
        Croatia, Albania, and Macedonia. It will also help to place 
        future contenders, including Serbia and Montenegro, on track 
        for PfP (Partnership for Peace) and eventual NATO accession. 
        Washington should also support Montenegro's aspirations toward 
        independent statehood if the EU-sponsored link with Serbia 
        proves unsuccessful. The United States can also take a more 
        active role in ending the UN-mandated status quo in Kosova and 
        moving that pro-American aspiring state toward independence. It 
        is plainly evident that the greater number of new European 
        states, the bigger the pool of new American allies.

    Senator Voinovich. Thank you, Mr. Bugajski. Dr. Simon.

    STATEMENT OF DR. JEFFREY SIMON, SENIOR RESEARCH FELLOW, 
  INSTITUTE FOR NATIONAL STRATEGIC STUDIES, NATIONAL DEFENSE 
                   UNIVERSITY, WASHINGTON, DC

    Dr. Simon. Mr. Chairman, it is a great privilege to be here 
today. I have submitted a longer statement for the record. Due 
to the limited time I will make a few brief comments which I 
hope will help frame this afternoon's discussion on enlargement 
and NATO's future.
    I want to state clearly that I support NATO's November 2002 
Prague summit decision to enlarge the North Atlantic Council to 
26, recognizing that NATO will be a very different organization 
from what it has been. After the December 2002 Copenhagen 
summit decision to enlarge to 25, the EU also will be a new 
institution. The dual enlargement will reduce institutional 
variable geometry in Europe with eight new NATO members 
overlapping in the EU in 2004.
    The U.S. military footprint is also likely to change in 
Europe by the thinning of troops in Germany with a new presence 
shifting to the east and the southeast. Hence, a new EU-NATO 
institutional relationship will be needed, particularly with 
the EU now in Macedonia and perhaps soon in Bosnia, and NATO 
enlargement can play a positive role here.
    Mr. Chairman, NATO enlarged during the cold war for 
purposes of defense and enlarged again during the post-cold war 
to incorporate producers of security. September 11, 2001 
changed our perception of risk and the criteria for extending 
NATO invitations. I believe that the seven new members share 
common values, interests, and perceptions of risks, but they 
are weaker and smaller than the 1999 entrants. We need to 
remember some lessons suggested from the 1999 enlargement.
    First, integration was more difficult and long term than 
anticipated, second, NATO had to alter its expectations in 
terms of performance, and third, when the new members joined 
NATO they still required assistance. The dual enlargement, 
coupled with the changing U.S. military footprint, will likely 
influence the course and evolution of the new NATO, new EU and 
European security in the northeast, in the southeast, and in 
the center.
    In the northeast, with Baltic States in NATO and the EU, 
along with Poland in the EU in 2004, and with the U.S. 
footprint in Poland, we will likely see continued strong 
defense interests in support of NATO and U.S. political and 
military cooperation there.
    In the southeast, greater institutional variable geometry 
will result, with Romania and Bulgaria in NATO and delayed EU 
entry. The U.S. footprint here will be important, because the 
EU assumed the NATO mission in Macedonia and plans the SFOR 
follow-on in Bosnia, and because U.S. presence will reinforce 
Romania and Bulgaria's strong support of NATO and U.S. 
political and military cooperation.
    In the center, why Slovakia and Slovenia, which is what you 
asked me to focus on. Both will be in the EU in 2004. Both 
provide a land bridge, although this is of diminishing 
importance to Hungary, but evince weak support for NATO. If the 
September 2002 Slovak elections, or the 23 March 2003 Slovene 
referendum went differently, I would not be defending their 
ratification today.
    Let us look at Slovakia. With 5\1/2\ million people, it 
started late. It started on 1 January, 1993. It had the dual 
curse of on the one hand having to build a new defense 
establishment from scratch, but it also inherited large forces 
from the former Warsaw Pact, so it had the worst of both 
worlds. Public confusion on NATO existed due to two failed 
referenda that were basically pushed in 1997 and 1998 under 
Vladimir Meciar.
    What progress has Slovakia made? On the government level, 
they have, in fact--this is under Dzurinda's government--
engaged in very significant educational initiatives to build 
popular support for NATO. The government also supports the 
United States in the war on terrorism with overflights, they 
have sent troops to Afghanistan and Kuwait, and they support 
our Iraq operations.
    Second, the U.S. defense assessment which we provided for 
Slovakia in 2000 provides the conceptual basis for their army 
2010 program. They presently have a total active force of 
30,000, 14,200 professionals and 15,800 conscripts of 12-month 
duration. Implementation of their reform, I can report, is 
going well. Their recruitment should lead to 20,000 
professionals by 2007. They have maintained since 2002 1.9 
percent of GDP for defense, and they are effectively planning a 
niche capability.
    The one cloud on the horizon is the fact that there could 
be, though not very probable, a referendum on NATO that some 
elements are presently pushing in Slovakia.
    Let us go to Slovenia, a country of 2 million. Here we find 
weak NATO support. We did have, as you well know, a referendum 
recently where 66 percent of the populace turned out in support 
of NATO. We were all very relieved, if not surprised. And 89.6 
percent supported the EU One could argue that this was somewhat 
of an aberration in that it was response, I think, to the 
Djindjic assassination, which reminded many Slovenes that they 
live in a rough neighborhood.
    What progress have they made? They have a stable economy 
and a stable polity, probably the most stable of all the seven 
entrants. Our U.S. defense assessment in 2000, which we also 
worked with them, helped to establish some realism in their 
defense planning. In 2003, right now, they have got a total 
active force of 7,800. That is 4,640 professionals and 3,160 7-
month conscripts who are not terribly useful.
    Let us look at implementation. Frankly, if I compare their 
implementation to others, some of their implementation is worth 
questioning. They plan an all-volunteer force by the end of 
2004, and they hope to have 7,800 professionals by 2008. They 
still have a way to go. They have attempted to promise NATO one 
battalion across the board, but frankly, this is unrealistic. 
Defense expenditures are presently 1.61 percent of GDP, and 
they claim a goal of 2 percent by 2008, which frankly, with low 
social support, like Hungary, this may not come to fruition.
    They have provided weapons to the Afghan National Army. 
They have managed the demining fund, but they remain hesitant 
on Iraq. The Prime Minister has criticized Foreign Minister 
Rupel for signing the V-10 declaration but, to their credit, 
they have sent as a substitute 100 troops to Sector North in 
Bosnia in January of this year.
    Why Slovenia? Its accession to NATO and EU provides, 
really, a symbolic segue for FRY successor States to Euro-
Atlantic institutions. This is picking up on Janusz' point. 
Hence, Slovenia's incorporation in the list enhances the 
security and stability in the southeast quadrant of Europe.
    For these reasons, I support the ratification of the seven 
Prague summit invitees to join the alliance, but based upon 
lowered, more sober, and realistic expectations. First, we need 
to recognize new members are smaller and have weaker military 
and institutional capacities than NATO's 1999 entrants, and 
they will find it difficult to meet NATO's staffing 
requirements. Hence, we should not terminate eligibility for 
certain U.S. programs like the Warsaw Initiative funds as we 
did in 1999.
    Second, after accession, NATO leverage will diminish. How 
can we keep them on course with defense budget and force goal 
commitments? All except Romania will become ineligible for FMF 
for not signing Article 98 of the ICC. Perhaps we should 
reassess their FMF eligibility on a case-by-case basis and 
provide waivers, as we have done for other NATO allies, but 
link waivers to performance.
    Third, since the United States has already performed 
defense assessments for all the 2004 invitees, after accession 
we might focus on the means to assist their development of 
niche capabilities and encourage forging cooperative links 
between the NATO Response Force and the European Rapid Reaction 
Force of the EU.
    Thank you for your attention. I look forward to your 
questions and comments.
    [The prepared statement of Dr. Simon follows:]

  Prepared Statement of Dr. Jeffrey Simon,\1\ Senior Research Fellow, 
 Institute for National Strategic Studies, National Defense University
---------------------------------------------------------------------------

    \1\ The opinions expressed or implied in this paper are solely 
those of the author and do not necessarily reflect the views of the 
INSS, the National Defense University, the Department of Defense, or 
any other governmental agency.
---------------------------------------------------------------------------
    NATO, the core institution defining the transatlantic relationship, 
stands at a crossroad. Now that the Alliance's 21-22 November 2002 
Prague Summit has passed into history, NATO will need to focus on 
implementing its decisions that include the adoption of transformed 
command arrangements, a NATO Response Force (NRF), a Capabilities 
Commitment to deal with post-September 11th security challenges, and 
substantial enlargement of the North Atlantic Council (NAC) to 26 
members in 2004. The ``new'' NATO will be a very different organization 
from what it has been. On balance, integration of the seven new members 
on NATO will make a modest but generally quite positive contribution to 
this transformation of transatlantic security affairs.
    The European Union (EU)'s decision at Copenhagen on 12-13 December 
2002 to enlarge from 15 members today to 25 by mid-2004 will similarly 
challenge and transform that organization. In 2004 eight of NATO's new 
members (Poland, Hungary, the Czech Republic, Latvia, Lithuania, 
Estonia, Slovakia, and Slovenia) also will be in a ``new'' EU.
    The dual (NATO and EU) enlargement will further reduce the 
``variable geometry'' that has existed between the two institutions in 
Europe and result in ``mingling EU and NATO cultures'' with unknown, 
but potentially significant consequences. However, the EU's eight new 
NATO members, who have recent historical memory of Soviet domination, 
joined the Alliance because they see it as the best vehicle to 
guarantee their security and defense concerns and strongly support the 
active U.S. political and military engagement on the continent that 
NATO helps assure. For these reasons, one hopes and expects that they 
will exert their influence to support greater EU-NATO cooperation on 
security and defense issues, and therefore have beneficial effects on 
both institutions by helping to bridge the transatlantic gap.
    The United States' military ``footprint'' is also likely to change 
in Europe not just by thinning of its presence in Germany, but also by 
acquiring a ``new presence'' and shifting in the direction of Europe's 
east and southeast. If the U.S. and Europe are to be successful in 
working together, a new EU-NATO institutional relationship will be 
needed, in part, due to the overlapping responsibilities that have 
become evident with NATO's involvement in western Balkan international 
border security. Additionally, both sides of the Atlantic need to work 
to ensure that the EU ESDP and emerging European Rapid Reaction Force 
(ERRF) are complementary and does not become competitive.
    This is particularly important now since the EU on 31 March 2003 
has assumed responsibility for NATO's ``Operation Allied Harmony'' in 
Macedonia and would be more so if the EU were to assume leadership of a 
follow-on force to NATO's SFOR in Bosnia. After the 2004 dual 
enlargement, the resulting ``variable geometry'' of the EU and NATO in 
the Balkans could likely have security repercussions there. Hence, 
there will be a greater need to maintain NATO for defense and 
reassurance and in deepening cooperation between the two institutions.
                         why nato enlargement?
    NATO during the Cold War (1949-1991) maintained a consensus on the 
USSR/Warsaw Pact threat as defined in Military Committee 161 threat 
assessments. While we knew our opponent's capabilities, we did not know 
his intent. Defense of Europe remained a central U.S. priority as 
embedded in NATO's MC 14/3 ``flexible response.'' Hence, when NATO 
enlarged during this period it was for the purpose of defense. In the 
midst of the Korean War, Greece and Turkey were added in 1952 to 
contain the USSR, the Federal Republic of Germany with its newly 
created Bundeswehr in 1955, and Spain in 1982 for strategic depth.
    The post-Cold War (1991-September 11, 2001) period was marked by 
the 1991 dissolution of the Soviet Union and Warsaw Pact and with their 
eclipse, the perception of common threat. When NATO enlarged it was for 
enhancing stability and security. The July 1990 London Summit stressed 
openness to cooperation and willingness to break down former dividing 
lines in Europe. The November 1991 Rome Summit deepened this 
cooperation and created the North Atlantic Cooperation Council (NACC), 
and the January 1994 Brussels Summit clarified the Alliance's openness 
to enlargement (Article 10) and launched Partnership For Peace (PFP). 
When invitations were extended at the Madrid Summit in July 1997, and 
Poland, Hungary, and the Czech Republic joined on 12 March 1999, 
enlargement was justified as incorporating ``producers'' of (political, 
economic, social, and military) security as defined in the September 
1995 Study on NATO Enlargement.
    What lessons should we have learned from the 1999 enlargement?

  <bullet> First, the three new allies found integration to be a more 
        difficult and long-term process than they anticipated. Promised 
        Target Force Goals and defense commitments had to be 
        renegotiated, extended, or changed.

  <bullet> Second, the Alliance had to alter its expectations in terms 
        of performance and found it more difficult to gain compliance 
        once the new allies were members.

  <bullet> Third, we assumed that upon ``graduation'' to becoming a 
        full member, they could stand on their own feet. They were 
        excluded from many programs that had been put into place to 
        help prepare them become the allies they wanted to become, and 
        that we wanted them to become. In the end, we might conclude 
        that the overall enlargement was ``successful,'' though to date 
        Hungary's performance has not been as satisfactory as that of 
        Poland and the Czech Republic.

    The events of 11 September 2001 changed our perception of threat 
and the criteria for extending NATO invitations. Although the 1994 
Brussels Summit issued a declaration ``to intensify our efforts against 
the proliferation of weapons of mass destruction and their means of 
delivery'' and the 1999 Strategic Concept referred to terrorism in an 
Article 4 context, terrorism remained in the background during the 
post-Cold War period. But when NATO invoked Article 5 on 12 September 
2001, the issue was raised to the forefront of NATO's post-Cold War 
agenda and the divergence in transatlantic risk assessments became more 
apparent.
    Clearly the United States perception of risk has changed, and the 
huge increase in defense expenditures reflects this. Although European 
NATO allies invoked Article 5 and some have provided defense assistance 
in the war against terrorism in Afghanistan and to Operation Iraqi 
Freedom, risk assessments remain diverse, especially when searching for 
any increases in defense expenditures. In a total reversal from the 
Cold War, where we knew our opponent's capabilities but not his intent, 
in the war on terrorism we know our opponent's intent, but not his 
capabilities. While NATO remains a ``defensive'' Alliance, the U.S. war 
on terrorism requires ``offensive'' operations (e.g., pre-emption) 
often far beyond the territories of NATO members. This mentality shift 
strains the transatlantic relationship, particularly for those European 
allies who do not share the same perception of risk and had come to see 
NATO's main role as providing reassurance and stability, rather than in 
defending Europe.
    If 11 September had not occurred, it is likely that the Prague 
invitation list would have been smaller. The Prague Summit invited 
seven Membership Action Plan (MAP) partners from the Baltic to Black 
Sea to join the Alliance because we believe they share common values 
and perception of risk. Will enlarging the NAC to include 26 members 
sharing common values and interests be sufficient to help NATO to deal 
with these risks or will enlargement only make them worse?
    The seven new members' physical and institutional capacities are 
substantially weaker than Poland, Hungary, and the Czech Republic, 
whose performance as allies has been ``mixed,'' though can be judged as 
successful. However, some of their demonstrated deficiencies suggest 
``lessons'' for us as we pursue the integration of NATO's seven new 
2004 allies. Certainly, the MAP introduced at the April 1999 Washington 
Summit has witnessed the evolution of a defense reform process that 
should ease some post-accession challenges for the new invitees, but 
their weaker capacities suggest the need for greater patience and 
further assistance as they prepare to assume the obligations of full 
membership.
    The 2002 Prague Summit's invitees have substantially weaker 
capabilities than NATO's three new 1999 members (Poland with a 
population of 38 million, and Hungary and the Czech Republic with 10 
million) because they are smaller and have less developed institutional 
capacities. Each of the seven invitees has significant strengths and 
deficiencies, and in light of their support after September 11, 2001, 
it was more difficult to make ``credible'' distinctions among the 
seven. They were clearly ``more viable'' than Albania and Macedonia 
whose fundaments of statehood have been in question and who have been 
``consuming'' NATO's security and defense resources, and Croatia, who 
had just joined the MAP in 2002 and is only beginning its reform. 
Omitting any of the seven invitees would have raised credibility issues 
because the ``strengths'' of any excluded partner would have been 
weighed against the ``weaknesses'' of the invited. An invitation list 
of seven made credible NATO's Article 10 commitment to openness and 
prevented ``drawing lines'' in Europe.
     dual enlargement and the changing u.s. military ``footprint''
    With the challenge of the war on terrorism, the Prague Summit 
Declaration has addressed the question of what capabilities it needs by 
creating a ``NATO Response Force (NRF) consisting of a technologically 
advanced, flexible, deployable, interoperable and sustainable force 
including land, sea, and air elements . . . [with] full operational 
capability by October 2006. The NRF and EU Headline Goal should be 
mutually reinforcing while respecting the autonomy of both 
organizations.'' It approved the Prague Capabilities Commitment (PCC) 
as part of an effort to create minimal necessary capabilities to deal 
with a high threat environment. Individual allies have made firm 
commitments to improve capabilities in the areas of chemical, 
biological, radiological and nuclear (CBNR); intelligence, 
surveillance, and target acquisition; air-to-ground surveillance; C3; 
combat effectiveness; strategic air and sea lift; air-to-air refueling; 
and deployable combat support and combat service support elements.
    The PCC and NRF will allow NATO's new European allies to operate 
with U.S. forces through the entire conflict spectrum. For some allies, 
their contribution would consist of small niche units (e.g., police, 
engineering, de-mining, chemical decontamination, alpine, and special 
forces) with secure communications, ample readiness, and capable of 
deployment. The NRF is to comprise up to about 21,000 personnel 
including land, sea, and air components capable of being deployed 
within 3-30 days of a NAC decision and conduct operations for up to 30 
days. On the positive side, it provides NATO's new small allies with 
the theoretical capacity to focus on niche specialization as a way to 
``extend'' national and multi-national capabilities and ``fill'' (not 
close) the gap.
    The 2004 dual enlargement coupled with the likelihood of a changing 
U.S. military ``footprint'' in Europe will likely influence the course 
and evolution of the ``new'' NATO, ``new'' EU, and (Northeast, 
Southeast, and Central) European security.
    Baltics. After the three Baltic States enter NATO and the EU (with 
Poland) in 2004, there will be greater institutional geometric 
congruence in Europe's northeast quadrant. If the U.S. military 
footprint shifts from Germany to include Poland, it should likely have 
a substantial impact on Baltic political and military cooperation 
(e.g., on the future of the North-East Corps and Baltic Brigade--
BALTBRIGADE). The three Baltic MAP partners--Estonia, Latvia, and 
Lithuania (with respective populations of 1.5, 2.55, and 3.6 million) 
are very small, have real defense interests arising from lingering 
concerns about Russia, have been willing to support the U.S. and NATO 
farther afield, and are likely to seriously focus on developing NATO 
niche defense capabilities with the U.S and Poland.
    Romania and Bulgaria. Europe's southeast quadrant will witness 
greater institutional ``variable geometry'' with the entry of Romania 
and Bulgaria into NATO in 2004, because of their delayed 2007 EU 
accession schedule. If the U.S. military footprint moves toward Romania 
(and Bulgaria), it likely will have a substantial impact on Balkan 
political and military cooperation particularly since the EU has just 
assumed responsibility for the Macedonia operation and has expressed 
its willingness to take over the Bosnia operation after the SFOR 
mandate ends. It could also influence the evolution of the Southeast 
European Brigade--SEEBRIG. Romania and Bulgaria, the two Balkan 
invitees, are relatively large (with respective populations of 21 and 
7.9 million), and have provided substantial military support during 
Kosovo, Afghanistan, the war on terrorism, and now Iraq. Their NATO 
membership strengthens their governments by undermining the agendas of 
domestic nationalists and populists and contributes to southeast 
European stability and security.
                       why slovakia and slovenia?
    The Committee has asked me to focus my remarks on Slovakia and 
Slovenia, the two Prague and Copenhagen invitees, in Europe's center. 
Both provide a land bridge of diminishing importance to NATO's 
``island'' of Hungary and, for different reasons, have traditionally 
registered stronger support for the EU and lower public support for 
NATO. Indeed, had the 20-21 September 2002 elections in Slovakia or 23 
March 2003 referendum in Slovenia gone differently, I would not be 
defending their ratification today.
    Slovakia, a country of 5.5 million population, started later than 
the other MAP invitees in that it only acquired independent statehood 
after the Czech and Slovak Federal Republic's ``Velvet divorce'' on 1 
January 1993 and had to build its defense establishment from scratch 
while having to cut its inherited Warsaw Pact armed forces. It also had 
the disadvantage of Vladimir Meciar's tumultuous rule that had a 
disruptive impact on the Slovak public's understanding of NATO 
membership obligations and benefits. The two failed NATO referenda 
during Meciar's rule on 23-24 May 1997 and 19 April 1998 contributed to 
Slovak confusion by asking if they wanted nuclear weapons and foreign 
troops deployed on their soil, rather than informing and educating the 
populace. Indeed, Slovakia would not likely have received an invitation 
if Meciar had returned to power in the recent September 2002 elections.
    Slovakia has made substantial progress in overcoming these early 
problems. First, the Mikulas Dzurinda (1998-2002) government launched a 
significant NATO educational campaign that did raise public awareness 
of, and support for NATO. Although public support for NATO has recently 
eroded (as in many NATO countries) in the build-up to the Iraq war, the 
Slovak government has fully supported the war on terrorism, has 
provided overflight and transit rights to Afghanistan and sent an 
engineering unit to ISAF in Kabul, and publicly supported the U.S. in 
Iraq. In fact, at the moment 69 Slovak soldiers are in Kuwait as part 
of the Czech Chemical unit participating in Operation Enduring Freedom.
    Second, the U.S. has provided Slovakia with a defense assessment in 
2000 that provides much of the conceptual basis for their defense 
reform, and ever since Slovakia has been implementing its Army Model 
2010 program. Though Slovakia is experiencing many of the ``normal'' 
problems associated with such a complex endeavor, their strategy is 
realistic. With a total force structure of 30,000 (14,200 professionals 
and 15,800 12-month conscripts) in 2003, Slovakia is doing well in 
implementing a Planning, Programming, and Budgeting System (PPBS) on a 
government-wide basis, maintaining defense expenditures at 1.9 percent 
of GDP since 2002, meeting recruitment objectives to build an all-
volunteer army of 20,000 by 2007, and planning a NATO niche capability.
    One over the horizon concern has to do with the possibility of a 
NATO referendum. The political opposition is attempting to gather the 
necessary 350,000 signatures to hold a referendum that could become 
problematic in light of depressed public support for NATO. Though 
possible, the probability remains low.
    Slovenia is a small country with a population of roughly two 
million. Though starting from a very weak position regarding its low 
public support and limited physical capacity to integrate with NATO, it 
has made substantial progress of late. First, Slovenia's popular 
support for NATO has been perennially weak. Their 23 March 2003 
referendum that resulted in a vote of 66 percent support for NATO (89.6 
percent voted for the EU) pleased and relieved many who had concerns 
that Slovenia's low public support might result in a negative vote. Why 
did this occur? Some have speculated that the recent split within NATO 
over Iraq may have confirmed for Slovenes that other NATO members have 
a voice on security and defense matters. Also the 12 March 2003 
assassination of Zoran Djindjic in Serbia and Montenegro may have 
reminded many Slovenes that they live in an unstable region and being a 
member of NATO provides some benefits. But whatever the reasons, the 
referendum has put to rest earlier concerns that the government had not 
been doing enough to convince its public to support NATO.
    Second, Slovenia has a stable political and economic environment 
that some of the other NATO invitees do not enjoy. It has been active 
in the Partnership for Peace (PFP) and MAP and has put most of the 
necessary NATO membership legislation in place. The U.S. has also 
provided Slovenia with a defense assessment in 2000 and ever since 
Slovenia has been implementing its army reform program. With a total 
force structure of 7,800 (4,640 professionals and 3,160 7-month 
conscripts) in 2003, Slovenia is striving to build an all-volunteer 
force by the end of 2004 with plans for 7,800 professionals by 2008. 
Former DSACEUR General Mackenzie has helped engender greater realism in 
Slovene defense planning (e.g., total wartime strength plans have been 
reduced from 73,000 to 43,000 to 26,000, and should be 14,000--8,000 
professionals and 6,000 wartime reservists in 2010), but they still 
have a way to go. The Slovene objective to provide a battalion to ``the 
full range of alliance missions'' by the end of 2004 is probably 
unrealistic. While the 2003 defense budget of 1.61 percent of GDP is to 
increase to 2.0 percent by 2008, with low social support, potential 
economic constraints, and less NATO leverage after they join, this goal 
(as we have seen in Hungary) may not come to fruition.
    Third, Slovenia has provided assistance in Afghanistan by providing 
weapons to the Afghan National Army and managing the de-mining fund, 
but has evinced hesitation on Iraq. Prime Minister Anton Rok wanted a 
UN resolution before commencement of operations in Iraq and criticized 
Foreign Minister Rupel for signing the V-10 declaration in February. 
Germany has substantial influence due to the fact that it was first to 
recognize Slovenia's independence in January 1992 and remains 
Slovenia's largest trading partner. Despite Slovenia's position on 
Iraq, on 15 January 2003 Slovenia added a company of roughly 100 troops 
to Bosnia's Sector North to the two platoons of Military Police and the 
medical unit that it maintains in Sarajevo.
    Fourth, and perhaps the most important reason for Slovenia's 
ratification is that its accession to NATO (and EU) provides a symbolic 
segue for the former Yugoslavia to euro-Atlantic institutions. In this 
way, Slovenia's accession contributes to stability and security in 
Serbia and Montenegro, Bosnia-Herzegovina, Croatia, and Macedonia (and 
non-Former Republic of Yugoslavia, Albania), who remain quite distant 
from both institutions.
                 after nato ratification and accession
    In closing, I believe that seven new members will make modest 
contributions to Alliance defense, provide valuable political and 
strategic support to the Unites States in the advancement of our 
interests in Europe and more globally, and help bridge the 
transatlantic gap. I support ratification of the seven Prague invitees, 
but based upon lowered, more sober and realistic expectations.
    First, we need to recognize that NATO's seven new allies are 
smaller and have weaker military and institutional capacities. The 1999 
NATO members, who are generally much larger, have found it very 
difficult to fill civilian and military staff positions at NATO, even 
four years after accession. NATO's seven new members will find this 
task particularly challenging and continued support will be necessary. 
For this reason, we should not repeat the mistakes that we made in 1999 
when we terminated eligibility for many U.S. programs under the 
assumption that the new allies could stand on their own feet. Hence, we 
should think about extending the eligibility of new NATO members for 
some programs (e.g., such as Warsaw Initiative Funds).
    Second, since lessons of the 1999 enlargement suggest that once in 
NATO most leverage is lost, we need to ensure necessary adherence to 
the completion of reforms after actual accession. We need to prevent 
repeating the past experience of promises made by aspirants before 
accession on defense budgets and force goals then remained unfulfilled 
after becoming members. Most of the new NATO allies (except Romania) 
will become ineligible for FMF because they have not signed Article 98 
of the ICC. Since the U.S. has extended waivers to many old NATO 
allies, we might review and consider the possible granting of waivers 
to the new allies on a case-by-case basis linking assistance to 
performance.
    Third, NATO's new members have found it very difficult to finance 
their military participation in Bosnia, Kosovo, Afghanistan, and Iraq. 
All new members have had to finance their operations abroad by either 
increasing defense budgets, postponing modernization, increasing debt, 
and/or borrowing funds by floating government bonds. Among the 
``lessons learned'' by the three new 1999 NATO members were that: (1) 
the process of developing capabilities involved ``severe bumps,'' (2) 
NATO did not increase common support funds; (3) and the anticipated 
``savings'' from cutting armed forces did not materialize for 
modernization. (This third factor is only relevant to Bulgaria, 
Romania, and Slovakia, and not the three Baltic states and Slovenia who 
had to build armed forces from scratch). These ``lessons'' have 
relevance to NATO's seven new members, who have different capacities to 
develop niche capabilities. Since the U.S. has already performed 
defense assessments for all MAP partners, after accession we should 
focus on the means to assist the new NATO members, based upon 
performance, in developing niche capabilities and encourage the eight 
new NATO members in the EU to forge cooperative links between the NRF 
and ERRF.
    In summary, this round of enlargement can be successful and 
contribute to a revitalized NATO if we recognize that the new allies 
are smaller and have weaker capacities, that we continue certain U.S. 
programs on a case-by-case basis in tandem with progress on meeting 
NATO commitments, and are successful in improving EU and NATO 
cooperation.

    The Chairman [presiding]. Thank you very much, Dr. Simon. I 
appreciate very much each one of you coming to testify today, 
and I appreciate Senator Voinovich chairing the hearing for the 
first period this afternoon.
    I want to ask each one of you as a practical matter, and 
you have touched upon this, Dr. Simon, in your final paragraph, 
after the treaty is ratified by the NATO countries, you suggest 
that leverage with regard to the applicants may diminish. It 
may not be lost altogether. After all, they signed up to 
obligations, have some sense of their own defense and destiny 
in these situations.
    More specifically, with regard to their relations with the 
United States of America, it is significant that they are among 
the nations who have been most enthusiastic about our foreign 
policy vis-a-vis Iraq currently, and that has been noted and 
appreciated. Is that likely to diminish? Leaving aside the Iraq 
situation, but other foreign policy issues that may come along 
the trail in the war against terrorism, how grounded would you 
characterize, for instance, Slovenia and Slovakia, which has 
been--especially for you in your testimony, and other witnesses 
may want to address other countries, what is the vision that 
these applicants have with regard to the overall war against 
terrorism, or do they have a sense such as we do in this 
country of where that may go?
    Dr. Simon. I guess I will respond.
    The Chairman. If you will start, and then I will ask Dr. 
Larrabee.
    Dr. Simon. As I pointed out, I think that on the one hand 
there is a fundamental disconnect, I think, as in my longer 
testimony, we in the United States psychologically are at war, 
and I am not convinced that many of our NATO allies have that 
same psychological framework.
    We have, if you look at the 1999 class, Poland, Hungary, 
the Czech Republic, I think one can assess and say that, No. 1, 
it was a successful enlargement, and that Poland and the Czech 
Republic specifically have done a very successful job in their 
support of our activities.
    It is a little more mixed when you look at Hungary, and you 
can go into that fairly closely. If you look at the seven that 
we are presently intending to bring in on this enlargement, I 
think for some of the reasons that Steve Larrabee alluded to, 
although it was in my testimony as well, that you have an 
overlapping in the EU and NATO, a very strong ally, bilateral 
relationship between Poland and the United States, and I think 
that what you will probably see is a fairly strong support for 
the U.S. position, but I caveat this. It depends upon how the 
war in Iraq ends and how credible the weapons of mass 
destruction that we find there will be in justifying the 
positions of those States.
    But in my part of the world it is very clear that Slovakia 
has been very much leaning forward and out there, and they are 
in Kuwait right now with the chemical decontamination unit, so 
there can be no quarrel, and as I say, the Czechs are there, so 
there is no reason to suspect that their support may, in fact, 
diminish.
    I am still personally not convinced about Slovenia, but as 
I mentioned, I think the main reasons for Slovenia are this 
strategic direction and location, and I think this is the 
incorporation of Romania and Bulgaria and the shifting U.S. 
presence, and I think we have to look at that southeastern 
direction from that perspective.
    The Chairman. Thank you. Dr. Larrabee.
    Dr. Larrabee. As you well know, Mr. Chairman, the Baltic 
States are among the most pro-American countries of the 
aspirants within NATO. They know the meaning of freedom. They 
had to fight for it themselves, so I think that their 
contribution to the war on terrorism will continue.
    They have already made, for their small size, I think, 
substantial contributions. Latvia, as I mentioned in my 
testimony, has deployed a special forces unit and demining team 
in Afghanistan. Estonia has sent an explosive detection dog 
team, and Lithuania has deployed a special forces unit, so they 
are already contributing. Indeed, I think that is one of the 
most important aspects that even before they were invited to 
join NATO, the three Baltic States were already beginning to 
act like NATO allies even if they were not already pro forma 
officially NATO allies, and I think you have a population, as 
well as a leadership, which, as I said, is pro-American, which 
understands the meaning of freedom, so I am not particularly 
worried that they are not going to contribute to the war on 
terrorism.
    I think also that they understand that they are moving into 
a new environment, strategic environment where the agenda is 
changing, and that there will have to be some effort to 
harmonize their strategic agenda with the American strategic 
agenda if they want to continue to keep the United States 
strong and engaged in the region.
    The Chairman. On the subject of the Baltic States, you have 
been a scholar of this for many, many years. I remember maybe 
10 years ago that in visiting even with our diplomatic 
personnel in the capitals of the Baltic States, they would 
point out to me sort of in a tutorial fashion that essentially 
these States were tied to Finland or to Sweden or to others 
geographically, that Americans would have to understand we were 
going to have limited commercial ties with those States, maybe 
limited ties of other sorts.
    Now, that point of view, I think, in terms of our own 
diplomacy has changed dramatically over the years. At least I 
hope that is the case. What has been your tracing--leaving 
aside their views toward us, our views toward them, how more 
robust has that grown, in your judgment?
    Dr. Larrabee. Well, I think the interest, and I have to say 
something in favor of the previous administration which I think 
took a very forward-leaning view toward the Baltic States and, 
indeed, without the strong American commitment under both 
administrations, the Baltic States might not have been invited 
to join NATO as soon as they have, so I think the American 
commitment and the American engagement in the Baltic States is 
very important, as I tried to say in my testimony.
    One of the important things after Prague--it is not over. 
There is now emerging a new strategic agenda. The old one 
essentially revolved around trying to get into NATO. The new 
strategic agenda revolves around maintaining, making sure the 
United States stays engaged, finding ways in which to develop a 
credible Article 5 commitment, and also move from trying to 
prevent Russia from blocking NATO membership to developing a 
cooperative partnership and more cooperative relations with 
Russia, and all of this will require, in my view, strong, 
continued strong American engagement.
    The danger is, in my view, that with the United States now 
focusing on many other issues beyond Europe, and particularly 
in Iraq and the Middle East, may tend to look at the Baltic 
issue and say, well, it is fixed, let us move on, let us do 
something else, let us leave this to the EU I think that this 
would be a mistake.
    These are countries which are small, but they are very 
committed to democratic and Western values, and they are 
particularly strongly pro-American, and if we could try to get 
a consensus, if they were to work with their Baltic and Nordic 
neighbors and also expand ties with Poland and with Germany, 
you could have a Baltic coalition which would consist of seven 
or eight countries, that is, the Nordics, the Baltics, as well 
as Germany and Poland which also have Baltic interests, which 
could be quite a strong--I do not want to say a lobby within 
the EU and NATO, but nonetheless share common strategic 
interests with the United States, and we should not forget 
that. That is not just the three Baltic States, but it is the 
larger Baltic region that we are talking about.
    The Chairman. That is a very important idea. I thank you.
    Dr. Bugajski.
    Mr. Bugajski. Thanks very much. My two countries, Bulgaria 
and Romania, the two countries I am covering, are absolutely 
committed to the American relationship. In fact, I would say 
that it is not so much NATO membership that is leverage with 
them, but the bilateral relationship with the United States is 
the leverage. In other words, they value that relationship 
above all others, and I would go as far as to say for them NATO 
is the United States, because it is the United States that 
ultimately guarantees their security, their independence, their 
freedom, and I think they well understand this, as do some of 
the central Europeans.
    On the terrorism front, both Romania and Bulgaria have 
already contributed to the best of their abilities. I have 
outlined this in my testimony. But in addition, I would say 
because they are much closer to the front lines in the Middle 
East and the Caucasus, the potential trouble spots, the 
breeding grounds of terrorism, if you like, which pass from 
that area into Europe, I think they feel much more vulnerable 
as a result, and they are more likely to participate much more 
closely with the United States than maybe some of these smaller 
central European countries. So I have no doubt that that 
relationship will strengthen, because it is in their interest 
for that relationship to strengthen and for them to fulfill the 
criteria that they are supposed to with NATO entry.
    The Chairman. Let me ask this question, not to provoke 
comment, but simply for the benefit of the stimulus of this 
hearing. Outside the Senate Chamber, for a variety of reasons, 
say in the last hour, I have been asked by a number of press 
people about NATO. One question was, why is this committee so 
active in holding hearings right now with regard to the NATO 
treaty and discussing this subject, the implication of one 
questioner being that for the moment it appears that there are 
motions, some are coming or going, and hopefully going in my 
judgment, that is, withdrawn, censuring various countries for 
their activities vis-a-vis our feelings about Iraq, some of 
them NATO members.
    So in essence they were wondering, is there a disconnect, 
are you folks over in the Foreign Relations Committee busy on 
one agenda and people in various Departments of our Government 
working another agenda.
    Now, I will just try to be reassuring. We are all on the 
same agenda, and Secretary Powell's presence in Brussels now is 
important. It made the visit longer by going past Turkey on the 
way, but that was important, too. The point that I have tried 
to make, without diminishing any amendments by my colleagues, 
is that our committee is on an affirmative course. We are 
trying to think about the future.
    The future, at least for most of us in this committee, 
strongly includes NATO, likewise, the United Nations and other 
valuable international organizations, and almost any future 
that we can envision in Iraq or elsewhere requires the 
cooperation of a lot of nations, and my guess is that Secretary 
Powell in Brussels now has been suggesting ways that NATO can 
be very helpful in the post-Iraq situation in the same way that 
Lord Robertson has made vital suggestions, I think, with regard 
to the future of Afghanistan, so that we do not have failed 
States, incubators for al-Qaeda or anybody else for that matter 
who organizes that way.
    Having said that, the fact is that the nations, the seven 
applicants listening to all of this may wonder if the prize has 
been diminished. In other words, if membership in NATO, which 
looked very, very important a while back, remains that 
important.
    Just advise me for a moment from your own ties how the 
prize looks, and second, is there a perception on the part of 
the seven applicants that in any way United States enthusiasm 
for NATO has been diminished, or is likely to be by this 
situation, because that is important. We were talking about the 
bilateral ties, about the way in which the United States 
participates in Europe through NATO and gives assurance to 
individual countries as well as the collective whole, but if 
you can, give some vent to your own feelings presently about, 
whither NATO and how the applicants look at it.
    Dr. Larrabee. Well, perhaps I could begin just to address 
that. I think in all of the NATO-aspirant countries there is 
some concern, and not only in the aspirant countries but in 
some other parts of Europe about the U.S. commitment and the 
way we handled Afghanistan obviously reinforced that, although 
there are some good reasons for why we did it, but nonetheless 
it certainly has caused some questions, but I think as we look 
at the post-Iraq situation, one of the things that is clear is 
we are going to need allies. We are going to need them.
    We may not need them so strongly in the military campaign, 
but we are certainly going to need them in terms of the 
reconstruction, and that if you think of the war on terrorism, 
this is not something the United States can carry out alone. It 
requires wide cooperation, lots of partners in many areas 
beyond the military, particularly, obviously banking, 
counterterrorism, intelligence, border controls, many of these 
things, for all of these things looking even beyond NATO we are 
going to need partners, so I think that the steps that 
Secretary Powell has taken beginning today to try to rebuild 
these relationships is extremely important.
    Let me just say, though, that when we talk about NATO it is 
well to remember that if you look at the letter of the 8, and 
you add that to that the letter of the Vilnius-10, you have 18 
members of NATO, or 18 out of a prospective 25 or 26 that 
supported the United States, and I think that is an important 
element.
    Here we see that the newer members of NATO and the 
prospective members of NATO have a slightly different 
perspective on some of the security issues than some of the 
traditional members, but I think it would be a mistake, I have 
to emphasize, if the United States tried to play one part of 
Europe off against the other. I think this will provoke 
resentment not only in the old Europe, but even among some of 
the newer members.
    After all, they are going to become members, most of them, 
of the European Union. They do not want to have to choose 
between Europe and the United States. They are Europeans, and 
they want to be a strong part of Europe themselves, so I do not 
think it would be a good idea to try to drive a rift between 
old and new Europe, but just the opposite, to try to rebuild 
this relationship after Iraq.
    The Chairman. Do you have a comment, sir?
    Mr. Bugajski. Just to add to that, Mr. Chairman, obviously 
they see the NATO they are entering is very different from the 
NATO they first petitioned in the early 1990s. Nevertheless, I 
think two important principles are still there for them. No. 1, 
NATO means permanent security, and always will according to 
Article 5. No. 2, it means American involvement, not only in 
Europe, but direct American involvement in their security, and 
that, too, is absolutely crucial for them.
    They do feel, I believe, in talking to some officials, that 
they can contribute to reinvigorating the NATO alliance, which 
they feel one way or another, because of the transatlantic 
rift, seems to have diminished, and I think through their 
contributions, however small, but collectively, they will carry 
some weight.
    They can help to reinvigorate and change the alliance to 
confront the sort of challenges that we will be facing in the 
future, which is not a Soviet threat, but it will be terrorist 
threats, it will be threats of neighboring and unstable 
regions, and I think above all they are very much intent on 
rebuilding that transatlantic relationship and rather than, as 
Stephen said, creating rifts within Europe their intention is 
to heal those rifts in Europe by rebuilding a stronger 
relationship with America.
    In other words, may seek to reverse current trends, and I 
do believe that they are committed to that, because that is in 
their national interest.
    The Chairman. Thank you. Dr. Simon.
    Dr. Simon. As in my remarks, the fact that if you look at 
the 10 new members of the EU in 2004, 8 of them are basically 
NATO members as of 1999 and 2004, and the key here is, I think, 
in terms of the future of the alliance, is that they, in fact, 
successful in hammering out cooperative linkages between the EU 
and NATO, and I think frankly these 8 overlapping members have 
that role to play and want to play that role.
    Just being up in the Baltic States talking to a number of 
key people there, one thing stuck in my mind that is quite 
pertinent to this, and it supports my two colleagues. They said 
basically--and this is key in all three countries--we want to 
love Mother and Father, meaning the EU and NATO. We do not want 
to have to make Sophie's Choice, and in that sense I think we 
are going to see those 8 members taking an active role in 
forging that cooperation, which is very much in our interest 
and in the interest of the future of the alliance.
    Dr. Larrabee. They do not also want to be treated as 
disobedient children.
    The Chairman. Let me ask, just taking a look at the future, 
what role are the States that are now on the threshold of 
coming into NATO likely to play in future expansion of NATO? 
What is the unfinished business of the concept of Europe whole 
and free, and what contributions could the applicant States 
make in fulfilling that destiny?
    Mr. Bugajski. Let me go first, because it pertains, I 
think, more directly to my two countries, Bulgaria and Romania, 
whose neighborhood is not still absolutely secure and stable, 
as we know. I think that their entry would signal to the other 
aspirants, particularly Croatia, Albania, Macedonia, that they, 
too, can become members over the coming years if they fulfill 
specific criteria, if they stay on track, conduct the sort of 
military reforms that Bulgaria and Romania have conducted, 
build a close relationship with the United States and so forth.
    So I think it is in our national interest to have them in 
because they will then project the same sort of criteria to 
other neighboring countries coming out of a very bad 
neighborhood who do want to joint NATO, who do want to have a 
close relationship with the United States.
    Second, I would say eastward, and Romania actually is the 
most interesting in this regard because it faces both the 
southern, still-to-be-fully stabilized region, and also the 
eastern post-Soviet territories, in other words, Moldova and 
Ukraine that it borders, I do believe those two countries also 
eventually have to become NATO members. How long it will take I 
could not tell you at this point. Obviously, it depends a lot 
on domestic politics.
    The Chairman. Both Moldova and Ukraine.
    Mr. Bugajski. And Ukraine, and eventually Belarus as well, 
but that is another matter at the moment.
    Romania obviously can play a very stabilizing role vis-a-
vis the former Soviet space. Its relationship with Ukraine has 
improved vastly. It now is beginning to establish a better 
relationship with Moldova.
    Once Moldova sorts out its own separatist movement in 
Transnistria, I think Romania can play a very positive role 
eastwards. In other words, as a NATO member, as a future EU 
member it can serve as a positive example, economic, social, 
political, military, toward its eastern neighbors. In both 
regional directions I would say Romania is very important.
    Bulgaria is also very important. It has played a very 
positive role in the south Balkans over Macedonia. It has not 
played any nationalist cards. Its ethnic relations have been 
probably the most stable in the region and it, too, can serve 
as an example throughout the region.
    Both of those countries coming into NATO would immediately, 
be read in those other countries that they too can make it, if 
they stick to it. If they stick to the program, to the criteria 
that have been laid out, they, too, can become permanently 
secured.
    Dr. Simon. To pick up on that, I think the key prize here 
is Ukraine. It is a very large country, and you can approach 
Ukraine from both the southeast--Janusz was talking about--
particularly if you do see some kind of a changed true presence 
in Romania and a very strong Romanian support for the future of 
NATO.
    Up in the northeast we have a very close relationship, as 
you know, with a newer but old member of the alliance, Poland, 
who has very close ties with Ukraine, combined units operating 
in Kosovo, et cetera, and I think with the U.S. presence 
perhaps evolving in Poland and working with what is now the 
Northeast Corps, becoming a Baltic Corps, you could have very 
positive impact on Ukraine.
    I think you will see from the three Baltic States and from 
Poland very strong pressures in NATO over the coming years to 
basically project, and radiate that stability, and it will be 
something that, on the one hand, can be very helpful in moving 
in that direction as well as from the direction of Romania, but 
it is also something that we may have to curtail in light of 
the dilemma that we have with the current situation in Ukraine.
    The Chairman. Is there any doubt in the minds of any of you 
three, as our witnesses today, that the sharing of the basic 
ethical and moral values, what-have-you, of NATO by the seven 
applicants would have any reason to terminate? That is, they 
would move off in some other direction?
    One of the profound aspects about NATO and consensus is 
that we all believe in human rights and democracy and freedom 
of speech, freedom of religion, and that is one of the most 
attractive aspects of that, and it would appear apparent that 
the seven applicants share those values, but the question 
always is raised whenever we have a NATO discussion, what if 
somebody has a change of heart with regard to the way that the 
politics in the country goes, and suddenly we have a member 
State that does not share these values, that for reasons of 
economic crisis or a charismatic figure or whatever, suddenly 
something happens.
    Now, there is no way of ever guaranteeing that, I suppose, 
with regard to all the current members, but what is the 
stability factor of the seven that we are now talking about 
today? Would you give any opinions about that?
    Dr. Larrabee. Maybe I will start. In my case, in the case 
of the three countries that I have been asked to testify about, 
I have to say that I have very few doubts, particularly because 
these countries have fought very strongly for their own 
freedom. They know what it is like not to have lived under 
freedom. They have begun to build very strong democratic 
systems, so I am not too worried.
    If I could though, however, I would like to go back to the 
last question you asked, because I think it does pertain 
particularly to the Baltic States. That is, thinking about what 
may come after Prague, in my remarks, in my testimony I raised 
the question that these invitations issued to Prague are 
obviously an important achievement, and they help to anchor the 
Baltic States into the Western community and the debate about 
their security orientation.
    At the same time, the invitations do create a new set of 
strategic challenges, and one of those challenges will be, 
first of all, to keep the United States engaged in the region 
and second to find a new strategic agenda that will do that. 
Now, in my discussions in the Baltic States over the past 6 or 
8 months, I have found that there is a willingness to think 
about a new agenda there, and this new agenda--if the old 
agenda in some way was to try to fix the Baltic problem, that 
agenda has now been basically achieved.
    The question then becomes, what is the new agenda that 
could kind of bind the United States together with the Baltic 
States, and here, as I suggested in my testimony, the new 
agenda could include four elements, enhancing cooperation with 
Russia, helping to stabilize Kaliningrad, promoting the 
democratization of Belarus, and supporting Ukraine's 
integration into Euro-Atlantic structures.
    That is an agenda in which it seems to me the United States 
shares many strategic interests with the Baltic countries as 
well as many Nordic countries, and including Poland, and 
perhaps even Germany and some countries in the Vilnius-10, so 
there is a core, it seems to me, around which the Baltic States 
can move from stabilizing the region to helping to stabilize 
the immediate neighborhood.
    Mr. Bugajski. Mr. Chairman, just to answer your question, 
as you know, democracy is always a work in progress. It is 
never absolutely complete, but in the case of my two 
countries--I will not address the others because my colleagues 
can probably better do so. In the case of Bulgaria and Romania, 
I do believe they have passed the point of no return, in other 
words, no return to some kind of authoritarian system, whether 
Communist or nationalist.
    There is always a danger of some sort of populist figure 
appearing on the horizon, but I have not seen it, and even when 
one has appeared, as in Romania, the vote is still fairly 
restricted, or let us say on the level of some of the West 
European countries, if you look at some of our allies.
    I would say all these countries do have marginal groups or 
extremist groups of both left and right, but then they would 
not be democracies if they did not. I do not see, unless there 
is some major economic catastrophe, I do not see a populist 
nationalist figure coming to the fore, and this is why I think 
NATO membership would help them on the way, not only to 
security but also to prosperity and avoidance of extremism.
    But the EU has to step in also, and the accession process 
to the EU is going to be absolutely critical, because even 
though I outline in my testimony that they have achieved 
macroeconomic stability, there is still a lot of poverty, there 
is still a lot of very bad economic conditions in some parts of 
these countries, and this is why I think the onus is on the EU 
to assist, to help them get over the hump and to join the club.
    Dr. Simon. I guess first, looking at recent events, we did 
have some problems, at least on the issue of Turkey and the 
NAC, but it was not from new members. It happened to be some 
very old members, France, Germany, and Belgium, and we were 
able to at least get around that by moving it down to the DPC. 
France is not in the integrated military command, and we were 
able to make that work.
    The nightmare which a lot of us have thought about with our 
seven new entrants as well as the other three is, what happens 
if things do go bad? Can you not develop a penalty box, or some 
concept like that, and there are notions that are in some of 
the things I have laid out. Let me say on the penalty box 
notion, it is probably impossible to implement for political 
reasons, but it does make a lot of sense in theory.
    On the other hand, on being able to engage in decisions 
when a government does not want to cooperate, there are notions 
perhaps of different ways of developing consensus or making 
decisions in the alliance. I do not think that a strategy will 
necessarily get us there. It will probably be, as we saw in the 
recent case with France, Germany, and Belgium, through actions 
and having to respond accordingly, but some notions would be 
extending the principles of not breaking silence to Article 4 
implementation, and then having only those countries in the 
coalitions of willing that would be engaged in the military 
operation basically provide the military guidance.
    In effect, this is sort of a combined joint task force 
within NATO, not a combined joint task force to the EU, as we 
did at the Brussels summit in 1994, but I think it is a 
critical issue. I think that no matter what strategies we have, 
we will probably bump into it when the situation arises and 
grapple with it at that time.
    The Chairman. Well, I raised it because at our last 
hearing, one of our witnesses I felt gave very constructive 
testimony to the question that arises, should we, given the 
recent problem with Turkey, move toward a majority vote, or 
supermajority, two-thirds, or something of this sort, as 
opposed to the consensus, and his advice was no, we should not 
do that, for reasons I do not want to reiterate, but I thought 
it was an interesting discussion, and it is not entirely 
academic.
    Having participated now in several expansions of NATO 
debates and votes and treaties on the floor, not all of our 
Members in the Senate have always been enthusiastic about NATO. 
Some have simply argued it is a burden and some, perhaps not 
many now, were more isolationist and protectionist in the past 
than I suspect the current membership of the Senate, and I am 
grateful that is the case, but some have seen a lot of expense 
for the United States, and commitments, and with the passing of 
the cold war what may have been one reason why people wanted to 
sign up in Europe, but likewise was one reason why the United 
States was engaged with Europe.
    But the Soviet Union is over, so the issues in this country 
are, what kind of involvement do we want to have in other 
countries, and after Somalia, the answer was not very much. It 
was a long time before we got into Bosnia, for example, and the 
struggle to take care of human rights conditions in Kosovo, and 
there we had a veto on the Security Council with the Russians, 
or at least opposition resulted in that, so we had an ad hoc 
situation of sorts, a coalition of the willing at that time for 
humanitarian reasons.
    So these are not totally academic issues and I suspect, 
when we have our debates on this treaty, that some of this will 
rise again, although I do not anticipate in majority form, but 
we are trying in these hearings--really we appreciate your 
specific testimony--to be very thorough so that all of our 
Members would say that this committee has discharged its 
responsibility to ask the whole gamut of questions about the 
qualifications of the members, their attitudes toward Europe, 
toward us, toward peace, toward democracy, as well as 
creativity as to what the new missions, goals of the 
organization ought to be.
    So I thank each one of you for contributing really 
remarkable papers, as well as your forthcoming responses to 
these speculative questions and I am going to ask on behalf of 
the distinguished ranking member, Senator Biden, and myself 
that we keep the record open for 24 hours so the Senators who 
were not able to be present might participate in that way. 
Conceivably they might have questions to the three of you, and 
if you could respond promptly, that would be helpful in 
completing our record and making it available to our 
colleagues.
    Unless you have further testimony, I will adjourn the 
hearing, and thank you very much for coming. The hearing is 
adjourned.
    [Whereupon, at 3:50 p.m., the committee adjourned, to 
reconvene at 9:30 a.m., April 8, 2003.]











                       NATO ENLARGEMENT--PART IV

                              ----------                              


                         TUESDAY, APRIL 8, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Chafee, Sununu, Biden, Boxer, Bill 
Nelson and Corzine.
    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    We are especially pleased today to welcome Marc Grossman, 
Under Secretary of State for Political Affairs. He will be 
followed by William Kristol, editor of The Weekly Standard and 
General Wesley Clark, former Supreme Allied Commander in 
Europe; they will address the committee as a panel following 
Secretary Grossman.
    Today the committee is holding its fourth hearing on NATO 
Enlargement. We have undertaken this review of NATO in 
preparation for a floor action in May. And I would say 
parenthetically that in visiting with the majority leader, 
Senator Frist, he has assured me that the week of May 5 is 
still on target, at least given all the problems that come to 
majority and minority leaders in scheduling the Senate agenda, 
but that is our objective. And that is one reason for 
proceeding vigorously with these hearings in a timely manner 
now.
    At that time, we will have this review of the NATO 
situation and the Protocols of Accession to the Washington 
Treaty for Latvia, Lithuania, Estonia, Slovenia, Slovakia, 
Bulgaria and Romania. I am most hopeful the Senate will pass 
the Protocols of Accession for all seven candidates prior to 
President Bush's scheduled trip to Europe late this spring.
    Even as the committee works to fulfill this legislative 
duty, our review of NATO has an additional purpose. With U.S. 
forces heavily engaged in Iraq, this committee and the Senate 
must consider what role NATO can and should play in a global 
war on terrorism. NATO has to decide if it wishes to 
participate in the security challenge of our time. It has to 
decide whether it wants to be relevant in addressing the major 
threat to the safety and economic well-being of the citizens of 
its component countries. If we do not prevent major terrorist 
attacks involving weapons of mass destruction, the alliance 
will have failed in its most fundamental mission of defending 
our nations and our way of life.
    And this reality demands that as we expand NATO, we also 
retool it so it can be a mechanism of burden-sharing and mutual 
security in the war on terrorism. America is at war, and we 
feel more vulnerable than at any time since the end of the cold 
war and perhaps since World War II. We need and want allies to 
confront this threat effectively. Those alliances cannot be 
circumscribed by geographical boundaries.
    Many observers will point to the split over Iraq as a sign 
that NATO is failing or irrelevant. I sharply disagree. But as 
we attempt to mend the alliance's political divisions over 
Iraq, we must go one step further and ask: If NATO had been 
unified on Iraq, could it have provided an effective command 
structure for the military operation that is underway now? And 
would allies beyond those currently engaged in Iraq have been 
willing and able to field forces that would have been 
significant to the outcome of that war? In other words, 
achieving political unity within the alliance, while important 
to international opinion, does not guarantee that NATO will be 
as meaningful as a fighting alliance in the war on terror.
    Now for more than 50 years, NATO was uniquely able to forge 
consensus among the allies, maintain political will, gather 
resources, and coordinate action to defend Europe from military 
attack. The alliance stated its desire to remain relevant at 
the Prague summit last November, when NATO heads of state 
approved the NATO Response Force and the Prague Capabilities 
Commitment as part of the continuing Alliance effort to improve 
capabilities for waging modern warfare. The alliance also 
declared it would tackle the threat of weapons of mass 
destruction.
    In our previous committee hearings on NATO, we have heard 
encouraging testimony that our allies are taking promised steps 
to strengthen their capabilities in such areas as heavy airlift 
and sealift and precision-guided munitions. We have also heard 
that the seven candidates for membership are developing niche 
military capabilities that will be useful in meeting NATO's new 
military demands. But much work is left to be done to transform 
NATO into a bulwark against terrorism.
    An early test will be NATO's contribution to peacekeeping 
and humanitarian duties in the aftermath of combat in Iraq. A 
strong commitment by NATO nations to this role would be an 
important step in healing the alliance's divisions and 
reaffirming its relevance for the long run. While the immediate 
aim of our hearings has been to debate whether the seven 
candidate countries have met NATO membership standards, I would 
observe that the dominant concern of the committee in the 
hearings has been NATO's relevance and cohesion. This focus 
would seem to indicate confidence among committee members that 
the aspirant nations are ready for membership.
    I anticipate an overwhelming vote in favor of NATO 
enlargement. The affirming message of the first round of 
enlargement led to improved capabilities and strengthened 
transatlantic ties. I am hopeful and I am sure the committee 
joins me in wishing that the second round will do the same.
    We look forward now to hearing from the distinguished 
ranking member, Senator Biden.
    Senator Biden. Thank you, Mr. Chairman. And thank you for 
these hearings and the quality of the witnesses you have had in 
this and all the hearings, particularly this last hearing.
    I am anxious to hear from Secretary Grossman, who I think 
is one of the most talented people with whom I have served in 
my years here in the U.S. Senate. And as well as from General 
Clark for whom I have an incredibly high regard; and Mr. 
Kristol, for whom I have an equally high regard, although I do 
not always understand him. But he can explain some things to 
me.
    I am delighted that they could join us today to discuss the 
future of NATO. This hearing is not a parenthetical exercise in 
dealing with pressing issues in the Middle East, and the Korean 
Peninsula, and matters elsewhere in the world. We are talking 
about the future, as you and I agree probably as much or more 
than any two Members of the Congress, of our most vital 
strategic partnership.
    NATO is not just a bedrock of transatlantic relations. It 
is the most successful political military alliance that has 
ever been assembled. NATO's members, though they may disagree 
on tactics as we have recently seen, share the same objective 
of securing and protecting the freedom of the North Atlantic 
area. And now the question is--and again as we say in this 
body, it sounds awfully artificial, but I would like to 
associate myself with the remarks of my friend from Indiana, 
the chairman--on the expanded or altered responsibility that I 
think it must step up to now.
    This hearing is the last in this series connected with our 
consideration of the next round of NATO Enlargement, agreed 
upon last November at the Prague summit. The Accession to NATO 
of Bulgaria, Estonia, Latvia, Lithuania, Romania, Slovakia and 
Slovenia can, I believe, in the long term result in a 
qualitative strengthening of the alliance's military 
capabilities. But even to achieve that result will require 
energetic efforts on the part of all seven of these countries.
    But more importantly in my view, this round of enlargement 
represents an important step in what those of us, like you and 
I who have been here a while and many of the witnesses, in what 
we used to talk about. And that is the zone of stability 
extended for a Europe that is free and whole, an objective that 
I think is still very, very much in our interest.
    When I am occasionally accused of being too--how can I say 
it? Well, I am occasionally criticized for thinking NATO has a 
value that some think exceeds what I suggest it is. Well, I 
always say to people: Imagine our foreign policy interest in 
the future, our interest around the world being secure without 
a free and whole and stable Europe. I cannot imagine it, quite 
frankly.
    This round represents that enlargement; that is, moving 
that zone of stability. Above and beyond enlargement though, 
NATO is facing several fundamental choices, one of which you 
mentioned, Mr. Chairman. The U.S. and its allies can choose to 
fulfill the capability commitments made in Prague, which is 
sort of Senate and NATO speak for saying they are going to 
spend more money and upgrade their military capability, and to 
reshape NATO to meet the new security challenges of the 21st 
century, or to continue to demur.
    Specifically, we can realign national defense planning, 
increase and better prioritize defense expenditures, and make 
the new NATO Response Force fully operational by 2006. We can 
disprove doubts about the irrelevance of NATO in the new 
security environment by acting now to expand NATO's role in 
Afghanistan and, in my view, to plan for NATO's engagement in 
post-war Iraq, which I happen to think is vital for a number of 
reasons I will not bore anyone with right now.
    Or the members of the alliance can take, as they say, the 
other fork in the road, a dramatic but no longer far-fetched, 
centrifugal option. And that is, an alternative that would 
permit political differences to paralyze NATO's decisionmaking 
bodies and bar the alliance from providing collective defense. 
NATO's institutions would become more a fora for routine 
consultations and training grounds for military exercise and 
its forces eventually cannibalized in favor of coalitions of 
the willing, or a separate EU security arrangement.
    If I sound unduly pessimistic, please let us consider 
several recent events: The Bush administration's initial 
decision in the fall of 2001 to decline the offers of most 
allies to participate in combat operations in Afghanistan; the 
rancor and dissension in the NAC this past January and February 
regarding Turkey's Article 4 request for assistance; the 
Belgian call last month for a summit of selected European Union 
members, i.e., not including the British, to develop an EU-
based Security Alliance outside of NATO, which as I understand 
it is very different than what we were talking about up to now, 
of having this European force within NATO; and in my view, the 
denigration of NATO by some very, very important, bright and 
serious intellectuals in this country, many of whom people this 
administration, about the lack of relevance of NATO generated 
by what is referred to as the neo-cons.
    Regarding this new grouping that the Belgians were talking 
about last month of a European Union, EU-based Security 
Alliance, Mr. Prodi suggested this would be a different path, 
and he is the President of the EU's Commission.
    I do not believe that these events, either individually or 
collectively, as yet represent an irreparable break in Alliance 
solidarity. But for all the conferences over 30 years you and I 
have attended about whither NATO, I think they are the most 
serious, the most serious challenges to NATO. And they exist at 
this moment in my view, and they convey a stark warning for the 
future unless we get this right in the very near term.
    The way forward is not just a decision for the United 
States. All of our allies, as well as prospective new members, 
must decide how best to shape NATO's strategic agenda and make 
it operational. American leadership can have a tremendous 
influence in this process, but only if we demonstrate a 
concrete commitment to remaining engaged on the ground in 
Europe. And as I said earlier, by supporting a role for NATO in 
Afghanistan, and I hope in post-war Iraq, I hope that we will 
make these cases not just in Brussels and other European 
capitals, but home as well, here in the United States as well.
    For that reason I greatly welcomed Secretary Powell's 
decision to go to Brussels last week and discuss with members 
of the NAC a substantive role for the alliance in post-war 
Iraq. Although no decision was taken, the discussion was 
undertaken. I look forward to hearing in the days ahead the 
response from our allies on exactly what form a NATO role might 
take.
    Marc, I know you share our desire to see a stronger, more 
vibrant NATO that is both capable and willing to confront 
security challenges wherever they arise. And I would 
particularly welcome your views on how the seven aspirant 
countries can help NATO adapt to the new security challenges 
that we face.
    We are also extremely fortunate, as I said at the outset, 
to have General Clark and Bill Kristol here to contribute to 
this critical strategic discussion. General Clark, whereas the 
last time we invited you here in May of last year, we engaged 
in a similar debate about NATO's future. Although we are 
dealing with many of the same questions today, the run-up to 
the war in Iraq, and the war itself, have changed the context 
of the debate and, in my view, not for the better.
    So I welcome your uniquely qualified prospective on how the 
alliance can and should move forward.
    Bill, we may not always agree, but I have an incredibly 
high regard for you, both through your magazine and your own 
commentary you have done as much as anyone to shape the foreign 
policy debate in this country and influence the Bush 
administration. I also appreciate your longstanding commitment 
to the alliance as a member of the U.S. Committee for NATO, and 
I am anxious to hear what you think about the future here 
beyond the seven aspirant countries.
    Once again, Mr. Chairman, let me say that I am delighted 
that you have these three witnesses, and I look forward to 
having a discussion with them about some of these issues that I 
have raised, and others.
    The Chairman. Thank you very much, Senator Biden.
    As a point of personal privilege, let me mention that in 
our audience today are 73 eighth grade students from Bremen 
Middle School in Bremen, Indiana. And I just want to note for 
the record that in Indiana we take foreign policy seriously and 
early.
    And I am very grateful that these students that are led by 
their teacher, Jan Reed, have come to Washington and have 
chosen to make this hearing a part of their trip.
    Senator Biden. Mr. Chairman, if you will excuse me, as a 
point of personal privilege: I want those students to 
understand that my alma mater, Syracuse, won the National 
Championship last night in basketball that you, Indiana, the 
last time we were there, in the last second robbed us of.
    The Chairman. Yes, yes.
    Senator Biden. Not ``robbed'' us; that is the wrong choice. 
Defeated us on the playing field very well.
    So I congratulate you on having defeated us in the past, 
and I want to note that we have finally prevailed, not over 
Indiana, but over Kansas.
    The Chairman. The Hoosiers congratulate the Orange.
    Senator Biden. Thank you.
    The Chairman. I congratulate my colleague.
    I want to mention also that Secretary Grossman has 
participated for the last 2 years faithfully in roundtable 
discussions that Ron Asmus at the Council on Foreign Relations 
really was most responsible for bringing together. A number of 
those in the room today have been participating in these 
meetings. Marc participated as an administration official, who 
really has a strong policy set of options here, and we really 
appreciate that participation. I mention this because many of 
the questions that he will be responding to today have been 
raised by other colleagues around the table for the last 2 
years. It has been an informative experience for all of us 
trying to think through the challenges and the opportunities.
    With that, Secretary Grossman, we would be pleased to hear 
your testimony.

 STATEMENT OF HON. MARC I. GROSSMAN, UNDER SECRETARY OF STATE 
   FOR POLITICAL AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Grossman. Thank you very much, Mr. Chairman, Senator 
Biden. It is an honor for me to be here today. Thank you all 
very much. I hope, Senator, you might allow me to put the 
longer statement in the record.
    The Chairman. Yes.
    Mr. Grossman. If I might just make a shortened version of 
it, I would appreciate that.
    The Chairman. Published in full.
    Mr. Grossman. Thank you very much.
    Let me first of all say how grateful we are for your 
leadership, Mr. Chairman, and for Senator Biden's, on the issue 
of enlargement, on the issue of NATO and on the issue of the 
future of NATO. I also want, as I do before this committee, to 
thank you very much for your support for the men and woman of 
the State Department. And as a point of my personal privilege, 
if I could have one: I hope many of the people who are here in 
the eighth grade will consider careers in the Foreign Service 
and in the Civil Service, and in the service of their country 
in the great Department of State and join us in that endeavor. 
So we are very glad that they are here as well.
    Mr. Chairman, as you said, you have offered opportunities 
over the past 2 years to have a conversation about the future 
of NATO. I can tell you that these meetings have always been of 
value to me. When you say that I am likely to answer some 
questions that came out of those discussions, I hope they are 
not questions that I posed and then could not answer myself, 
but we will do the very best that we can.
    As Senator Biden said, Secretary Powell was at NATO last 
week, and I thought if I might just give you a short report 
about what transpired there because I think it is very 
important about the adaptation of our alliance. As you saw, the 
Secretary met NATO and EU Foreign Ministers both together and 
then separately. He met Secretary General Robertson, the EU 
Presidency and Commission leadership, Ambassadors from the 
Vilnius-10 countries, 9 other Foreign Ministers; 21 meetings in 
all.
    And the Secretary's message in Brussels were really two 
fold and very clear: First, that we value NATO and the 
transatlantic partnership it anchors; and second, that it is 
time to look to the future, to the future of what this alliance 
can do and, as Senator Lugar said, to look to future threats 
and to look also to the future to include the stabilization and 
reconstruction of Iraq.
    Senator Biden, the Secretary there reminded all of the NATO 
Foreign Ministers of the presentation made last December by 
Deputy Secretary of Defense Wolfowitz, where he suggested that 
NATO roles could be important in Iraq, should be important in 
Iraq and could include peacekeeping, weapons of mass 
destruction security and destruction, and the delivery of 
humanitarian assistance.
    We remain open to a NATO role in Iraq. As you said, no 
commitments were made. But no ally raised objections to these 
proposals. And the Secretary said that we would followup on 
these suggestions and see what, if anything, can be done.
    Mr. Chairman, as you say, the committee has heard testimony 
on NATO enlargement from people both inside and outside of the 
administration. I would say that there is broad support in this 
country and in the alliance for this next stage of enlargement 
because, as you both said, for fifty years NATO has been the 
anchor of Western security. And as Senator Biden said, this 
issue and these hearings are not a parenthesis. This expansion 
of NATO is extremely important to the security of the United 
States.
    The end of Soviet communism did not diminish NATO's 
importance. The democracies of NATO made and keep the peace in 
the Balkans. In 1999, NATO stopped ethnic cleansing in Kosovo. 
NATO's just-completed mission in Macedonia has also brought 
order to that new democracy.
    And as we have discussed on a number of occasions in this 
committee, NATO responded to September 11 by invoking Article 
5, an attack on one member considered an attack on all. And in 
the aftermath of September 11, NATO sent AWACs to patrol U.S. 
airspace, logging almost 4,300 hours, 360 sorties, 800 crew 
members from 13 nations. And 13 nations now contribute to help 
in Operation Enduring Freedom.
    NATO allies lead the International Stabilization force in 
Kabul. German and Dutch troops replaced Turkish troops who, in 
turn, replaced British forces. Lord Robertson and some of our 
other allies would like to see NATO take a larger role in ISAF, 
and so would we.
    As Secretary Powell said at NATO last week: ``NATO should 
look at how the Alliance could play an even greater role in 
Afghanistan, up to and including a NATO lead for ISAF.''
    NATO is the central organizing agent for transatlantic 
cooperation. It represents, as you both said, not just a 
military alliance but a political military alliance, a 
community of common values and shared commitments to democracy, 
free markets and the rule of law.
    NATO is key to the defense of the United States. And so 
therefore, as you both said, NATO must continue to lead and to 
adapt.
    The November 2000 NATO Prague summit launched a 
transformation of NATO with a three-part agenda: New members, 
new capabilities, and new relationships.
    The job you have given me today, Senator, is to discuss 
enlargement, which is key to that transformation.
    At the Prague summit, NATO leaders invited the seven new 
democracies--Bulgaria, Estonia, Latvia, Lithuania, Romania, 
Slovakia, and Slovenia--to join NATO. And in Brussels on March 
26, NATO Ambassadors signed the protocols to begin the formal 
process of admitting the invitees into the alliance.
    The President expects to forward the Accession Protocols to 
you and to the Senate for its advice and consent on 
ratification in the coming days. And I respectfully ask this 
committee to act swiftly and positively on that request. And I 
appreciate the report you have given about the conversation you 
have had with Mr. Frist.
    Enlargement, I believe, will strengthen democracy and 
stability in Europe, revitalize an adapted NATO and benefit the 
United States. Enlargement will encourage and consolidate 
reforms in the seven invitees, expanding NATO's geographic 
reach and including seven committed Atlanticists, who already 
act as allies in Afghanistan and Iraq.
    The invitation to these seven States followed an intensive 
program of preparation under NATO's Membership Action Plan. And 
I know that you have held two hearings on this particular 
issue. And as you heard at that time, the alliance worked with 
the aspirants to encourage political, economic and military 
reform. Be clear: There is still work to do in all of these 
areas, but we are working with the aspirants on a daily basis 
and they are committed to further reform in all of these areas.
    These seven are also committed to the transatlantic 
alliance. They are allies in the war against terror. They have 
contributed to Operation Enduring Freedom and to the 
International Security and Stabilization Force in Kabul.
    And since we do not mean this hearing to be an eye test, I 
would just invite you to look at the charts \1\ that I have 
handed out--this is the large version of it--which shows across 
the board, by the seven aspirants in Afghanistan in Operation 
Enduring Freedom, in Operation Iraqi Freedom, in the Balkans, 
what all these countries have already contributed. And as you 
both said, a real military contribution.
---------------------------------------------------------------------------
    \1\ The charts referred to can be found beginning on page 161.
---------------------------------------------------------------------------
    Mr. Chairman, all of these countries have also joined in 
strong statements of support for U.S. policy and, in some 
cases, have lent physical military support to the United States 
and Coalition military mission in Iraq. All of the invitees 
have committed to spending at least 2 percent of their gross 
domestic product on defense. And as you can see from this chart 
or the small one that I have handed out, all seven already 
spend a higher percentage of their GDP on defense than almost a 
third of our current NATO membership.
    We are also greatly benefited because publics in these 
countries strongly support NATO membership. On the 23rd of 
March, in a referendum I know you all watched, Slovenians went 
to the polls to support NATO membership. And the ``Yes'' vote 
won with 66 percent. In Romania and Bulgaria and the three 
Baltic States, support for NATO consistently stands at above 70 
percent.
    Together these allies will contribute as many as 200,000 
troops to the alliance; approximately equal to the number of 
new forces that came in the last enlargement of NATO in 1999.
    What of future enlargement? I believe that the door to NATO 
should remain open. In his speech at Warsaw University in 2001, 
the President said that, and I quote, ``all of Europe's 
democracies, from the Baltic to the Black Sea, all that lie 
between should have the same chance for security and freedom 
and the same chance to join the institutions of Europe, as 
Europe's old democracies have.'' So we welcome the continuing 
pursuit of membership by Albania, Croatia, Macedonia, and will 
continue to consult closely with these nations on their 
membership action programs, as well as others who may seek 
membership in the future.
    Mr. Chairman, Mr. Biden, you both mentioned the question of 
new capabilities, the second major outcome of the Prague summit 
in 2000. And because you give me the chance here today to talk 
about new capabilities, I would like to do that because I 
believe that the most important challenge facing NATO is 
building its capabilities to face the modern threats of 
terrorism and weapons of mass destruction. And as Senator Biden 
said, NATO has some fundamental choices to make because the gap 
in military capabilities between the United States and Europe 
is the most serious long-term problem facing NATO.
    As the chairman said, at the Prague summit NATO's leaders 
decided to close this gap, and Europeans committed to spend 
smarter, pool their resources and pursue military 
specialization. For example, Germany is today leading a 
consortium to get more airlift. Norway leads a consortium to 
get more sealift. Spain is leading its consortium to get more 
air-to-air refuelings. And the Netherlands is taking the lead 
to get more precision guided munitions.
    This is a good start. And although you have heard testimony 
that has been optimistic, I believe that followup and actual 
spending and the success of these consortia will be absolutely 
critical.
    NATO's leaders also created at Prague, as you both 
mentioned, the NATO Response Force. We need NATO forces 
equipped with new capabilities and organized into highly ready 
land, air and sea forces able to carry out missions anywhere in 
the world. And I believe that NATO can and, in appropriate 
circumstances, should undertake military operations outside of 
its traditional area of operations, as you have both called 
for.
    The NATO Response Force will be a force of approximately 
25,000 troops, with land, sea and air capability, deployable 
worldwide in 30 days. NATO leaders agreed that the NATO 
Response Force should be ready for exercises by October 2004 
and mission-ready by October 2006. It also needs to streamline 
its command structure.
    The third area, Mr. Chairman and Mr. Biden, that Prague 
talked about was new relationships. As you and I have discussed 
in the past, and I have testified, this third area of adaption 
and transformation is the growing web of partnerships that NATO 
has. And who could have imagined 10 years ago, when we worked 
so hard on Partnership for Peace, that when it came time for 
U.S. Forces and Coalitions Forces and NATO Forces to fight in 
Afghanistan, that all of these countries that had worked so 
closely with us in partnership for peace, would play such an 
important role in dealing with the Taliban and Osama bin Laden?
    In May 2002, President Bush, President Putin and other 
Allied heads of state and government inaugurated the NATO-
Russia Council. And since then NATO and Russia have been 
working on projects in key areas such as combating terrorism, 
in peacekeeping, and non-proliferation. And in fact, the 
Council sponsored an unprecedented civil emergency exercise in 
Russia, simulating a terrorist attack involving toxic 
chemicals, which brought together 850 first responders from 
more than 30 allied and partner nations. And we will continue 
to develop and expand our partnerships with willing States like 
Ukraine or others in Central Asia and the Caucasus.
    Mr. Chairman, you and the ranking member both referred to 
what I consider to be the bruising debate in February about 
defense for--support for Turkey under Article 4 of the NATO 
Treaty. The alliance in the end did arrive at the right answer. 
The Defense Policy Committee directed military assistance to 
Turkey to address a threat of attack from Iraq. And that 
military assistance is now in place. NATO deployed AWACs, 
Patriot missiles, nuclear, biological and chemical defense 
teams.
    And I think that we should not be in any doubt that that 
debate and that disagreement did damage the alliance. I think 
that Secretary General Robertson is right though, that it was a 
hit above the waterline and that NATO would recover. And 
Secretary Powell's visit last week to the alliance is part of 
that recovery.
    Because it is essential that NATO continues to knit 
together the community of European and North American 
democracies as an alliance of shared values and collective 
security, I believe it would be wrong to draw the conclusion 
that we should stop pushing NATO to change to address these new 
threats. Indeed, I believe that we should redouble these 
efforts. For, at the end of the day it is to NATO that we 
return to seek common ground and cooperation on the issues 
facing the transatlantic community.
    Mr. Chairman, thank you very much for the opportunity to 
make that statement.
    The Chairman. Well, thank you very much, Secretary 
Grossman.
    [The prepared statement of Mr. Grossman follows:]

 Prepared Statement of Ambassador Marc I. Grossman, Under Secretary of 
                      State for Political Affairs

    Mr. Chairman, Senator Biden, Senators, it is an honor for me to be 
before you today.
    We are grateful for your leadership, Mr. Chairman, and for Senator 
Biden's, on the issue of enlargement.
    You have offered opportunities for discussion on enlargement over 
the past several months. These meetings have been of value to me and to 
other Administration officials. Also, I would like again to thank 
Senator Voinovich for his participation in what was an historic NATO 
Summit in Prague in November.
    Let me begin by reporting on Secretary Powell's April 3 meetings at 
NATO.
    The Secretary met NATO and EU Foreign Ministers together and later 
with just NATO colleagues. He also met Secretary General Robertson, EU 
Presidency and Commission leadership, Ambassadors from the Vilnius-10 
countries and separately with nine Foreign Ministers. Twenty-one 
sessions in all!
    The Secretary's messages in Brussels were clear: first, we value 
NATO and the transatlantic partnership it anchors. Second, it is time 
to look to the future, including the stabilization and reconstruction 
of Iraq. The Secretary reminded NATO ministers of Deputy Secretary of 
Defense Wolfowitz's presentation to the North Atlantic Council last 
December, when he suggested that NATO roles could include peacekeeping, 
WMD security and destruction and delivery of humanitarian assistance. 
We remain open to a NATO role in Iraq. No commitments were made. No 
Ally raised objections to these possibilities. We will follow up with 
allies and see what, if anything, can be done.
    The Committee has heard testimony on NATO enlargement from people 
within and outside the Administration. There is broad support here and 
in the Alliance for this next stage of enlargement.
    For fifty years NATO has been the anchor of western security.
    The end of Soviet Communism did not diminish NATO's importance.

  <bullet> The democracies of NATO made and keep the peace in the 
        Balkans.

  <bullet> In 1999, NATO stopped ethnic cleansing in Kosovo.

  <bullet> NATO's just-completed mission in Macedonia has also brought 
        order to that new democracy.

    NATO responded to September 11 by invoking Article 5; an attack on 
one member will be regarded as an attack on all. NATO sent AWACS to 
patrol U.S. airspace, logging 4300 hours; 360 sorties, with 800 
crewmembers from 13 nations.
    Thirteen Allies now contribute to Operation Enduring Freedom.
    NATO Allies lead the International Stabilization force in Kabul.
    German and Dutch troops replaced Turkish troops in ISAF, who 
replaced British forces. Lord Robertson and some of our Allies would 
like to see NATO take a larger role in ISAF. As Secretary Powell said 
at NATO last week: ``NATO should also look at how the Alliance could 
play an even greater role in Afghanistan, up to and including a NATO 
lead for ISAF.''
    NATO is the central organizing agent for Trans-Atlantic 
cooperation. It represents a community of common values and shared 
commitments to democracy, free markets and the rule of law.
    NATO is key to the defense of the United States. And so NATO must 
continue to lead and to adapt.
    The November 2002 NATO Summit at Prague launched a transformation 
of NATO with a three part agenda: new members; new capabilities and new 
relationships.
                              new members
    My job today is to discuss enlargement, which is key to this 
transformation.
    At the Prague Summit, NATO leaders invited seven new democracies--
Bulgaria, Estonia, Latvia, Lithuania, Romania, Slovakia, and Slovenia--
to join NATO. In Brussels on March 26, NATO Ambassadors signed the 
protocols to begin the formal process of admitting the invitees into 
the Alliance. The President expects to forward the accession protocols 
to the Senate for its advice and consent on ratification in the coming 
days.
    I respectfully ask this committee to act swiftly and positively to 
this request.
    This enlargement will strengthen democracy and stability in Europe, 
revitalize NATO and benefit the United States.
    Enlargement will encourage and consolidate reforms in the seven 
invitees, expanding NATO's geographic reach and inducting seven 
committed Atlanticists, who already act as allies in Afghanistan and 
Iraq.
    The invitation to these seven states followed an intensive program 
of preparation under NATO's Membership Action Plan. The Alliance worked 
with the aspirants to encourage political, economic and military 
reform. There is still work to do in these areas and we continue to 
work daily with the aspirants on these issues. They are committed to 
further reform.
    These seven are committed to the trans-Atlantic Alliance. They are 
Allies in the War on Terror. They have contributed to Operation 
Enduring Freedom and to the International Security and Stabilization 
Force in Kabul.\1\
---------------------------------------------------------------------------
    \1\ See charts, ``Political and Military Contributions by NATO 
Invitee Countries,'' on page 161.
---------------------------------------------------------------------------
    At Burgas, Bulgaria provides basing for U.S. transport aircraft 
supplying Operation Enduring Freedom. Bulgaria also sent an Nuclear 
Biological and Chemical decontamination unit to Afghanistan.
    Estonia sent a team of explosive experts to Afghanistan.
    Latvia has contributed medical personnel to ISAF in Kabul.
    Lithuania deployed special operations forces to Afghanistan last 
year, and this year provided a team of medical personnel.
    Romania has an infantry battalion serving in Kandahar and military 
police unit and transport aircraft serving Kabul.
    Slovakia deployed an engineering unit to Kabul.
    Slovenia has provided assistance with demining in Afghanistan.
    They have all joined strong statements of support for U.S. policy 
and in some cases have lent support to United States military mission 
in Iraq.
    All of the invitees have committed to spending at least two percent 
GDP on defense, and as you can see, all seven already spend a higher 
percentage of their GDP than almost a third of the current NATO 
membership.\2\
---------------------------------------------------------------------------
    \2\ See chart, ``2002 Defense Spending,'' on page 165.
---------------------------------------------------------------------------
    Their publics strongly support NATO.
    On March 23, Slovenians went to the polls to support NATO 
membership. The Yes vote won with 66%. In, Romania, Bulgaria and the 
three Baltic states, support for NATO stands at above 70%.
    Together the invitees will also contribute as many as 200,000 new 
troops to the Alliance--approximately equal to the number added by 
NATO's last enlargement in 1999.
    What of future enlargements? The door to NATO should remain open. 
In his speech at Warsaw University in 2001, the President stated that, 
``all of Europe's democracies, from the Baltic to the Black Sea all 
that lie between should have the same chance for security and freedom 
and the same chance to join the institutions of Europe--as Europe's old 
democracies have''.
    We welcome the continuing pursuit of membership by Albania, Croatia 
and Macedonia. We will continue to consult closely with these nations 
on their Membership Action Plan programs as well as with others who may 
seek membership in the future.
                            new capabilities
    Mr. Chairman, enlargement is only one aspect of a much broader 
transformation launched at Prague and now being undertaken in Brussels.
    The most important challenge facing NATO is building its 
capabilities to face the modern threats of terrorism and weapons of 
mass destruction.
    The gap in military capabilities between the United States and 
Europe is the most serious long-term problem facing NATO.
    At the Prague Summit in November, NATO's leaders decided to close 
this gap.
    European Allies agreed to ``spend smarter,'' pool their resources 
and pursue specialization. For example:

  <bullet> Germany is leading a 10-nation consortium on airlift.

  <bullet> Norway leads a consortium on sealift.

  <bullet> Spain leads a group on air-to-air refuelings.

  <bullet> The Netherlands is taking the lead on precision guided 
        missiles and has committed 84 million dollars to equip their F-
        16's with smart bombs.

    This is a good start. Follow-through will be critical.
    NATO's leaders also created at Prague the NATO Response Force. We 
need NATO forces equipped with new capabilities and organized into 
highly ready land, air and sea forces able to carry out missions 
anywhere in the world.
    NATO can and, in appropriate circumstances, should undertake 
military operations outside its traditional area of operations.
    The NATO Response Force will be a force of approximately 25,000 
troops, with land, sea and air capability, deployable worldwide on 
thirty days notice. NATO leaders agreed that the NATO Response Force 
should be ready for exercises by October 2004 and mission-ready by 
October 2006.
    NATO also needs to streamline its command structure for greater 
efficiency.
                           new relationships
    The third area of transformation is the growing web of 
partnerships. Who could have imagined ten years ago, when we conceived 
Partnership for Peace that this program would repay such dividends in 
Central Asia, when the United States found itself at war in 
Afghanistan?
    In May of 2002, President Bush, President Putin and Allied heads of 
State and Government inaugurated the NATO-Russia Council.
    Since then NATO and Russia have been working on projects in key 
areas such as combating terrorism, peacekeeping, and non-proliferation. 
The Council sponsored an unprecedented civil emergency exercise in 
Noginsk, simulating a terrorist attack involving toxic chemicals, which 
brought together 850 first responders from more than thirty allied and 
partner nations.
    And we will continue to develop and expand our partnerships with 
willing states like Ukraine or those in Central Asia and the Caucasus.
    Mr. Chairman, in February, the Alliance went through a bruising 
debate about defense support for Turkey under Article 4 of the NATO 
Treaty.
    The Alliance did arrive at the right answer. The Defense Policy 
Committee directed military assistance to Turkey to address a threat of 
attack from Iraq. That military assistance is now in place: NATO 
deployed AWACs planes, Patriot missiles, and Nuclear, Biological and 
Chemical defense teams.
    This disagreement did damage the Alliance. It is my view, however, 
as Secretary General Robertson himself said afterwards, that this was a 
hit above the waterline and that NATO would recover. Secretary Powell's 
visit last week is part of that recovery.
    Because it is essential that NATO continues to knit together the 
community of European and North American democracies as an Alliance of 
shared values and collective security, it would be wrong to draw the 
conclusion that we should stop pushing NATO to change to address these 
threats.
    Indeed, we should redouble those efforts.
    For at the end of the day, it is to NATO that we return to seek 
common ground and cooperation on the issues facing the trans-Atlantic 
community.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. Let me mention again as you have, that the 
intensity of effort has proceeded with each of the seven 
applicant countries, in what might be called a perfection of 
their defense arrangements and their contributions to the whole 
and likewise, in some cases, sort of a tidying up of history.
    Without reference to the current seven, I remember in the 
case of the three States that came into NATO before, there were 
border disputes and ethnic problems and political leftovers. 
And it was a very good time, at least for both Europe and for 
the applicant States, to address these issues which the 
politics internally of those countries might not have permitted 
for periods of time. That has been the case again.
    The idea of Europe whole and free is a great deal more of 
both, it seems to me, through the process that has been 
undertaken. At the same time, one of the things that is most 
interesting, I believe, about the world currently is the failed 
State syndrome, or the situation in which States do not perfect 
what they are doing, or become more cohesive, democratic. 
Reference has been made critically of the United States as we 
assisted the Afghan tribes, Pakistanis, others, in war against 
the former Soviet Union in Afghanistan. As victory was assured 
and the Soviet troops were withdrawn, our troops were withdrawn 
fairly shortly thereafter. Not a great deal of interest was 
paid for a period of time. Some might argue that Afghanistan 
was never a failed State, but others would say, in fact, it had 
many of the symptoms.
    Among these were the ability of the al-Qaeda camps to set 
up operations. They could have appeared in various other 
places, but they sought a place that was more hospitable. 
Afghanistan proved to be that point and, therefore, suffered a 
war as they were pushed out and still continue to be pushed out 
in that case.
    As the situation in Iraq comes to a conclusion, one of the 
dawning issues is: Will Iraq be a successful State, or will it 
in fact take on some of the symptoms of a failed State? If the 
latter occurs, it is a much larger situation in both terms of 
geography, as well as population in Afghanistan.
    On the one hand, NATO, through Lord Robertson's initiative, 
has been attempting to address how NATO allies could be more 
effective in Afghanistan, a place that is some distance from 
Europe but clearly a part of the War Against Terrorism. The 
success of that State and all the intersections of life that 
come within the surrounding area are very important to our 
security. I applaud Lord Robertson's initiative in this 
respect. I am hopeful that that general idea will be adopted, 
as opposed to anxiety in 6 months as to which a European 
country, or whether any country, will step up to leadership in 
ISAF, including the United States. It seems to me that is an 
unfinished agenda, but an important one in which NATO's role 
could be very, very important.
    Now, I agree with the ranking member that in Iraq NATO's 
role could be very important. I do not want to engage in a huge 
argument that is off stage at least with this one about the 
future governance of the country. Nevertheless, the 
contribution that NATO might play seems to me to be fairly 
obvious. That may be true of some other places, which brings me 
to my question to you. The applicants as they approached NATO 
saw NATO, maybe as all of us did a while back, as a very strong 
alliance that defends Europe, a way in which the United States 
participates vigorously in that defense, having gone through 
two world wars, but now having had the success of 50 years of 
peace.
    Yet here we are in a world in which the threats may not 
always and maybe increasingly will not be, in the War Against 
Terrorism, nation States with return addresses, with 
responsible parties. The question of how that transition is 
made by NATO to the threat that each one of us have as 
transatlantic alliances, is absolutely critical.
    In the discussions that you or others in the State 
Department have had, or in our government with the applicable 
nations, what sort of discussions have proceeded about this new 
world in which we live? By this I mean, the world of terrorist 
cells, or organizations, subnational groups, the kinds of 
threats that seem to be obvious in the War Against Terrorism. 
What sort of preparation has come with any of the seven? Quite 
apart from the incumbent membership back in Brussels, I focus 
on the seven because this is an area in which, as you say, 
there has been a shaping of values, a strengthening of values 
and abilities. Can you comment on these preparations?
    Mr. Grossman. Yes, Senator, I would be glad to. First let 
me say in response to your opening comments, that I could not 
agree more that this goal and philosophy of a Europe, whole, 
free and at peace, has been a great magnet for people who want 
to join this alliance. And when I think back 10, or 11 years 
ago with people who had said, ``Well, the Warsaw Pact will 
break up. NATO has to break up as well,'' and of course, we are 
still having people want to join this club. And I think it is a 
very powerful tool for reform, and it is a very powerful tool 
for people to have goals.
    And as you say, if you look at the applicants, what they 
have done in the areas of Holocaust assets, Holocaust 
remembrance, dealing with their border, dealing with their 
neighbors, all of these things have been part and parcel of 
their desire to get into NATO.
    Second, I think that the issue of the failed States and the 
system around, and dealing with failed States is an extremely 
important one. NATO does not have the only responsibility 
there, but there are important things that our country can do 
in terms of your support, for example, for the Millennium 
Challenge Account, for dealing with HIV/AIDS, for making sure 
that we are supporting democracy and good governance around the 
world because those are important parts of dealings with failed 
States as well.
    I think, Senator, in terms of what these seven are getting 
into and know they are getting into, I think that anybody who 
realizes for NATO what the implication of the 11th of September 
was; when a terrorist operation can be planned in Afghanistan, 
refined in Hamburg, and then carried out in the United States, 
I believe that the out-of-area debate is over forever.
    And these States did not just turn up to be NATO members. 
They were in MAP. They were in Partnership for Peace. They knew 
what they were getting into. And the other reason I think they 
knew is because they watched the three earlier new members, 
Poland, Hungary, and the Czech Republic. And you will recall in 
April 1999, we signed them up, and as General Clark will 
remember, 2 weeks later they were at war. And so anyone who 
joins this alliance today I think realizes that this is serious 
business.
    The final thing I would say is that each of them have 
looked for a way to contribute to this future war against 
terrorism. Again, I would refer you to the chart and follow 
down the contributions to the war in Afghanistan, where each of 
them has brought some capability to this war. So our 
conversations with them about future threats are complete. Our 
conversations with them about future threats are honest, and I 
think that they have really stepped up, not only in niche 
capabilities, but in answering the call from this political 
military alliance.
    The Chairman. I want to make just a comment before I 
conclude my questioning about some of the values that have been 
helpful for us in the United States. I use once again maybe 
parochial anecdotal examples, but I was aware at the 
Indianapolis Speedway 3 years ago that Indiana had a strong tie 
with Slovakia. I was aware of this because the Commander of the 
Slovakian Armed Forces was there with some of his staff 
members. During the Armed Services celebration back in the 
infield, he wanted to have what amounted to a summit conference 
and literally set up a table in which we were there talking 
about the relationship between Indiana and Slovakia.
    At that point we did not have a strong relationship. As a 
matter of fact, many people in Indiana had not traveled to 
Slovakia, and were not aware of the virtues of the country; but 
not for long. With the National Guard units, hundreds of 
Hoosiers began going to Slovakia perennially, and some staying 
there for fairly large periods of time. They became strong 
advocates for Slovakia at a time in which the politics of the 
country were much more troubled than during the current 
situation. They demanded that the Members of Congress and 
others take an interest in the country, and also visit it.
    Now, it is a two-way proposition in which there is a 
learning curve on the part of the American public. Our support 
for NATO, our support for involvement of the countries, takes 
place in large part because of the missionary work of others.
    I cite just one more situation in a visit to Lithuania. It 
turned out that the hotel in which I was staying abutted to a 
very large facility, which I went next door I discovered was a 
huge basketball academy. It was founded by one of the NBA stars 
who comes from Lithuania and started this enterprise. That is 
very congenial for a Hoosier to begin with, to find 
productivity and hundreds of young people involved in it.
    Senator Biden. I knew that you would get basketball back 
into this somehow.
    The Chairman. So we have not forgotten. In any event, what 
I found also in the course of those conversations, was that a 
number of people, who were sort of hovering about the scene, 
were going to Florida that weekend. They were going to be in 
training with members of the National Guard of that State, and 
I think some people from Michigan were coming down. It was very 
sophisticated training. You know, the fact that people would be 
commuting from there to Florida over the weekend for Guard 
training and so forth, struck me as new. Nevertheless, I found 
that it is not, that the amount of interoperable situations 
going on here with our State organizations, our local people, 
are extraordinary.
    This is one reason why NATO has legs. The idea really is 
infectious when you have freedom and you have this kind of 
cooperation and the extension of the ideals and the training.
    I note that once again the Ambassadors of each of the seven 
States are with us today. I have spotted you as you have come 
in at various times, and we appreciate that. We acknowledge 
that and are delighted that you are a part of this hearing and 
have been, really, in all of our hearings as we have had these 
conversations.
    I yield now to my distinguished colleague, Senator Biden.
    Senator Biden. Thank you very much.
    I have a lot of questions and I will, I guess, submit some 
of them in writing. But this notion of NATO and Afghanistan or 
in Iraq, out of area, in your view do most of our NATO allies 
believe in order to make that decision, they need, in effect, 
an umbrella resolution from the U.N. authorizing that?
    Mr. Grossman. Senator, I would say for Afghanistan the 
answer to that is no. For Iraq, yes. I would say that if they 
were lined up here, to a person, they would look for some kind 
of legitimacy from the United Nations.
    Senator Biden. Now it seems obvious on its face why they 
would make that distinction, but explain to me, if you would 
for the record, why you believe they make that distinction.
    Mr. Grossman. I think that they would make the distinction 
because in their perspective what has happened in Afghanistan 
has legitimacy. Clearly around the world there is some 
involvement of the United Nations. There is continuing 
involvement of our forces in Operation Enduring Freedom. And 
ISAF has been going on now for 18 months, so people I think 
have accepted this.
    Iraq is something new and although we might not see it 
exactly that way, and I do not speak for obviously all the 
other governments, my assessment is that most of them would 
seek some United Nations legitimacy.
    Senator Biden. How would they explain Kosovo? There was no 
U.N. I mean, we went with a coalition of the willing and 
essentially NATO----
    Mr. Grossman. Right.
    Senator Biden [continuing]. Into Kosovo. And I must admit 
as General Clark will remember, I recommended to the President, 
among others--I was not the only one--to, since we could not 
get a resolution, just bypass it and go straight to go.
    How would they explain that they were willing to do it 
where they did not have the U.N. approval? That was--is it 
because it was in area?
    Mr. Grossman. That is part of it, I think. Part of it is, 
of course, that at that time, for them anyway, this was a much 
closer issue. But as you say, I mean, a number of countries, a 
large number of countries went with us into Kosovo, and I think 
we should remember that a large number of countries are with us 
in Iraq as well.
    Now I know that Senator Smith, when he was chairing the 
European Affairs Subcommittee, gave me a sentence that I have 
never forgotten, which he said, ``You know, the whole point of 
the lesson of World War II was never again, not never again 
unless there is a Security Council Resolution.'' And I think 
that is right, and that is the position of the United States. 
Security Council Resolutions, I believe, are important but they 
are not necessary if you have to take action.
    Senator Biden. There is a good deal of debate in the 
foreign policy community and among intellectuals in this 
country about whether or not the neo-conservative view, and I 
am not trying to--in the interest of time, I realize that is a 
generalization--that there is a significant difference in the 
threat perception on the part of NATO members, Europe, the EU--
they are different, I acknowledge--but from the European 
perspective about what threats are immediate and real in this 
world, and the U.S. perception of those threats. And a thesis 
that is emerging and gaining some significant credibility and 
adherents, is that it is a consequence of an imbalance in 
capabilities; that the Europeans, lacking the capability to 
meet these threats, are inclined to conclude that they are not 
real threats. We, having the capability because we have kept up 
at a considerable pace our military spending and modernization, 
are prepared to meet these threats and so we are prepared to 
acknowledge that they are imminent.
    And Mr. Kagan goes on to write in his book, he said, 
``There is more to the transatlantic gulf than a gap in 
military capabilities. And while Europe may be enjoying a free 
ride in terms of global security, there is more to Europe's 
unwillingness to buildup its military power than confront''--
excuse me. Let me start this over again. ``There is more to 
Europe's unwillingness to buildup its military power than 
comfort with the present American guarantee.'' And it goes on 
to say, ``Europeans over the past half century have developed a 
generally different perspective on the role of power and 
international relations. This perspective strings directly from 
the unique historical experience since the end of World War II. 
Consider again the qualities that make the European strategic 
culture; the emphasis on negotiation, diplomacy, commercial 
ties, international law over the use of force, the seduction 
over coercion, multilaterialism over unilateralism. As German 
Foreign Minister Fisher put in his speech outlining his vision 
of Europe, `The core of the concept of Europe after 1945 was, 
and still is, the rejection of the European balance of power 
principal and hegemonic ambitions of individual States that 
have emerged following the peace of Westphalia in 1648.' ''
    This treatise goes on to expand that notion that there is 
essentially, as I understand and to read it--maybe Mr. Kristol 
will clarify this for me if I am wrong--is that ``there is a 
genuine divergence of interest, perception and willingness to 
exercise force and the tools needed to deal with whatever 
threats are available. That it is''--because they go on to say 
it is ``ideological, beyond just the difference in threat 
capabilities.''
    So it leads me to this question: How do you explain the 
unwillingness, thus far, of the significant and most powerful 
nations in NATO to meet their commitments that they have made 
to modernizing and upgrading their capabilities, not just since 
Prague but actually since the late 1980s? Do you view it in 
these terms, that they view the utility of the use of force and 
power as somehow dangerous? Or I mean, if that is the case, 
then it seems to me that there is a fundamental problem that we 
have in NATO. Can you talk to that or speak to that a little 
bit?
    Mr. Grossman. I will do my best. First, Senator, I think it 
is important that, from my perspective anyway, that we not 
generalize too much about Europe and what Europe thinks and 
that Europe might be moving down a path that is----
    Senator Biden. Germany.
    Mr. Grossman. Well, but I think it is important, because I 
will come to that at the end. But you do have the eight 
countries, very important countries, who signed a statement in 
support of Operation Enduring Freedom. You do have the V-10 
countries. And so I think that there is a lot of public ferment 
in Europe, and a lot of difference in public opinion in Europe, 
but I would not generalize too much.
    And in a sense, one of the good things about this 
enlargement, that I hope that you all will be for, is we are 
bringing in countries who, I think, see the world very much in 
the way that we do and wish to act. I think the big distinction 
here is between countries who are not prepared to act, and 
countries who are prepared to act, and we need to have as many 
countries in the alliance as possible who are prepared to do 
something.
    Senator Biden. If I can stop you.
    Mr. Grossman. Yes.
    Senator Biden. But if you can define for me, by ``act''--I 
believe acting is in part made up of the willingness to spend a 
larger portion of their GDP in order to have capabilities.
    Mr. Grossman. I agree with you completely.
    Senator Biden. Then why have we not--I mean, do you 
anticipate that that will--that it is likely to change? What I 
worry about, quite frankly, is: With some of the larger, more 
powerful nations in NATO thus far refusing to act in building 
their military capabilities and the disparity widening between 
us and them, that the aspirant countries, although committed to 
act, once in will find it very difficult to be sort of the odd-
man-out in terms of actually, with their more limited 
capability, increasing their defense budgets in the face of 
what are growing domestic needs and concerns. I mean, a little 
example here, I am worried about which example they will 
follow.
    Mr. Grossman. I think for all of the reasons that you cite. 
First, I think that some countries do not want to spend more 
money. Second, there are countries who have different 
priorities and do not wish to invest further in defense. Third, 
I think, and you would have to ask them, is a lot of energy 
right now, of course, is going into this creation of the future 
of Europe. And you mentioned yourself, Senator, in your opening 
statement, this idea of the Belgians getting together with a 
few countries to have a defense capability.
    I think work outside of the NATO-EU relationship, work that 
tears down the alliance is greatly negative to us. So I do not 
think that these countries--and if you look at France for 
example, France is not a pacifist country. France is involved 
around the world militarily. France is a country actually that 
has increased its defense spending.
    And so what we need to do, all of us, as we have been 
trying to do, is make sure that people see the threats as we 
do, as transatlantic threats, and then work through NATO and 
through this NATO-EU relationship to get these challenges met.
    I think Germany--and again they would have to speak for 
themselves. Germany is a different question because it comes 
from a different history. But if you look at what the Germans 
were prepared to do in the Balkans, help in Afghanistan, 
continuing efforts in NATO, I think we can work our way through 
this and have an alliance that is prepared to meet its 
responsibilities.
    Senator Biden. With your permission, may I ask just a short 
followup question, with the permission of my colleagues?
    The Chairman. Yes.
    Senator Biden. Have all of the eight countries that signed 
the declaration on Iraq met their NATO capabilities 
commitments? Or have any of them? In other words, you know, you 
made the point, and it is accurate----
    Mr. Grossman. Right.
    Senator Biden [continuing]. That we had eight NATO 
countries sign on to a declaration supporting the effort in 
Iraq. I am just curious: Who among them, and if you want to do 
it for the record, has met their NATO capabilities commitments?
    Mr. Grossman. I would do it for the record. I mean, 
obviously some of them--I know off the top of my head, the 
answer to some of them is ``no,'' because they fall below a 2 
or 3 percent GDP defense spending ratio; for example, Denmark, 
for example. But people are making contributions in other ways, 
and I would be very glad to take that question for the record.
    Senator Biden. Good. Thank you very much.
    The Chairman. Thank you, Senator Biden.
    Senator Chafee.
    Senator Chafee. Thank you very much, Mr. Chairman.
    Thank you, Mr. Secretary.
    Mr. Grossman. Nice to see you, sir.
    Senator Chafee. I saw one former administration official 
refer to NATO as the ``Mother of all Coalitions.'' Is that what 
is envisioned? And what are the dynamics vis-a-vis the United 
Nations if that is the administration's direction?
    Mr. Grossman. Well I think that NATO is the greatest of all 
Coalitions. As both Senators said in their introductions, this 
is the greatest alliance that we have ever been involved in and 
the greatest political military alliance.
    And so I have always thought of NATO as the place you go to 
consult with your closest friends, the place you try to act 
with your closest friends, the place you try to put together 
military capability with those others who are prepared to act. 
And as I said to Senator Biden, my view is U.N. Security 
Council resolutions, the blessing of the United Nations, action 
with the United Nations are always desirable but not, in the 
end, necessary. And so I believe that if we have to act as we 
did in Kosovo, or if we have to act in a Coalition as we are 
today in Iraq, we will do that. And that is a very, very 
important part of the NATO alliance.
    For example, sir, who could have thought on October 7, 
2001, when we needed to act militarily with our allies in 
Afghanistan, that we would be knocking on the door of all kinds 
of countries in Central Asia, who, what do you know, had been 
with us in the Partnership for Peace for 10 years? Think how 
much harder that would have been to convince countries to join 
us had we not made that investment. And I think that investment 
pays off every single day.
    Romania, for example, is a country that deployed its own 
forces, with its own airplanes to Afghanistan. There are a 
number of allies, our present allies, who could not do that. 
The Bulgarians have let us stage out of Borgas in Bulgaria. The 
three Baltic States have each provided niche capabilities, but 
important capabilities, in Afghanistan and are prepared to in 
Iraq. So this is a tremendous organizing principle that we 
believe in, in NATO.
    Senator Chafee. Am I correct to assume, then, that there is 
a minimizing of the United Nations relationship that we have 
traditionally----
    Mr. Grossman. No, sir.
    Senator Chafee [continuing]. Had as we empower NATO 
further?
    Mr. Grossman. No, sir. All I was trying to say was that, in 
the end, when a decision has to be made by our President and 
our Congress, I think the rule that we would live by is that 
United Nations sanction, United Nations resolutions are 
desirable but not necessary.
    Senator Chafee. And now, how do you envision the rising 
influence of, in particular, India and the People's Republic of 
China, and as you look to the relationship with NATO?
    Mr. Grossman. Well, certainly NATO is not a threat to 
either of those countries. Very interestingly, the Chinese 
Ambassador has been reaching out to colleagues at NATO because 
they see, as PfP countries, that Central Asian States which are 
important obviously to Chinese security, are having this 
relationship with NATO and they would like to have a 
conversation, too.
    So I believe--I cannot speak for Lord Robertson. I think 
the alliance would be prepared to speak to anybody on any 
subject, but certainly the alliance is not a threat to either 
of those countries and we would welcome a conversation with 
either of them.
    Senator Chafee. I guess it comes back to my original 
question. It seems as though the United Nations, a traditional 
body after World War II for resolving our disputes, is slipping 
in stature as NATO rises. Disavow me of that thought if----
    Mr. Grossman. Well, with respect, sir, if you think of what 
President Bush did on the 12th of September of last year, we 
went to the United Nations General Assembly and made a speech 
about Iraq. And we spent 8 weeks then trying to bring together 
Resolution 1441, which I think was a great triumph for the 
United Nations and for the United Nations Security Council.
    But then when it comes to the inability of the Security 
Council then to act on 1441 which calls for serious 
consequences, then the United States and its Coalition partners 
felt the need to act. I believe, sir, that if a second 
resolution would have passed and the United States and its 
Coalition partners would have had that second resolution, we 
would have welcomed it. But it did not pass. Our President felt 
the need to act and I believe that was the right thing to do, 
sir.
    So I do not think these are in competition. I just want to 
be absolutely honest with the committee and not ever be in a 
position of saying that NATO would have to ask the United 
Nations' permission to act. I think that would be something 
that, I believe as I have understood this committee and 
certainly that I believe personally, would be a mistake.
    Senator Chafee. Yes, I understand what you are saying. My 
difference would be that the UN's failure to act--I would 
dispute that; I think they were acting. Resolution 1441 
certainly was stricter and the inspections were continuing and 
the President took a different course, decided not to go 
through the United Nations, and I just have a difference of 
opinion on that, of course.
    One more question as we look at the changes of--see more 
emphasis on NATO, where were the great failures of the United 
Nations? Post-World War II, you could argue that our great 
adversaries Russia and China are now our friends and allies 
with relative loss of bloodshed, some peripheral battles and 
skirmishes, conflicts if you will, but no great battles. We won 
the cold war through a policy of working the United Nations, 
working through nuclear deterrence and the bad word, 
``containment.'' Where were the failures?
    Mr. Grossman. Well, sir, first of all, I think the United 
Nations for the United States has been a wild success since the 
end of World War II. I am not here to bash the United Nations. 
I am not here to criticize the United Nations. All I was trying 
to do is be honest and say that there are circumstances in 
which I would not seek the permission of the United Nations if 
the United States or NATO had to act.
    And with respect, sir, I think part of the, not 
disagreement but the dialog that we are having, is that I do 
not believe the one organization was responsible for the total 
outcome of the cold war. It was a combination of those things. 
For example, you very rightly cited the very important impact 
of the United Nations on ending the cold war.
    I might say, sir, that in addition, there was a 50-year 
commitment of NATO to spend money on defense, to say that they 
would deter an attack by the then Soviet Union on the then 
divided Europe. I would say, for example, that the decision of 
NATO countries, a courageous decision and a very controversial 
decision at the time, to deploy INF missiles was one of the 
reasons that the Soviet Union gave it up.
    And so I think that the United Nations was an important 
part of this. I do not dispute that, sir. But I think that NATO 
played an important, a very important role in winning the cold 
war, as did the commitment of the United States and other 
counties to year, after year, after year, spend money on 
defense.
    I would say one other thing, if I could. We are today--
imagine it, we are today considering bringing into the alliance 
the three Baltic States, the three Baltic States whose 
incorporation into the Soviet Union, I think, was one of the 
great illegal acts of the last century. And for 50 years this 
country, our country, had a non-recognition policy and we stuck 
to it, and it was the right thing to do. And here we are now, 
the Soviet Union is gone, and we are going to bring these three 
countries into NATO. I think it is a remarkable achievement.
    And so, with respect, sir, the United Nations plays a role. 
Absolutely. But it was the determination of the United States, 
its allies and NATO, that also played an important role in 
winning the cold war.
    Senator Chafee. Thank you very much.
    Mr. Grossman. Thank you, sir.
    The Chairman. Thank you, Senator Chafee.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman, very much.
    I am supporting expansion of NATO. My own view has been 
since the day the Soviet Union ended that it would be great to 
have everybody in there, everybody including Russia eventually. 
How is Russia coming along?
    Mr. Grossman. Well, in its relationship with NATO, 
actually, Russia is coming along pretty well. As I testified--
--
    Senator Boxer. That is what I am talking about.
    Mr. Grossman. I am sorry. That is good because that is the 
one thing that I know about today.
    It is actually coming along pretty well. You will remember, 
Senator, that we signed the NATO-Russia Council Treaty.
    Senator Boxer. Yes.
    Mr. Grossman. Every week now, NATO Ambassadors, at 20, meet 
together. We are working with the Russians on issues of civil 
emergency planning, airspace management, weapons of mass 
destruction, and anti-terrorism. And as I testified, actually 
we just had a very big civil emergency planning exercise based 
on the release of a toxic chemical weapon in Russia in which 
850 first responders from 30 countries participated. And so I 
think this is going pretty well.
    We need to have some successes and then if we can, take 
this up to the next level. But as I testified here a year ago, 
we want this at-20 arrangement to be good for NATO and to be 
good for Russia as well.
    Senator Boxer. I wanted to support something you said about 
not making generalizations about Europe, like putting them into 
old Europe and new Europe. That is a generalization; it does 
not make sense. I never thought it did when the statement was 
made, and I think it is destructive.
    I also think it is important, whether you are talking about 
NATO or the United Nations, to realize that there are times 
when people do not see the issues exactly the way we do. We do 
not see the world the way they do either. So what is the 
problem?
    Mr. Grossman. Well, from my----
    Senator Boxer. I mean, what is all the angst? The fact of 
the matter is: Every single nation is going to see an issue in 
a different context given their relationship with a particular 
part of the world, given the views of their people, et cetera, 
et cetera. Why the vitriol when you are trying to live in a 
world where we have to work with our colleagues all around the 
world?
    This war on terrorism is with us forever and we cannot 
resolve it alone. So in this case of Iraq, we have got to be 
very careful, it seems to me, to respect other countries. We 
may not agree with them at all, but to go down a path of 
saying, ``Well, we do not really care what you think,'' you 
know, I think is very destructive and I just would like to hear 
your comments on it.
    Mr. Grossman. Sure. Let me make two comments, if I could. 
First, in terms of NATO and Iraq: The first thing I say is, of 
course, the NATO Council is not the Politburo, and we sit 
around the table with 19, and we hope some day with 26, other 
democracies. And so I think it is right for you to point out 
that if you believe in democracy, you have to believe in 
democracy. And these people come and they represent their 
governments and their people. Fair enough.
    Senator Lugar said in his opening statement that for 50 
years, you know, there really have not been that many 
controversies. But when I think back to NATO being thrown out 
of France in 1966, or the pipeline issues in the 1980s, the INF 
disagreements, people said, ``Oh, this is the end. It is all 
over. We cannot get through this,'' but I believe that we will 
get through this because we are a community of democracy.
    The second thing, Senator, on Iraq in particular, is that 
we have actually gone to the alliance now for 4 or 5 months and 
we have said, first in December and then last week when 
Secretary Powell was there, and we have said, ``Look, we think 
there are four or five ways that NATO could, could participate 
in Iraq. It could participate in weapons of mass destruction 
destruction. It could participate in peacekeeping. It could 
participate in humanitarian issues.''
    But we are not going to demand, or dictate that NATO do 
this because as the Chairman and the Ranking Member said, NATO 
has a choice to make. So when Secretary Powell was there last 
week, he said, ``These ideas, these possibilities are still on 
the table. We would like to work with you on them.''
    But the choice really is for NATO to make because we can do 
this without NATO. We would rather do it with NATO, but we are 
not here to dictate to NATO. NATO is a community of 
democracies. My own view is that I hope that NATO will say, 
``Yes,'' to these ideas because it would be good for us, good 
for NATO and put NATO clearly on the side of meeting future 
threats.
    Senator Boxer. Well, I think that it would be good if the 
whole world helped us in Iraq, to be honest. They owe $60 
billion in debt. That is a little lower than ours, but that is 
a big burden. Somebody has got to figure that one out. And 
given the destruction on the ground, et cetera, and given the 
fact that our people could be targets, I am very hopeful that 
NATO takes a role and I am very hopeful that the U.N. takes a 
role. I am very hopeful the whole world takes a role because I 
think it is better for us, frankly, and better for the Iraqi 
people in the end. So I think that is true. I have just one 
more question for you.
    Mr. Grossman. Please.
    Senator Boxer. And that is, I have for a long time been 
concerned, along with my colleagues on this committee, about 
the stability of in Afghanistan outside the main cities. And 
have we asked for NATO's help in taking a lead role in 
expanding the peace force there? Because, you know, clearly 
after September 11, NATO was so strong and so wonderful in 
invoking Article 5 of the treaty, and looking at September 11 
as a war against them. And it just seemed to me since this 
stability in Afghanistan is so important--if I said ``Iraq'' 
before, forgive me. I meant Afghanistan.
    Mr. Grossman. You said Afghanistan.
    Senator Boxer. I did? Good, because I am still a little 
jetlagged from coming back from California and the time change.
    So I just wonder--I know that they are studying the issue. 
But wait until you see it because I think, I have always said 
Afghanistan, we just cannot afford failure there. And with 
Iraq, we cannot afford failure there.
    Mr. Grossman. Agreed.
    Senator Boxer. I think the best way to protect against that 
is to get the largest number of nations to help us in these 
areas. So where do you see that peacekeeping force going and 
NATO's role in it?
    Mr. Grossman. I see it in two parts, Senator. First, that 
what we are trying to do today is to encourage the NATO 
alliance to take on, kind of, the core headquarters organizing 
mission of the International Security Force in Afghanistan. We 
have had over the last 18 months British Forces, followed by 
Turkish Forces, followed by German Forces, Dutch Forces, and we 
hope the Canadians will take over in the future.
    And of course, everyone said, ``Well, why reinvent this 
wheel very 6 months? Why have new headquarters and new 
arrangements when NATO could do this?'' And so one of the 
things that Secretary Powell really supported last week at NATO 
was NATO playing a larger role there at the core of the 
International Security Force in Afghanistan.
    The second part of your question though, since I want to be 
totally honest with you, the question of enlarging the role of 
ISAF is not yet a question for NATO. We are going to take this 
one thing at a time and see if we cannot get NATO to be the 
organizing principle. And then at some point in the future, who 
knows what will happen? There might be some expansion, but for 
the moment we have always said we are not opposed to this 
expansion, but so far there have not been very many volunteers 
to do it.
    Senator Boxer. Well, let me just take you on, on that. You 
know, I am so tired of hearing that, ``We do not oppose it.''
    You do not support it. I mean, that is--you know, you are 
just playing with words here, ``We do not oppose it.'' If we do 
not support it, it is not going to happen. I mean, let us face 
it; that is a fact.
    And the fact is that we have seen reports from all the 
folks there who talk to me all the time, they are banging down 
my door, and they are very worried about this long term 
stability. And I just--you know, this business of ``We do not 
oppose it,'' what does that mean? Do you support it? Do you 
support expanding it?
    Mr. Grossman. We would support it. I think we would support 
it if there were also other countries who were also prepared to 
do it.
    Senator Boxer. NATO.
    Mr. Grossman. Well, maybe that comes. But as I say, I do 
not want to--I want to stay within what we are doing here 
because the first step is to get NATO organized to keep the 
ISAF mission as it is, so that we do not waste a lot of energy 
reinventing this wheel every time. I really--I do not know how 
to speculate about the future. But I take your point and I 
would be glad to report it back and talk to Ambassador Burns 
about it. Fair question.
    Senator Boxer. Yes. I mean, I think to say that you do not 
oppose expansion, it just--I think we ought to support it and 
get that country in a safer mode----
    Mr. Grossman. Right.
    Senator Boxer [continuing]. Because we cannot afford that 
country to explode.
    Mr. Grossman. I think there are though, Senator, just--and 
I do not mean to be in an argument with you, but there are 
other ways that we are trying to expand security. For example, 
we and the French are together trying to train the Afghan 
National Army, and battalion after battalion of that Army is 
being trained. And they will, I think, go out and bring the 
writ of the central government in Afghanistan farther and 
farther.
    Senator Boxer. I know that is coming along very slowly, but 
I understand that.
    Thank you.
    The Chairman. Thank you very much, Senator Boxer.
    Senator Sununu.
    Senator Sununu. Thank you, Mr. Chairman.
    I have an issue, or at least a first question, about some 
of the language that was used. And I think it was used in the 
exchange between you and Senator Biden and I am not finding 
fault with either of you, but I want to clarify the language.
    You each talked about a willingness to act, a refusal to 
act, as if acting were somehow an arbitrary or subjective 
choice of the NATO members within the alliance. Now, it would 
seem to me that alliance members ought not to be making an 
arbitrary choice whether or not to act or not act, but they 
ought to be making their decision within the context of an 
alliance framework that explicitly states circumstances and 
conditions, and opportunities under which alliance members 
would be expected to participate. And certainly there may be 
disagreements about level or type of participation, strengths 
and weaknesses. And all of this discussion about changing the 
role of a specific alliance member is part of that.
    But as NATO is constructed, does it not make sense to call 
for action under a consistent set of terms, a consistent 
framework that is applied from circumstance to circumstance?
    Mr. Grossman. Yes, sir. That said, NATO is also flexible 
enough to recognize that, for example, when in February there 
was this challenge over NATO support for Turkey, when it could 
not be done in the North Atlantic Council at 19 members, NATO 
had the capacity to then meet in the Defense Planning Committee 
at 18 members, and take this decision. And so there was a 
country in that case that chose not to act, and I have to let 
them explain why they did not do that, but we did not let the 
alliance be frozen in that case.
    Senator Sununu. I understand that, and it would seem to 
me--I am not asking you to speak for them. But in that 
circumstance the argument against action would, or certainly 
should be that a country does not believe that a specific 
action is in keeping with the framework the alliance, the 
charter that is again applied consistently from time, and not 
that it just does not want to act in this particular case. It 
is not just refusing to act; it is making a coherent argument 
that a specific action is not in keeping with the alliance's 
charter.
    Mr. Grossman. Yes, sir.
    Senator Sununu. Are those the arguments that were put 
forward? I do not claim to have followed the discussion and the 
debates over that authorization so closely that I know the 
specific arguments put forward by France.
    Mr. Grossman. No, and I am not here to speak for France. 
The French Ambassador, I know, would be glad to visit with you 
all.
    But I think in this case it goes back to the conversation 
that I was having with Senator Chafee, which is: The argument 
that France was making is that it was not time for NATO to act 
in defense of Turkey because it presumed what might or might 
not happen at the United Nations. And here, sir, is a 
particular case where it was not an argument about NATO. It was 
an argument about the relationship between NATO and the United 
Nations.
    Senator Sununu. And that is precisely my next point. Again, 
you are not speaking for France, but that is a different point, 
a different argument than arguing that this is not in keeping 
with our alliance. You are suggesting an argument that said, 
``This may be keeping with our alliance, but we want the U.N. 
to go first.''
    And I have an even greater problem with that argument 
because to suggest that U.N. authorization is ever required as 
a precondition to NATO action is to suggest that, by virtue of 
their veto in the Security Council, China and Russia who are 
partners of ours in a number of areas--but that is to suggest 
that China and Russia should always have veto power over the 
choice of NATO to act. Is that a fair characterization?
    Mr. Grossman. I believe that the United Nations should 
never have veto power over the capacity of NATO to act.
    Senator Sununu. But, well, if they have--if the Security 
Council, though, is called on to be asked to authorize any NATO 
action, that is by definition, because of the way the Security 
Council operates, giving veto power to those countries.
    Mr. Grossman. Yes, sir. But it is the position of the 
United States, and I believe very much backed by most members 
of this committee, that United Nations Security Council 
resolutions are desirable but not necessary, and they----
    Senator Sununu. I understand your position, and I 
understand the position and I agree with it.
    Mr. Grossman. Yes, sir.
    Senator Sununu. I am just trying to clarify that we have a 
situation where, if these characterizations are fair we have 
members of NATO arguing----
    Mr. Grossman. Yes, sir.
    Senator Sununu [continuing]. That it is no longer the 
charter and the framework of the charter, and even the 
interpretation of the charter that should govern actions and 
choices for actions; but that in addition to that, we should be 
providing members of the United Nations Security Council with a 
vote and, specifically non-NATO members, with a veto power of 
the authorization of those actions.
    Mr. Grossman. I think--I am sorry.
    Senator Sununu. I think we are in agreement, but----
    Mr. Grossman. Yes, sir.
    Senator Sununu. I think that is a very important 
distinction and I think that is an issue that--and obviously, I 
suppose, to state the obvious, needs to be resolved within the 
NATO membership as we move forward. And it is an expectation, 
and it needs to be resolved because it is part and parcel of 
the expectations for action that those who are being asked to 
join NATO will have.
    And I think the expectations for action in-area or out-of-
area are critical here. The framework for those actions are 
critical because you need to set expectations and be clear 
about expectations when they join and that will help us avoid 
internal conflicts later on. Any comment?
    Mr. Grossman. Yes, sir, I would like to comment. I just 
want to repeat again that it is our policy that we would not 
seek the--we would not feel the necessity to seek authorization 
of the United Nations for NATO action. Desirable but not 
necessary is our policy.
    And I will say, sir, that this of course is not a new 
issue. And, in fact, with a very strong backing of this 
committee when we walked up to the NATO summit in 1999, this 
was ``the'' main issue in the drafting of the New Strategic 
Concept. And I can remember testifying in front of this 
committee, and the committee saying to me that ``If you allow 
any language in that Strategic Concept which says that it was a 
must for NATO to be authorized by the United Nations,'' I think 
a number of Senators here said that they would sponsor the 
resolution to have me fired, and us to walk away.
    So this is a very strongly held position certainly of me 
personally, I believe of the administration, and I would say, I 
think, of the leadership of this committee.
    Senator Sununu. A second question in my mind flows out of 
the importance of setting these expectations, is then to define 
the circumstances under which we undertake out-of-area 
operations. In your testimony you say that in appropriate 
circumstances--we should not have to take military operations 
outside the traditional area of operations.
    Can you describe in a little bit more detail, with a little 
bit more clarity, what those circumstances are, or how you 
would define them on a consistent basis, what test you would 
apply? Because I do believe it is important that new members 
understand what those tests will be in the future.
    Mr. Grossman. I believe the most important test is the test 
that is in the NATO Treaty, which is a threat to the territory, 
the integrity, the system of a NATO member.
    And for example, I would go back to the conversation that I 
was having with Senator Boxer. I believe that the fact that we 
are here in 2003 thinking about a NATO role in Afghanistan, a 
NATO role in Iraq, defines what this new NATO is going to be 
all about. I mean, I have either the benefit or the lack of 
benefit, as you look at it, from having lived in this alliance 
for a very, very long time. And people, you know--it was 
unimaginable that NATO would act outside a very strict area, 
but as I say----
    Senator Sununu. I am sorry. When was it unimaginable that 
NATO would act outside of a certain area?
    Mr. Grossman. Up until the middle of the 1990s. And again--
--
    Senator Sununu. And how and when did that perception 
change?
    Mr. Grossman. I believe, sir, that it changed as we 
headed--well, first, it headed--it changed because of the 
failure of the international community in the Balkans, and then 
the return of the international community to the Balkans. And 
General Clark can speak to this much better than I, but the 
readiness of NATO to act to stop ethnic cleansing in Kosovo in 
1999. And I also believe that the debate over the new strategic 
concept of NATO in 1999, which put in, what, terrorism, weapons 
of mass destruction, are all transnational issues. And if you 
are going to attack them you have got to do that outside of the 
area.
    Senator Sununu. But is it not fair to say that even prior 
to the middle of the 1990s, that out-of-area action would 
certainly be, not anticipated, but understood to be a potential 
by the NATO members? And out-of-action in Eastern Europe, out-
of-action in the former Soviet Union, at a time and a place--if 
there were a defense threat, if there were an attack on a NATO 
member, that could certainly lead to out-of-area action in 
Eastern Europe and Russia. It would seem to me that it is not 
that it was never contemplated before 1995; it is that that is 
a particular area in which NATO action was not previously 
contemplated. I do not see anything necessarily new about the 
concept of out-of-area; it is just the concept of these 
particular areas, which prior to the early 1990s, were not 
necessarily viewed to be a direct national security threat to 
NATO members.
    Mr. Grossman. Fair enough. I think that it is both 
geography and the threat. These weapons of mass destruction, 
that is not necessarily a threat from a certain geography. 
Terrorism, as I said, you have something planned in 
Afghanistan, refined in Hamburg, carried out in America, that 
is not a geographic question.
    When I think back on it--you know, memory is always a 
tricky thing. When I think back on it, I think if I had been 
testifying here 10 years ago, the question of out-of-area would 
have been much, much more controversial, Senator, and I think 
that it is a good thing that it is not.
    Senator Sununu. Well, maybe I am putting too fine a point 
on it, but the question of out-of-area would have been a much 
more complicated question, or controversial question?
    Mr. Grossman. Controversial, yes, sir.
    Senator Sununu. Or the question of acting in Iraq, or 
Afghanistan? Because I do not think the question of NATO acting 
in Eastern Europe at the time, you know, in 1989, or 1985, or 
in 1980, would have been very controversial or the question of 
NATO acting in the Soviet Union, or the question of NATO acting 
in various parts of the Pacific. I do not think those 
necessarily would have been controversial.
    Mr. Grossman. Well, I would have agreed with your comment 
all the way up to the Pacific. With respect, I think anything 
out--15 years ago, 10 years ago, anything that was out of a 
very strict definition----
    Senator Sununu. You do not think that if China in the 
1950s, 1960s, or 1970s, posed a significant security threat to, 
say, the United States?
    Mr. Grossman. It is hard to look back. It is hard to 
speculate, but I do not--no, I do not believe that would have 
been a NATO----
    Senator Sununu. Fine. I will withdraw the point about the 
Pacific. But you understand my point, that this--the out-of-
area concept, I do not see as being that new, or dramatic, or 
different. It is the areas and the new threats that have 
emerged in the last 10 years that are new and different.
    And the distinction here, I think, is somewhat important 
because when you start talking about out-of-area, people think 
that you are radically changing, or reinterpreting the charter, 
or coming up with some totally new role, or responsibility for 
NATO, when the core mission remains a defensive security 
alliance of like-minded Nations.
    Mr. Grossman. Absolutely correct.
    Senator Sununu. Thank you, Mr. Chairman.
    The Chairman. Let me just intervene temporarily without 
getting involved in the discussion. But I just remember giving 
a number of speeches and papers in 1993, and the idea that 
routinely, or even at all, NATO would act out-of-area was very 
controversial. As a matter of fact, most countries simply did 
not believe it at all. They were adamant about the question. 
And in fact, it was so controversial, that it really did not 
arise as a point of changing the doctrine, even as we moved 
toward the first tranche of new members. And we had had that 
experience already in Desert Storm before, in which we had sort 
of a pick-up of volunteers, coalition of the willing of sorts, 
in those days.
    But in any event, it is an important discussion because 
clearly the statement you have made today is: The issue is 
pretty well passe. We are out-of-area, at least if we are 
serious about terrorism and the rest of the world. But a lot 
has changed in 10 years and you have been testifying right 
throughout that period of time.
    Mr. Grossman. Yes, sir.
    The Chairman. Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman. I appreciate the 
Secretary being here.
    Let me follow on in this context of the community of 
democracy which you stressed. Are these expectations that we 
have been talking about which I guess are a proxy for the 
mission of NATO--do you believe that they are fully 
established?
    Is there a consistent understanding of what those 
expectations of all members, are or is it to be debated in each 
individual circumstance, out of area being one of those issues 
or the nature of preemption as opposed to defensive responses? 
Is it understood in all of those various areas that the 
Secretary talked about last week, whether it is weapons of mass 
destruction destruction, or humanitarian aid or peacekeeping 
operations, nation-building operations? How does this community 
of democracies have a solid set of expectations in all of those 
various areas if we are dealing with generalities?
    Mr. Grossman. Two points, sir. First, I think in terms of 
the expectations of the seven countries we are talking about 
now, their expectations are very clear. And the reason is that 
we did a better job this time than we did the last time because 
we had what was called the membership action plan, and so 
countries have very clear goals in terms of their political, 
military, economic reforms programs. And so you would obviously 
have to ask them because they are represented here, but I doubt 
that any Ambassador to Washington from any of these countries 
or any Foreign Minister or Defense Minister has any 
misunderstanding about what the deal is here.
    If you talk though, second, about these future issues, 
``What do you do in Iraq? What do you do in Afghanistan?'' the 
way this particular community of democracies sets its 
expectations is the way that you would want us to, which is 
through the debate of these things.
    I mean, as I answered Senator Boxer, the Secretary went to 
NATO last week. He did not demand or say, ``You have to 
participate in Iraq.'' He said, ``Here are four or five ways 
that this alliance could become involved. These issues are on 
the table. Let us debate this thing and decide what NATO wants 
to do.''
    So once these countries are in, they are full partners in 
the conversation about what future expectations might be like.
    Senator Corzine. And what checks and balances are there to 
any individual or group of nations inside the coalition with 
respect to judgments they take with respect to any of those 
difficult choices that may be on the agenda?
    Mr. Grossman. I do not know if I would describe it exactly 
as a check and balance, but I believe that for over 50 years 
the consensus principle has worked at NATO to bring decisions 
rather than to deny them. And in a sense, you think maybe that 
is counter-intuitive. But I think people who sit around that 
table have made their commitment to the alliance, have these 
moral and political commitment to one another, are looking for 
ways to come to some agreement. Does it always work that way? 
No, sir.
    Senator Corzine. Is there a commitment to defense, or is it 
commitment to all of these other extensions? I think this gets 
at that question about where we were with out-of-area actions. 
People may have felt that they had a commitment that was 
different 15 years ago than they do today with regard to those.
    Mr. Grossman. Maybe so. But I think, sir, that people felt 
that they had a commitment that was different when the alliance 
was formed in 1949. I think one of the great things about NATO 
has been how it has had the capacity to adapt. I mean, the 
threat today is not the same threat that it was in 1949, and 
yet, we do not have members bailing out and saying, ``Hey, I 
signed up to fight the Soviet Union. No more Soviet Union, I am 
out of here.''
    We have countries, in fact, wanting to join this alliance 
because the new threats that we have are key to them as well. 
So we are not holding anybody there at that alliance in chains. 
And I think if it ever came to it--I cannot imagine, but if it 
ever came to it, that someone would say ``This alliance no 
longer fits my world view,'' we are not going to strap them to 
their seat. But again, I believe that the consensus principle 
and the solemn commitment people make to collective defense and 
this community of values--because community is actually what it 
is--holds people together. It keeps them at the table. It keeps 
them trying to come to make a solution, and that is right.
    Senator Corzine. And you find no grave risk of that 
community of values fraying and breaking apart in the current 
circumstances and debate about preemption.
    Mr. Grossman. On the contrary, Senator Corzine, I think the 
fact that over the last x number of years, ten new countries 
have wanted to join this alliance as actually a reinvigoration 
of that community of democracies. I know when I sit around the 
NATO table and I look at countries who 20 years ago were 
dictatorships and 20 years ago were Warsaw Pact members and 20 
years ago were run by somebody else and the fact that they are 
today making their own decisions, that is a huge reinvigoration 
of the alliance and also I think a great reflection on the 
alliance's importance in the future. So I would see it exactly 
the opposite, sir.
    Senator Corzine. I am not necessarily claiming one view or 
another, but I do believe that you could make the case that 
Senator Chafee did, that other strategic principles led to the 
evolution of these democracies and changes that were brought 
about and, therefore, one might argue that there are principles 
at work that have worked that may be effective in the future.
    I appreciate it very much.
    Mr. Grossman. Thank you, sir.
    The Chairman. Thank you very much, Senator Corzine.
    We much appreciate your testimony, Mr. Grossman.
    Mr. Grossman. Yes, sir.
    The Chairman. Thank you, as always, for your strong 
advocacy and leadership. We look forward to your reappearances 
before our committee.
    Mr. Grossman. Anytime. Thank you very much.
    The Chairman. The Chair would like to now call Mr. Kristol 
and General Clark.
    As both the ranking member and I have mentioned in the 
introduction of our hearing today, we are especially fortunate 
to have both of you before us. You both have distinguished 
records of public service and important ideas on the subject in 
front of us. I would like to ask you to testify first, General 
Clark, and then followed by Mr. Kristol. In the event that you 
wish, your full statement will be made a part of the record in 
full. That will be true for both of you. You may proceed as you 
wish.

STATEMENT OF GENERAL WESLEY K. CLARK, USA (RET.) FORMER SACEUR, 
  CHAIRMAN AND CEO, WESLEY CLARK & ASSOCIATES, LITTLE ROCK, AR

    General Clark. Well, thank you very much, Mr. Chairman, and 
members of the committee. It is a real pleasure to testify 
before you today. I really appreciate this opportunity, and I 
want to thank you for all of the support that you have given me 
and the members of my commands during the time that I served in 
uniform.
    I came here several times and I remember the very strong 
support this committee gave for the previous round of NATO 
enlargement, the depth of your questions, your concern and I 
think it was much appreciated by those of us who served in the 
alliance at the time.
    For those of us who served in the alliance the prospect of 
adding these seven new members is a dream come true. We watched 
as these nations of Eastern Europe shook off the legacies of 
communism and struggled to find their way to the West. In that 
struggle, the prospect of NATO membership, and its promise of a 
security association with the United States, was a very strong 
motivating factor. And so we are moving to fulfill their hopes.
    I want to congratulate and applaud the work of both 
administrations, the Clinton administration and the Bush 
administration, in making this day possible. And I especially 
want to congratulate the Armed Forces, the governments and the 
peoples of the seven prospective new members of NATO, Estonia, 
Latvia, Lithuania, Slovakia, Slovenia, Bulgaria, and Romania. 
Your hard work and dedication to the principles of democracy 
and liberty has made NATO membership--the prospect of NATO 
membership possible.
    Mr. Chairman, I would like to have the full statement that 
I submitted put in the record, but if I could just summarize 
some key portions of it now.
    We are meeting at a time of both great hope for these seven 
new members but also a time of great danger for NATO because 
NATO today is at risk. It is an organization in search of a 
mission, actually in despair at the lack of a mission.
    It was excluded from intimate participation and support of 
the United States' war on terror in 2001. It was apparently, 
although I was not on the inside, excluded from early planning 
and engagement in the war against Iraq, despite the fact that 
its member nations could clearly see the planning moving ahead.
    It became an afterthought, an organization to which we 
turned at the end. It was a kind of resource bank from which 
the United States could draw support from the under-committed 
or unprepared or those who were not on the inside, a sort of 
clean-up organization, to follow on after the United States did 
the hard work of protecting its security.
    As one official told me wryly last year, ``NATO, Keep the 
Myth Alive.'' Recently, as NATO members have quarreled publicly 
and angrily about matters of war and peace, it is brought back 
to the fore again, what many in this country have concluded 
about the alliance, that it is an organization whose time has 
passed, that the issues which divide the United States from 
Europe are too broad to be bridged by an old treaty and an 
experienced bureaucratic process.
    This group charges that the old allies contribute too 
little, our respective attitudes are too different, and the 
focus of American security interests lies elsewhere. Mr. 
Chairman, this is not a dispute about NATO; this is a debate 
about the nature of America's interests abroad and how we 
should pursue them.
    This is a question about American leadership, not about the 
alliance. In this debate, one group apparently believes that 
with the end of the cold war, our purposes in Europe were 
essentially finished, that the countries there have no real 
choice but to support the broad outlines of American policy and 
that, therefore, our most important work is now centered on the 
Middle East and Asia, where we are most likely to fight.
    They have looked to there, rather than the old countries of 
Europe, as the vital areas of engagement. They see troop 
deployments oriented toward potential theaters of war as 
critical. They are prepared to use military power in coercive 
diplomacy and preventive conflicts. And they would reduce much 
of our half-century-old military presence in Europe. This is 
not a strategy that emerged in response to the terrorist 
strikes on New York and against the Pentagon, but rather it 
took advantage of those events to gain ascendancy.
    I see greater promise in a different approach. I love the 
men and women in the Armed Forces. We have got the greatest 
military in the world. I am very proud to have been able to 
wear our country's uniform for 34 years. But I believe our 
security as a Nation and the safety of every American is best 
enhanced by a broader and more visionary leadership which 
enlists capable and committed allies in support.
    I believe we are safer when we are liked than when we are 
hated, when we are respected, not when we are feared. I think 
American power should remain a wellspring of inspiration, not 
become a source of concern. At the end of the Second World War, 
when the United States was producing 50 percent of the world's 
gross domestic product and we had a monopoly on nuclear 
weapons, President Harry S Truman addressed the founding of the 
United Nations with this thought, that without new security 
structures we would never move beyond the philosophy of our 
enemies, namely, ``might makes right.''
    And he said to deny this premise, and we most certainly do, 
we are obliged to provide the necessary means to refute it. 
Words are not enough. He said we must, once and for all, 
reverse the order, and prove by our acts conclusively that 
``right has might.''
    And that was the logic behind the founding of the United 
Nations as the cornerstone of the international institutions of 
the post World War II world. And while it is certainly clear 
today that the American military is unchallengeable, we do not 
know what the future will hold. For all of our military 
strength, we are only 5 percent of the world's population, and 
other larger nations, particularly in Asia, are developing 
their own strength economically and their military potential.
    And we must conduct ourselves with the aim of not only 
dealing with immediate challenges but also establishing the 
precedents, procedures and institutions that we need for 
decades ahead. One of my predecessors in NATO, General 
Eisenhower, warned in his farewell address as President in 1959 
that ``America's leadership and prestige abroad depend not 
merely upon our unmatched material progress, riches and 
military strength, but on how we use our power in the interests 
of world peace and human betterment.''
    And those of us who have served in the Armed Forces have a 
full appreciation of the ultimate limitations of military 
power, no matter how capable and benignly led and directed. 
America's strength was really built on the strength of our 
economy and our values.
    Our economic strength has been the basis of our success in 
building allies and friends, opening markets, winning 
investors' confidence, and encouraging peace and stability 
worldwide. And that is the process that we must continue. We 
should be focusing our security efforts on how to prevent war, 
not on preventive war. Deterrence and containment are still 
largely valid concepts, even in the post-cold war world.
    This means focusing on ending both conventional and 
unconventional weapons proliferation, encouraging the peaceful 
resolution of disputes, and improving opportunities for all 
nations around the world to achieve some of the security, 
democracy and prosperity that Americans enjoy today. We should 
be seeking to prevent the emergence of frictions and tensions 
that might lead to conflict.
    When problems do arise, we should use diplomacy and 
economic measures first, and force only as a last resort. If 
fighting is necessary, we should aim to work multilaterally 
with strong allies if we can, and unilaterally only if we must. 
And in each of these tasks, we should expect the greatest 
potential for support from our friends and allies in Europe.
    These European nations reflect our values, share our 
heritage, and understand our culture and interests more than 
any others anywhere. Together, we are more than 600 million 
people, depending on where you draw the lines, half the world's 
GDP, and three of the five permanent members of the United 
Nations Security Council. Working together, we can assure 
prosperity and security for our people.
    Terrorism and weapons of mass destruction proliferation may 
change the nature of the threats we face, but they do not 
fundamentally alter the nature of the responses we should 
undertake.
    The U.S. military response against the Taliban and al-Qaeda 
in Afghanistan was essential, but there are clear limits to the 
role of military force in attacking terrorists as many of the 
terrorist cells have been embedded within our own allies, where 
we must work with information sharing, law enforcement, and 
their judicial systems to break up terrorist planning and 
activities.
    Doing this requires the closest harmonization of law, 
standardization of procedures, and a deep-seated trust that can 
only be built by unshakable bonds of collective security among 
allies. And when the Nation is in imminent danger, every 
American President has always had the authority and 
responsibility to consider the use of force preemptively, and 
many have done so.
    But this has not changed the broader pattern of 
international affairs with which we must be concerned, our 
interests in promoting trade, travel and commerce abroad; 
encouraging the free flow of capital and ideas; sustaining 
international institutions to end the burden of leadership, 
working difficult issues like trade and development, economic 
growth, environment and security.
    American leadership has traditionally sought the support 
and assistance of international institutions to spread the 
burdens and increase the legitimacy of necessary security 
measures, and to promote our broader interests as well.
    Mr. Chairman, NATO is one of these international 
institutions that has a critical role to play in assuring our 
collective security. It is a ``consensus engine.'' It reflects 
not only common interests between nations; it creates them. 
These member nations of NATO are our closest friends in the 
international world.
    It is the engine that binds us, converting national 
perspectives and issues into agreed alliance positions. Yes, 
for all of its multinational character, NATO is an American 
institution. It looks to us for leadership. It is effective 
only if it is diligently worked by American leadership, 
respected by our officials, and tended to carefully by our 
staffs.
    Much of that work is time consuming, inconvenient, and 
difficult and, some would suggest, out of all proportion to the 
military contributions of the alliance. But here is the point: 
NATO has never been a purely military alliance. It has always 
been fundamentally political, aiming at heading off war through 
deterrence and resolve and adding to the legitimacy of American 
efforts throughout the world.
    It has been the foundation for much of America's success. I 
believe that today, as we are moving beyond the Balkans and out 
of area with NATO, we should be putting NATO as the centerpiece 
of our efforts to deal with the issues of terrorism, 
proliferation of weapons of mass destruction, and peacekeeping 
beyond the borders of Europe.
    NATO could be ``multifunctionalized.'' It should serve as a 
consensus engine, not only for military diplomatic policy, not 
only focusing on a 25,000 man rapid reaction force, but helping 
us to harmonize laws and procedures to counter international 
terrorism, establishing common procedures for information 
security to strengthen efforts against proliferation of WMD 
and, of course, dealing with military requirements even beyond 
Europe.
    It was a great and very painful experience for me to go to 
one of our government offices not too long ago and be briefed 
on our efforts in the war against terrorism and find that our 
government considers two of our greatest problem countries to 
be Germany and Spain in dealing with the real problems with al-
Qaeda. I think we should be asking ourselves why that is and 
what we can do to strengthen their responses against al-Qaeda.
    The vision of NATO, I believe, remains to be achieved, but 
I think it presents the most important opportunity for this 
Nation and our leaders in forging international consensus and 
an effective effort against international terrorism.
    And I believe that enlarging NATO is an essential step in 
this direction. It will help us deal with the security threats 
that we face today. This enlargement, of course, began with 
fears of Russia. But fundamentally, NATO's enlargement is in 
Russia's interest as well.
    And we have helped Russia come to terms with the new NATO, 
and we are very appreciative that Russia does accept the 
concept of this enlargement. But NATO has proved itself a 
bulwark of stability for Europe as well. Each of the countries 
now under consideration for NATO membership has already played 
a crucial role in military operations and peacekeeping in the 
Balkans that I experienced when I was the NATO commander. And I 
want to particularly recognize the leadership and the courage 
of Romania and Bulgaria during the Kosovo campaign when they 
denied Russian air over flight requests during the crisis at 
Pristina airfield.
    It was the first time that these nations had ever been able 
to actually stand up to Russia or the Soviet Union and say 
``No,'' and they did. They said, ``No, you shall not pass.'' 
And they did not. And they kept their pledge.
    Gratitude, of course, is not a sufficient rationale for 
admitting these and other candidate nations into NATO. But I do 
believe that each of the nominated States has met NATO's 
criteria for membership in terms of stability, economic reform, 
democratic governance, civilian control of the Armed Forces, 
resolution of border disputes and lingering ethnic problems, 
and commitment to the rule of law and human rights. They have 
worked their military structures.
    They are embarked on a process of transformation that may 
take a decade, but they are ready to join the alliance, just as 
the first three were ready. Some have cited the relatively 
modest forces that the new members could contribute as cause 
for concern. But I have watched them move forward.
    I think they are making important steps. I think the costs 
are relatively insignificant of bringing them in in terms of 
financial burden on the United States, and I think they will be 
very strong members and supportive members of NATO's 
decisionmaking process.
    So, Mr. Chairman and members of the committee, I ask your 
support of NATO membership for these seven nations. I hope that 
you will not only support them but also report out your support 
for greater American efforts in the transformation of NATO, 
seeking to take NATO and move it forward to a new level as an 
institution central in the American effort to combat the 
threats in the world we deal with, not just a link between the 
United States and Europe, but the central international 
institution to take us forward to a new level of American 
security.
    The Chairman. Thank you very much, General Clark.
    [The prepared statement of General Clark follows:]

   Prepared Statement of General Wesley K. Clark, (USA Ret.) Former 
          SACEUR, Chairman and CEO, Wesley Clark & Associates

    Mr. Chairman, members of the committee, thank you very much for the 
opportunity to testify before you today. Thank you also for the support 
you have given to me and to other members of my commands during the 
time I had the privilege of serving in uniform. I have enjoyed working 
with you over the years, and I sincerely appreciate your inviting me 
back to testify here today on such an important matter as the future of 
NATO.
    It is truly a privilege to testify on the subject of NATO and its 
enlargement. For those of us who served in NATO command and policy 
positions over the past decade, the prospective addition of these seven 
new members is a dream come true. We watched as these nations of 
Eastern Europe shook off the legacies of Communism and struggled to 
find their way to the West. In that struggle, the prospect of NATO 
membership, and its promise of a security association with the United 
States, was a very strong motivating factor. Now we are moving to 
fulfill their hopes. I also applaud the work of both Administrations--
the Clinton Administration and the Bush Administration--in making this 
day possible. And, I especially want to congratulate the armed forces, 
the governments and the peoples of Estonia, Latvia, Lithuania, 
Slovakia, Slovenia, Bulgaria, and Romania; your hard work and 
dedication to the principles of democracy and liberty has made NATO 
membership possible.
    Unfortunately, NATO is once again at risk. It is an organization in 
search of a mission, excluded from intimate participation and support 
in the U.S. war on terror, excluded from early planning and engagement 
in the war against Iraq. For many, it has become an after-thought. As 
one official told me wryly last year, ``NATO--Keep the Myth Alive.'' 
Recently, as NATO members have quarreled publicly and angrily about 
matters of war and peace, some have looked at this organization and 
concluded that its time has passed, that the issues which divide the 
U.S. from Europe are too broad to be bridged by an old treaty and an 
experienced bureaucracy. They have charged that the old allies 
contribute too little, our respective attitudes are too different, and 
the focus of American security interests lies elsewhere.
    But this is at bottom not a dispute about NATO; rather, it is a 
debate about the nature of America's interests abroad and how we should 
pursue them. This is a question about American leadership. In this 
debate, one group apparently believes that with the end of the Cold 
War, our purposes in Europe were essentially finished, that the 
countries there have no real choice but to support the broad outlines 
of American policy, and that therefore our most important work is now 
centered on the Midddle East and Asia, where we are most likely to 
fight. They have looked there, rather than the old countries of Europe 
as the vital areas of engagement. They see troop deployments oriented 
toward potential theaters of war as critical; they are prepared to use 
military power in coercive diplomacy and preventive conflicts; and they 
would reduce much of our half-century-old military presence in Europe. 
This strategy did not emerge in response to the terrorist strikes on 
New York and the Pentagon, but rather took advantage of those events to 
gain ascendancy.
    I see greater promise in a different approach. I believe our 
security as a nation, and the safety of every American, is best 
enhanced by a broad and visionary leadership, which enlists capable and 
committed allies in support. We are safer when we are liked, not when 
we are hated, when we are respected, not just feared. American power 
should remain a wellspring of inspiration, not become a source of 
concern. As President Harry S Truman stated at the founding of the 
United Nations in 1945 [without new security structures] . . . ``we 
will be forced to accept the fundamental philosophy of our enemies, 
namely, that Might Makes Right. To deny this premise, and we most 
certainly do, we are obliged to provide the necessary means to refute 
it. Words are not enough. We must, once and for all, reverse the order, 
and prove by our acts conclusively, that Right Has Might.''
    And while it is certainly clear that today, the American military 
is virtually unchallengeable, we cannot know what the future will hold. 
For all our military strength, we are only 5% of the world's 
population, and other, larger nations, particularly in Asia, are 
developing their own economic strength and military potential rapidly. 
We must conduct ourselves with the aim of not only dealing with 
immediate challenges but also establishing the precedents, procedures 
and institutions that we need for decades ahead.
    One of my predecessors in NATO, General Dwight D. Eisenhower, 
warned in his farewell address that ``America's leadership and prestige 
depend, not merely upon our unmatched material progress, riches and 
military strength, but on how we use our power in the interests of 
world peace and human betterment.'' And those of us who have served in 
the Armed Forces have a full appreciation of the ultimate limitations 
of military power, no matter how capable and benignly led. America's 
strength was really built on the strength of our economy. And our 
economic strength has been based on our success in building allies and 
friends, opening markets, winning global investors' confidence, and 
encouraging peace and stability world-wide, even as tens of thousands 
of American manufacturing and service jobs continues to flow overseas 
to lower cost areas.
    We should be focusing our security efforts first on how to prevent 
war. Deterrence and containment are still largely valid concepts, even 
in the post-Cold War world. This means focusing on ending both 
conventional and unconventional weapons proliferation, encouraging the 
peaceful resolution of disputes, and improving opportunities for all 
nations around the world to achieve some of the security, democracy and 
prosperity that Americans enjoy. We should be seeking to prevent the 
emergence of frictions and tensions that might lead to conflict. When 
problems do arise, we should use diplomacy and economic measures first, 
and force only as a last resort. If fighting is necessary, we should 
aim to work multilaterally with strong allies if we can, and 
unilaterally only if we must. And in each of these tasks, we should 
expect the greatest potential for support from our friends and allies 
in Europe.
    These European nations reflect our values, share our heritage, and 
understand our culture and interests more than any other country. We 
are together more than 600 million people, approximately half of the 
world's GDP, and three of the five permanent members of the United 
Nations Security Council. Working together, we can assure prosperity 
and security for our people as well as most of the world.
    Terrorism and weapons of mass destruction may change the nature of 
the threats we face, but they do not fundamentally alter the nature of 
the responses we should undertake. The U.S. military response against 
the Taliban and Al Qaeda in Afghanistan was essential, but there are 
clear limits to the role of military force in attacking terrorists; 
many of the terrorist cells have been embedded within our own allies, 
where we must work with information sharing, law enforcement, and their 
judiciaries to break-up terrorist planning and activities. These 
activities require the closest harmonization of lows, standardization 
of procedures, and deep-seated trust among allies.
    When the nation is in imminent danger, every American President has 
always had the authority and responsibility to consider the use of 
force preemptively, and many have done so. But this has not changed the 
broader pattern of international affairs with which we must be 
concerned--American interests in promoting trade, travel and commerce 
abroad: encouraging the free flow of capital and ideas; and sustaining 
international institutions to ease the burdens of leadership in working 
difficult issues like trade and development, economic growth, the 
environment and security. American leadership has traditionally sought 
the support and assistance of international institutions to spread the 
burdens and increase the legitimacy of necessary security measures, and 
to promote our broader interests as well.
    NATO, one of these international institutions, has a critical role 
to play in assuring our collective security. NATO is itself a 
``consensus engine'' able to convert disparate national interests into 
common NATO policy. It not only reflects common interests between 
nations, it also creates them. These member nations of NATO are our 
closest friends in the international world. NATO is the engine that 
binds us, converting national perspectives and issues into agreed 
Alliance positions through a proven system of issue papers, council 
meetings ministerial meetings and summitry.
    Each nation in NATO is represented by an Ambassador, who brings 
national perspectives and concerns, into a formal and informal system 
of consultations and meetings to calibrate differences, seek 
compromises, and build consensus. International staffs analyze national 
issues and positions to help formulate policies to achieve consensus 
and govern implementation. Alliance military headquarters, with very 
strong U.S. participation and leadership, are available to provide 
military advice, and to conduct military operations with the forces 
that nations provide.
    Yet for all its multinational character, NATO is essentially an 
American institution. We not only took the lead in organizing and 
sustaining it, we also are its largest stakeholder and major 
contributor. Organizationally it looks to us for leadership. NATO is 
effective only if it is used diligently by American leadership, 
respected by our officials, and tended carefully by their staffs. Much 
of the work is time consuming and inconvenient, and many would suggest, 
out of all proportion to the military contributions that the Alliance 
can add to U.S. capabilities.
    But here is the point: NATO has never been purely a military 
alliance. It has always been fundamentally political, aiming at heading 
off war through deterrence and resolve. It has been the foundation for 
much of America's success in promoting our economy and our values not 
only in Europe but throughout the world.
    Even after the break-up of the Soviet Union in 1991, NATO served a 
vital purpose in support of American diplomacy in Europe and the 
Balkans, and in establishing the common understandings there that 
enabled agreement on a host of other issues elsewhere. Today we should 
be engaging NATO as the centerpiece of our efforts to deal with the 
issues of terrorism, proliferation of weapons of mass destruction, and 
peacekeeping beyond the borders of Europe. NATO could be 
``multifunctionalized,'' to serve as a consensus engine helping us 
harmonize laws and procedures to counter international terrorism, 
establish common procedures for information security to strengthen 
efforts against weapons proliferation, and of course, to deal with 
military requirements even beyond Europe.
    This is a vision of NATO that remains to be achieved, but it offers 
an important opportunity for this nation and our leaders. Enlarging 
NATO is an essential step in this direction. It will strengthen the 
alliance, promote greater stability in Central and Eastern Europe and 
allow us to deal more effectively with many of the new security threats 
facing us today.
    During the 1990's NATO membership offered hopes to Eastern European 
countries that the cycle of threat and conquest which marked Europe in 
the 20th Century would never be repeated. At first, to be candid, NATO 
membership was seen as protection against repeated Russian domination. 
As one foreign minister remarked to me several years ago, ``Today 
Russia is weak, but someday she will be strong again, and before that 
day, our country must be a member of NATO.'' Another minister, from a 
different country explained, ``Distrust the Russians? There are many 
reasons. In 1878 . . .'' he began.
    While we may discount such fears today, these concerns are very 
much alive in Eastern Europe. As one President told me, ``In Europe, 
you must think forty years ahead in planning security . . .'' Indeed, 
our recent disagreements with Russia, despite the highest hopes and 
most cordial relations between the heads of state, should warn us that 
all states have their own interests--not necessarily ours--in their 
aims.
    But fundamentally, NATO's enlargement is in Russia's interest as 
well. Stability and peace in Eastern Europe is essential if Russia's 
own economic and human potential is to be realized. And the Baltic 
States, in particular, may have vital roles in providing, Russia with 
access to Western ideas and cultures, accelerating the economic and 
political development of Russia itself. While many in the Russian power 
ministries may yet oppose the entry of the Baltic States, Russia has 
nevertheless acquiesced, in part due to the diligent efforts of NATO's 
political leaders, and in particular, Secretary General George 
Robertson, to offer an improved mechanism of consultation and 
engagement for Russia.
    The new mechanism has enabled Russia to overcome the legacy of its 
resistance to NATO's operation in Kosovo, and Russia should now feel 
that it has an opportunity to have its interests fully considered by 
the Alliance before final decisions are made on critical issues. On the 
other hand, from my own experience, I would second the warning that 
many have given over the years, that Russia must not have a veto on 
NATO activities, either formal or informal.
    Beyond the issue of Russia, though, the decade of the 1990's proved 
that NATO had a role in promoting the stability of southeast Europe. 
Engagement in the Balkans defined NATO's purpose for a decade, and 
still dominates NATO activities today. NATO in Bosnia ended a war that 
had claimed perhaps 150,000 lives and displaced more than 2 million 
people. And in Kosovo, NATO actions rectified an emergent ethnic 
cleansing campaign which threatened to throw a million and a half 
Albanian out of their homes.
    Each of the countries under consideration now for NATO membership 
played crucial roles in military operations and peacekeeping in the 
Balkans. I would like to thank especially Bulgaria and Romania, who, at 
considerable risk, accepted NATO over flights, isolated Serbia from 
resupply, and refused Russian air over flight requests during the 
crisis at Pristina airfield. They helped NATO achieve victory in that 
vital campaign and establish a peaceful occupation of Kosovo 
afterwards. It was NATO's first--and hopefully, last--war, and we 
should be grateful to them.
    Gratitude itself, however, is not a sufficient rationale for 
admitting these and other candidate nations into NATO. Each of these 
nominated states has met NATO's criteria for membership in terms of 
stability, economic reform, democratic governance, civilian control of 
the armed forces, resolution of border disputes and lingering ethnic 
problems, and commitment to rule of law and human rights. Their 
military structures have been reduced and reorganized from the legacies 
of the Warsaw Pact and Cold War experience. And they have each worked 
on their Membership Action Plans, a series of measures to ready them 
for integration into NATO military structures, though completing the 
military transformations may well take up to a decade to complete.
    Some have cited the relatively modest forces that the new members 
could contribute as reason for concern. Yet as I watched the evolution 
of their capabilities during my tenure in Europe, I was impressed with 
the quality of their emerging leaders, their willingness to work 
together in forming collective capabilities, like BALTBAT, and their 
determination to live up to their resource commitments in funding their 
security needs. I also appreciated the geography and facilities they 
offered to the alliance--vast training opportunities, unused airstrips, 
port and refurbishment facilities, and of course, an increased zone of 
stability to add to the protection of existing NATO member states. In 
sum, these are substantial contributions.
    As far as costs are concerned, these should be relatively 
insignificant. During discussions of NATO's first round of enlargements 
five years ago many in our Congress voiced objections on the basis of 
costs. Figures ranging into the billions of dollars were cited. In 
fact, the overall cost has been virtually nil, since the new entrants 
are obligated to pick up a share of NATO's infrastructure and 
administrative budgets, thereby reducing our own expenses. And if some 
modest costs do arise, such as from redeployments of U.S. troops or 
training ranges, I believe we should evaluate these in terms of the 
benefits of the prospective changes.
    A third area of concern sometimes raised has been in NATO decision-
making procedures. Many have suggested that somehow these additional 
members might render ineffective NATO's decision making process of 
unanimous consent. I believe the politics and the records of these 
prospective members refutes that concern. As is clear from the 
diplomacy preceding U.S. actions in Iraq, these states are very 
strongly pro-U.S., and are likely to side with us in facing the issues 
ahead. Certainly in the Kosovo campaign, the three new members proved 
the most loyal of allies, often at great risk to their support at home. 
In any event, it has always been the case that those with the most 
resources at risk have the heaviest weight in deciding the issues at 
hand. I would urge that NATO's decision making process not be altered 
or abridged.
    Mr. Chairman, members of the Committee, I ask your support of NATO 
membership for these seven nations. They have the long term commitments 
to be part of the West, they have met the democratic standards 
essential for NATO members, and they have positive and tangible 
contributions to make to our own security. Bringing them in will 
strengthen the Alliance and allow us to respond more effectively to the 
new security threats facing us today.
    Finally, and perhaps more importantly as we look ahead, I also ask 
that you report out your support for their membership with a view for 
further transformation of NATO to serve as the clearing point and focal 
point for increased efforts against terrorism and the proliferation of 
weapons of mass destruction. Our allies are critical to our success in 
these areas. And, as you do so, I would hope that you would call for 
greater commitment from American leadership in the further 
transformation of NATO, that our nation may energize a new era of 
collective efforts to strengthen our security abroad, reduce our 
burdens at home, prepare the institutions and procedures we will need 
to guard American interests decades into the future, and make every 
American safer and more welcome at work or at leisure anywhere in the 
world.

    The Chairman. Mr. Kristol.

STATEMENT OF WILLIAM KRISTOL, EDITOR, THE WEEKLY STANDARD, AND 
 CHAIRMAN, PROJECT FOR THE NEW AMERICAN CENTURY, WASHINGTON, DC

    Mr. Kristol. Thank you, Mr. Chairman, Senator Biden, 
members of the committee.
    It is a pleasure to testify on the future of NATO. I should 
say that the Project for the New American Century, which I 
chair, and Weekly Standard magazine, which I edit, have always 
supported an American foreign policy that is grounded on strong 
alliance ties. That is why we supported the original 
enlargement of NATO and we support the current enlargement of 
NATO.
    I applaud the President, actually, for being bold in 
pursuing a big enlargement of NATO at this time. One forgets 
that just 2 years ago, it was considered unlikely by most 
people that you would be meeting here today to consider 
accepting seven new nations into the NATO alliance.
    And I think the President has shown real leadership in that 
respect. Indeed, if you look at the founding document for the 
Project for the New American Century--I say this for Senator 
Biden, since he is interested in neo-conservative thinking----
    Senator Biden. I am. I am.
    Mr. Kristol. I know. So I am trying to be of some 
assistance here as a witness, you know.
    If you look at the original statement of the Project for 
the New American Century, its founding statement of 
principles--now famous, I should say--signed by people like 
Dick Cheney and Don Rumsfeld who both probably spent about 40 
seconds looking it over in their busy jobs and figured that 
they did not see anything they disagreed with so they signed it 
without knowing it was going to cause so much heartburn around 
the world 5 years later.
    One of the four founding principles, actually, one of the 
four essential tasks we set before us if we were to correct 
what we saw as a drift in American foreign policy is to 
strengthen our fundamental alliance ties. So I do speak as a 
strong supporter of our alliances, of the importance of allies 
in doing what we have to do in the world, and in particular of 
NATO. And so I think on that, there is probably considerable 
agreement.
    Now, what about the future of NATO? I think Senator Boxer 
asked the right question, which is a sensible question, which 
is, ``What is the problem,'' in a way, and in some respects 
there isn't that much of a problem. Or the way I put it is 
this: There is not much of a problem with about 15 of the 19 
current members of NATO and there will not be much of a problem 
with 23 of the 26 members when NATO enlarges.
    But the problem is that NATO works by unanimity, and we 
have a pretty fundamental disagreement with a couple of rather 
important NATO members; France, in particular I would say, and 
Germany. And I guess for the sake of honesty, I would simply 
say that we need to be concrete and straightforward about this. 
We can say nice things about NATO as an institution without 
mentioning the names of any countries that are in it, but at 
the end of the day, if we have a fundamental disagreement--if 
Iraq is going to be a model for the future and not an exception 
for the future in the sense that we are going to continue to 
have fundamental disagreements about threats and about what to 
do about certain threats with nations like France and Germany, 
or more precisely with France and Germany, then the utility of 
NATO becomes a question. It does not mean it cannot still be 
very useful, and I would so argue that it would be useful. We 
would just have to disagree on certain things and do certain 
things outside NATO as, in fact, Iraq is being done.
    I very much hope, incidentally, that the reconstruction and 
the democratization of Iraq could be done in part through NATO. 
In fact the Project for the New American Century played a role 
in getting bipartisan signatures on two letters, which I ask to 
be submitted, along with my statement, for the record, from 
senior Clinton administration officials and conservative 
Republicans outside the government endorsing a strong role for 
NATO in the reconstruction of Iraq.
    So I think we can agree to disagree on certain things and 
then agree to agree and work together on many other things. But 
the disagreements are not trivial and we should not pretend 
they are. And the question I really do think comes down more to 
France than to Germany. I am not an expert on each nation, and 
it would be foolish to sit here and predict the internal 
domestic political prognosis of either nation, but I think at 
the end of the day, Germany is still committed to a strong 
transatlantic relationship.
    They are very averse to use of force, which is 
understandable and, frankly, fine. They do not need to 
participate in things that we might believe we need to do. I do 
not think that they would necessarily go out of their way to 
stand in the way of our doing what we believe to be in our 
national interest. They might stand aside, and that is fine.
    I think France is a different issue. One really has to be 
honest and just ask: Is France committed to NATO as we 
understand a traditional commitment to NATO? This is not a 
silly question. I mean, France itself of course has not been 
simply committed to NATO. They pulled out of the military 
alliance in 1966.
    One had thought in the 1990s that they were coming back in 
fully to NATO, but I think it is fair to ask after the last few 
months what the future of U.S.-French relations are and to ask 
it, not in the spirit of recrimination which would be silly, 
and not in the spirit of punishing anyone which would be silly, 
but just in an honest way in looking forward and trying to 
sensibly evaluate and make foreign policy. What do we 
anticipate?
    Well, my basic view would be we do not know what to 
anticipate, so we should do our best to work with the major 
nations of NATO. But we also need to be open to the possibility 
that we will turn out to have disagreements in the future as we 
have had in the last few months with France.
    Therefore, we cannot rule out the possibility of having to 
do certain things without U.N. Security Council sanction and/or 
without NATO support since unanimity remains presumably a 
principle of action for NATO. I think in a certain way it is 
that simple. Nostalgia cannot be a guide, obviously, to foreign 
policy.
    In fact, it was never so easy in the past, as we now think 
it was. I really do think that we need to resist that sort of 
partisan point scoring and pretending than better diplomacy 
would have fundamentally changed the outcome in the U.N. 
Security Council or French or German views with regard to Iraq.
    There were, of course, failures of diplomacy by this 
administration. There were failures of diplomacy by the 
previous administration. I am sure General Clark would agree 
that in the Balkans, at the end of the day, Milosevic had to be 
stopped and it would not have mattered whether the U.N. 
sanctioned NATO intervention. We had to go to war to stop 
Milosevic's ethnic cleansing.
    And the truth is in this instance it would not have 
mattered in this sense that France and Germany fundamentally do 
not agree with our rationale for the war in Iraq. And they were 
not going to change their mind if Don Rumsfeld was nicer to 
them. These countries deserve to be taken more seriously than 
that in a sense. Their leaders deserve to be taken more 
seriously.
    They have a fundamentally different view of the threat, a 
fundamentally different view of the agility of inspections, a 
fundamentally different view of whether containment and 
deterrence would have worked in this case. They are certainly 
entitled to that view. I do not think that we ever asked them 
to really abandon that view.
    We never asked them to help in the military action. We 
simply did ask them--and here is where I think that the rub 
comes in terms of France. We did ask them, I would say, to step 
aside if they did not agree and not to positively obstruct our 
both diplomatic efforts that were preparatory to the military 
action and, of course, the military efforts themselves.
    I would say there that one has to really raise a question 
about France in particular. It is one thing not to agree. It is 
one thing to make public one's disagreement. That is perfectly 
legitimate. It is another thing to really go out of one's way, 
I would say, to make it harder to build--for us to include 
other nations in a coalition, including nations like Turkey 
which were quite important to actually helping militarily and 
not just symbolic help from the outside.
    And I would just contrast that with Kosovo. Kosovo was not 
a direct, vital national security interest obviously of the 
United States. I say this as someone who supported the 
intervention in Kosovo.
    Kosovo was a direct vital interest to NATO and certainly to 
the European nations in NATO, and we stepped up when we needed 
to. Maybe we could have done it a little bit more quickly and a 
little more elegantly, but we stepped up when we needed to, 
when our European partners in NATO needed us.
    All we asked of them in this instance regarding Iraq was to 
stand down in a sense. And I think Germany did, in fact, 
basically stand down and was perfectly happy to simply stay out 
of the whole thing. France did not. And so if France really 
wants to try, not only to step aside when we are pursuing 
fundamental foreign policy goals, but actually to obstruct 
them, it is going to be a problem.
    And it is going to be a problem no matter how much we all 
like NATO and it is going to be a problem no matter how much 
the administration tries to work with NATO. It is going to be a 
problem because they are part of NATO and NATO operates by 
unanimity, and probably will continue to do so for the 
foreseeable future.
    I very much hope NATO can remain strong. I think it can 
remain strong. I am not sure it can remain quite as central as 
General Clark suggests to American foreign policy, but it can 
certainly remain a very important part of American foreign 
policy, especially I think in dealing with the European theater 
and some of the security tasks in a place like Iraq, where you 
do need a serious security force as part of the nation-building 
effort.
    I do not think that we can put all of our eggs in that 
basket, on the other hand, for the obvious reason that we have 
two major participants in the institution with whom we may end 
up having some fairly fundamental differences. So I would say 
that the future of NATO is important, but it cannot preclude 
coalitions of the willing and I do not think it should preclude 
some creative thinking about other institutional arrangements 
with other nations, sub-groups of NATO, obviously nations 
outside of NATO, outside of Europe, India--relations with other 
democracies in Asia.
    I think this is a moment like the late 1940s, a present-at-
the-creation sort of moment, and it is not enough to simply say 
these institutions worked well for 50 or 60 years. Let us just 
assume that they will work well for the next 50 or 60; I hope 
they will. But even so they should be reformed, as you all are, 
I think, are going to reform NATO by enlarging it to work 
better for the future.
    But it may just be that we need to look seriously at some 
new possibly institutional arrangements in addition to ad hoc 
coalitions of the willing for the future. NATO does not 
preclude having separate arrangements in certain respects with 
countries of Eastern Europe or other countries in Europe as the 
occasion warrants.
    I do not have any well-developed ideas on this. I just 
think this is a very fluid and pregnant moment really for 
American foreign policy, and it may well be that some 
creativity is called for in addition to reiterating our 
commitment to older institutions like NATO and, for that 
matter, like the United Nations.
    So I think the challenge to NATO is not from neo-
conservatives. It is not from anyone in the Bush Administration 
particularly. It is not from people in the U.S. Senate. It is 
from the real world. And we have to deal with these real 
problems. And the question is--is NATO a means to deal with 
these real problems? NATO is also an end in itself in certain 
ways because it is an institutional embodiment of a 
relationship, of an alliance that has some worth in its own 
right.
    But it also is obviously a means to dealing with real 
threats like terror and weapons of mass destruction. And we 
should make NATO deal with those threats as well as we can, but 
we should not close our eyes to its deficiencies and failures 
and to the need to find other mechanisms where necessary.
    Thank you.
    The Chairman. Thank you very much, Mr. Kristol.
    [The prepared statement of Mr. Kristol follows:]

 Prepared Statement of William Kristol, Chairman, Project for the New 
                            American Century

    Mr. Chairman, it is a pleasure to testify once again before this 
august committee, on such an important and timely subject: the future 
of NATO. The Project for the New American Century, which I chair, has 
always supported an American foreign policy that is grounded on strong 
alliance ties. Indeed, in the Project's founding ``Statement of 
Principles''--found at: http://www.newamericancentury.org/
statementofprinciples.htm--we argued that strengthening those ties was 
one of four essential tasks before us if we were to correct the drift 
we perceived as existing in American foreign policy.
    More concretely, we supported the first post-Cold War enlargement 
of NATO. And we support the pending one. I am pleased that we are so 
close to seeing that bipartisan vision become reality. And just 
recently, the Project helped organize two bipartisan statements 
proposing a key role for NATO in post-Saddam Iraq. (Mr. Chairman, with 
your permission, I would like to submit the two statements for the 
record. They can also be found at: http://www.newamericancentury.orci/
lettersstatements.htm.)
    In general, we continue to believe that the goal of maintaining 
peace and prosperity in the world is best accomplished by working with 
our democratic allies both to protect existing democracies and, where 
necessary or possible, to expand liberty's reach to other nations.
    But what of the future of NATO and, more generally, of the trans-
Atlantic relationship? Obviously, there are questions about the health 
of the alliance. The first thing I would say is that it is too late to 
paper over these questions and pretend all is well. We need, as my 
colleague and Project co-founder Robert Kagan has argued (see his ``Of 
Pardise and Power: America and Europe in the New World Order''), to be 
honest about the differences in world view between some in Europe--
especially in France and Germany--and many in the United States. Within 
the U.S., we need to avoid cheap partisanship that casts blame unfairly 
either on the last administration or the present one. Undoubtedly, both 
administrations have made diplomatic mistakes. What administration 
hasn't? But the problems with the alliance go beyond European 
preferences for the charm of President Clinton over the directness of 
President Bush' and beyond the American preference for the policies of 
Chancellor Kohl over those of Chancellor Schroeder.
    In general, I would argue that the Bush Administration has been 
quite responsible with respect to the trans-Atlantic alliance. When 
President Bush came into office, common wisdom held that, if NATO did 
expand again, the expansion would be quite limited in scope and number. 
But it was the president's vision of a ``Europe, whole and free'' that 
has led NATO to this day. Moreover, this past summer, at Prague, the 
administration put forward a number of constructive proposals for 
reforming and reenergizing NATO. And, finally, and principally at the 
behest of our European allies, President Bush went to the United 
Nations in September 2002 and secured U.N. Security Council Resolution 
1441. The Bush Administration is not responsible for the current crisis 
in the alliance.
    Who, or what, is? The answer to ``who'' is France--and secondarily, 
Germany. The answer to ``what'' is the new post-9/11 world to which the 
U.S. has reacted in one way, and France and Germany in another.
    This is not the place for France-bashing. But it is the place to 
tell the truth. At best, the government of France is uninterested in 
the trans-Atlantic alliance. At worst, it wants to weaken it. France's 
priority lies with the European Union and/or the UN--not NATO. And 
there is no question that many in Paris desire to see a France-led 
European Union as a counterweight to U.S. power. Germany, a troubled 
nation with economic and demographic difficulties, and an 
understandable aversion to the exercise of military and nation-state 
power, has followed France's lead. The European Union as a whole has 
embraced a view of the world that is post-nationalist, post-historical, 
and extremely reluctant to use military force even in a just cause.
    The United States is different. The ``distinctly American 
internationalism'' the president has articulated in speeches and in the 
White House's National Security Strategy--and with which I am in basic 
agreement--is quite far removed from the ``European'' view of the world 
in both the nature of the threats we face and certainly what strategies 
to employ to deal with them. How do we bridge the gap?
    We won't entirely. Washington and the capitals of Europe cannot 
help but have some differences of perspective on interests and threats 
for the simple reason that the U.S.'s role in the world is far 
different from theirs. America has global responsibilities no other 
nation has, or will have, and that is bound to create differences in 
strategic outlook. That said, we cannot abandon our basic convictions 
because they make some Europeans uneasy. We cannot fail to confront the 
threats we face, and we cannot fail to carry out our historic purposes 
in defending and expanding freedom, because some Europeans balk. We can 
agree to disagree where we must, and agree to work tougher where we 
can. There are many such occasions--the reconstruction of postwar Iraq 
being one conspicuous one.
    We should seek new or improved institutional arrangements through 
which to work together. Coalitions of the willing are fine, and 
sometimes necessary. But, where possible, longer-lasting organizational 
arrangements would be preferable. Does this mean re-vitalizing NATO? I 
hope so. Does it means reforming NATO? I think so--perhaps, for 
example, by moving to a super-majority vote to authorize action, 
binding of course only on those who choose to contribute, but still 
under the NATO umbrella. In a sense, this would institutionalize the 
coalition of the willing. It would also increase Washington's interest 
in using and working with NATO. And, finally, it would give our allies 
a healthier say in these decisions.
    We also might want to explore new institutional arrangements that 
allow us to work in particular ways with our new allies in Central and 
Eastern Europe, and our friends elsewhere in Europe, as well. We can't 
confine ourselves to Cold War structures. Institutional creativity is 
needed for a new world. There may also be ways to institutionalize our 
friendship, and common interests, with democracies like Turkey, Israel, 
and India, in conjunction with NATO or outside of NATO.
    No one thinks it a good thing for the U.S. to go it alone--though, 
at times, we may have to act with fewer friends than one might wish. 
Nor, I trust, do we want to hand over U.S. interests or decision-making 
to the United Nations--an organization that seeks to speak for the 
``international community'' but actually reflects the particular state 
interests of its Security Council members. At its best, NATO represents 
a healthy multilateralism, a multilateralism that rests on shared 
democratic principles and a shared history of meeting the challenge 
posed by Soviet communism. The challenge in the days ahead will be to 
see whether NATO, as presently constituted, is up to meeting the new 
threats we face. Some positive steps have been taken: NATO's 
intervention in Kosovo was an important precedent. The contribution 
made by our allies and soon-to-be allies to the military effort in 
Afghanistan and Iraq are also significant. The question we have to ask 
is whether such efforts will be the exception rather than the rule in 
the future.
    I think the Bush Administration is off to a good start in moving 
NATO in the right direction. The world is a dangerous place and we need 
help in dealing with these dangers. Accordingly, we need to do as good 
a job as we can in creating an alliance that has the military and 
institutional capabilities to confront these dangers effectively. But, 
at the end of the day, our priority has to be dealing with these 
dangers, not placating allies who are more concerned with the exercise 
of American power than the threats we face.

    [Attachments.]

                       Statement on Post-War Iraq

                             march 19, 2003
    Although some of us have disagreed with the administration's 
handling of Iraq policy and others of us have agreed with it, we all 
join in supporting the military intervention in Iraq. The aim of UNSC 
Resolution 1441 was to give the Iraqi government a ``final 
opportunity'' to comply with all UN resolutions going back 12 years. 
The Iraqi government has demonstrably not complied. It is now time to 
act to remove Saddam Hussein and his regime from power.
    The removal of the present Iraqi regime from power will lay the 
foundation for achieving three vital goals: disarming Iraq of all its 
weapons of mass destruction stocks and production capabilities; 
establishing a peaceful, stable, democratic government in Iraq; and 
contributing to the democratic development of the wider Middle East.
    To enhance the prospects of success, American efforts in the weeks, 
months, and years ahead must be guided by the following principles:

  <bullet> Regime change is not an end in itself but a means to an 
        end--the establishment of a peaceful, stable, united, 
        prosperous, and democratic Iraq free of all weapons of mass 
        destruction. We must help build an Iraq that is governed by a 
        pluralistic system representative of all Iraqis and that is 
        fully committed to upholding the rule of law, the rights of all 
        its citizens, and the betterment of all its people. The Iraqi 
        people committed to a democratic future must be integrally 
        involved in this process in order for it to succeed. Such an 
        Iraq will be a force for regional stability rather than 
        conflict and participate in the democratic development of the 
        region.

  <bullet> The process of disarming, stabilizing, rebuilding, 
        reforming, preserving the unity of, and ultimately 
        democratizing Iraq will require a significant investment of 
        American leadership, time, energy, and resources, as well as 
        important assistance from American allies and the international 
        community. Everyone--those who have joined our coalition, those 
        who have stood aside, those who opposed military action, and, 
        most of all, the Iraqi people and their neighbors--must 
        understand that we are committed to the rebuilding of Iraq and 
        will provide the necessary resources and will remain for as 
        long as it takes. Any early fixation on exit strategies and 
        departure deadlines will undercut American credibility and 
        greatly diminish the prospects for success.

  <bullet> The United States military will necessarily bear much of the 
        initial burden of maintaining stability in Iraq, securing its 
        territorial integrity, finding and destroying weapons of mass 
        destruction, and supporting efforts to deliver humanitarian 
        assistance to those most in need. For the next year or more, 
        U.S. and coalition troops will have to comprise the bulk of the 
        total international military presence in Iraq. But as the 
        security situation permits, authority should transfer to 
        civilian agencies, and to representatives of the Iraqi people 
        themselves. Much of the long-term security presence, as well as 
        the resources for reconstruction, will have to come from our 
        allies in Europe and elsewhere--suggesting the importance of 
        involving the NATO Alliance and other international 
        institutions early in any planning and implementation of the 
        post-conflict stage.

  <bullet> American leadership--and the long-term commitment of 
        American resources and energies--is essential, therefore, but 
        the extraordinary demands of the effort make international 
        support, cooperation, and participation a requirement for 
        success. And just as a stable, peaceful and democratic Iraq is 
        in the region's and the world's interest, it is important that 
        the American-led stabilization and rebuilding effort gain the 
        support and full involvement of key international organizations 
        in the work of rebuilding Iraq.

    The successful disarming, rebuilding, and democratic reform of Iraq 
can contribute decisively to the democratization of the wider Middle 
East. This is an objective of overriding strategic importance to the 
United States, as it is to the rest of the international community--and 
its achievement will require an investment and commitment commensurate 
with that. We offer our full support to the President and Congress to 
accomplish these vitally important goals.

    [Signatories:]

    Ronald Asmus, Max Boot, Frank Carlucci, Eliot Cohen, Ivo H. 
Daalder, Thomas Donnelly, Peter Galbraith, Jeffrey Gedmin, Robert S. 
Gelbard, Reuel Marc Gerecht, Charles Hill, Martin S. Indyk, Bruce P. 
Jackson, Robert Kagan, Craig Kennedy, William Kristol, Tod Lindberg, 
Will Marshall, Joshua Muravchik, Danielle Pletka, Dennis Ross, Randy 
Scheunemann, Gary Schmitt, Walter Slocombe, James B. Steinberg, and R. 
James Woolsey.

                                 ______
                                 

                   Second Statement on Post-War Iraq

                             march 28, 2003
    We write in strong support of efforts by Prime Minister Tony Blair 
to ``get America and Europe working again together as partners and not 
as rivals.'' While some seem determined to create an ever deeper divide 
between the United States and Europe, and others seem indifferent to 
the long-term survival of the transatlantic partnership, we believe it 
is essential, even in the midst of war, to begin building a new era of 
transatlantic cooperation.
    The place to begin is post-war Iraq. There should be no question of 
our common determination to help the Iraqi people establish a peaceful, 
stable, united, prosperous, and democratic Iraq free of weapons of mass 
destruction. We must help build an Iraq that is governed by a 
pluralistic system representative of all Iraqis and fully committed to 
the rule of law, the rights of all its citizens, and the betterment of 
all its people. Such an Iraq will be a force for regional stability 
rather than conflict and participate in the democratic development of 
the region.
    The Iraqi people committed to a democratic future must be fully 
involved in this process in order for it to succeed. Consistent with 
security requirements, our goal should be to progressively transfer 
authority as soon as possible to enable Iraqis to control their own 
destiny. Millions of Iraqis are untainted by service to the Ba'athist 
dictatorship and are committed to the establishment of democratic 
institutions. It is these Iraqis--not Americans, Europeans or 
international bureaucrats--who should make political and economic 
decisions on behalf of Iraq.
    Building a stable, peaceful and democratic Iraq is an immense task. 
It must be a cooperative effort that involves international 
organizations--UN relief agencies, the World Bank, the International 
Monetary Fund, and other appropriate bodies--that can contribute the 
talent and resources necessary for success. It is therefore essential 
that these organizations be involved in planning now to ensure timely 
allocation of resources.
    Of particular concern, the effort to rebuild Iraq should 
strengthen, not weaken transatlantic ties. The most important 
transatlantic institution is NATO, and the Alliance should assume a 
prominent role in post-war Iraq. Given NATO's capabilities and 
expertise, it should become integrally involved as soon as possible in 
the post-war effort. In particular, NATO should actively support 
efforts to secure and destroy all of Iraq's weapons of mass destruction 
stockpiles and production facilities (a task that should unite the 
United States, Canada and all European allies committed to peace and 
non-proliferation), ensure peace and stability are maintained in 
postwar Iraq, and assist in the rebuilding of Iraq's infrastructure and 
the delivery of humanitarian relief. The Atlantic Alliance has pledged 
to confront the new threats of the 21st century. No current challenge 
is more important than that of building a peaceful, unified and 
democratic Iraq without weapons of mass destruction on NATO's own 
borders.
    Administration of post-war Iraq should from the beginning include 
not only Americans but officials from those countries committed to our 
goals in Iraq. Bringing different nationalities into the administrative 
organization is important because it allows us to draw on the expertise 
others have acquired from their own previous peacekeeping and 
reconstruction efforts. It will also facilitate closer and more 
effective ties between the security forces in post-war Iraq and those 
charged with administrating the political and economic rebuilding of 
Iraq.
    International support and participation in the post-Iraq effort 
would be much easier to achieve if the UN Security Council were to 
endorse such efforts. The United States should therefore seek passage 
of a Security Council resolution that endorses the establishment of a 
civilian administration in Iraq, authorizes the participation of UN 
relief and reconstruction agencies, welcomes the deployment of a 
security and stabilization force by NATO allies, and lifts all economic 
sanctions imposed following Iraq's invasion of Kuwait a decade ago.

    [Signatories:]

    Gordon Adams, Ron Asmus, Max Boot, Frank Carlucci, Eliot Cohen, Ivo 
H. Daalder, James Dobbins, Thomas Donnelly, Lee Feinstein, Peter 
Gaibraith, Robert S. Gelbard, Reuel Marc Gerecht, Philip Gordon, 
Charles Hill, Martin S. Indyk, Bruce P. Jackson, Robert Kagan, Craig 
Kennedy, William Kristol, Tod Lindberg, James Lindsay, Will Marshall, 
Christopher Makins, Joshua Muravchik, Michael O'Hanlon, Danielle 
Pletka, Dennis Ross, Randy Scheuneman, Gary Schmitt, Helmut 
Sonnenfeldt, James B. Steinberg.

    The Chairman. Senator Biden has mentioned to me the 
desirability of having perhaps two rounds of questioning now 
and with the permission of the witnesses and your endurance and 
likewise the Senators, we will attempt to accommodate the 
members who wish to do that. But we will have a 7-minute time 
limit on the questions.
    And I will begin by asking you, General Clark: I am 
intrigued by your comment that we are in a safer world where we 
are better liked by nations. And likewise, you mentioned that 
sometimes even NATO's role with regard to Afghanistan was 
considered an afterthought in search of a mission.
    Let me just ask two parts on this, one of which is: If, in 
fact, NATO develops this ready force of 25,000 people that 
Secretary Grossman was mentioning, 25,000 armed forces with 
sufficient lift capacity to go really anywhere all over the 
world, one of the problems with Afghanistan, which many of you 
pointed out, is that the British had some lift capacity, other 
countries virtually none, so that in order to play a quick 
role, someone had to lift them there, and there are problems in 
this.
    One can say that they would have developed this lift 
capacity in due course if their budgets had been greater and so 
forth, and maybe they would, but at least I understand the 
25,000 force contemplates somebody having lift capacity so that 
NATO could be theoretically involved anywhere.
    There is new relevancy sort of built in maybe to these 
discussions, but the other point, however, leads me to wonder: 
In the event that popular opinion in Germany and France had 
been different in this period of time, would it have made a 
difference in their democratic dialog with regard to the 
support of the United States or the support of NATO? And if so, 
what could we have done, say, not in the last year, but in 
maybe years prior to that time? Public opinion in those two 
countries, quite apart from most of the rest of Europe--as you 
take a look at the public opinion polls, people just asked 
starkly, ``Are you in favor of the United States action in Iraq 
or not,'' and the overwhelming majority say ``No.'' We have 
problems now in Russia and Russian public opinion. Very adverse 
trends have set in maybe in the last year or so.
    Now, we can say that success breeds success and so forth, 
but maybe so, maybe not. I want you, sir, to discuss to what 
extent is Mr. Kristol's point valid that even if, let us say, 
French public opinion strongly favored the American position, 
that the French might have acted otherwise. Or was it more the 
fact that the chancellor in his reelection campaign in 
Germany--and even Mr. Chirac enjoying finally at some point in 
his career a surge of popularity--sort of latched on to this 
and thus supported a rather perverted view, in my judgment, 
that the French ought to stand up against the Americans.
    To that extent, I think Mr. Kristol is absolutely right, if 
that becomes French foreign policy. They may see their mission 
as frustrating us, and leading a vanguard of some other willing 
group to make sure that we are not hegemonist, that we do not 
get our way, that in essence something else happens, and that 
is very serious.
    Was that actually a doctrine formulated in France, or was 
it not circumstantial maybe coming from the popularity of a 
position that Chirac found? Can you comment on all of this?
    General Clark. Mr. Chairman, I think as usual, you put your 
finger really on the sort of heart of the issue. Let me see if 
I can address it from several different azimuths. In the first 
place, I think there is enormous goodwill for the United States 
and for Americans in France, in Germany and throughout Europe.
    Second, for some long period of time, there has been a 
thinking in the French political class that with the end of the 
cold war, that the United States should play less of a dominant 
role in the alliance, that there might be other perceptions of 
ways to reach interest.
    And during this period, the United States was focused 
essentially internally. We did not create a new vision in our 
own country of what our role in the world should be after 
containment of the Soviet Union passed away as our greatest 
national obligation. And so there was a period, a decade of 
drift in which we reacted episodically. And as you know very 
well, it was a decade also in which this country was split by 
partisan disputes.
    I want to say that I very much appreciate Bill Kristol's 
perspective and the support that his organization has always 
brought to NATO enlargement, because many in the conservative 
movement were on the other side of that debate. They saw the 
issue as one of burden sharing. They represented a penny-
pinching America that wanted a pound of support for a pound of 
commitment, rather than a broader vision which would have seen 
American leadership as needing the endorsement and legitimacy 
of other sovereign States. So during the 1990s when we could 
have built a broader vision, we did not.
    I was especially disappointed after the Kosovo campaign in 
which, despite efforts that some of us made to have lessons 
learned really developed and acted upon, no lessons learned 
were ever acted upon inside NATO so far as I can determine. 
Instead, we went off on this pursuit of military capabilities 
as though adding a few strike bombers and precision strike 
capacity were going to change the alliance, when the real 
problem in the mechanism was intelligence sharing, common 
decisionmaking, common perceptions of the threat and building a 
system that would let NATO run military operations rather than 
being a sort of adjunct junior partner to the Americans with a 
window in to some of the video teleconferences when that was 
permitted.
    And that is the way we had to run Kosovo. We could have 
gone forward but we did not. Because of the frictions generated 
both here and abroad during the Kosovo campaign, we turned our 
backs on reforming NATO. Instead, we defended NATO from the 
challenge of the European defense program rapid reaction force.
    We essentially wasted 2 years with the alliance in arguing 
about a 60,000-man commitment and how it would interface or not 
interface with the NATO planning process and whether or not it 
would duplicate NATO. We did not put forth, as the leaders of 
the alliance, a broader vision. That is our obligation. I see 
the red light. I probably cannot go forward here. But it was 
our----
    The Chairman. Keep going.
    General Clark. It was our obligation to put forward that 
broader vision. We have to communicate not only a like of 
Americans in Europe, but an appreciation for why we see our 
security interests as we do. There are legitimate disputes 
about why the United States felt it was necessary to go against 
Saddam Hussein. When it was time to address and lay the 
groundwork for that, we did not. We could have used NATO to 
build that groundwork. We did not. As a result, it sort of 
sprung forth to the Europeans. They could not see it. So when 
we needed to carry popular opinion in Europe, we did not. We 
made it available as a political issue to be used in European 
election campaigns.
    The Chairman. I appreciate that answer very much. Without 
extending it, I think the issue we have been discussing of 
public diplomacy with regard to the Near East or the Middle 
East sort of comes into view at this point. In large part many 
of us now recognize an absence from the field for quite a while 
in terms of giving an American view that might have been more 
attractive, and dismay that we are so disliked; and it is 
improbable in the course of this current conflict that we are 
going to turn that around by public diplomacy.
    Still, as you say, there will be a lessons learned period 
again, where we are going to be in that stage. Our ability not 
to simply withdraw, come back home and forget about it, deal 
with other issues for 10 years, you know, might lead to a 
different aftermath.
    Senator Biden.
    Senator Biden. Well, let me pick up where you just left 
off, Mr. Chairman. I noticed both witnessed nodded their head, 
as well as I nodded my head, when you said in terms of the 
Middle East if we had laid out more of a vision of what we 
anticipated, what we thought, what we wanted, what our foreign 
policy goals were, that it just may have been or turned out a 
little differently.
    And it takes me--and I hope I am connecting the dots 
accurately here--to Mr. Kristol's point that it is not the 
alliance, it is several within the alliance with whom we may 
have a fundamental disagreement on, for lack of a better 
phrase, ``the world view,'' that constitutes the security 
interests of each of those countries, relative to ours. I would 
argue that or posit in the absence of our laying out our view 
as it relates to how we see the Middle East emerging, not just 
the Israeli-Palestinian conflict, that a motive was ascribed to 
us in France and Germany and elsewhere that may or may not be 
the President's view.
    Someone just handed me a Newsday article of March 16, 2003, 
that I had not seen before, where it starts off, entitled 
``Pushing U.S. Toward War, A More Aggressive Military Stance 
Despite'' or--excuse me--``Desire to Help Israel Among the 
Factors.'' The byline of the story was reported by Ann Hoy and 
Timothy Phelps and Ken Fireman of the Washington Bureau. It 
starts off and it says, ``In 1992, two civilian officials 
drafted a document called Defense Planning Guidance for the 
Pentagon, a blueprint for the Department's spending priorities 
in the aftermath of the first gulf war and the collapse of the 
Soviet Union. Both the document and the authors were relatively 
obscure, but not for long.''
    It goes on to say, ``The document argued that the United 
States should seek such a degree of military and strategic 
preeminence that potential rivals would be deterred from ever 
trying to compete with it. America should be prepared to use,'' 
I am quoting, ``military forces unilaterally to further its 
interests, and when acting with others it should expect to do 
so mainly through ad hoc assemblies, rather than establish 
international institutions.''
    It goes on to say, ``The draft specifically envisioned 
employing preemptive forces to deny nuclear weapons to 
countries such as Iraq and North Korea. The draft touched off a 
storm of controversy when it became public. One senior 
Democrat''--that is me--``denounced it as advocating literally 
Pax Americana that would be unsustainable and 
counterproductive. President George Bush, the first, apparently 
agreed and the document was quickly disavowed.''
    And it goes on to talk about how it reemerged as a policy. 
Now whether it really is the policy of this President, in my 
experience, you have equally as much or more than I do with our 
European friends, my impression is that they think it is, that 
the essence of that document and rationale written in 1992 has 
become the policy of the United States. Now, I have argued even 
with my own caucus that I do not--I think the jury is still out 
on that and the President has not made a decision although I am 
becoming even skeptical of my own assertions.
    The more I read of--and I have been devouring every so-
called neo-con document I can find, Bill, trying to educate 
myself, because much of what--the premises laid out I think are 
pretty accurate from the place from which they start.
    Now, so the reason I raise this is that, Mr. Kristol, you 
seem--not ``seem.'' You have indicated that this fundamental 
disagreement may--and you imply that it may be more permanent 
than transitory with France and less likely with Germany, but 
let us stick with France for a moment. And if this fundamental 
disagreement on the view of the world is irreconcilable, or at 
least in the near term, irreconcilable, and I am not trying to 
put words in your mouth, but if it turned out to be that, then 
it seems pretty important that we understand or I understand 
what it is that our policy is in the Middle East. There are 
many with whom I have spoken in Europe who really do not think, 
reading much of what has been written in the last decade by 
some incredibly accomplished individuals and intellectuals, 
yourself included, in this country that this really is not 
about Iraq in the Middle East. This goes beyond Iraq, that the 
next target is Syria, that Syria is on, not the watch list but 
on the hit list, and that what is expected to happen is that we 
are just merely going to pivot from Baghdad and head to Syria 
and this notion of this split among neo-cons, as I call them, 
folks like you who follow through and are more idealistic in 
terms of--I hope you are not offended by that--nation-building 
and those who are the more so-called realists, who I would put 
Cheney and Rumsfeld more in that school, who seem united on the 
notion that this notion of democratization of the Middle East 
is something that will be led at the tip of a bayonet rather 
than with the projection of ideas and other institutional 
constructs that may be put in place.
    So the bottom line question I have is: Our European friends 
that I have quoted without naming, are they right that we are 
about to go into Iraq? What is the logic of--excuse me. I mean, 
into Syria. What is the logic of the arguments put forward by 
Mr. Wolfowitz and others whom I respect? Would it be 
inconsistent to fail to go to Iraq now, particularly if Iraq--
excuse me; I keep saying ``Iraq''--to go to Syria now, 
particularly if there is any proof that Syria has allowed the 
Iraqi regime to harbor or to hide any weapons of mass 
destruction or--and if you listen to Condi Rice, and I am 
starting to listen very closely to what everybody says these 
days, when I met with her recently, or not so recently, within 
the month, indicated that Hezbollah was the real problem. It 
was not al-Qaeda that was a problem, but the real serious 
threat was that Hezbollah has sanctuary in Syria.
    So what is our policy in the policy you and others are 
proposing? Would it be inconsistent not to follow on to Syria, 
or is it consistent to internationalize the reconstruction and 
the nation-building in Iraq and basically find other 
institutional means to deal with our concerns about Syria? What 
is necessitated for there to be a consistency in this new 
American century?
    Mr. Kristol. I will try to answer a little bit of that very 
challenging question.
    Senator Biden. The bottom line is Syria.
    Mr. Kristol. First, obviously, I do not speak for the Bush 
administration. I do think they have been tolerably clear 
incidentally though, the President in the national security 
document that they issued in September, in his major speeches 
about his general view of the world. One can agree or disagree 
with these views. They obviously are not going to tell everyone 
ahead of time exactly what their policies are, which I am sure 
are in flux with respect to every nation and a lot depends on 
how these different nations behave, I gather.
    For example, people in the administration, and you may 
share this judgment, thought Syria was behaving quite 
responsibly until about 2 or 3 weeks ago, heartened by the fact 
that Hezbollah seemed to have been pulled back, that there was 
no trouble on the northern border of Israel, that Syria did not 
seem to be exploiting the situation. And then I gather, and I 
know no more than I have read in the papers about this, that 
there were worries that Syria was unfortunately not behaving so 
responsibly in the last couple of weeks, in assisting Iraq in 
certain ways.
    But you know, I will let the Bush administration speak for 
itself. I would simply say, look, the President said, you know, 
we have a real problem with terrorist groups, we have a real 
problem with States that support terrorist groups, and we have 
a real problem with dictators developing weapons of mass 
destruction, especially if they have connections with terrorist 
groups.
    That implies a policy that would view with concern 
developments in Iran, some developments--some aspects of 
government policy in Syria and, of course, other parts of the 
world, North Korea most obviously. That does not mean that you 
invade any or all of them. It does not mean military force is 
the first option or even an option at all in some cases. It 
does mean that one's policy toward these nations is not just 
sitting back and accepting the status quo.
    I do think it means one's policy toward these nations is 
not saying stability trumps everything and we cannot do 
anything because God knows that the situation could be worse if 
we push or pressure or use diplomatic or political means to try 
to push these regimes to change so much. I also think it is the 
case that history shows that the deal we made with a whole 
bunch of dictators in the Middle East, understandable though it 
was at the time it was made or over the period it was made in a 
totally bipartisan manner by Republican and Democratic 
administration--maybe now it is not such a great deal, which is 
why Saudi Arabia become a big question.
    I mean, we turned a blind eye toward the Saudi export of 
Wahabi Islam which has destabilized large parts of the Islamic 
world and of course has been in some ways a breeding ground for 
terror. I think that is a problem. It does not mean that we can 
go in and change the Government of Saudi Arabia overnight. I 
think it changes in my mind the costs and benefits of taking a 
very passive hands-off almost approving policy toward the 
Saudis and never putting pressure on them----
    Senator Biden. Well, we should be----
    Mr. Kristol [continuing]. And never putting pressure on 
them to change, at least to export Wahabi Islam regime.
    Senator Biden. But that is kind of----
    Mr. Kristol. So that is just one----
    Senator Biden [continuing]. A harder nut.
    Mr. Kristol. Well, it is a little easier to take on Syria.
    Senator Biden. Because we benefit there, but----
    Mr. Kristol. Right. Right. If you want my predication we 
are not going to go to war with Syria in the next 6 months. 
That is my prediction. But it is based on only reading the 
papers. I do not think that the troops are going to pivot 
either right or left.
    Senator Biden. Well, I guess what I am trying to say----
    Mr. Kristol. I imagine that they are mostly going to try to 
stabilize the situation in Iraq and then come home. But let me 
just make one quick comment and then--we are up to the 
Wolfowitz document from 1992. Most people can agree or disagree 
with that document, I guess. I read it at the time. I think it 
still remains part of the original document.
    Was the problem of the 1990s that we were too assertive or 
that we were the opposite, I think that I agree with General 
Clark here. We tried to take a bit of a holiday from history. 
We did not show the kind of leadership that we could have 
shown. We were too slow to act in the Balkans.
    Wolfowitz, to his credit, in 1992 was fighting a losing 
fight in the Bush administration to get serious about 
Milosevic. And the Secretary of State at the time, Jim Baker, 
said, ``We do not have a dog in that fight.'' The mood after 
the gulf war and at the end of the cold war was very much, 
``Let us come home, enjoy the peace dividend. Let us not get 
involved in messy situations.''
    Somalia intensified that mood obviously after Mogadishu and 
then Rwanda happened and that was another failure, in my view 
on the part of the United States and in that case on the part 
of the U.N. And then we were even slow, I would argue, in 
Bosnia and Kosovo, though we certainly did the right thing 
there. We did not deal in a very straightforward, in a very 
forthright way with Saddam in spite of a lot of threats to do 
so in the mid to late 1990s. Of course, with respect to terror 
itself, we were very slow, I think, in the response to Osama. 
So I would argue that the basic--the error of the 1990s was 
that we were too timid, not that we were bullying our way 
around the world too much.
    Senator Biden. I am not suggesting otherwise. I do not mean 
this as a criticism of Mr. Wolfowitz. I am trying to find out 
what the----
    Mr. Kristol. Implications.
    Senator Biden [continuing]. The philosophic underpinning of 
this policy is. And that is I guess to say very bluntly if, in 
fact, knowing that Hezbollah, Hamas, the Jihad to some degree 
is in, around, given cover by the Syrian Government, if, in 
fact, they did sell, you know, material or give material to the 
Iraqis, would the present Bush policy be viewed as inconsistent 
if after it was made to Bashir Assad saying, ``Have them cease 
and desist, get rid of them,'' and he did not do it, would it 
be inconsistent in terms of a coherent policy if, in fact, they 
did not use military force? It seems to me, if I follow the 
logic, there would be an inconsistency.
    Mr. Kristol. Well, use of military force is a practical 
judgment and there are huge costs associated with doing so and 
one has to be cautious before just cavalierly supporting it. I 
think that, in fact, that--)
    Senator Biden. I would not suggest that it is cavalier. I 
think it would be fairly well thought out. I am not sure that--
--
    Mr. Kristol. But if it is, I would not rule it out. And I 
guess my only point of view would be that it seems to me if you 
really look back, the President came to a certain decision 
after 9/11 and a decision I very much agree with and I think 
most probably do, which is our previous sense of what U.S. 
policy should be toward the Middle East in general was flawed, 
that we had made a big bet on, let us call it stability, and 
that it turned out that the stability had certain side effects 
like producing Osama and the like, and that we have to have a 
different attitude toward terrorists and groups and toward the 
nations that supported and hosted and harbored those terrorists 
groups and supported them, and it is particularly dangerous to 
have dictators developing weapons of mass destruction.
    So a lot depends on Syrian policy, but yes, I think that 
sitting back and accepting a Syrian, sort of passively 
accepting Syrian sponsorship of terror, sitting back and 
passively accepting a North Korean race to get--to establish a 
nuclear assembly line, those are inconsistent with what the 
President has articulated. It does not mean that military 
action is the first or the preferred option, or maybe it will 
never be an option in those cases, but I think--let us say an 
active American foreign policy as opposed to a passive one I 
think is required.
    Let me just add one more thing, just from a diplomacy point 
of view, though, which is what Senator Lugar and General Clark 
discussed. I just noticed this compared to when I was in the 
executive branch 10 years ago, one side effect of the 
centrality of the EU and of NATO in some respects in Brussels 
is that we do not do enough public diplomacy in the nations 
themselves.
    You know, Secretary Powell--and I do not blame him for 
this--goes to Brussels all the time to meet with all the 
Foreign Ministers. It is a very cost effective way to have 15 
bilateral meetings. They are all right in Brussels. The truth 
is, for that reason he has almost never been to Berlin or 
Paris. That is literally true, I believe, incidentally, as 
Secretary of State. I think he has been once maybe to each of 
these two capitals, which means that you do not get the effect 
of being able to influence public opinion directly in those 
countries, and being able to meet with leaders in those 
countries beyond the very narrow circle of literally Foreign 
Ministers and people who are in government.
    I think it has been a big failure and this is of public 
diplomacy. It is not at all partisan failure, but almost a 
structural failure. We need to spend much more time speaking to 
the actual opinion leaders and peoples of those countries 
instead of going to the U.N. to meet with Foreign Ministers or 
Brussels to meet with Foreign Ministers. So one odd side effect 
of our commitment to these multi-lateral institutions--and 
obviously, I am not saying that we should not be committed to 
these institutions--but one odd side effect is that we do not 
do the kind of more direct public diplomacy that we used to do 
much more of.
    And I think we have paid a big price with the European 
public opinion. I am shocked when I go to Germany and France 
and talk with people there and try to make the case as best as 
I can for what I think, which obviously is not the 
administration exactly, but how often they just say, well, 
regardless of whether they agree with me or not, or whether I 
am quite where the administration is--and I am not in some 
cases--they just have never even had this conversation. You 
know, there are a few of you Senators who do try to go, but 
they really rarely see senior policy officials directly, in the 
capitals of these major nations, and as a result, I think we 
have paid a price with public opinion.
    Senator Biden. Mr. Chairman, it may not be an appropriate 
time now, but I would either like the general to respond, if he 
could to my question and what Mr. Kristol said or if he can 
remember--if he can hold it until when others get finished.
    The Chairman. Let me just take the second course, so that 
in fairness to our other colleagues----
    Senator Biden. Yes.
    The Chairman. But I hope that General Clark has not 
forgotten the dialog with the distinguished ranking member and 
will be able to contribute.
    Senator Chafee.
    Senator Chafee. Mr. Chairman, and welcome witnesses. I do 
want to clarify one thing.
    In the first panel, I made a statement, peripheral 
conflicts after World War II and certainly in the context of 
superpowers colliding, may be the peripheral, but certainly for 
the many tens of thousands of lives lost, they were not 
considered peripheral, so I would like to correct that.
    And gentlemen, as we look at the two conflicting points of 
view here, certainly I think our present foreign policy you 
might argue is one of a Curtis LeMay approach, ``might does 
make right,'' and I would like to ask Mr. Kristol to comment 
and critique the General Clark doctrine of foreign policy. To 
me it is quoting Truman and Eisenhower and laying out a sane 
course of action that does not alienate our many friends around 
the world and working with the chief goal of stopping 
terrorism. Can you comment on the Clark doctrine?
    Mr. Kristol. I am not actually sure that Wes and I differ 
quite as much as you say, but I do not want to ruin any 
possible future chances he has by saying that though, so I 
will----
    General Clark. I would welcome your support.
    Mr. Kristol. I doubt that. But the--anyway, no, look, I am 
not sure how much we differ. But I really strongly differ, with 
all due respect, Senator, with the notion that the Bush 
administration has some sort of ``might makes right'' doctrine. 
The Bush administration has used military force twice in its 2 
years, in Afghanistan where there is no, I take it, dispute 
that they were right to do so. Maybe they could have involved 
NATO more. I am not sure about that. And in Iraq, where I 
believe they did receive appropriate support from both bodies 
of Congress and I believe will have fought what will be viewed 
as a just and necessary war, a war of liberation and a war 
where we are going to discover weapons, probably have already, 
maybe discover weapons of mass destruction, which I think would 
pose an unacceptable danger to us. That is it.
    I mean, they proposed in my view rather modest increases in 
the defense budget to accommodate this world of new challenges 
after 9/11 and that is basically the great militarization of 
American foreign policy that everyone is talking about. They 
are committed to the reconstruction of Iraq.
    Senator Biden and I talked a year ago and I think that, you 
were worried understandably that they would hold to their older 
view, I think that we shun nation-building. And I think to 
their credit, actually, they have moved pretty far off of that.
    We can quarrel a little bit about exactly what role the 
U.N. should play and exactly how internationalized the nation-
building should be, but ironically the criticism almost now is 
that they are doing too much unilateral nation-building, not 
too little. But that is a much better debate to have, of how 
exactly to do the nation-building and the democracy building 
than the opposite.
    I guess I just do not agree that that is a fair 
characterization of the Bush administration foreign policy.
    Senator Chafee. You recognize, you said, in your trips 
abroad the rising anti-Americanism. I think even in Canada they 
are booing our national anthem. Certainly, that is the negative 
ramification of our present foreign policy. Where have we gone 
wrong there and how counterproductive is that, again, to what 
General Clark said is the goal of fighting terrorism?
    Mr. Kristol. Well, you know, look, it is a very big 
question about the--especially about Europe, I think, and 
especially really about France and Germany and that has been 
addressed by various people in interesting books, like my 
friend Bob Kagan, about how much of this is due to different 
world views, how much of this is due to diplomatic blunders by 
us, how much has this been due to sort of opportunistic 
political maneuvers by various leaders in those countries. And 
I think it is hard to tell, and let us see what happens after 
Iraq. Let us see what happens in terms of cooperation in the 
rebuilding of Iraq. Let us see what happens in cooperation in 
other parts of the world.
    I would not exaggerate the crisis. I mean, I come back to 
Senator Boxer's question of ``What is the problem?'' I mean, 
there are real problems, but we are also working together with 
these countries all over the place, including in Afghanistan 
and in Kosovo and in Bosnia and to some degree in East Timor. I 
mean, it is not as if the U.S. Government and the European 
governments are not doing an awful lot of things together. So I 
guess I am not--this is a big war, the war in Iraq. It was a 
big decision obviously, by the Bush administration.
    Senator Chafee. Do you dispute that, as Senator Biden 
quoted from the 1992 Defense Planning Guide, that generally it 
has been a radical departure from foreign policy of the past?
    Mr. Kristol. I do dispute that.
    Senator Chafee. You do dispute it.
    Mr. Kristol. I think it is a continuation of precisely the 
Truman through Reagan foreign policy. No one can really dispute 
that--I do not think it is a big departure from Reagan. I guess 
we could have a quarrel about whether Reagan himself was in the 
tradition of Truman or not. That was argued in the 1980s.
    Yes, I do dispute it. Look, it is better to be--as General 
Clark said, it is better to be liked than hated, but it is also 
important to be feared by one's enemies. And the problem of the 
1990s was not that we were not liked enough. The problem of the 
1990s is that we were not feared enough by those who hated us. 
Osama bin Laden said that, you know, we are a ``weak horse.''
    Somalia in my view, and again, this was--there is plenty of 
blame to go around on this because they were Republicans in the 
Congress and, I think, right after Somalia who particularly 
pushed for the quick withdrawal which, we paid a huge price 
for. And so I do think that the problem with the 1990s was more 
about weakness than strength. In terms of European public 
opinion, you know, we will see what happens after Iraq.
    Look at British public opinion. It has changed an awful lot 
in the last month apparently, partly rallying to Tony Blair's 
leadership, and I think partly rallying to what we are 
discovering in Iraq. Are people really going to say after we 
discover the extent of Saddam's brutality and torture that it 
was a mistake, that it was so simple as they thought, so 
crudely and simply a mistake to have gone to war to liberate 
the people of Iraq? Are they really going to say that this is 
just about might making right?
    If we do do a good job on the reconstruction of Iraq--and 
that is awfully important--and if Iraq has a decent government 
and the Iraqis are beginning to be able to govern themselves in 
the easily near future and we show that we are willing to stay 
and work with other countries to help them reconstruct that 
nation, is it going to be that easy for people in Britain and 
Germany and France to just continue to complacently assume that 
this was a kind of crazed doctrine of the President and a few 
advisors and it was not a benefit to the Iraqi people and to 
the world? I am doubtful about that.
    Senator Chafee. Well, that may be. I am just having 
difficulty in what to me seems like just radical differences 
from the point of view of the neo-cons which you so 
articulately represent and General Clark's traditional point of 
view, but as Senator Biden, forgiving ad hoc assemblies, the 
whole notion of preemption, which we saw in Iraq essentially, 
``We are going and whether it is weapons of mass destruction 
evidence or not, this is--we want regime change. We are 
going.'' So it is a completely new direction in our foreign 
policy.
    I know my time is up, so thank you.
    Mr. Kristol. President Clinton said in February 1998, that 
we cannot accept Saddam with weapons of mass destruction. The 
implication of that was that preemption would have been 
justified if we could not depend on the inspectors to go ahead 
and, in fact, the inspectors could not have been depended on to 
go ahead. So I guess I would differ on that--I do not deny that 
the President has adjusted foreign policy in certain ways post 
9/11. I guess I would deny that the break is quite as radical 
as you suggest.
    Senator Chafee. Yes, and General Clark made a good point 
about using 9/11.
    Mr. Kristol. And I do not know. General Clark I think 
supports the use of----
    Senator Chafee. Whenever you are in trouble, I see you use 
9/11. It was before 9/11. It was a foreign policy before 9/11. 
General Clark said it.
    Mr. Kristol. I am not sure that is right. I myself 
supported removing Saddam from power before 9/11. Obviously, we 
have supported it since 1997. The Congress in certain respects 
supported regime change in Iraq way before 9/11 by passing 
legislation in 1998.
    I do think that, my personal view--and this is just an 
outsider looking in, is that the President was much more 
possessed of the urgency of this after 9/11, but that is an 
empirical question. But I mean, I should let General Clark 
speak for himself.
    I am not so sure that we disagree on the use of force, 
since we both support the use of force, supported the use of 
force in Kosovo and I take it he supports the use of force in 
Iraq. I think he would have done the diplomacy a little 
differently. But I do not think he quarrels with where we came 
out.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Boxer.
    Senator Boxer. Yes. Mr. Kristol, I just have to say a 
couple of words about some of the things you have said. In 
terms of the resolution in 1998 which I voted for for regime 
change, it had nothing to do with preventive war at all. If you 
read it, what it talked about was helping the people in the 
opposition to make the changes there. So that is No. 1.
    If someone voted for that, I can tell you, I was not voting 
to go to war. That is No. 1. I was trying to do what General 
Clark suggests, which is prevent war, prevent war by supporting 
those folks who would in fact overthrow Saddam.
    Now, I also, I could not believe when you said that it was 
stability in the Middle East that created Osama bin Laden. It 
was in fact instability in Afghanistan which allowed him to 
move in there, into that void. And the weapons that were 
obtained by the Taliban that eventually found their way into 
al-Qaeda and the rest were remnants of that war and the fact 
that we walked away.
    I just do not like when history is rewritten since I have 
lived through a lot of it as a Senator or a Member of Congress. 
I also remember being stunned when Donald Rumsfeld went to sit 
across from Hussein, Saddam Hussein and tell him the good news 
that the Reagan administration was taking them off the 
terrorists list.
    And when we found those weapons of mass destruction, and 
the inspectors as you know destroyed more than were destroyed 
by all of our bombs, the components came from this country to a 
great degree. They had the stamp of our companies on them. So I 
do not think that we should rewrite history. I think that we 
need to look at it in an honest way.
    I also appreciate your point of view, Mr. Kristol. I have a 
great deal of respect for you. But I do not think that you and 
General Clark have in any way come out with the same vision, 
because I took the notes of what you said and when General 
Clark talked, he did not just say ``It is better if the world 
likes us.'' That is trivializing what he said.
    He said, ``We are safer when we work with the world.'' That 
is serious. Maybe you think we are safer when we have so much 
of the world right now having attitudes toward us which are, 
let us say, way beyond disrespectful. I do not think so.
    I think you are right when you say that we need to talk to 
the people. I have supported anything we can do to get to the 
people and tell them about America and what we are like and 
what our people are like. And when General Clark said we should 
prevent war, not wage preventive war, that is very different 
than your statement which is Iraq--if Iraq is to be a model, 
not an exception, we are probably going to have to have more of 
these coalitions of the willing.
    So I think, Mr. Chairman, the juxtaposition of these two 
fine people here who are so smart and can articulate their 
positions so well is just a brilliant stroke, because as I look 
at my State, a lot of the arguments that are coming right out 
here are the arguments that we are hearing back there.
    And needless to say, knowing me, as you all do, I do 
believe we are safer when we work with the world. And it is 
hard. Diplomacy is hard. But war should not be an instrument of 
foreign policy. It should be a last resort.
    Now, everybody says that. In due respect, Mr. Kristol did 
not. He basically said, look, Iraq may be the model. And that 
leads to Senator Biden's point. Well, what is next? What is the 
next in these great models? And maybe if I did not have to 
eulogize every single day more and more Californians who are 
dying here--and I am up way beyond 20, and a lot of them are 
leaving spouses and little kids and the rest, maybe this could 
be an interesting abstract conversation.
    I just want to read from candidate George Bush and ask 
General Clark to comment on it. He said, ``Let me tell you what 
I am worried about. I am worried about an opponent who uses 
nation-building and the military in the same sentence. See, our 
view of the military is for our military to be properly 
prepared to fight and win war and therefore prevent war from 
happening in the first place.'' And I think that in many ways 
is what General Clark has said here today.
    And I wonder if, General Clark, you could comment on those 
thoughts.
    General Clark. Well, thank you very much, Senator. I think 
that many things have changed as I look at this 
administration's foreign policy from the prescriptions that 
were offered by then Governor Bush during the campaign. He did 
speak of a humble America then and one that was respectful. And 
he was concerned about nation-building and to some extent, some 
of these changes have been the essential changes of a group of 
people who stayed out of government during the 1990s, watched 
from the sidelines and did not understand the actual demands on 
the U.S. Government. I am talking about the criticism of 
national building.
    In fact, dirty word or not, it is something that the United 
States has to do and this administration was dragged 
reluctantly into the problem of resolving the dispute in 
Macedonia in June 2001. U.S. reluctance to use NATO and let 
NATO get involved in that period deepened the conflict and cost 
lives, even in Macedonia.
    I remember getting calls at the time from this. This was 
before the terrible events of 9/11. Something happened after 9/
11. We do not know what that was. No one can clearly understand 
it. It may be as Senator Chafee said, all along there was a 
desire to get Saddam. I have read books in which this was 
apparently discussed inside the administration, ``Let us get 
him.''
    I have heard it was discussed in the campaign, although I 
do not remember. I never personally heard it discussed during 
the campaign, but I think you can find records of people 
talking about this. I do not know what happened, but what I 
know is that in life and war and diplomacy, there is sort of 
two kinds of plans. There are plans that might work, and there 
are plans that will not work. And when you are trying to 
protect America's role in the world and you line up all of the 
things that are important to us in priority order, if you set 
this Nation of nearly 300 million people against the rest of 
the world and take away the legitimacy that our values, our 
rule of law, our 225 years of history has given us, you are 
setting us on a course that will at some point, despite the 
power of the American military, despite the courage of the 
young men and women in uniform, despite the incredible 
competence we have seen displayed on the battlefield in Iraq, 
at some point, it is going to run into the weight of other 
people's interests, concerns, their notions of legitimacy, and 
it will bounce back against us.
    So it may not be in Iraq. It may be in Syria. It may be in 
whatever comes after that, if there is anything after Iraq. We 
do not know. But I do think that the logic that was in Governor 
Bush's statement about the need to prevent war is the right 
logic.
    The problem with war as an instrument of foreign policy is 
that it is usually counterproductive to try to change people's 
minds by killing them or their relatives. And so in occasion 
twice in the 20th century against two separate adversaries, we 
defeated their Armed Forces, we changed their governments, and 
it worked out great. And these two countries are allies and 
have been staunch allies against an outside threat. But in most 
cases, it leaves lingering hatreds and resentments and problems 
that later generations of diplomats and, unfortunately, 
soldiers have to clean up.
    That was the record after World War I. That is the 
persistent record in Europe. It is the record after any number 
of conflicts in the Middle East. And I pray that it will not be 
the record after the work that we are trying to do in Iraq. I 
just want to address one more thing, because I do not know if I 
will have the chance to come back to it.
    Mr. Kristol said that we probably ended up fundamentally in 
agreement on Iraq. I am not sure about that. I could never 
personally see--I always felt that we would have to deal with 
Saddam Hussein in one way or another. I was never convinced 
that an improved program of sanctions and containment would not 
work, although eventually such a program might leak and we 
might have to deal with him. I could never see quite the sense 
of urgency for going after Saddam when we did.
    If you are inside an administration that does these things, 
you view it as leadership. When you are on the outside and look 
at it, you view it as something that is more or less not--it is 
not understandable, totally understandable. You cannot quite 
grasp it. I could not quite grasp it. I could not quite see the 
connection with Saddam Hussein and the war on terror because, 
of all the Arab States, he was the least likely, it seemed to 
me, to actually be working against al-Qaeda, and that is what 
the Agency testified up here on the Hill and said, unless we 
posed a critical threat to him. That, on the other hand, I 
mean, we are in it.
    I support, you know, our total and complete success and the 
men and women in the Armed Forces. And I am concerned about the 
aftermath. And if that is where Bill Kristol comes out, I hope 
he will associate himself and his magazine with me.
    Senator Boxer. Thank you very much.
    The Chairman. General Clark, I know you have some urgency 
to leave us shortly and I do not want to impose longer. I would 
like to, if I may, to recognize Senator Corzine and then get 
back to Senator Biden's----
    Senator Biden. You do not have time.
    General Clark. No, I want to take time for that, if I 
could, Mr. Chairman.
    The Chairman. We would appreciate that.
    Senator Corzine.
    Senator Corzine. I will cede most of my time to Senator 
Biden's question, because I think the application of the 
concepts of ``axis of evil'' and preemption and how this pivots 
is one of the most important questions we could ask with regard 
to all of these things.
    But I do want both of you to comment briefly on one of the 
lessons learned, which I think is reflected not so much in how 
governments have acted, but how the populations of countries 
have acted. Spain has an overwhelming opposition in its 
population and may end up undermining our coalition of the 
willing through the fullness of time because populations have 
not been convinced of what it is and there are others, Italy 
and other places, where public opinion is not necessarily where 
the leadership is.
    But I think that one of the problems that I think has 
consistently been shown here is that we have not had a 
consistent argument about what it was that we were trying to 
accomplish in Iraq and it is almost parallel to what is the 
mission of NATO. We started out with regime change and then the 
prosecution of war on terrorism, and then the elimination of 
the distribution of weapons of mass destruction and democracy 
and stability in the Middle East, tyranny and oppression. The 
sequence of those arguments was made out over 6 months, not at 
a given point in time, not in a coherent way.
    So I wonder if one of the lessons we learn, not only with 
our allies, but also in how we present these cases here at home 
to buildup the common support for policies--is not one of the 
lessons that we need to be able to articulate these missions, 
these goals in a much more direct way? Or otherwise, we have a 
fall back to, ``you are with us or against us,'' ``might makes 
right,'' ``axis of evil'' kinds of propositions with regard to 
policy. I think I will leave it there, both of you.
    The Chairman. Thank you, Senator Corzine. Do either of you 
have a comment on it?
    General Clark. Well, if I could answer that. I think I 
understand the question as you were going through this. 
Senator, what struck me was that Iraq is, in many respects, it 
was the toughest case if you take the idea that you need an 
active foreign policy in the Middle East, because even though--
in some respects it was the easiest case because you had a U.N. 
Security Council resolution and you could say he has defied it 
for years.
    Now, Syria is not in active defiance. Iran is not in active 
defiance. Libya is not in active defiance, the same way. Each 
of these countries has weapons of mass destruction. Each of 
these countries to one degree or another supports terrorism. 
Each of these countries to one degree or another would like to 
take on Israel and defeat Israel and run the Israelis off the 
continent.
    So Iraq was in one sense the toughest case because it was 
least active in support of terrorism, and probably least 
connected to 9/11 although we will not know that for sure and 
we may be disproved because after we are into Baghdad we will 
probably find all kinds of information if we can find the 
papers in those burned out ministries. There is no telling what 
Saddam may have been up to.
    But that is true of the Middle East. Having once gone into 
Iraq, then I think the chain of logic is actually more clear 
after that. It is now an easier step to go to the Syrians and 
say, ``Now, look, you got the message from Iraq, right? You 
understand that weapons of mass destruction make you less 
secure from us, not more secure. You understand that you will 
not deter us. We understand that you have Iraq weapons hidden 
here in Syria. We understand that you are supporting terrorism 
through Hezbollah. Now, please change or else.''
    I think that is a pretty clear and convincing argument. The 
problem with it is it is a suboptimization of what we as the 
United States should be seeking. As bad as the Syrian regime 
may be or the Iranian regime, we have higher interests in the 
world. The question is: How do you line up those interests and 
pursue them? And this where I come back to one of the things 
that Bill Kristol said, among many that I agree with. We have 
not done enough in public diplomacy. Instead of pursuing public 
diplomacy, we killed it because we cutoff the funding for the 
State Department's public information programs, their 
libraries, their outreach abroad, their consular staffs. We 
have shrunken embassies and taken away their resources, 
something I know this committee is very familiar with, but it 
happens even in countries like France because it is gone to we 
have opened up embassies in Belarus, or we tried to at least 
before it was pushed out.
    And the result of this has been that we have failed to 
build the bridges of understanding that I think are desperately 
needed in the world. We should be having a deep debate with our 
allies about Syria right now and Iran. Do they constitute 
threats? What measures would we like to see to ensure that they 
do not constitute a threat? Because the alternative to that is 
we continue to move forward with an active policy and we end up 
with responsibilities with more and more nation-building and 
taking care of people in a culture which has not been conducive 
to outside engagement in the past and which diverts important 
resources from other domestic priorities, which forces us to 
divert our Armed Forces, which causes us to lose legitimacy in 
the world in light of our broader pursuits.
    So I think there is a clear chain of logic if you follow 
this. And Iraq may have been the toughest, but having crossed 
Iraq, I think the other dominos could fall. The question is: Do 
we want them to? What are our broader priorities in the world, 
and what is the best way to achieve those priorities? And is it 
through this chain of knocking down some of these regimes who 
have historically harbored and supported terrorists and 
simultaneously gone after weapons of mass destruction?
    To me, it is a very pragmatic set of issues that need to be 
explored and they need to be explored with our allies fully in 
our confidence, and we need to agree on jointly what we are 
going to do.
    The Chairman. Senator Biden, would you like to renew your--
--
    Senator Biden. I will not renew it at all. Knowing the 
general, he remembers what I said. I would just add an addendum 
here.
    After 9/11, it seems to me that after 9/11 and in the face 
of, not connected, but in the face of Iraqi disregard for the 
U.N. resolutions that had been passed starting after the first 
gulf war, it seems to me we had an opportunity to not only 
threaten and ultimately use military force in Iraq, but an 
opportunity to unify the West, at least, including I would 
add--this sounds counterintuitive--including Russia in a new 
set of standards for what constituted appropriate and 
inappropriate international behavior on the part of people who 
transferred weapons of mass destruction.
    Let me give you one example. I cannot imagine why we did 
not spend any time trying to work out with our NATO allies, 
first the Russians and the Chinese, as well a new international 
regime, if you will, as to what is appropriate behavior in 
transferring weapons.
    For example, here we were, the President of the United 
States had to suffer the ignominious requirement of releasing a 
North Korean shipment to, we think--we think we know where they 
are going to--we do not know where they are supposed to transit 
from because we made no effort. We made no effort after 9/11 to 
focus on as those kinds of international, if not regimes, 
agreements. As the kids used to say 10 years ago, we `` 
dissed'' the International Criminal Court, which I do not think 
we should have belonged to in light of the way in which it was 
written and other international agreements. It was sort of 
counterintuitive.
    And what confused me was I thought we had a legitimate 
rationale--although I agree with you, general. I never felt 
that Saddam was a clear and present danger. He was a long-term 
danger. If we let him go for another 3 to 5 years, he would get 
a nuclear capacity, in my view, which would fundamentally alter 
the relationships, not intercontinental, but probably theater 
and it would alter relationships. I thought we would eventually 
have to deal with him.
    But I was put in a position, like many were, of we either 
do nothing or we support doing something now. And I thought 
that was a pretty easy choice, quite frankly.
    But the point I want to make is that what confused me was 
every time Secretary Powell would go to make a case based upon 
existing international law and existing international 
agreements, you would have the Vice President show up, at the 
Veterans of Foreign War and say, ``By the way, inspectors do 
not matter anyway,'' or you would have Rumsfeld talk about 
preemption. It was almost as if it was a deliberate attempt, if 
we are going to proceed, to not proceed with the aid, 
assistance, underpinning of international organizational 
structures which we created, we, the United States created 
after World War II.
    So if you can factor it, this takes me to my fundamental 
question. The Europeans seem to have read--and maybe they were 
intransigent no matter what. Maybe no matter what we did we 
have a neo-Gaullist who now is the king of Europe in terms of 
popularity after having been--having the scare of his life with 
Le Pen getting 20 percent of the vote or whatever, in his 
newfound popularity.
    But it seems to me that there is an incredible distrust for 
this administration's motives or its agenda, its policy. So if 
you can wrap that into this notion of the disagreement relating 
to what constitutes a threat to security, what motivates the 
Europeans and NATO versus what--or France in particular and 
what motivates us. I probably confused you.
    General Clark. No, I think there is a, you know, broad 
center to the many different elements you are raising, Senator. 
And if I could, I would start with the general perception 
that--and I think Bill Kristol put it very clearly. He talked 
about differing interests between the United States and France. 
And the question I would ask to unravel this is: Why are the 
interests different?
    We are interested in security. They are not interested in 
security? We are interested in fighting against terrorism. They 
are not interested in fighting against terrorism? We are 
interested in being able to pursue international trade and 
development. They are not?
    So what are the--oh, I know. French farmers, French farmers 
each like to keep their own--OK, so we have a different view on 
agricultural policy.
    But when you go past the sort of narrow economic 
differences which are inevitably reflected in democratic 
political systems, I think there is a broad core, a very strong 
common interest.
    I think what happened is that there is a certain opaqueness 
to the direction of American policy, and that opaqueness is 
here today in the issue you are raising about Syria. And since 
you raised it, let me just respond to it. I think, as I was 
just saying to Senator Corzine, there is a very clear chain of 
logic that could take us into Syria. There is probably no 
decision to have done that yet.
    And it is probably asking too much for a government to come 
forward and say, ``Look, here is what we have been thinking 
about. Here is what we have been worried about. We do not want 
to do this, but you need to understand that this is where we 
are going.''
    And yet that is clearly the warning that has been given. 
And even, you know, some of these countries have not been as 
clear on the uptake as they might have been after 9/11, but it 
should be unmistakable now that Syria and Iran are both in the 
gun sights. The question is--they know it. Our allies know it, 
but are we dialoguing and building a relationship around the 
best way to deal with this?
    It comes to the second major point that I would like to 
make. Foreign policy should be about problem solving. It should 
not be about taking an ideological or non-ideological template 
and imposing it.
    The process of foreign policy is to protect your nation's 
interests, all of them. And to do that, you face a series of 
challenges and obstacles and problems, and you have to deal 
with those problems. The difficulty that the nations in Europe 
had was they could not see the Iraq campaign as a pragmatic 
next step in dealing with the problems of terror partly 
because, as Senator Corzine said, there were many different 
explanations given, partly because there was never a clear 
connection, partly because our public diplomacy did not provide 
them the information that we had available in the United 
States, partly because our media did not raise in the United 
States the question that they themselves were raising about our 
policies in Europe.
    And so as I look at the whole thing, I believe that what we 
need to do is we need a pragmatic foreign policy. There is no 
reason to either accept stability in the Middle East, per se, 
or activity in the Middle East per se as essentials.
    The question is: How do we solve--how do we meet our goals 
of a safer, more secure America in which we can live the way we 
want to live and enjoy the prosperity and travel and global 
interconnections that have made us the Nation we are?
    And I think that is the debate that needs to be held in a 
pragmatic way, not based on fear and threat and alert 
conditions and so forth. But I think Americans have to come to 
terms with this and we need to bring our allies onboard with us 
in this debate, because ultimately, if we stand--and this is, I 
guess, the third major point.
    This is not about NATO. And this is not me as an old NATO 
commander going out and trying to put everything in the 
template of Kosovo, although certainly it was personally an 
important experience for me. I was privileged to sit inside the 
top councils of deliberation for some time during the 1990s, 
and what I recognized was that there was two distinctive views 
of the world. There is one view of the world in which you build 
your allies and your alliances and you worked your friends. And 
with those friends together, you dealt with your issues. And 
there is another view that says all you have to do is deal with 
your enemies, and the only reason you have your friends is to 
help you deal with your enemies.
    I reject the latter. I support the former. In other words, 
I think that if the United States stands with Europe, together 
with 600 million people and half the world's GDP, we can 
pragmatically deal with all of the challenges to European and 
American security with the right approach, the right 
leadership, the right public diplomacy, the right dialog. 
Whereas, if we isolate ourselves and focus only on going after 
what we see as the most immediate threat, we will take this 
Nation down a blind alley, whether it is in the next country or 
the country after that or the country beyond that, from which 
we will find ourselves in debt, in trouble, in trouble with our 
volunteer force, in trouble with our budget, in trouble with 
domestic priorities, in trouble in terms of international 
agreements and elsewhere that will result ultimately in a set 
back to the achievement of American aims abroad.
    Senator Biden. It is a lot of hard work, though, is it not? 
It is hard.
    General Clark. It is hard. It is exactly what you said: 
Diplomacy is difficult and demanding. But I really do believe 
the answer to the question you are asking is: Let us get a 
pragmatic foreign policy. Let us use the institution of NATO, 
enlarge it, bring it together as a focal point for U.S. efforts 
in the world.
    Mr. Kristol. If I could just add a word. Yes, look, I 
accept the standard of a safer and more secure America if you 
expand it, as I think General Clark would too, to a safer and 
more secure world for friends and allies, if the people are 
seeking democracy and liberty around the world. And let us just 
judge the war in Iraq by that standard. I am perfectly happy to 
be judged by that. Let us see how it plays out. Let us see 
whether we think we have not made ourselves more secure and the 
Middle East actually more secure as a result of removing Saddam 
Hussein and dealing with the threat of weapons of mass 
destruction and liberating the people of Iraq.
    In terms of people, I would just say that we have talked a 
lot about the French people and the German people. People all 
over the world are unhappy about us, but I would like to 
mention the people of Iraq. I think the people of Iraq deserve 
some mention. We let them--we encouraged them to rise up in 
1991. I was in The White House then.
    We let Saddam--we stood by as Saddam slaughtered them. If 
you ask me, why we are unpopular--the genuine grievance against 
us in the Arab world was a legitimate grievance, I would say, 
was that we intervened in 1991, saved the Amir of Kuwait, saved 
the Saudi royal family, stabilized oil supplies, which was 
important. You could not let Saddam obviously control all of 
that oil wealth.
    But then we stood back as actual Arab people rose up 
seeking freedom. And that, if you want to start talking about 
why we have problems in some respects among Arab populations as 
opposed to Arab governments, I think that was a problem and I 
think, conversely, the liberation of the people of Iraq will be 
a benefit.
    Syria, look, we do need to talk to our allies and friends 
about Iran and Syria. I think Secretary Powell spent an awful 
lot of time actually talking about Iran with various countries, 
Russia for example, where we have not been as successful as we 
had hoped in persuading them to help on the proliferation 
problem.
    We have argued with our allies about commercial dealings 
with Iran. Syria is not something that we have paid a fair 
amount of attention to but, look, at some point you may end up 
with a different analysis of the problem.
    It is not so much that France and we have different 
interests. We clearly have a different perception of how to 
deal with some of these problems, and we should do a better job 
of persuading them that our perception is right. But there may 
come times when one has to make a decision and I think that the 
President did have to make a decision in this case.
    I do not think delay would have fundamentally changed it, 
Chirac would not have changed his mind 6 months later. And I 
think we would have been at greater risk. So I am perfectly 
happy to be held to the pragmatic standard of judgment. But I 
would just say: Let us be serious about that standard. But 
Syria seems to be suddenly--I do not know quite why--in 
everyone's mind. But yes, if the Syrian Government feels 
pressured to cut down on its support for terror or be less 
irresponsible in some of its dealings in the Middle East, that 
would be a good thing as a result of Iraq and that does not 
mean successful diplomacy only involves being liked by people. 
It also involves pressuring nations that do not make their 
decisions based on whether they like you so much or not.
    There are an awful lot of dictatorships in the Middle East, 
I think, that respond to--where it is important to be respected 
and even a little bit feared. And I think, in fact, we will be 
better liked by the peoples of those nations if we are a little 
tougher on the dictatorial regimes that they are saddled with. 
I think the evidence of that is actually there in Iran.
    Senator Biden. I can tell you why we are concerned about 
Syria. There is a sense that there is an evolving rationale 
that is going to justify a decision that has already been 
taken. I may be wrong about that, but that is why we are 
concerned, why, I speak for myself, why I am concerned.
    The Chairman. Let me just make a couple of comments----
    Senator Biden. Could I ask unanimous consent to strike----
    The Chairman. You have permission to strike that from the 
record.
    I just want to announce that tomorrow, in fact, the 
committee will have an opportunity to expand American 
diplomacy. We are going to have the markup of the 
reauthorization bill for the State Department. I think it is an 
important juncture. And the markup we started with provides 
more money in about five ways for the State Department and for 
diplomacy than the State Department asked for officially. We 
think that is important, both the broadcasting and the 
embassies and a number of things many of you would have 
commented on.
    I would say that our hearing today was, of course, about 
NATO and really the expansion of the treaty. But one of the 
things that has come to my mind is that one reason why perhaps 
things are moving well with the seven States that are coming in 
is that the United States has spent a lot of quality diplomacy 
on those seven.
    Secretary Grossman himself, quite apart from Ambassador 
Burns and others and Members of Congress and whatever, have 
visited the seven probably with greater frequency than a good 
number of major countries throughout the world that are outside 
those seven. So there is something to be said for having more 
diplomacy.
    It leads me to wonder, however, and I just say this with 
the ranking member present, that we do not have, for example, 
an Assistant Secretary for Latin America. We have not had for 
several months.
    Now, here we are prior to the U.N. vote--granted, that is 
not the best time to begin starting public either or private 
diplomacy as the case may be. But I received calls from the 
administration, and the ranking member may have, too, asking 
for intervention with President Vicente Fox and/or others that 
I might know in Mexico, Chileans, who are also there.
    Now, for a long while, we left Chile standing by the 
telephone waiting to be invited into NAFTA. This has gone on 
for years through several administrations, I fear, by this 
time. Likewise, with the Mexicans, they had some expectations 
that have not been fulfilled. Their Foreign Minister resigned. 
And here we are. It is a bit late at this point because even 
then we are not prepared to remedy the situations. We might 
show some acknowledgment that we are there.
    I am hopeful that we are able to expand our vision, able to 
handle more clients simultaneously, because I suspect that we 
might be more successful if we can.
    Let me just call now upon patient Senator Chafee. Do you 
have a final valedictory comment?
    Senator Chafee. No.
    The Chairman. I thank both of you very much.
    Mr. Kristol. Thank you, Mr. Chairman.
    Senator Biden. Thank you, gentlemen.
    General Clark. Thank you.
    [Whereupon, at 12:45 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair .]

                                   - 

</pre></body></html>
